No.
IN THE SUPREME COURT OF THE UNITED STATES
TONY GORDON. PETITIONER
- against UNITED STATES OF AMERICA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

APPENDIX

Zoë Dolan
P.O. Box 32044
Los Angeles, CA 90032
(347) 301-5180
zdolan@gmail.com
Counsel for Petitioner

Appendix (“A”)
Table of Contents

2017 Report of the Ad Hoc Committee to Review
the Criminal Justice Act Appendix……………………………...........A-1
Judgment and Commitment………………………………………………………341
Opinion Below (U.S. Court of Appeals for the Ninth Circuit)…………………….347

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 2 of 342 Page ID
*Revised 11/9/2017
#:27584

2017 REPORT
OF THE
AD HOC
COMMITTEE
TO REVIEW
THE CRIMINAL
JUSTICE ACT

A-1

AR-2366

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 3 of 342 Page ID
#:27585

A-2

AR-2367

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 4 of 342 Page ID
#:27586

2017 REPORT
OF THE
AD HOC
COMMITTEE
TO REVIEW
THE CRIMINAL
JUSTICE ACT

NOTICE
No recommendation presented herein
represents the policy of the Judicial
Conference of the United States unless
approved by the Conference itself.
OCTOBER 2017

A-3

AR-2368

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 5 of 342 Page ID
#:27587

Table of Contents
Acknowledgments.............................................................................................................................................................................................................................vii
Ad Hoc Committee to Review the Criminal Justice Act..................................................................................................... ix
Preface......................................................................................................................................................................................................................................................................x
Executive Summary..........................................................................................................................................................................................................................xii

Background
Section 1: The Committee’s Task And Review Process................................................................... 1
1.1 The Committee and its Task............................................................................................................................................................................. 1
1.2 The Committee’s Review Process........................................................................................................................................................... 3

Section 2: Legal Underpinnings and
Passage of the Criminal Justice Act..............................................................................................................................................6
2.1 Establishing the Right to Counsel: Sixth Amendment Jurisprudence....................................... 6
2.2 Moving Towards a Federal Defender Program.............................................................................................................. 10
2.3 The Criminal Justice Act..................................................................................................................................................................................... 12
2.4 Prado Report: First Independent Review of the Criminal Justice Act...................................... 15
2.5 How Things Have Changed Since the Passage of the Criminal Justice Act..................... 16
2.6 Administration of the Criminal Justice Act by the Judiciary.................................................................... 18
2.6.1 Hybrid System of Defense........................................................................................................................................................................... 18
2.6.2 National Administration................................................................................................................................................................................ 19
2.6.3 Local Administration...................................................................................................................................................................................... 20

Findings
Section 3: National Administration of the CJA................................................................................................ 23
3.1 Background and Introduction................................................................................................................................................................. 23
3.2 Current Structure and Governance................................................................................................................................................. 24
3.2.1 Judicial Conference Committees Relevant to the Governance of Defender Services................. 24
3.2.2 The Administrative Office and its Role in the Governance of Defender Services...........................25

3.3 Fundamental Weaknesses in the Current Structure and Governance.................................. 27
3.3.1 DSC’s Lack of Decision-Making Authority Over the CJA Program................................................................. 28
3.3.2 AO Re-organization and the Loss of Directorate Status of DSO........................................................................ 32
3.3.3 Inability of Defenders to Meaningfully Participate in JCUS................................................................................... 35

3.4 Oversight of National Budget for the CJA.............................................................................................................................. 38
3.4.1 Formulation of the CJA Program Budget.................................................................................................................................... 38

ii

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-4

AR-2369

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 6 of 342 Page ID
#:27588

3.5 Panel Attorney Hourly Rates...................................................................................................................................................................... 52
3.5.1 Budget Process to Determine Panel Attorney Rates....................................................................................................... 52
3.5.2 Effects of the National CJA Panel Rate.......................................................................................................................................... 53
3.5.3 Rate increases Over Time............................................................................................................................................................................ 54
3.5.4 Locality........................................................................................................................................................................................................................... 55
3.5.5 Overhead..................................................................................................................................................................................................................... 56
3.5.6 How Rate Affects Representation....................................................................................................................................................... 57

3.6 Examples of How Structural Conflicts Influence
the Administration of the CJA............................................................................................................................................................. 58
3.6.1 The Lessons of Sequestration................................................................................................................................................................. 58
3.6.2 Work Measurement........................................................................................................................................................................................... 64
3.6.3 Clemency..................................................................................................................................................................................................................... 67
3.6.4 Probation Officer Protection Act......................................................................................................................................................... 69

Section 4: Local CJA Panel Administration................................................................................................................ 71
4.1 Importance of CJA Plans for Representation..................................................................................................................... 71
4.2 Aspects of Effective Plans................................................................................................................................................................................. 74
4.2.1 Who Should Manage the Panel............................................................................................................................................................. 74
4.2.2 Achieving Quality Representation..................................................................................................................................................... 79

4.3 Best Practices in Panel Administration...................................................................................................................................... 81
4.3.1 Model Plan................................................................................................................................................................................................................... 81
4.3.2 CJA Supervisory Attorney Pilot Program.................................................................................................................................... 82

4.4 eVoucher..................................................................................................................................................................................................................................... 84

Section 5: Compensation System Under the CJA..................................................................................86
5.1 Policy Regarding Compensation......................................................................................................................................................... 86
5.2 Problems with Judicial Review............................................................................................................................................................... 87
5.2.1 Requiring Judges to Determine the Defense Attorney’s
Compensation Distorts the Adversarial Process................................................................................................................ 89
5.2.2 Judges Are Not Well Situated to Decide the Reasonableness of Fees.......................................................... 92
5.2.3 Judicial Voucher Review Produces Wildly Inconsistent Outcomes............................................................... 95
5.2.4 Arbitrary Voucher Cutting......................................................................................................................................................................... 96
5.2.5 Voucher Cuts Based on Generalizing or Averaging Case Costs......................................................................... 101

5.3 The Scope and Gravity of Inappropriate Voucher Cutting...................................................................... 103
5.3.1 Self-cutting (“Voluntary” Reductions)........................................................................................................................................ 104
5.3.2 Voucher Cutting is Increasing.............................................................................................................................................................. 107
5.3.3 Effects of Voucher Cutting....................................................................................................................................................................... 108

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-5

iii

AR-2370

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 7 of 342 Page ID
#:27589

5.4 Other Recurring Issues in Voucher Review......................................................................................................................... 111
5.4.1 Overbilling.................................................................................................................................................................................................................... 111
5.4.2 Delays in Payment............................................................................................................................................................................................. 113
5.4.3 Interim Vouchers to Facilitate Payment...................................................................................................................................... 114
5.4.4 Lack of Due Process......................................................................................................................................................................................... 116
5.4.5 Independent Support for Changing the Current System of Voucher Review.................................... 123

5.5 Alternative Approaches to Voucher Review.................................................................................................................... 125
5.5.1 Use of CJA Supervising Attorneys and CJA Administrators.................................................................................. 125
5.5.2 Voucher Review by Federal Defender Organizations.................................................................................................. 128
5.5.3 Case-Budgeting Attorneys....................................................................................................................................................................... 130

Section 6: Circuit Court Oversight............................................................................................................................................... 134
6.1 Circuit Review of Panel Attorney Vouchers
and Ancillary Service Provider Requests............................................................................................................................. 134
6.1.1 Burdens on Judges Created by Circuit Review Requirement............................................................................ 135
6.1.2 Burdens on CJA Attorneys Created by Circuit Review............................................................................................... 136

6.2 Appointment and Oversight of Federal Public Defender Offices.................................................139
6.2.1 FPD Appointment and Reappointment Issues.................................................................................................................. 139
6.2.2 Staffing Issues....................................................................................................................................................................................................... 140

Section 7: Quality of Representation..................................................................................................................................... 143
7.1 Quality of Representation by Panel Attorneys............................................................................................................. 144
7.1.1 Resources................................................................................................................................................................................................................... 146
7.1.2 Expert Service Providers............................................................................................................................................................................ 149
7.1.3 Attorney Effort...................................................................................................................................................................................................... 156
7.1.4 Institutional Support...................................................................................................................................................................................... 157
7.1.5 Expertise..................................................................................................................................................................................................................... 158
7.1.6 Compensation...................................................................................................................................................................................................... 158
7.1.7 Independence....................................................................................................................................................................................................... 159
7.1.8 The Importance of Training.................................................................................................................................................................. 160

7.2 The Quality of Representation Provided By Federal
and Community Public Defenders.............................................................................................................................................. 165
7.3 Additional Issues that Affect the Quality of Representation................................................................. 170
7.3.1 Ability to Retain Interpreters................................................................................................................................................................. 170
7.3.2 Remote Detention of Defendants..................................................................................................................................................... 173
7.3.3 Representation of Native Americans............................................................................................................................................. 175

Section 8: Diversity............................................................................................................................................................................................................ 178
8.1 The Importance of Diversity..................................................................................................................................................................... 178
8.2 Current Composition of Those Working Under the CJA............................................................................. 179

iv

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-6

AR-2371

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 8 of 342 Page ID
#:27590

8.3 Challenges in Recruiting Diverse Attorneys.................................................................................................................... 183
8.4 Current Diversity Initiatives....................................................................................................................................................................... 184

Section 9: Capital Representation............................................................................................................................................... 189
9.1 Background — Capital Trials, Direct Appeals, § 2254, § 2255, and Habeas................. 189
9.2 Current Resources..................................................................................................................................................................................................... 193
9.2.1 Federal Death Penalty Resource Counsel Project........................................................................................................... 193
9.2.2 Federal Capital Habeas Corpus Project (2255 Project).............................................................................................. 193
9.2.3 Capital Habeas Units (CHUs)............................................................................................................................................................... 194
9.2.4 Habeas Assistance and Training Counsel (HATs)........................................................................................................... 194

9.3 Problems in Federal Capital Representations............................................................................................................. 195
9.3.1 Inconsistent Defense Across the Nation................................................................................................................................... 197
9.3.2 Failings Specifically in Capital Habeas Representation........................................................................................... 198

9.4 Opt-in and Prop 66 — Future Concerns................................................................................................................................. 213
9.4.1 State “Opt-in” Under Federal Law................................................................................................................................................... 213
9.4.2 California — Proposition 66..................................................................................................................................................................... 214

Section 10: Concerns About Defender Information Technology..................... 215
10.1 IT Programs and Functions................................................................................................................................................................... 216
10.2 Reorganization and the Compromise Reached................................................................................................... 218
10.3 Results of the Reorganization........................................................................................................................................................... 220
10.3.1 Unintended Consequences............................................................................................................................................................... 220
10.3.2 Continuing Ethical Concerns and Subsequent Breach........................................................................................ 222

Section 11: Electronic Discovery & Litigation Support................................................................226
11.1 Defending Clients in the Age of Digital Technology.................................................................................... 227
11.1.1 Nature of the Challenge......................................................................................................................................................................... 227
11.1.2 Disparities in Practice.............................................................................................................................................................................. 229

11.2 Limited Resources Currently Available............................................................................................................................. 232
11.2.1 National Litigation Support Team.............................................................................................................................................. 232
11.2.2 Defender Offices............................................................................................................................................................................................ 234

Section 12: Transportation & Subsistence
for Non‑Custodial Defendants............................................................................................................................................................. 236
12.1 Lack of Statutory Authority................................................................................................................................................................... 236
12.2 Burden of Problem on Defendants and Their Attorneys.......................................................................237
12.3 A Need for a Congressional Fix...................................................................................................................................................... 239

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-7

v

AR-2372

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 9 of 342 Page ID
#:27591

Options for Restructuring
the Administration of the
Criminal Justice Act
Section 13: The Committee’s Proposal:
An Independent Entity Within the Judicial Branch............................................................................243
13.1 National Structure................................................................................................................................................................................................. 243
13.2 Local Structure.......................................................................................................................................................................................................... 246
13.3 Benefits of the Recommended Structure........................................................................................................................ 247

Section 14: Alternative Models Considered........................................................................................................ 249
14.1 Stand-Alone Agency Outside the Three Branches of Government..................................... 249
14.2 Within the Executive Branch............................................................................................................................................................. 250
14.3 Re-elevating DSO to a Directorate in the AO............................................................................................................ 251
14.4 Defender Commission Comprised Entirely of Judges................................................................................ 251
14.5 Conclusion....................................................................................................................................................................................................................... 253

Appendices
Appendix A: Committee Member Biographies..........................................................................................................................................255
Appendix B: Map of Hearing Invitations............................................................................................................................................................. 258
Appendix C: Survey Data Considered...................................................................................................................................................................259
Appendix D: Acronyms................................................................................................................................................................................................................. 261
Appendix E: Patton-Sands Letter, March 30, 2017............................................................................................................................... 262
Appendix F: Chart of Eighth Circuit Voucher Cuts..................................................................................................................................271
Appendix G: Service Provider Usage and Payments, by Circuit.......................................................................................274
Appendix H: Flowchart of the Path of Capital Cases in State and Federal Courts................................ 278
Appendix I: Position Letter from Defender Services Committee...................................................................................... 279
Appendix J: Position Letter from Federal Defenders......................................................................................................................... 281
Appendix K: Position Letter from Defender Services Advisory Group.....................................................................283
Appendix L: Budget Implications................................................................................................................................................................................... 288
Appendix M: Statement from Committee Member Professor Orin Kerr................................................................293

vi

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-8

AR-2373

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 10 of 342 Page ID
#:27592

Acknowledgments

A study of this scope is only possible with the assistance of many willing hands
along the way. From planning and holding the public hearings, to collecting data,
to writing the report, the Committee benefited from knowledgeable and dedicated
judges, federal defenders, CJA panel attorneys, clerks — and many others. Here we
take the opportunity to acknowledge a few who were of particular assistance, but
there are hundreds of others who also contributed to this study.
The Committee benefited from the counsel and writing skills of staff attorney,
Arin Melissa Brenner, as well as the support of project manager Autumn Dickman,
paralegal specialist Amy Cushman, meeting planner Mark Gable, and, Judge
Cardone’s career law clerk, Richard Wallach. Dr. Robert Boucher of the Defender
Services Office provided statistical assistance, and Professor Jon B. Gould of American
University served as the Committee’s reporter. We thank Jennifer Trone for her expert
assistance with editing, and AURAS Design for design and production of this report.
Six of the seven public hearings were held in federal courthouses. For these
hearings we were warmly hosted by Chief Judge Kevin Moore and former Chief
Judge Federico Moreno in the Southern District of Florida for the Miami hearing;
former Chief Judge Ann Aiken and Chief Judge Michael Mosman in Oregon for the
Portland hearing; Chief Judge Karon O. Bowdre in the Northern District of Alabama
for the Birmingham hearing; Chief Judge Phyllis J. Hamilton in the Northern District
of California for the San Francisco hearing; former Chief Judge Petrese Tucker in
the Eastern District of Pennsylvania for the Philadelphia hearing; and Chief Judge
John R. Tunheim in the District of Minnesota for the Minneapolis hearing. Over the
two years of the study the Committee met 12 times in addition to the public hearings. Many of these meetings took place in courthouses around the country. We are
appreciative of the chief judges and their clerks who offered us meeting space and
resources to assist us in our efforts in Seattle, El Paso, and Chicago.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-9

vii

AR-2374

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 11 of 342 Page ID
#:27593

CJA panel attorneys are an integral component of the hybrid system and their
voices were an essential part of the data gathering process. We thank the following
panel attorney district representatives who were tasked with assisting in identifying and recruiting panel attorneys to testify at each of the hearings: John Convery
(Santa Fe); Gilbert Schaffnit (Miami); Lisa Costner (Birmingham); Peter Schweda
(Portland); Victoria Bonilla-Argudo (San Francisco); Patrick Nash (Philadelphia);
and Stephen Swift (Minneapolis).
Federal and Community Defenders were very supportive of the CJA Review
process and we appreciate the many defenders who made time to testify at the
seven hearings and made recommendations as to who would be interested in testifying before the Committee. In particular, we would like to thank Lisa Hay from the
District of Oregon who assisted in putting together a panel that included clients of
the system. The Committee is especially grateful to the many witnesses who testified in person and submitted written testimony, and others who provided essential
information and perspectives to the Committee through less formal processes.
We want to acknowledge Ventana Productions for their services in recording and live streaming the proceedings. In particular, Holden Beier-Green, Chris
Thomas, Steve Greisiger, and Frank Rachal, for being on the ground with us at each
hearing. We also want to thank Nicolas Richard of NITOAD for creating and maintaining a public website to share the work of the Committee and make public the
hearing testimony, as well as a private website to assist the Committee with internal
organization and communication.
Following the completion of the public hearings, and the review of the voluminous written and oral testimony received, the Committee was faced with the daunting task of condensing all of the information into a format from which we could draw
conclusions and make recommendations. Sean Broderick from the National Litigation
Support Center provided invaluable assistance with setting up our electronic documentation system and was of great help in advancing the Committee’s understanding
of technology and the issues that ESI discovery present. Kamila Tolentino, paralegal
from the Federal Defenders of San Diego, Inc. was instrumental in coding thousands
of pages of transcripts and written submissions from the seven hearings.
We would like to thank Director James Duff for his support and guidance
throughout the process; the Defender Services Committee for their oversight of the
CJA program and for requesting this long overdue study; and Cait Clarke and the
staff of the Defender Services Office for their support and valuable contributions
over the past two years.
Finally, the Committee would like to thank the community of public defenders—both institutional and panel attorneys — for the work they do in upholding the
promises of the Sixth Amendment.

•

viii

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-10

AR-2375

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 12 of 342 Page ID
#:27594

Ad Hoc Committee to Review
the Criminal Justice Act
Hon. Kathleen Cardone, Chair
U.S. District Court for the
Western District of Texas
Reuben Camper Cahn
Executive Director, Federal
Defenders of San Diego, Inc.

Neil H. MacBride
former US Attorney for the
Eastern District
of Virginia, currently
a partner at Davis Polk
& Wardwell, LLP

Hon. Jeffery S. Chip Frensley
Former National CJA Panel
Attorney District Representative

Hon. Edward C. Prado,
Chair Emeritus
U.S. Circuit Court of Appeals
for the Fifth Circuit

Hon. Dale S. Fischer
U.S. District Court for the
Central District of California

Katherian D. Roe
Federal Public Defender for
the District of Minnesota

Hon. John M. Gerrard
U.S. District Court for
the District of Nebraska

Dr. Robert E. Rucker
Assistant Circuit Executive
For Court Policy and Research
U.S. Circuit Court of Appeals
for the Ninth Circuit

Hon. Mitchell S. Goldberg
U.S. District Court for the Eastern
District of Pennsylvania
Professor Orin S. Kerr
George Washington
University Law School

Hon. Reggie B. Walton
U.S. District Court for
the District of Columbia

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-11

ix

AR-2376

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 13 of 342 Page ID
#:27595

Preface
The Sixth Amendm E N t to the Constitution guarantees individuals accused
of crimes the assistance of counsel—a skilled and devoted lawyer by their side
advocating for their interests. The right to counsel is the foundation of an adversarial system of justice that is truly fair to all, as opposed to one that is stacked
against those without money and influence. For the past two years we, along
with 10 others, have had the honor of serving on a committee appointed by Chief
Justice John G. Roberts, Jr. to study and report on the program that is responsible
for delivering that fundamental right to roughly 250,000 people every year in federal courts throughout the country.
That program, with an annual budget of over a billion dollars, has been overseen by judges since its inception more than half a century ago. When Congress
mandated the creation of a federal system of public defense by passing the Criminal
Justice Act in 1964, the judiciary was considered to be a temporary home for the
fledgling program. Over the years, with support from the judiciary, that program has
grown and matured tremendously, but is still under the judiciary’s control and, as a
result, unable to fully accomplish its specific mission.
The needed course of action is clear: Congress should create an autonomous
entity, not subject to judicial oversight and approval. Our recommendation echoes
the conclusion reached nearly 25 years ago by the only other committee to comprehensively review the Criminal Justice Act, which our Chair Emeritus the Honorable
Edward C. Prado led. The call for independence in 1993 was highly controversial and ultimately rejected. While it is not without controversy today, much has
changed in the intervening decades.
Today, a preponderance of defense attorneys, federal judges, and outside experts
believe the time has come to create an independent entity with the same mission as
frontline defenders. The judiciary as a whole and individual federal judges were never
well suited to the role Congress gave them. There were problems from the start, and
those problems—the result of a cumbersome administrative structure that fails to

x

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-12

AR-2377

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 14 of 342 Page ID
#:27596

elevate the expertise of defense attorneys, meet their needs, or preserve their independence—have only worsened over the years while the number of defendants in federal
court who cannot afford to hire their own attorney has increased significantly.
Talk of administrative flaws might sound like a merely bureaucratic or even
trivial matter. It is not. Genuine independence is crucial to providing a high-quality
defense—not just in some cases but in all cases. It must be the standard of practice
in federal courts nationwide. Under the current administrative structure too many
attorneys are compromised—if not hamstrung—by the lack of financial resources,
training and guidance, and latitude to mount a skilled and vigorous defense of their
clients in federal court. When the defense is undermined in these ways, the innocent are more likely to face wrongful conviction and the guilty are more likely to
face harsher punishment, including execution. The failures that play out tragically
in individual lives are systemic.
We can do better. Over the course of the past two years at hearings around the
country we met scores of judges, attorneys, and others with a deep commitment
to justice in the federal courts. Many of them referred to our system as “the gold
standard,” and called on us to make it shine in practice; not just on paper. A fully
independent entity governing the provision of public defense in the federal courts is
the goal, one that we must move steadily toward by educating members of Congress
and the public about why independence matters. It is our sincere hope that this
Committee’s report sparks and guides a process that achieves this goal.
While it will take action by Congress to realize the original and full intent of
the 1964 Criminal Justice Act, the transition to independence can begin now. This
Committee has outlined interim steps the judiciary can take on its own to confer
greater authority and autonomy to members of the defense community, changes
that raise the quality of defense in individual cases.
On behalf of the entire Committee, we wish to thank Chief Justice Roberts for
the honor of being selected to serve and for entrusting us with a challenging assignment. It was difficult because of its scope and also because we had to collect our own
data since much of the data we sought to evaluate this billion-dollar-plus government program was lacking. That too is something to remedy beginning now. Reviews
such as ours are infrequent, but we need much better data to effectively manage a
system that the public funds and that so many Americans rely on for justice.

Honorable Kathleen Cardone
Chair

Honorable Edward C. Prado
Chair Emeritus

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-13

xi

AR-2378

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 15 of 342 Page ID
#:27597

Executive
Summary

A-14

AR-2379

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 16 of 342 Page ID
#:27598

Introduction
This Committee was tasked to study one of the most fundamental of rights in
America, the right of an accused person to legal counsel. Enshrined in the
Constitution under the Sixth Amendment, the right to assistance of counsel is a
pillar of our adversarial system of justice and our government. “If we are to keep
our democracy,” Judge Learned Hand cautioned in 1951, “there must be one
commandment: Thou shalt not ration justice.” He was speaking on the occasion
of the New York Legal Aid Society’s 75th Anniversary, yet it would be more than a
decade before the Supreme Court’s 1963 landmark ruling in Gideon v. Wainwright,
compelling states to provide counsel at government’s expense to criminal defendants who cannot afford to hire an attorney.1
The effort to make such a fundamental right real in practice — not to some,
but to all — has been waged in the halls of justice by jurists committed to the letter
of the law and the principles that underlie it. Their compelling legal arguments
are captured in a chain of court decisions before and after Gideon. These rulings emphasize that representation per se is not enough. Writing in MacKenna v.
Ellis in 1960, for example, the 5th Circuit Court of Appeals stated that an accused
person is entitled to “effective, wholehearted assistance of counsel and to the
undivided loyalty” of his representative.”2 The Court deemed such skill, dedication,
and independence to be “essential to due process.”3
Chief Justice of the United States John G. Roberts, Jr. tasked this Committee
with studying the current quality of public defense in federal courts nationwide provided under the auspices of the Criminal Justice Act — groundbreaking legislation
passed in 1963 and expanded in 1970. That the United States has a fully developed
system of public defense at the federal level is evidence of considerable progress in
making the Sixth Amendment right to counsel real in practice. But this Committee

The effort to
make such a
fundamental right
real in practice — not
to some, but to
all — has been
waged in the halls
of justice by jurists
committed to the
letter of the law
and the principles
that underlie it.

1

Gideon v. Wainwright, 372 U.S. 335 (1963).
MacKenna v. Ellis, 280 F.2d 592, 595 (5th Cir. 1960), modified, 289 F.2d 928 (5th Cir. 1961).
3 Id.
2

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-15

xiii

AR-2380

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 17 of 342 Page ID
#:27599
EXECUTIVE SUMMARY

The Committee’s Review Process
To assess the quality of representation for indigent defendants in federal courts
nationwide, this Committee held seven hearings around the country that drew 229
witnesses, nearly all of whom also submitted in-depth written testimony that totaled
more than 2,300 pages. Federal defenders, panel attorneys, prosecutors, and judges
from 78 of the 94 federal court districts — 83 percent of all districts — testified before
the Committee. Witnesses also included former public defense clients, circuit court
judges, magistrate judges, nationally recognized advocates, representatives of the
American Bar Association and other key professional groups, noted academics, and
subject matter experts. The Committee conducted its own survey of panel attorneys to
begin filling the glaring gap in data about their work, and reviewed hundreds of pages
of reports and studies produced by others. Committee Members met 12 times in addition to the hearings and, in meeting time alone, spent more than 200 hours working
together to plan the review, organize and assess the overwhelming amount of information collected, discuss findings and recommendations, and produce this report.
was not formed to rest on the laurels of history, and by the standard articulated
in MacKenna v. Ellis justice continues to be rationed in federal courts around the
country. While it has been decades since people charged with crimes — in many
cases facing life-altering punishments — faced prosecutor, judge and jury alone,
representation by a skilled and devoted advocate with sufficient resources to mount
a vigorous defense is far from guaranteed. Indeed, the quality of defense appears to
be highly uneven across the country and from case to case within districts.
Fully 90 percent of defendants in federal court cannot afford to hire their own
attorney. Justice in their cases, and indeed the future course of their lives, depends
on the quality of the system that provides lawyers to represent them. The subject of
the Committee’s Report is the examination of that system’s successes and failures, as
well as a course of action for improving it — findings and recommendations presented in brief in this Executive Summary.
Before committing the significant time and effort required to undertake this
study, most Committee members were unaware of the depth and scope of the problems hindering administration of the Criminal Justice Act across the country and
believed that small changes or gradual shifts in policy and practice would suffice.
Precisely because the current structure emphasizes local control, most people
are only aware of what happens in the courtrooms where they practice. Such limited
perspective is hardly new. Two years before Congress passed the Criminal Justice Act,
editors from the Harvard Law Review researched the existing ad hoc approach to
public defense.4 Looking across the country in 1962–1963 they saw glaring problems,
yet the individual lawyers and judges interviewed for that study — fully 93 percent of
4

Bruce J. Havighurst & Peter MacDougall, Note, The Representations of Indigent Criminal Defendants
in the Federal District Courts, 76 Harv. L. Rev. 579 (1963).

xiv

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-16

AR-2381

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 18 of 342 Page ID
#:27600

them — believed the system provided “adequate” or “very adequate” representation
to indigent defendants in federal court.5 Because those lawyers and judges were
enmeshed in the system they failed to see its weaknesses.
Thanks to decades of leadership by the judiciary, Congress, defenders themselves, and others, the system of public defense at the federal level is a vast improvement on the ad hoc services that predated the Criminal Justice Act. But it is no less
important today than it was in 1962 to take stock of what is happening in courts
around the country.
It was only in studying the federal defender system as a whole and hearing from
witnesses across the country that the members of this Committee have come to the
unanimous conclusion that despite the best efforts of all parties involved in delivering effective representation under the Sixth Amendment, the current structure for
providing public defense results in disparities in the quality of representation that
have serious consequences for some defendants. The Committee hopes its report
illuminates the scope and nature of these problems and underlying structural flaws
from which they arise — and makes a persuasive case for meaningful change.

•

5

Id. at 588

Establishing a System of Public Defense in the Federal Courts
Although defendants in federal court have been guaranteed representation, regardless
of ability to pay, since the 1938 Supreme Court ruling in Johnson v. Zerbst, for almost
three decades there was no national system for appointing lawyers or pool of money
to pay them. Few legal aid societies existed at the time, so federal judges had to find
attorneys in private practice willing to work on a pro bono basis. Because seasoned
trial attorneys were rarely interested in these cases, young lawyers, often with no
criminal law or trial experience, represented the vast majority of indigent defendants.6
Attorneys were obliged to use their own resources to pay for all defense expenses,
including expert witnesses, investigators, and other services. In 1963 an Alabama district court, ruling in United States v. Germany, found that burden ultimately denied the
accused a full-throated defense as required under the Sixth Amendment.7
Even before Johnson v. Zerbst, the Federal judiciary had been calling for a formal
system of indigent defense. As early as 1937, the Judicial Conference of the United
States recommended establishing defender offices where caseloads justified them,8
and repeated that recommendation for years to come.9 Once again judges were
out in front, working to make the Sixth Amendment right a reality in practice. And
6

Id. at 582-583
United States v. Germany, 32 F.R.D. 343, 344 (M.D. Ala. 1963).
8 Rep. of the Judicial Conf. of the U.S. 8-9 (Sept. Sess. 1937), available at http://www.uscourts.gov/
sites/default/files/1937-09_0.pdf.
9 Robert J. Kutak, The Criminal Justice Act of 1964, 44 Neb. L. Rev. 703, 711 (1965).
7

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-17

xv

AR-2382

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 19 of 342 Page ID
#:27601
EXECUTIVE SUMMARY

they were not alone. Several U.S. Attorneys General, some members of Congress,
and the American Bar Association repeatedly called for a legislative solution to the
Sixth Amendment crisis. In the end, it took a federal commission — the Committee on
Poverty and the Administration of Justice — appointed by Attorney General Robert F.
Kennedy to persuade Congress to act.
The Allen Committee, named for its chair Professor Francis A. Allen, concluded that
the ad hoc system of providing counsel to indigent federal defendants failed both
defendants and the criminal justice system as a whole.10 When the Committee’s
report was delivered to Congress on March 6, 1963, lawmakers were already primed
to receive the findings. In his final State of the Union address on January 14, 1963,
President John F. Kennedy had called on Congress to protect the right to counsel
regardless of a defendant’s financial circumstances.
Congress passed the Criminal Justice Act on August 7, 1964, outlining a system to
provide defendants without resources legal representation at every stage of the
court proceeding. Even though the Act applied only to federal courts, its national
scope made it a watershed for public defense, especially coming on the heels of the
Supreme Court’s 1963 decision in Gideon v. Wainwright.
Because Congress was divided at the time about whether or not to create federal
defender offices, the Act initially outlined a system in which federal judges would
appoint counsel drawing from a local “panel” of private attorneys who would be
paid at set rates for work in and out of court up to a fixed maximum. The statute
also provided compensation for experts, investigators, and others services up to a
fixed amount. The Judicial Conference of the United States and its allied agency, the
Administrative Office of the United States Courts, were tasked with the responsibility
of building and overseeing this new national system of public defense.
A few years later at the request of Congress, the Department of Justice and the
Judicial Conference commissioned Professor Dallin H. Oaks to revisit the idea of creating institutional defenders. Submitted to Congress in 1969, the Oaks Report found
“a demonstrated need for some type of full-time salaried federal defender lawyers.”11
Congress amended the Criminal Justice Act in 1970 to create the current hybrid system
of institutional defenders and private attorneys. Today, 91 of the 94 judicial districts
have a Federal Defender Office whose staff are federal employees or a nonprofit
Community Defender Office that works under contract with the federal government.

10

The Allen Committee, Report of the Attorney General’s Committee on Poverty and the Administration
of Federal Criminal Justice, submitted to the Attorney General on February 25, 1963 [hereinafter Allen
Committee]. (See e.g. page 10, discussing the vital role that a strong defense plays in the health of our
adversarial system, and stating the Committee’s finding that the “system was imperiled” by the large
number of defendants unable to afford or adequately fund “a full and proper defense.”)
11 Dallin H. Oaks, The Criminal Justice Act in the Federal District Courts, Subcomm. on Constitutional
Rights of the S. Comm. on the judiciary, 90th Cong., 2d Sess. 11 (Comm. Print 1969) [hereinafter Oaks Report].

xvi

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-18

AR-2383

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 20 of 342 Page ID
#:27602

Under-Resourced and
Unduly Constrained
It was beyond the scope of this Committee’s inquiry to review actual cases and
their outcomes, which would have been the best measure of quality of defense. In
fact, given the paucity of government data such a review was simply impossible.
But there are compelling proxy measures of quality that this Committee considered. If attorneys lack the resources and training to provide a zealous defense; if
their caseloads are overwhelming; if they lack the genuine independence needed to
make the best decisions on their clients’ behalf; then the quality of representation
they provide is bound to suffer — not in every case but in far too many cases. This
Committee found troubling signs that many panel attorneys in particular are indeed
ill-equipped and insufficiently compensated; often without the resources or knowledge to hire experienced investigators, expert witnesses, and interpreters when a
case requires such services; and lacking access to the level of training and guidance
that both institutional public defenders and prosecutors have readily available.
In addition, both panel attorneys as well as institutional defenders are unduly
constrained by the nature and degree of judicial oversight built into the Criminal
Justice Act — and recent changes in Judicial Conference policy have neither clarified
nor simplified the oversight burden on judges, constraining them as well.
On the whole, the judiciary has had the best intentions in administering the
Criminal Justice Act, and individual judges and administrative leaders have been
careful stewards of a system created to protect a crucial right. But they are operating
within a fundamentally flawed administrative structure. Tasking — and indeed burdening — federal judges with the responsibility for managing the provision of public
defense creates conflicts of interest and other serious impediments to genuine justice.
Those structural problems include giving the judiciary control over the defense
budget; giving individual judges sole authority to appoint counsel and determine
staffing levels at federal defender offices; and letting judges decide what, if any,

If attorneys...
lack the genuine
independence
needed to make the
best decisions on
their clients’ behalf,
then the quality of
representation they
provide is bound
to suffer — not in
every case but in far
too many cases.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-19

xvii

AR-2384

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 21 of 342 Page ID
#:27603
EXECUTIVE SUMMARY

resources attorneys may or may not use in defending their clients and what constitutes fair compensation for their legal services. The following sections explore these
administrative obstacles to a full and effective defense in greater detail.

Inadequate Compensation and
Guidance for Panel Attorneys
Nationwide, an estimated 10,000 to 11,000 attorneys in private practice — many of
them solo practitioners — stand ready to represent indigent defendants in federal
court. Yet these frontline defenders are not adequately compensated. In fiscal year
2017, the pay rate for panel attorneys in non-capital felony cases was $132 per hour.
This is far less than the prevailing rate for criminal defense work and even less than
the $144 per hour that Congress has authorized to pay under the statute.
When the high cost of living in some cities is considered, along with high overhead expenses, the effective rate of compensation for panel attorneys is arguably
lower than the original rates authorized by Congress in 1964. Although a sizable
increase in compensation has been needed for years — and the judiciary’s official
policy is to seek the full rate authorized by Congress — the judiciary has typically
requested only minor increases that are less than the authorized amount as a way to
limit its overall budget request to Congress.

Inadequate Compensation
Fiscal
Year

Paid Rate

Maximum Authorized
Rate*

Judiciary’s Request
to Congress

Rate Approved
By Congress

2002

$75/$55
(in-court/out-of-court)

$113

$113

$90

2005

$90

$125

$92

$90

2008

$94

$133

$113

$100

2011

$125

$141

$141

$125

2014

$125

$141

$126

$126

2017

$129

$146

$137

$132

*The assumed rate at the time the judiciary submitted its budget request to Congress.

Not only are hourly rates unrealistically low, panel attorneys aren’t even
guaranteed payment-in-full for the services they provide. Many witnesses told the
Committee that so-called “voucher cutting” by district court judges who have the
responsibility for approving requests for payment is a common occurrence — apparently more so in some districts and among some judges. In addition to ad hoc cuts,
judges in some districts compare vouchers for similar types of cases or between
co-defendants in the same case and average the amounts, paying everyone the
same as if the work involved in defending different individuals was exactly the same.
These views are supported by quantitative data collected in surveys of panel attorneys that this Committee conducted as part of its review process, data that indicates

xviii

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-20

AR-2385

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 22 of 342 Page ID
#:27604

unwarranted voucher cutting is prevalent throughout the country.
Judges are not required to provide a reason for cutting a voucher, and often
don’t. Panel attorneys typically lack an effective, or sometimes any, recourse for
appealing the judge’s decision. Some panel attorneys testified to the Committee that
they are reluctant to challenge voucher cuts, fearing reprisal by the judge within the
context of the ongoing case or when submitting vouchers in the future.
The phenomenon of cost-cutting also encompasses refusal by judges to
approve expenditures for non-legal services. These can be essential to mounting
an effective defense, especially when counsel is a solo practitioner, as are many
panel attorneys. These services include the assistance of a skilled investigator, expert
witnesses, and interpreter. Among panel attorneys surveyed by the Committee, 60
percent reported using expert services in just 1 out of 10 cases or less; and only 12
percent reported using these services in more than half their cases. In some districts, as little as two percent of cases handled by panel attorneys involved the use of
experts. Judicial oversight is not the only source of this problem; it is also true that
some panel attorneys do not appreciate the value of expert services, know where to
find needed experts, or simply want to log more billable hours themselves.
Discouraged by the prospect of voucher cutting and the related phenomena
described above, many panel attorneys have resorted to “self-cutting,” in which
they deliberately do not bill for reimbursable hours or request services they suspect
judges will not approve. When these self-cuts are combined with cuts by judges, the
effect is systemic undermining of the defense.
The judiciary as a whole is not unsympathetic to the needs of the defense.
Most judges are committed to protecting the integrity of our adversarial criminal
justice system. At the same time, some judges also feel the need to cut costs, especially in the wake of the 2013 Congressional budget sequestration. More significantly, when judges do not fully appreciate the time, resources, and tactical decisions involved in mounting a vigorous defense they are more likely to conclude that
vouchers are excessive in amount or that services are unnecessary. Fundamentally,
judges should not be in a position where they have to be experts in defense in order
to fairly compensate and reimburse attorneys.
Even when panel attorneys are paid in full, the requirement for judicial review
and approval of vouchers often results in payment delays. There are efficient remedies to this particular problem. Delays in payment are less common in districts
where judges can rely on an initial review and recommendation by a supervising
panel attorney or the local federal defender office. This should be common practice.
Similarly, case budgeting attorneys have been helpful in preventing both voucher
cutting and delays in payment, but they too are not available everywhere.
In addition to being insufficiently compensated, most panel attorneys lack
access to training and guidance. As a result, they are behind the curve, especially in
complex and quickly changing areas of practice such as electronic discovery. The

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-21

xix

AR-2386

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 23 of 342 Page ID
#:27605
EXECUTIVE SUMMARY

Department of Justice’s expenditures on training and training facilities for prosecutors exceeds the entire budget of the Defender Services Office (DSO). Lack of
resources limits the amount of training DSO can provide. Moreover, panel attorneys
from rural areas testified that the cost and difficulty of traveling to attend a national
or regional training is a real barrier. While learning occurs organically in the context
of a defender office — and these offices have considerable expertise to share — staff
shortages and other fiscal constraints limit the amount of training institutional
defenders can provide to panel attorneys in their district.

Destabilizing Defender Offices

The fact that
there are Federal
Defender Offices
or Community
Defender Offices
serving 91 of the 94
judicial districts, is
one of the great
achievements
of the Criminal
Justice Act.

xx

Panel attorneys are not the only defense practitioners unfairly hampered in their
work as a result of judicial oversight. The extraordinary authority and latitude given
to individual circuit court judges to appoint and remove federal defenders, set staffing levels at federal public defender offices, and even to create or dissolve both
federal and community defender offices, leads to vast discrepancies in organizational capacity and, arguably, in the quality of defense. A 2013 work-measurement
study by the Judicial Resources Committee was instrumental in revealing that many
defender offices are severely understaffed.
Several federal public defenders testified to the Committee that the nature
of the appointment cycle — a four-year term with no presumption of reappointment — creates a destabilizing environment in which they feel hamstrung as managers of their offices and, in some instances, beholden to the judiciary. Some
federal defenders told the Committee they were reluctant to ask for staff increases,
even when desperately needed, fearing such requests would negatively affect their
prospects for reappointment. Several defenders even said they felt pressure to base
hiring and budgeting decisions on the preferences of individual judges, rather than
the best interests of their indigent clients, to bolster their chances of reappointment.
The fact that there are Federal Defender Offices or Community Defender Offices
serving 91 of the 94 judicial districts, is one of the great achievements of the Criminal
Justice Act — growth that would not have happened without judicial leadership. These
institutional defenders raise the quality of defense in their districts through their own
practice, by the example they set, and in some instances, through guidance they provide to less experienced panel attorneys. Still, in one of the three districts without a
defender office, the Committee heard testimony that inexperienced panel attorneys are
routinely assigned to defend clients outside their areas of expertise. Individual judges
should not determine whether to establish institutional defenders offices in these three
districts, or whether the defender offices that currently exist continue to operate.
The judiciary exerts control over defender offices in other ways as well. The
Administrative Office of the U.S. Courts (AO) controls the information systems these
offices rely on to manage cases, which not only reduces efficiency but also puts

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-22

AR-2387

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 24 of 342 Page ID
#:27606

confidential client information at risk of disclosure. Even ad hoc policy decisions can
have a profound effect. The AO recently prohibited public defenders from representing clients in non-capital clemency petitions, despite the fact that these attorneys
have knowledge and experience that would be of tremendous benefit to individuals
facing an important determination that relates directly to their criminal conviction.

Troubling Deficiencies in Capital Habeas Cases
This Committee explored several specific areas of defense practice — all of which
are addressed in the full report — but one area stands out as especially troubling: the
current state of public defense in capital habeas cases. The underlying problems in
these cases, which concern possible constitutional violations or wrongful convictions, are not dissimilar to those already discussed, but the potential consequence of
inadequate representation is plainly dire.
The rate of compensation for panel attorneys in habeas cases, $185 an hour, is
higher than the rate for non-capital felony cases but in no way sufficient. Moreover,
the presumptive cap on expert services has not risen since 1996, when it was instituted. Because capital habeas cases often require thorough re-examination of the original trial — what counsel did and failed to do — the current cap is unrealistically low.
Separately, many of the federal judges presiding over these cases are not
familiar with the nature of capital habeas representation, which can inadvertently
hamper the quality of defense. For example, if a judge doesn’t recognize the need
for in-depth investigation to mount an effective challenge, that judge may not
approve necessary expert expenses. Similarly, voucher cutting in these cases is a
widespread concern because many judges don’t grasp the extent of work required to
submit an effective and complete habeas petition. Such variation among individual
judges, coupled with differences in policies among the circuit courts, leads to serious discrepancies in the quality of defense available to capital habeas defendants
across the country. In addition, few defense attorneys are qualified to handle these
cases, and the combination of below-market rates and prospect of dramatic voucher
cutting creates a financial disincentive to accept cases.
The short statute of limitations for capital habeas petitions, 12 months, creates other problems. Frequent delays in appointing counsel limit the time attorneys
have to prepare a petition, and some judges have responded negatively to attempts
to expedite appointments. The limited time frame combined with heavy caseloads
means that habeas attorneys miss deadlines, sealing their clients’ fates. Recently,
nine defendants in Texas were scheduled for execution because their attorneys
failed to file habeas petitions on time.12 Since the passage of the Antiterrorrism and

The underlying
problems in these
cases, which concern
potential constitutional
violations or wrongful
convictions, are not
dissimilar to those
already discussed,
but the potential
consequence
of inadequate
representation
is plainly dire.

12

Dick Burr, Texas Habeas Assistance & Training Project, Public Hearing – Birmingham, Ala., Panel 3, Tr.,
at 2. (See Lise Olsen, [Texas Death Row] Lawyers’ Late Filings can be Deadly for Inmates: Tardy Paperwork
Takes Away Final Appeals for 9 Men, 6 of Whom Have Been Executed, Hous. Chron., Mar. 21, 2009)

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-23

xxi

AR-2388

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 25 of 342 Page ID
#:27607
EXECUTIVE SUMMARY

Effective Death Penalty Act of 1996, states have had the ability to apply for “fasttrack” measures that would shorten the statute of limitations for capital habeas
cases to six months and aggravate existing problems.
To address these widespread problems, some Federal Defender Offices created
Capital Habeas Units (CHUs) that serve their entire circuit. These specialized units
are effective in ensuring timely, high quality representation and in controlling costs
because of their economies of scale.13 Despite their demonstrated effectiveness,
CHUs were prohibited in some circuits until recently, and even today some circuit
courts restrict the creation of a CHU and its staffing.

Persistent Data Deficit

The lack of data
hamstrung this
Committee,
just as it did its
predecessor
a quartercentury ago.

Twenty-four years ago, the last time an independent committee was tasked with
reviewing the quality of public defense in the federal courts, that body was criticized for the lack of data supporting its findings and recommendations, despite
the fact that at the time such data did not exist. It still doesn’t exist. The kind of
comprehensive approach to data collection needed to effectively manage and
evaluate a billion-dollar-plus government program is not taking place.
The lack of data hamstrung this Committee, just as it did its predecessor a
quarter-century ago. Much of the data that the Committee sought out to complete
its review was unavailable, nonexistent, or inaccessible. The Administrative Office of
the U.S. Courts doesn’t even maintain a list of all practicing panel attorneys.
With limited government data to rely on, the Committee embarked on its
own effort to gather data. Through significant effort on the ground, the Committee
created a master list of panel attorneys in each and every district — and then surveyed them. As a result, the most extensive effort ever to collect data on the administration of the Criminal Justice Act was undertaken by this Committee. Moving
forward, it is imperative that government assume this responsibility, use all available tools — including full implementation of the electronic vouchering system
(eVoucher) — and develop data collection protocols when none exist.

•

13

Stephen Bright, President, Southern Center for Human Rights, Public Hearing – Miami, Fla., Panel
4, Tr.,at 8.

xxii

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-24

AR-2389

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 26 of 342 Page ID
#:27608

Stifled Under Layers of Bureaucracy
The federal program charged with ensuring representation for indigent defendants in federal courts nationwide is deeply enmeshed in the Judicial Branch of
government. The Judicial Conference of the United States (JCUS), the governing
and rule-making body of the judiciary, has ultimate authority. JCUS is composed
of judges from both appellate and district courts and is chaired by the Chief
Justice of the United States.
Within JCUS, the Defender Services Committee is nominally tasked with developing relevant policy, but the Executive Committee can withdraw any portion
of that policy-making power at any time. Most notably, in 2013 an effort to
“enhance coordination and oversight” of the judiciary’s own resources resulted
in the Executive Committee stripping the Defender Services Committee of the
power to determine staffing and compensation in federal defender organizations.
Additionally, the JCUS Budget Committee controls funding priorities through its
central role in the budgeting process.
The responsibility for implementing policy falls on the Administrative Office of the
U.S. Courts (AO). Up until 2013, the AO included the directorate-level Office of
Defender Services, which directly administered the federal system of public defense.
A casualty of the 2013 reorganization mentioned above, this office was demoted and
renamed Defender Services Office (DSO), and now has much less autonomy and flexibility. In addition to a greater level of micromanagement and bureaucratic supervision that has resulted, the shift was demoralizing for many defenders, a sign in their
view that defense work is a service to the courts.
Individual defenders have limited direct access to these entities that exert considerable influence over their day-to-day work. For example, both the Defender Services
Office and the Defender Services Advisory Group, composed of defender office and
panel attorney representatives, must receive approval from the AO to raise crucial
issues for discussion at Defender Services Committee meetings.
Although defender services is a separate line-item constituting approximately
16 percent of the judiciary’s annual budget, defenders cannot advocate for funding
before Congress. The Defender Services Committee has little influence over the Chair
of the Budget Committee and the Director of the AO who represent the judiciary in
Congressional budget hearings.
It has been stated to Congress that defender services represent an increasing share
of the budget. In fact, most of the increase is related to the growing cost of operating the courts, as set out in the chart on page 14. Although the need for defenders is
greater than ever — the result of a large and growing number of federal defendants
who can’t afford counsel — the rate of increase of the overall budget since 2005 has
outpaced the budget for defender services.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-25

xxiii

AR-2390

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 27 of 342 Page ID
#:27609
EXECUTIVE SUMMARY

Cost of Defender Services Grew at a Slower Rate
than the Judiciary’s Overall Budget
7

SPENDING (in Billions)

6
5
Judiciary minus
Defenders

4

CADCOJS minus
Defenders

3
2

CADCOJS
Salaries &
Expenses

1

Defender
Services

0

2005

2007

2009

2011

2013

2015

FISCAL YEAR

Note: The judiciary’s budget includes the Supreme Court Salaries and Expenses, Supreme Court
Care of Building and Grounds, Court of Appeals for the Federal Circuit and Court of International
Trade. “CADCOJS” is the total combined costs for the Courts of Appeals, District Courts and Other
Judicial Services. CADCOJS Salaries and Expenses are just those specific expenses of the Courts
of Appeals, District Courts, and Other Judicial Services. Source: Administrative Office of U.S. Courts
The Judiciary FY07–FY17 Congressional Budget Summary.

Sequestration and the Fallout
The 2013 Congressional budget sequestration devastated many public defender
offices, cutting funding by 10 percent resulting in staff reductions of 30 to 50 percent.14 It has taken years for these offices to return to prior staffing levels. For a full
year, panel attorneys were paid at a reduced rate; a pay-cut for which they have
never been compensated. Additionally, there is a widespread belief among panel
attorneys who testified before the Committee that the cost-cutting mentality evident during sequestration sparked a rise in voucher cutting by judges that continues
today. Lack of government data on voucher review and approval makes it impossible to evaluate the accuracy of this perception.
Sequestration engendered a widespread sentiment among the defender community that the judiciary was unable to fully protect the public defense function. Frustrated and concerned, defenders by-passed the judiciary and appealed
directly to Congress for emergency funding which they then received. Many
experts view their success in the midst of this fiscal crisis as evidence that the federal defense community is now mature enough to advocate for itself, independent
from the judiciary.
14 Ron Nixon, Public Defenders Are Tightening Belts Because of Steep Federal Budget Cuts N.Y. TIMES
(Aug. 23, 2013).

xxiv

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-26

AR-2391

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 28 of 342 Page ID
#:27610

The Case for
Independence
The Criminal Justice Act was the product of considerable debate and compromise
between the U.S. House of Representatives and U.S. Senate. But one contentious
issue was not debated on the floor of Congress — where to situate this new public
defense program. The Attorney General was the nation’s top prosecutor, so the
Department of Justice was out of the question. And no other Executive Branch
agency seemed well suited to nurture a fledgling criminal defense program. As
the Wall Street Journal reported in August of 1964, “the Judicial Conference privately urged the [Johnson] Administration and Congress to find someone else to
run the program.”15 Even from the beginning it was understood that the mission
and practice of the public defense function was a poor match with the goals and
expertise of the judiciary. But with nowhere else to put the program, “the judges
got the job.”16
As early as 1969, Chief Justice Warren E. Burger lamented that Congress
had not created a separate entity to administer the program. He believed judges
should maintain a “real and an active interest,” but felt “the governance of a public
defender or a legal aid system should be insulated from the courts.”17 By 1970,
when Congress was considering amendments to the Criminal Justice Act that
would give judicial districts the option of creating defender offices, many lawmakers shared Chief Justice Burger’s view. A Senate Committee report cast the judiciary as a temporary home for the program, acknowledging “the need for a strong
independent administrative leadership,” and called upon Congress to review such

A Senate Committee
report cast the
judiciary as a
temporary home
for the program,
acknowledging “the
need for a strong
independent
administrative
leadership,”
and called upon
Congress to review
such prospects
“until the time
is right to take
the next step.”

15

John J. Haugh, The Federal Criminal Justice Act of 1964: Catalyst in the Continuing Formulation of
the Rights of the Criminal Defendant, 41 Notre Dame L. Rev. 996, 1005, n.68 (1966).
16 Id.
17 Proceedings at the1969 Judicial Conf., U.S. Court of Appeals, Tenth Circuit: Minimum Standards for
Criminal Justice, 49 F.R.D. 347, 374 (1969).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-27

xxv

AR-2392

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 29 of 342 Page ID
#:27611
EXECUTIVE SUMMARY

prospects “until the time is right to take the next step.”18
Even while the judiciary continued to oversee implementation of the Criminal
Justice Act, Supreme Court rulings made clear that independence of counsel is more
than an aspirational ideal — it is a “constitutionally protected” principle.19 In Polk
County v. Dodson (1981), the Supreme Court again underscored that the State has
a “constitutional obligation to respect the professional independence of the public
defenders whom it engages…. It is the independence from governmental control as
to how the assigned task is to be performed that is crucial.”20
This same line of legal reasoning even predates passage of the Criminal Justice
Act. In 1958, Judge E. Barrett Prettyman observed that:
The constitutional right of an accused to the assistance of counsel might
well be destroyed if counsel’s selections upon tactical problems were
supervised by a judge. The accused is entitled to the trial judgment of his
counsel, not the tactical opinions of the judge. Surely a judge should not
share the confidences shared by client and counsel. An accused bound to
tactical decisions approved by a judge would not get the due process of
law we have heretofore known.21
These constitutionally protected principles — that an advocate must act with
professional independence seeking solely the best interests of the client — do not
compel that a system providing counsel be designed in a particular way, but that
these principals should inform the design. And when aspects of a public defense
system compromise an advocate’s independent professional judgment, they are
particularly troubling and must be carefully examined.
After two years of study, this Committee unanimously believes that the federal defense program should be governed by an independent entity with the same
mission as frontline defenders. Current governance of the program by the Judicial
Conference of the United States and management by the Administrative Office of
the U. S. Courts, with their different missions and competing budgetary needs, has
led to fundamental fissures and inequities in a system that nearly 250,00022 people
each year depend upon for effective representation in federal court.
The Criminal Justice Act had flourished under the judiciary in its infancy,
and the Committee recognizes that without judicial assistance the program may
not have been primed to govern itself. At this time, however, independence is not
18

S. Rep. No. 91-790, at 18 (1970).
Strickland v. Washington, 466 U.S. 668, 689 (1984)
20 Polk Cty. v. Dodson, 454 U.S. 312, 321-22, 327 (1981) (J. Burger concurring).
21 Mitchell v. United States, 259 F.2d 787, 793 (D.C. Cir. 1958)
22 U.S. Federal Courts, Federal Judicial Caseload Statistics, Criminal Justice Act – Judicial Business 2016
http://www.uscourts.gov/statistics-reports/criminal-justice-act-judicial-business-2016, (last visited July
26, 2017) (This is the number of CJA representations for 2016).
19

xxvi

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-28

AR-2393

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 30 of 342 Page ID
#:27612

only possible, it is necessary to continue progress toward a day when every criminal defendant in federal court has a skilled, independent, and properly resourced
advocate.
This Committee’s recommendations have important historical precedent. The
first and only other comprehensive review of the Criminal Justice Act concluded
in 1993 that the federal defense program required greater administrative independence. Under the leadership of Judge Edward C. Prado, who also serves on this
Committee, the “Prado Report” recommended that the Criminal Justice Act be
amended to create a “Center for Federal Criminal Defense Services” responsible for
the administration of the Criminal Justice Act program.23 As the Prado Report stated:
A public defender system, whether staffed by institutional defenders,
part-time panel attorneys, or a combination of both, is not effective simply
because no one goes unrepresented. Such a system is effective when it
ensures that each defendant has an independent, competent, and vigorous advocate, dedicated solely to the interest of the individual client and
free from any improper personal or institutional conflicts of interest.24

The first and
only other
comprehensive
review of the
Criminal Justice Act
concluded in 1993
that the federal
defense program
required greater
administrative
independence.

The Judicial Conference did not act on this core recommendation in the Prado
Report. Given widespread voucher cutting, arbitrary staffing caps on defender
offices, court influence over some defender offices, budgeting decisions by the
Judicial Conference in 2013 during sequestration, and other problems — coupled
with dramatic growth in the number of indigent defendants prosecuted in federal
court — the need for independence is even greater today than it was in 1993.

Growing Number of Indigent Defendants Prosecuted in Federal Court
300,000
250,000
200,000
150,000
100,000
50,000
0

1993 94 95 96 96 98 99 2000 01 02 03 04 05 06 07 08 08 10 11 12 13 14 15 16

23

Comm. to review the criminal justice act program, cr-cjarev-mar 93, report of the judicial conf.
comm. to review the criminal justice act, 75 (1993) [hereinafter Prado Report]. (A committee
established by Chief Justice William H. Rehnquist pursuant to the Judicial Improvements Act of
1990, Pub. L. No. 101-650, 104 Stat. 5089. Judge Edward C. Prado was selected as Chair. The Prado
Committee’s report, issued in 1993, included several recommendations, including recommendations
to enhance the independence of defense services in the federal criminal system.)
24 Id.at 46.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-29

xxvii

AR-2394

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 31 of 342 Page ID
#:27613
EXECUTIVE SUMMARY

Views have changed considerably since the Prado Report. Many federal
judges now support the creation of an independent entity to oversee public
defense in the federal courts. As Judge John Gleeson, a former chair of the
Committee on Defender Services and author of the 2005 Gleeson Report told
the Committee, “I think there should be fundamental structural change. I think
wresting the obligation, the responsibility to deliver indigent defense away from
the judiciary is a good idea. We’ve just gotten used to the fact that it’s in the judiciary. It doesn’t make a whole lot of sense. I’m not sure if we had a blank slate
and we were divvying up responsibilities now and that was on the table we would
take it. I would take it out of the judiciary and find a really good defender general.”25 Likewise, a consensus of federal and community defenders supports such a
change. The Defender Services Committee, panel attorneys, relevant professional
associations, and academics who study public defense have all voiced support for
the creation of such an entity.
The Judicial Conference Committee on Defender Services (DSC) met with this
Committee during the course of our review and concluded that not only would DSC
support a recommendation for independence, but that the only recommendation
it would not support would be to maintain the status quo. Realizing that it will take
Congressional action to create such an independent entity, DSC later submitted a
letter outlining important steps the judiciary can take in the interim.26 This guidance
significantly informed the slate of interim recommendations this Committee developed, which are discussed in brief below.
A March 25, 2016, letter from federal and community defenders to Judge
Cardone as Chair of this Committee reported on the results of an on-line poll of
defenders, with a 94 percent response rate.27 Of those who responded, 84 percent believed that defense attorneys themselves must have significant authority
to govern and manage the program at both the national level and within districts.
Their specific minimum requirements outlined in the letter are reflected in this
Committee’s interim recommendations.
In a letter dated July 6, 2016, from Defender Services Advisory Group’s Panel
Attorney District Representatives conveyed the consensus view that judges should
have very little control and oversight of the program.28 In particular, judges should
have no role in the voucher review process, in establishing compensation rates for
panel attorneys, or even in appointing counsel. Their views are also incorporated
into the Committee’s interim recommendations.
25

Judge John Gleeson, E.D.N.Y., Public Hearing – Miami, Fla., Panel 3, Tr., at 40
Letter from the Judicial Conf. of the U.S. Comm. on Defender Serv. to the Honorable Kathleen
Cardone, Chair, Ad Hoc Comm. to Review the Criminal Justice Act Program (July 22, 2016).
27 Letter from the Federal and Community Defender Offices to the Honorable Kathleen Cardone,
Chair, Ad Hoc Comm. to Review the CJA Program (Mar. 25, 2016).
28 Letter from the CJA Panel Attorney District Representatives (PADRs) to the Honorable Kathleen
Cardone, Chair, Ad Hoc Comm. to Review the CJA Program (July 6, 2016).
26

xxviii

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-30

AR-2395

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 32 of 342 Page ID
#:27614

In the ABA’s Ten Principles of a Public Defense Delivery System,29 independence is the first principle. Professor Norman Leftstein,30 Dean Emeritus of the
Indiana University Robert H. McKinney School of Law and someone who has
studied public defense systems for decades, reminded the Committee that “[I]t is
the first principle for a reason: unless you have independence, the other principles vital for genuinely successful public defense programs are usually difficult to
achieve.”31 Professor Lefstein also highlighted a 2009 report from the National Right
to Counsel Committee that urged states to “establish a statewide independent
non-partisan agency headed by a board or commission responsible for all components of indigent defense services.”32 While the recommendation was addressed to
states, its reasoning applies to the federal system as well. As Professor Lefstein said,
It is exceedingly difficult for defense counsel always to be vigorous advocates on behalf of their indigent clients when their appointment, compensation, resources, and continued employment depend primarily upon
satisfying judges or other elected officials. At a minimum, judicial oversight of the defense function creates serious problems of perception and
opportunities for abuse.
What is needed are defense systems in which the integrity of the
attorney-client relationship is safeguarded and defense lawyers for the indigent are just as independent as retained counsel, judges, and prosecutors.33
In its own study of the Criminal Justice Act program in the fall of 2015, the
National Association of Criminal Defense Lawyers (NACDL) listed “seven fundamentals of a robust federal indigent delivery system.” The first fundamental called for
independence, since “control over federal indigent defense services must be insulated
from judicial interference.”34 A new structure under independent administration could
incorporate the sixth fundamental on NACDL’s list: “greater transparency.”35
29 ABA Ten Principles Of A Public Defense Delivery System (Feb. 2002), available at
http://www.americanbar.org/content/dam/aba/administrative/legal_aid_indigent_defendants/
ls_sclaid_def_tenprinciplesbooklet.authcheckdam.pdf (last visited April 26, 2017).
30 Norm Lefstein, Prof. of Law & Dean Emeritus, Robert H. McKinney Sch. of Law, Ind. Univ., Public
Hearing — Minneapolis, Minn., Panel 3, Writ. Test., at 2–3.
31 Written Testimony of Norm Lefstein, Prof. of Law & Dean Emeritus, Robert H. McKinney Sch.
of Law, Ind. Univ., Public Hearing #7 — Minneapolis, Minn.: Hearing Before the Ad Hoc Comm. to
Rev. the Crim. Just. Act Program, Panel 3: Views from a Mixed Panel 2-3 (May 16, 2016), available
at https://cjastudy.fd.org/sites/default/files/hearing-archives/minneapolis-minnesota/pdf/
normlefsteinminneapoliswritten-testimony-done.pdf.
32 Norm Lefstein, Prof. of Law & Dean Emeritus, Robert H. McKinney Sch. of Law, Ind. Univ., Public
Hearing — Minneapolis, Minn., Panel 3, Writ. Test., at 4 (quoting Justice Denied at 186)
33 Leftstein, supra note 27, at 4 (quoting Justice Denied at 186).
34 Nat’l Ass’n of Criminal Def. Lawyers (NACDL), Federal Indigent Defense 2015: The Independence
Imperative 9 (2015) available at www.nacdl.org/federalindigentdefense2015 [hereinafter NACDL Report].
35 William Leahy, Director, N.Y. State Office of Indigent Serv., Public Hearing – Minneapolis, Minn.,
Panel 1, Writ. Test., at 4.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-31

xxix

AR-2396

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 33 of 342 Page ID
#:27615
EXECUTIVE SUMMARY

In written testimony to the Committee, William Leahy, Director of the New
York State Office of Indigent Legal Services and former Chief Counsel of the
Massachusetts Committee for Public Counsel Services, described judicial control
and management of the defense function as “relics of a bygone age; perhaps understandable when public defense was in its infancy and was thought to require judicial oversight; but for a long time now neither appropriate nor tolerable.”36
Clearly, the Prado Report’s call for independence nearly 25 years ago has garnered widespread and vocal support today.

•

36

William Leahy, Director, N.Y. State Office of Indigent Serv., Public Hearing — Minneapolis, Minn.,
Panel 1, Writ. Test., at 4.

xxx

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-32

AR-2397

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 34 of 342 Page ID
#:27616

Recommended Course
of Action: Create an
Independent Defender
Commission

National Structure and Administration
This Committee unanimously recommends that Congress create an independent
Defender Commission within the judicial branch of government, but outside the
oversight of the Judicial Conference. The Commission would have sole authority
to set policy and practices related to the provisions of federal defense. Specifically,
the Commission would have the power to:

1. Establish general policies and rules as necessary
to carry out the purposes of the CJA
2. Appoint and fix the salaries and duties
of a director and senior staff
3. Select and appoint federal defenders and
determine the length of term
4. Issue instruction to, monitor the performance
of, and ensure payment of defense counsel
5. Determine, submit, and support annual
appropriations requests to Congress

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-33

xxxi

AR-2398

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 35 of 342 Page ID
#:27617
EXECUTIVE SUMMARY

6. Enter into and perform contracts
7. Create and oversee a system for litigation
funding for CJA counsel, including the review
of attorney, expert, and investigator fees
8. Procure as necessary temporary and intermittent services
9. Compile, collect and analyze data to measure and ensure
high quality defense representation throughout the nation
10. Rely upon other federal agencies to make their services,
equipment, personnel, facilities and information
available to the greatest practicable extent to the
commission in execution of its functions37
11. Perform such other functions as required to carry out the
purposes of and meet responsibilities under the CJA
Decisions about the provision of defense services should be made and implemented by those with direct experience and responsibility for the defense function — promoting best practices — and there should be no internal conflict of interest
created when requesting funding from Congress.
Modeled after the United States Sentencing Commission, this entity would
have seven voting members appointed by the President and confirmed by the
Senate. While voting members could include federal judges, they must not constitute a majority. 38 Additionally, no more than four board members shall serve
from any political party. For the initial board, the Committee recommends that the
Chief Justice of the United States, as well as the Defender Services Advisory Group,
which currently represents defenders and advises the Defender Services Committee,
prepare a slate of candidates from which the President may select. For subsequent
boards, a slate of candidates would be prepared by the Chief Justice and the equivalent of the Defender Services Advisory Group to the new commission.
Voting members should have a minimum five years of experience in, as well
as a demonstrated interest in and a commitment to, high quality indigent criminal
defense. To prevent conflicts of interest, no voting member should be employed by
37

The Committee bases this recommendation upon the enabling statute for the U.S. Sentencing
Commission, which is housed within the same building as the AO and uses services provided by
the AO but is not within AO governance. The statute for the Sentencing Commission reads, “28
U.S.C. § 995(c) Upon the request of the Commission, each Federal agency is authorized and directed
to make its services, equipment, personnel, facilities, and information available to the greatest
practicable extent to the Commission in the execution of its functions.” Any statute creating a defender
commission should contain the same assistance for the new commission to execute its duties.
38 One Committee member, Professor Orin Kerr, believes the committee should be comprised of all
judges selected by other district court judges. Please see statement in appendix.

xxxii

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-34

AR-2399

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 36 of 342 Page ID
#:27618

the Department of Justice, work as a state or federal prosecutor, or serve as a chief or
assistant federal defender or as an active member of a CJA panel.
To ensure full representation of the federal defense function before the commission, three non-voting members should be appointed, respectively, from a
Federal Defender Office, a Community Defender Office, and a CJA panel.
The Committee recommends that members of the commission be appointed
for staggered three-year terms and remain in office until their vacancy is filled to provide continuity of leadership. Members should be limited to two full terms to ensure
fresh perspectives. Compensation for voting members of the commission should not
exceed the daily rate at which judges of the U.S. Courts of Appeal are compensated.

Recommended
Restructuring

Judicial Conference

Independent
Defense
Commission

U.S. Sentencing
Commission

Administrative
Office Of The
U.S. Courts

Federal
Judicial Center

Defender
Services
________
D I R E C TO R
Legislation and
National Support
Division

Program
Operations
Division

Legal and Policy
Division

Training Division

Administrative
Operations

IT

Federal Public
Defender Offices

Community
Defender Offices

CJA Panel Offices

Local Structure and Administration
The Committee recognizes that federal and community defender offices are integral
to raising the quality of representation by establishing best practices and providing training and other resources for panel attorneys, while striving for cost-effective
administration. For this reason, every judicial district should require the appointment of a CJA Panel Attorney Administrator and any necessary staff to manage the
panel and review vouchers. This administrator may reside within a local defender
office, with appropriate firewalls to prevent conflicts, or in a separate office, but
must not be employed or supervised by the courts. These broad recommendations
leave considerable room for local control and decision-making to meet a jurisdiction’s specific circumstances and needs.

Each district is
encouraged to
create boards that
are representative
of and responsive
to local needs.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-35

xxxiii

AR-2400

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 37 of 342 Page ID
#:27619
EXECUTIVE SUMMARY

Defender offices and panel administration should be overseen by a local board
consisting of an uneven number of members (three minimum, seven maximum),
each with a demonstrated knowledge of and commitment to indigent defense.
Initial boards shall be appointed through a collaborative process involving the local
district courts, Community and/or Federal Defender Office, and CJA panel attorney
district representative, in consultation with the national structure outlined above.
Local bar organizations or other interested stakeholders may also participate in the
appointment process. Each district is encouraged to create boards that are representative of and responsive to local needs. While judges will be involved in the initial
appointments, boards should be self-perpetuating, and judges may not serve as
board members. Board members, who should serve without compensation, may
be asked to serve for five-year staggered terms and remain on the board until their
vacancy is filled. As is currently the case with some defender offices, multiple districts may be governed by a single board, or a district may choose to have a board in
each division, depending on caseload and/or geography.
Local boards should collaborate with leadership of the defender office to
develop a defense delivery plan and appoint a panel administrator to be approved
by the independent national defense commission. Like the current CJA plans, these
plans would address the recruitment, selection, retention, and removal of panel
attorneys, and would incorporate best practices as outlined in the CJA Model Plan.
Local boards, defenders, and panel administrators also would collectively develop
a system for voucher review as well as an appeal process for those attorneys whose
vouchers are cut for reasons other than clerical error.
Additionally, no district shall be without access to a case budgeting attorney
to help panel attorneys plan expenses and seek reimbursement in all cases, not just
extended or complex ones. Case-budgeting attorneys will no longer be employed by
the courts but by local boards within the panel administration office or by the independent national commission. In districts with high caseloads or a history of large,
complex cases to support such a position, the local CJA plan should provide sufficient resources to employ a case budgeting attorney for the district. Otherwise, multiple districts may work with a single case budgeting attorney. Local boards should
work in consultation with the national defense commission to implement a solution
that meets local needs.

Benefits of the Recommended Restructuring
Creating a new, independent entity within the judiciary that can continue to make
use of resources available through the Administrative Office of the U.S. Courts would
control costs and be least likely to disrupt the ongoing provision of representation
for defendants in federal courts.
As discussed above, the benefits of independence are myriad. Defenders

xxxiv

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-36

AR-2401

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 38 of 342 Page ID
#:27620

themselves would be in a position to persuasively advocate before Congress for
the funding needed to adequately compensate panel attorneys and staff defender
offices. Panel attorneys would no longer refrain from requesting expert services
for fear of undermining their client’s defense, violating attorney-client privilege, or
simply annoying judges.
This structure is ideally suited to spreading best practices and delivering training, both of which are required to provide a consistently high quality
of defense. Furthermore, the problems created by the judiciary’s oversight of
one side in our adversarial system of justice would no longer exist. Once created, this new Federal Defense Commission should review its own structure
and functioning every seven years to determine whether additional changes or
increased independence is required.
To those who argue that independence would imperil federal funding for public
defense, subjecting this crucial public service to political whims, the Committee
points out that the program is already a separate account in the judiciary’s appropriation and Congress has always had the authority to underfund or defund the program
as it chooses. Equally important, as seen during sequestration in 2013, defenders
have proved themselves to be able advocates, and Congress has demonstrated an
understanding of the importance of funding an effective system of public defense.
Finally, the Committee believes that judges’ support for the defender program
derives primarily from principles, not self-interest or obligation. As a result, the
Committee fully expects that the judiciary as a whole and many individual federal
judges — including those who will serve on the proposed commission — will act as
allies in support of vibrant defense under this new administrative structure.
That two very different committees nearly twenty-five years apart have come
to the identical conclusion reinforces the need for an independent entity to oversee public defense in the federal courts. While the Prado Report led to significant
reforms, the core issue of independence was left unaddressed. As a result, the majority of the problems identified by the Prado Committee remain problems today and
in some cases have worsened, as they stem from the lack of independence. Congress
viewed judicial implementation of the Criminal Justice Act as the initial phase. The
independence recommended by this Committee is a long overdue next step.

That two very
different committees
nearly twentyfive years apart
have come to the
identical conclusion
reinforces the need
for an independent
entity to oversee
public defense in
the federal courts.

•

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-37

xxxv

AR-2402

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 39 of 342 Page ID
#:27621
EXECUTIVE SUMMARY

Interim Recommendations of the
CJA Review Committee
OCTOBER 2017
The CJA Review Committee unanimously recommends that Congress create an independent Federal Defender Commission within the judicial branch of government, but
outside the oversight of the Judicial Conference. The Commission would have sole
authority to set policy and practices related to the provisions of federal defense.
The Committee realizes that the creation of an independent Federal Defender
Commission cannot be implemented immediately. While Congress weighs the
merits of this recommendation and determines how best to proceed, the judiciary can and should take important steps to give defenders more authority and
autonomy. While most of the actions outlined below constitute interim recommendations — and will be moot once a Federal Defender Commission is created — some are useful guidance even to a fully independent entity.

Structural Changes
1. The Defender Services Committee (DSC) should have:
ÑÑExclusive

control over defender office staffing and compensation.

ÑÑThe ability to request assistance of JRC staff on work measurement formulas.
ÑÑControl

over development and governance of eVoucher in order to collect
data and better manage the CJA program.

ÑÑManagement

of the eVoucher program and the interface with the payment

system.
ÑÑExclusive

control over the spending plan for the defender services

program.
2. For any period during which AO and JCUS continue to have authority over
the budget for the CJA program, when either the Budget or Executive
Committee disagree with the budget request by the DSC, the matter should
be placed on the discussion calendar of the full Judicial Conference.
3. The composition of the DSC should include the co-chairs of the Defender
Services Advisory Group, both as voting members.
4. Defender Services Office (DSO) must be restored to a level of independence
and authority at least equal to what it possessed prior to the reorganization
of the AO. In particular, DSO should be empowered to:
ÑÑExclusively

xxxvi

control hiring and staffing within DSO.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-38

AR-2403

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 40 of 342 Page ID
#:27622

ÑÑOperate

independently from the AO Department of Program Services or
any other department that serves the courts.

ÑÑRetain

exclusive control with NITOAD over defender IT programs.

ÑÑRetain

ultimate discretion with DSC in setting the agenda for DSC
meetings — no requirement of approval from other AO offices.

5. DSO should be made a member of the AO Legislative Counsel to consult on
federal legislation
6. Representatives from DSO should be involved in the Congressional
appropriations process.

Compensation and Staffing for Defenders
and CJA Panel Attorneys
7. The annual budget request must reflect the highest statutorily available rate
for CJA panel attorneys.
8. To provide consistency and discourage inappropriate voucher cutting, the
Judicial Conference should:
ÑÑAdopt

the following standard for voucher review –

vouchers should be considered presumptively reasonable, and voucher
cuts should be limited to mathematical errors, instances in which work
billed was not compensable, was not undertaken or completed, and
instances in which the hours billed are clearly in excess of what was
reasonably required to complete the task.
ÑÑProvide,

in consultation with DSC, comprehensive guidance concerning
what constitutes a compensable service under the CJA.

9. Every circuit should have available at least one case budgeting attorney
and reviewing judges should defer to their recommendations in reviewing
vouchers and requests for expert services.
10. To promote the stability of defender offices until an independent Federal
Defender Commission is created: Circuit judges should establish a policy that
federal defenders shall be reappointed absent cause for non-reappointment.
11. A federal public or community defender should be established in every
district which has 200 or more appointments each year. If a district does
not have a sufficient number of cases, then a defender office adjacent
to the district should be considered for co-designation to provide
representation in that district.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-39

xxxvii

AR-2404

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 41 of 342 Page ID
#:27623
EXECUTIVE SUMMARY

12. The Judicial Conference should develop a policy in which judges defer to
DSO recommendations and accepted staffing formulas when setting staffing
levels.
13. Circuit court judges should implement DSO staffing formulas when approving
the number of assistant federal defenders in a district
14. Modify the work measurement formulas to:
ÑÑReflect

the staff needed for defender offices to provide more training for
defenders and panel attorneys.

ÑÑSupport

defender offices in hiring attorneys directly out of law school or
in their first years of practice, so that the offices may draw from a more
diverse pool of candidates.

15. Every district should form a committee, or designate a CJA supervisory
or administrative attorney or a defender office, to manage the selection,
appointment, retention, and removal of panel attorneys. The process must
incorporate judicial input into panel administration.
16. Every district should have an appeal process for panel attorneys who wish to
challenge any non-mathematical voucher reductions.
ÑÑEvery

district should designate a CJA Committee that will determine how
to process appeals.

ÑÑAny

proposed reasonableness reduction shall be subject to review by the
designated CJA review committee that will issue a recommendation to the
judge.

Standards of Practice and Training
17. DSO should regularly update and disseminate best practices.
18. DSO should compile and share best practices for recruiting, interviewing, and
hiring staff, as well as the selection of panel members, to assist in creating a
diversified workforce.
19. All districts must develop, regularly review and update, and adhere to a CJA
plan as per JCUS policy. Reference should be made to the most recent model
plan and best practices. The plan should include:
ÑÑProvision for appointing CJA panel attorneys to a sufficient number of cases

per year so that these attorneys remain proficient in criminal defense work.

xxxviii

ÑÑA

training requirement to be appointed to and then remain on the panel.

ÑÑA

mentoring program to increase the pool of qualified candidates

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-40

AR-2405

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 42 of 342 Page ID
#:27624

20. FJC and DSO should provide training for judges and CJA panel attorneys
concerning the need for experts, investigators and other service providers.
21. FJC and DSO should provide increased and more hands-on training for
CJA attorneys, defenders, and judges on e-discovery. The training should
be mandatory for private attorneys who wish to be appointed to and then
remain on a CJA panel.
22. While judges retain the authority to approve all vouchers, FJC should provide
training to them and their administrative staff on defense best practices,
electronic discovery needs, and other relevant issues.
23. Criminal e-Discovery: A Pocket Guide for Judges, which explains how judges
can assist in managing e-discovery should be provided to every federal judge.

Capital Representation
24. Remove any local or circuit restrictions prohibiting Capital Habeas Units
(CHUs) from engaging in cross-district representation. Every district should
have access to a CHU.
25. Circuit courts should encourage the establishment of CHUs where they do
not already exist and make Federal Death Penalty Resource Counsel and
other resources as well as training opportunities more widely available to
attorneys who take these cases
26. Eliminate any formal or informal non-statutory budgetary caps on capital
cases, whether in a death, direct appeal, or collateral appeal matter. All
capital cases should be budgeted with the assistance of CBAs and/or
resource counsel where appropriate.
27. In appointing counsel in capital cases, judges should defer to
recommendations by federal defenders and resource counsel absent
compelling reasons to do otherwise.
28. Modify work measurement formulas to:
ÑÑDedicate

funding — that does not diminish funding otherwise available for
capital representation — to create mentorship programs to increase the
number of counsel qualified to provide representation in direct capital
and habeas cases.

ÑÑReflect

the considerable resources capital or habeas cases require for
federal defender offices without CHUs.

ÑÑFund

CHUs to handle a greater percentage of their jurisdictions’ capital
habeas cases.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-41

xxxix

AR-2406

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 43 of 342 Page ID
#:27625
EXECUTIVE SUMMARY

29. FJC should provide additional judicial training on:
ÑÑThe

requirements of § 2254 and § 2255 appeals, the need to generate
extra-record information, and the role of experts, investigators, and
mitigation specialists.

ÑÑBest

practices on the funding of mitigation, investigation, and expert
services in death–eligible cases at the earliest possible moment, allowing
for the presentation of mitigating information to the Attorney General.

Defender Information Technology
30. Adequately fund and staff NITOAD in order to control and protect defender IT
client information, operations, contracts, and management.

Resources: Litigation Support and Interpreters
31. Increase staff and funding for the National Litigation Support Team, as well
as increased funding for contracts for Coordinating Discovery Attorneys to be
made available throughout the United States.
32. Create new litigation support position(s) in each district or at the circuit level,
as needed, to assist panel attorneys with discovery, evaluation of forensic
evidence and other aspects of litigation.
33. Develop a national policy requiring the use of qualified interpreters whenever
necessary to ensure defendants’ understanding of the process.

Legislative Changes
34. Amend 18 U.S.C. § 4285 to permit courts to order payment of costs in the
limited circumstances where the defendant is unable to bear the costs
and the court finds that the interests of justice would be served by paying
necessary expenses.
35. Congress must amend the Criminal Justice Act to eliminate circuit court
review of attorney and expert fees exceeding current statutory caps.

xl

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-42

AR-2407

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 44 of 342 Page ID
#:27626

A-43

AR-2408

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 45 of 342 Page ID
#:27627

Background

A-44

AR-2409

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 46 of 342 Page ID
#:27628

Section 1: The Committee’s
Task And Review Process
1.1 The Committee and its Task
In 2015, Chief Justice John G. Roberts, Jr. appointed an ad hoc committee to evaluate the implementation of the Criminal Justice Act of 1964 (hereinafter “CJA”)1
and public defense in the federal courts generally. Chaired by U.S. District Judge
Kathleen Cardone from the Western District of Texas, the Committee is comprised
of federal judges, an assistant circuit executive, federal defenders, a CJA panel
attorney, a law professor, and a corporate lawyer who previously served as United
States Attorney. Committee member biographies are included in Appendix A to
this report.
In an April 2015 memorandum announcing the Committee’s creation, James
Duff, Director of the Administrative Office of the U.S. Courts, explained that “Judicial
Conference policy supports a periodic, comprehensive, and impartial review of the
CJA program” and listed the following 14 issues for the Committee to address:

1

1.

The impact of judicial involvement in the selection and compensation
of federal public defenders and the independence of federal defender
organizations (federal public defenders and community defenders);

2.

Equal employment and diversity efforts in federal defender organizations;

3.

Judicial involvement in the appointment, compensation, and management
of panel attorneys and investigators, experts, and other service providers;

4.

The adequacy of compensation for legal services provided under the CJA,
including maximum amounts of compensation and parity of resources
relative to the prosecution;

18 U.S.C. § 3006A.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-45

1

AR-2410

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 47 of 342 Page ID
#:27629
BACKGROUND

5.

The adequacy and fairness of the billing, voucher review, and approval
processes relating to compensation for legal and expert services provided
under the CJA;

6.

The quality of representation under the CJA;

7.

The adequacy of support provided by the Defender Services Office to
federal defender organizations and panel attorneys;

8.

The adequacy of representation of panel attorneys on matters stemming
from CJA representations, such as contempt, sanctions, ineffective
assistance of counsel, and malpractice claims;

9.

The availability of qualified counsel, including for large, multi-defendant
cases;

10. The timeliness of appointment of counsel;
11. The provision of services or funds to financially eligible arrested but
unconvicted persons for noncustodial transportation and subsistence
expenses (including food and lodging) prior to, during, and after a judicial
proceeding;
12. The availability of reliable data to evaluate the overall cost and
effectiveness of the federal defender program;
13. An examination of the national structure and administration of the
defender services program under the CJA; and
14. The availability and effectiveness of training services provided to federal
defenders and panel attorneys.

2

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-46

AR-2411

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 48 of 342 Page ID
#:27630

1.2 The Committee’s Review Process
The Committee held seven public hearings across the country. It ensured that every
district was covered over the course of the study by dividing the 94 federal districts
according to their geographical proximity to the hearing locations.2 Locating hearings around the country was also a way to elicit a diversity of perspectives and,
where necessary, examine issues relating to particular geographical areas. The hearings took place in:
Santa Fe, New Mexico

November 16–17, 2015

Miami, Florida

January 11–12, 2016

Portland, Oregon

February 3–4, 2016

Birmingham, Alabama

February 18–19, 2016

San Francisco, California

March 2–3, 2016

Philadelphia, Pennsylvania

April 11–13, 2016

Minneapolis, Minnesota

May 16–17, 2016

The Committee invited 467 witnesses to testify. They included:
ÑÑCircuit,
ÑÑCircuit
ÑÑCJA

Case Budgeting Attorneys;

Supervisory Attorneys;

ÑÑCircuit
ÑÑA

district, and magistrate judges;

Executives;

Circuit Appellate Commissioner;

ÑÑOfficials
ÑÑFederal
ÑÑCJA

and staff from the Administrative Office of the U.S. Courts;

and community defenders;

Panel Attorney District Representatives;

ÑÑAdditional

CJA attorneys in the region who were recommended by defenders or other panel representatives;

ÑÑJudge

Advocates from each of the military branches; and

ÑÑRepresentatives

from interested organizations and academic institutions.

Ultimately, the Committee heard nearly 100 hours of testimony from
229 witnesses. Representatives from 78 federal districts — 83 percent of all districts — appeared before the Committee. The Committee also received 224 written
submissions from these witnesses, totaling more than 2,300 pages of testimony.
2

See Appendix B for Map of Hearing Invitations

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-47

3

AR-2412

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 49 of 342 Page ID
#:27631
BACKGROUND

In addition to its public hearings, the Committee held closed-door hearings
with individuals who requested anonymity or had sensitive information to relay.
The Committee also met privately with leaders of the Administrative Office, members of Judicial Conference Committees, and other relevant agencies, offices, and
courts in Washington, D.C. Outside the scope of hearings, the Committee invited
and received written comments from district, circuit, and magistrate judges,
the American Bar Association, the Federal Bar Association, the Association of
American Law Schools, the National Legal Aid and Defender Association, and
the National Conference of Women’s Bar Associations, among others. Finally, the
Committee and staff reviewed hundreds of pages of relevant reports and studies.
The Committee attempted to secure quantitative data from the Administrative
Office on panel attorneys’ vouchers, voucher review, and voucher reductions as part
of its research. Much of the information requested by the Committee did not exist,
and what was provided did not fully meet the Committee’s needs.
The Committee understands that the Administrative Office’s efforts to systemically collect data have met with some obstacles. For example, although the judiciary
has an electronic system for receiving and processing bills from panel attorneys
nationwide, many of the system’s features that would allow for more comprehensive
data collection and analysis have not been activated or installed.
The Committee did have access to useful data from prior surveys of federal
defenders and panel representatives, as well as information on the use of service providers by panel attorneys. To complement that data the Committee fielded its own
nationwide surveys of panel attorneys, and questioned half of them about their experience with voucher cutting and the other half about their use of service providers.3
In order to study, review, and organize the information received, discuss recommendations, and complete this report, the Committee worked together for over
200 hours in addition to time spent conducting hearings. Before participating in
the study, Committee members were unaware of the depth and scope of the problems hindering implementation of the Criminal Justice Act. Because the current
structure emphasizes local control, most actors within the criminal justice system
know only what happens in their own courtrooms and/or districts; and each
has its own distinct culture and practices. At the outset, many on the Committee
believed that the system of federal public defense worked fairly well, upheld the
right to equal justice, and could be improved with small changes or gradual shifts
in policy and practice. Studying the system as a whole and hearing from hundreds
of witnesses from around the country led Committee members to the unanimous
conclusion that the current administrative structure of the CJA is flawed, defeating
3

As evidence of the current lack of data, the Committee was unable to obtain a complete national list
of active panel attorneys from the Administrative Office. Thanks to the assistance of CJA Panel District
Representatives across the country and others, the Committee was able to construct its own list of all
CJA Panel Attorneys for use in these surveys. See Appendix C: Survey Data Considered.

4

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-48

AR-2413

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 50 of 342 Page ID
#:27632

the best efforts of everyone dedicated to consistently deliver independent and
effective representation. The Committee hopes this report will provide the same
broad perspective to those individuals who lack a bird’s-eye view of the system of
public defense in the federal courts.

•

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-49

5

AR-2414

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 51 of 342 Page ID
#:27633
BACKGROUND

Section 2: Legal
Underpinnings and
Passage of the
Criminal Justice Act
2.1 Establishing the Right to Counsel:
Sixth Amendment Jurisprudence
The Chief Justice tasked this Committee to study one of the most fundamental rights
in America. This right — the right of the accused to competent counsel — “must be
assured to every man accused of crime in Federal court, regardless of his means.”4
Enshrined in the Constitution under the Sixth Amendment, the right to “assistance
of counsel” is a pillar on which the American justice system rests. As Judge Learned
Hand stated succinctly, “If we are to keep our democracy, there must be one commandment: Thou shalt not ration justice.”5
However for nearly 200 years from the Sixth Amendment’s6 adoption until
the Supreme Court’s decision in Gideon v. Wainwright 7 justice was rationed, with
a greater portion allotted to those who had money. Prior to the 20th century, even
though defendants possessed a right to retain counsel, those who could not afford
an attorney were still required to defend themselves, but alone against a prosecutor and in front of a judge, both possessing specialized legal knowledge. A few cities
4

John F. Kennedy, Annual Message to the Congress on the State of the Union. January 14, 1963
C.J. Learned Hand, 75th Anniversary Address to the Legal Aid Society of N.Y. (Feb. 16, 1951) (quoting
Sophocles).
6 See U.S. Const. amend. VI, “In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and to be informed
of the nature and cause of the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defence.” (emphasis added)
7 Gideon v. Wainwright, 372 U.S. 335 (1963).
5

6

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-50

AR-2415

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 52 of 342 Page ID
#:27634

and jurisdictions created legal aid societies to assist the indigent in their criminal
defense, but the vast majority of defendants too poor to afford a lawyer were prosecuted and convicted without a lawyer by their side.
In 1932, the Supreme Court recognized that defendants required more than
the occasional, ad hoc provision of counsel if their Sixth Amendment rights were
to be protected. In Powell v. Alabama,8 nine African-American teenagers — often
referred to as the “Scottsboro boys” — having been denied effective counsel, an
impartial jury, or a fair trial and sentencing were wrongly convicted of raping two
white women.9 All were convicted in trials that lasted no more than a few hours.
Eight of the nine, including a 13-year-old boy, were sentenced to death. None had
been given access to an attorney until a few minutes before their trial began. Of the
two attorneys who had agreed to represent all nine, one had retired decades previously and the other was a Tennessee real estate lawyer.
Recognizing there had been a grave miscarriage of justice, the Supreme Court
formally held that indigent defendants charged with capital crimes had a right to
court-assigned counsel. Challenging principles of English common law that looked
to judges as the defendant’s protector and advocate, and forecasting many of the
principles that inform this report, the Court intoned:
[H]ow can a judge, whose functions are purely judicial, effectively discharge the obligations of counsel for the accused? He can and should
see to it that, in the proceedings before the court, the accused shall
be dealt with justly and fairly. He cannot investigate the facts, advise
and direct the defense, or participate in those necessary conferences
between counsel and accused which sometimes partake of the inviolable
character of the confessional.10
By rejecting English common law as contrary to principles of due process, the
Supreme Court held that defense counsel had an essential and unique role to play
in our adversarial system. Denial of counsel was a denial of justice.11
Six years later, in Johnson v. Zerbst, the Supreme Court held that all defendants, not just those facing the death penalty, had a right to court-appointed counsel when charged with a felony in federal courts. The Court stated, “Since the Sixth
Amendment constitutionally entitles one charged with crime to the assistance of
counsel, compliance with this constitutional mandate is an essential jurisdictional

8

Powell v. Alabama, 287 U.S. 45 (1932).
Powell at 71–73.
10 Powell at 61.
11 Powell at 68 (citing Galpin v. Page, 85 U.S. 350, 369 (1873)) (“Judgment without such citation and
opportunity wants all the attributes of a judicial determination; it is judicial usurpation and oppression,
and never can be upheld where justice is justly administered.”).
9

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-51

7

AR-2416

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 53 of 342 Page ID
#:27635
BACKGROUND

prerequisite to a federal court’s authority to deprive an accused of his life or liberty.”12
Despite establishment of this substantive right, no legislation was immediately
forthcoming to ensure it in practice. Federal judges were responsible for implementing the Sixth Amendment, but they lacked access to any institutional assistance in
the form of a federal scheme or structure for providing defense counsel. Judges had
the power to appoint attorneys. But without the authority and resources to pay them,
the costs of defending indigent clients fell wholly on the shoulders of the private bar.
Courts had to rely on attorneys’ professional obligation to perform pro bono service.
Assignment methods varied depending on the court and were mixed in their success
of equally distributing the work among the bar and “in picking a suitable attorney
for a particular case.”13 With the exception of the few legal aid organizations in large
cities that employed skilled defense attorneys, the vast majority of poor defendants
were appointed counsel who were young, generally inexperienced, and typically had
no trial experience at all, let alone experience with criminal defense.14
Although lacking resources, the lower courts did not allow the Sixth
Amendment to wither; they continued to define the contours of the right to an attorney for those unable to afford one. The accused was entitled not to just a pro forma
attorney but to “effective, wholehearted assistance of counsel and to the undivided
loyalty” of his representative.15 Such dedication was “essential to due process”16 and
encompassed a lack of conflicts not only with other defendants or parties but also
with other players in the criminal justice system. The appointed attorney should not
act “as a passive friend of the court, but as a diligent, conscientious advocate,” said
the D.C. Circuit.17 Decisions about the defense were to be left solely to the defense
attorney.18 Judge E. Barrett Prettyman observed that:
The constitutional right of an accused to the assistance of counsel might
well be destroyed if counsel’s selections upon tactical problems were
supervised by a judge. The accused is entitled to the trial judgment of
his counsel, not the tactical opinions of the judge. Surely a judge should
not share the confidences shared by client and counsel. An accused
bound to tactical decisions approved by a judge would not get the due
process of law we have heretofore known. And how absurd it would be
for a trial judge to opine that such-and-such a course was ineffective
12

Johnson v. Zerbst, 304 U.S. 458, 467, (1938).
Bruce J. Havighurst & Peter MacDougall, Note, The Representation of Indigent Criminal Defendants
in the Federal District Courts, 76 Harv. L. Rev. 579, 581 (1963).
14 76 Harv L Rev 579 at 582–583.
15 MacKenna v. Ellis, 280 F.2d 592, 595 (5th Cir. 1960), modified, 289 F.2d 928 (5th Cir. 1961).
16 Id. at 599
17 Tate v. United States, 359 F.2d 245, 253 (D.C. Cir.1966) (citing Ellis v. United States, 356 U.S. 674,
(1958)).
18 See O’Malley v. United States, 285 F.2d 733, 734 (6th Cir. 1961) (“Many questions may arise in the
course of a trial, which must be left to the decision of the defense attorney.”).
13

8

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-52

AR-2417

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 54 of 342 Page ID
#:27636

or incompetent because it persuaded him (the judge) to decide thusand-so adversely to the accused.19
Up until the early 1960s, assigned counsel were obliged to use their own
resources to pay for all expenses, experts, and other assistance. Then in 1963, a
district court in Alabama found such a burden ultimately denied defendants a
full-throated defense. The court ruled that the Sixth Amendment right to effective
representation necessitated that appointed counsel be reimbursed for their expenses.20 This ruling would later be cited by Attorney General Robert F. Kennedy in his
request to Congress to address through legislation the federal government’s Sixth
Amendment responsibilities.21
Also in 1963 the Supreme Court decided Gideon v. Wainwright,22 establishing
the right to counsel for all persons charged with a felony-level offense. Clarence Earl
Gideon was charged with larceny for breaking into a Florida pool hall. Though Mr.
Gideon insisted he had the right to an attorney, he was denied one because Florida
law at that time provided counsel only in capital cases. Despite his best efforts to
mount a defense at trial, Mr. Gideon was convicted on a single piece of circumstantial testimony. Though he had only an eighth grade education, Mr. Gideon
personally hand wrote his petition to the Supreme Court requesting they hear his
case. In this landmark ruling, the Court held that the right to an attorney in all state
criminal proceedings was an essential liberty under the Constitution’s Fourteenth
Amendment23 that guarantees equal protection and due process under the law.
Even after Gideon, the Supreme Court continued to make clear that the Sixth
Amendment granted not only a procedural right to counsel but also a substantive
right to an independent and devoted advocate. Indeed, the “independence” of
appointed counsel to act as an adversary is an “indispensable element” of “effective representation.”24 The state that appoints counsel has a “constitutional obligation to respect the professional independence of the public defenders whom it
engages,” as “a defense lawyer best serves the public not by acting on the State’s
behalf or in concert with it, but rather by advancing the undivided interests of the
client.”25 In Polk County v. Dodson, the Court ruled that once counsel is appointed,
19

Mitchell v. United States, 259 F.2d 787, 793 (D.C. Cir. 1958).
United States v. Germany, 32 F.R.D. 343, 344 (M.D. Ala. 1963).
21 Criminal Justice Act: Hearings Before the Subcomm. No. 5 of the House Comm. On the Judiciary, 88th
Cong., 29, 44–45 (1963).
22 372 U.S. 335 (1963).
23 U.S. Const. amend. XIV, Section 1, “No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law, nor deny to any person within its jurisdiction
the equal protections of the laws.” The Sixth Amendment right is considered so fundamental that
it is “incorporated” under the Fourteenth Amendment, and thus protects both federal and state
defendants.
24 Ferri v. Ackerman, 44 U.S. 193 (1979).
25 Polk County v. Dodson, 454 U.S. 312 (1981).
20

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-53

9

AR-2418

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 55 of 342 Page ID
#:27637
BACKGROUND

the attorney “is not amenable to administrative direction” from those who made
the appointment.26 In Polk County, Chief Justice Burger emphasized genuine independence as a requirement:
[I]n providing counsel for an accused, the governmental participation
is very limited. Under Gideon v. Wainwright, 372 U. S. 335 (1963), and
Argersinger v. Hamlin, 407 U. S. 25 (1972), the government undertakes
only to provide a professionally qualified advocate wholly independent of
the government. It is the independence from governmental control as to
how the assigned task is to be performed that is crucial.27
Three years later the Court ruled in Strickland v. Washington that independence of appointed counsel is not merely aspirational, it is a “constitutionally protected” principle.28 Thus, the Supreme Court has made clear that the right to effective assistance under the Sixth Amendment requires counsel’s freedom “to make
independent decisions about how to conduct the defense.”29

2.2 Moving Towards a Federal
Defender Program
Long before the Supreme Court decided Gideon, the federal judiciary had called
for a formal system of indigent defense in the federal courts. As early as 1937,
the Judicial Conference of the United States recommended the establishment of
defender offices where caseloads justified it.30 This suggestion was raised again
and again by the Judicial Conference for years.31 In 1947, the Director of the
Administrative Office of the United States Courts sent a letter to the U.S. Senate
Judiciary Committee calling the lack of compensation for appointed counsel a
“defect in the federal judicial system” that needed to be fixed.32 Warren Olney, III,
Director of the Administrative Office in 1959, testified before Congress that the
pro bono expectation was not only a burden on private attorneys but was unfair
to defendants as well. The Judiciary was not alone — the Attorneys General of the
United States, the Department of Justice, and the American Bar Association all
advocated alongside judges for a legislative solution to this Sixth Amendment crisis.
In 1961, Attorney General Robert F. Kennedy appointed the Committee on
26
27
28
29
30
31
32

10

Id.
Id at 327.
Strickland v. Washington, 466 U.S. 668, 689 (1984).
Id at 686
The Report of the Judicial Conference of the United States, 8–9 (Sept. Sess. 1937).
Robert J. Kutak, The Criminal Justice Act of 1964, 44 Neb L Rev 703, 711 (1965).
S. Rep. No. 81–197, at 2–3 (1949).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-54

AR-2419

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 56 of 342 Page ID
#:27638

Poverty and the Administration of Justice, instructing its members to study the
system of federal criminal justice for those defendants unable to afford an attorney.
The Allen Committee33, named after its chair, Professor Francis A. Allen, was asked
to present to the Department of Justice a series of recommendations to address
weaknesses in the administration of criminal defense, especially the problems faced
by defendants without resources to afford counsel. In 1962, as the Allen Committee
went about its work, two editors of the Harvard Law Review conducted their own
research into the state of federal public defense.34 They found that without institutional support or payment, assigned counsel’s role was limited, and most of the
attorneys spent less than three hours, not including time in court, preparing each
case.35 Guilty pleas were prefaced only by “a hurried ten-minute conference in a
corner of the courtroom.”36 Those who were assigned counsel received young, inexperienced lawyers, “little versed in the technicalities of the criminal law or the questioning of accused persons,” with “little if any courtroom experience.”37 Attorneys
were reluctant to refuse a judge’s assignment because “they might later have to
appear before [the judge] on an important matter.”38
While the glaring problems were obvious to the article’s authors, the majority of lawyers and judges interviewed for the study felt the ad hoc system provided
“adequate” or “very adequate” representation.39 Even though the system’s inadequacies were clear to those who studied the system, those within that system failed
to see them. Perhaps because operating within the system limited perspective and
exposure, or perhaps because their expectations were low, 93 percent of lawyers and
judges believed that appointed counsel performed sufficiently.40
The Allen Committee’s findings, captured in its 1963 report, echoed those of
the Harvard Law Review study. It refuted the belief that defendants without means
were receiving effective representation. The Allen Committee concluded that the
ad hoc system of providing counsel to indigent defendants failed both those defendants and the criminal justice system as a whole.41 The report underscored the
33

The Allen Committee’s Report of the Attorney General’s Committee on Poverty and the
Administration of Federal Criminal Justice was submitted to the Attorney General on February 25, 1963
and to the Congress in March of the same year.
34 Bruce J. Havighurst & Peter MacDougall, Note, The Representation of Indigent Criminal Defendants
in the Federal District Courts, 76 Harv. L. Rev. 579, 581 (1963).
35 76 Harv. L. Rev. 579, 588.
36 76 Harv. L. Rev. 579, 589.
37 76 Harv. L. Rev. 579, 596.
38 76 Harv. L. Rev. 579, 591.
39 76 Harv. L. Rev. 579, 588.
40 76 Harv. L. Rev. 579, 588.
41 See e.g., Attorney General’s Comm. on Poverty and the Admin. of Fed. Criminal Justice, Rep. to the
H. Comm. on the Judiciary, 86th Cong. 10 (U.S. Gov’t Printing Office 1963) (discussing the vital role
that a strong defense plays in the health of our adversarial system, and stating the Committee’s finding
that the “system [was] imperiled” by the large number of defendants unable to afford or adequately
fund “a full and proper defense”) [hereinafter Allen Report].

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-55

11

AR-2420

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 57 of 342 Page ID
#:27639
BACKGROUND

serious consequences for defendants in the ad hoc system: Lacking resources to
challenge the government’s charges, the vast majority of defendants were advised
to plead guilty. For those who ignored this advice, going to trial without an attorney
skilled and equipped to provide a vigorous defense proved “devastating.”42 The committee called upon the Department of Justice to support legislation that would allow
each federal district court to craft a plan for providing adequate representation and
addressing local needs and circumstances. The Allen Report extolled the newly created independent legal aid office in the District of Columbia as a model and advocated for the end of pro bono representation:
The notion that the defense of accused persons can fairly or safely be left
to uncompensated attorneys reveals the fundamental misconception that
the representation of financially deprived defendants is essentially a charitable concern. On the contrary, it is a public concern of high importance.
A system of adequate representation, therefore, should be structured and
financed in a manner reflecting its public importance.43
Attorney General Kennedy delivered the report to Congress on March 6, 1963.
The Report urged the prompt enactment of legislation to ensure that people accused
of crimes in federal court receive the kind of defense guaranteed under the Sixth
Amendment. As part of future legislation, the report urged changing the definition
of eligible defendants from “indigent” to persons “financially unable to obtain adequate representation,” and recommended that compensation be provided to attorneys and for any ancillary services essential to the defense, including investigatory
services, use of experts, preparation of transcripts, etc.

2.3 The Criminal Justice Act
President John F. Kennedy gave his final State of the Union address before a joint
session of Congress on January 14, 1963. In it, he called for the protection of the
right to counsel regardless of a defendant’s financial position.44 That same year,
U.S. Attorney General Robert Kennedy warned the U.S. House of Representative’s
Committee on the Judiciary about the consequences of refusing to act to ensure
the right to counsel. Citing U.S. v. Germany,45 where the court found that the government’s refusal to pay expenses for assigned counsel to interview witnesses or
view the alleged crime scene violated the Sixth Amendment, he warned, “There
42

Allen Report at 26.
Allen Report at 42.
44 “The right to competent counsel must be assured to every man accused of crime in Federal court,
regardless of his means.” Annual Message to the Congress on the State of the Union, January 14, 1963.
45 United States v. Germany, 32 F.R.D. 343, 344 (M.D. Ala. 1963)
43

12

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-56

AR-2421

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 58 of 342 Page ID
#:27640

are going to be cases thrown out all over the country” if Congress refused to act.46
At that time, Congress had considered legislation creating a public federal defense
system but had failed to enact such a law. But on August 7, 1964, following pleas
from the President, the Attorney General, and the Allen Committee, Congress
passed the Criminal Justice Act.47
Because Congress continued to debate whether to create institutional defenders, the CJA focused on compensating and providing resources to private attorneys
appointed to represent indigent defendants. The initial version of the Act provided
for appointed counsel to be selected from a panel of designated attorneys and paid
at the rate of $10 per hour for out-of-court work and $15 per hour for time spent
in court, in addition to reimbursement for reasonable expenses incurred.48 The
maximum attorneys could recover for time and expenses was $500 for a felony
case and $300 for a misdemeanor. The statute also provided compensation for
service providers such as experts or investigators up to a maximum $300 per case.
Importantly, the Act provided that a defendant without resources “shall be represented at every stage of the proceeding from his initial appearance . . . through
appeal,” granting defendants a right to representation at an earlier stage than previously established by federal courts.49
Recognizing that it needed to resolve whether defender offices should be
established, the 88th Congress requested further study of the issue. In 1967, the
Department of Justice and the Judicial Conference of the United States commissioned Professor Dallin H. Oaks to undertake the study. Submitted in 1969, the
Oaks Report found “a demonstrated need for some type of full-time salaried Federal
defender lawyers.”50 In 1970, Congress amended the Act to create the current hybrid
system of institutional defenders and private attorneys.
While the CJA was the result of extended debate and compromise between the
Senate and House, one question was not debated publicly: Who should have the
responsibility for running the program? The judicial branch ultimately was decided
46 Criminal Justice Act Hearings Before the Subcomm. No. 5 of the House of Comm. On the Judiciary,
88th Cong. 29 (1963)
47 Pub L. 88–455 (signed August 20, 1964) The original CJA only created compensation for private
attorneys; as discussed in the Criminal Justice Act of 1964, Pub. L. No. 88–455, 78 Stat. 552 (codified as
amended at 18 U.S.C. § 3006A (2012)) (Please note that the original CJA only created compensation
for private attorneys; as discussed below, the statute was amended in 1970 to include federal and
community defender offices.).
48 It should be noted this was considerably lower than prevailing legal fees at the time, even in
comparison to the payment schemes that had been established by states. For example, the minimum
hourly rate under the state of Michigan’s suggested state-wide fee schedule was $25.00. See John J.
Haugh, The Federal Criminal Justice Act of 1964: Catalyst in the Continuing Formulation of the Rights of
the Criminal Defendant, 41 Notre Dame L.Rev. 996, 1004 fn 60 (1966) (citing 43 MICH. S.B.J. 9, 28 (Aug.
1964)).
49 See e.g. Anderson v. United States, 352 F.2d 945, 947 n.3 (D.C. Cir. 1965).
50 Dallin H. Oaks, The Criminal Justice Act in the Federal District Courts, Subcomm. on Constitutional
Rights of the S. Comm. on the Judiciary, 90th Cong., 2d Sess. 11 (Comm. Print 1969) [hereinafter Oaks
Report].

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-57

13

AR-2422

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 59 of 342 Page ID
#:27641
BACKGROUND

to be what might be described as the “least bad” option. Even from the beginning,
Congress understood that the defense function was a mismatch with the mission
and expertise of the Judiciary. As the Wall Street Journal reported in August of 1964:
Not surprisingly, this new administrative chore isn’t welcomed by the
judges, already overburdened by crowded trial dockets. The Judicial
Conference privately urged the Administration and Congress to find
someone else to run the program. But the Justice Department couldn’t
qualify because it is the prosecutor who will do battle with the appointed
lawyers. The Department of Health, Education, and Welfare was eliminated for fear the program would pick up a “welfarism” label and falter
on Capitol Hill. So the judges got the job.51
Judges at the time voiced their concerns about controlling a function that they
believed should be independent. In 1969 Chief Justice Warren E. Burger lamented
that the CJA had not created a separate entity to run the program. Having studied
the program from its implementation, he agreed that “some independent supervisory agency” was appropriate, as he had concluded that the defender program had
to be “insulated . . . from the judges.”52 He went on to state:
Now, I did not think that at the outset of the study. I became persuaded
after I saw systems where either the judges were inattentive or where
the machinery that grew up resulted in certain favorite lawyers getting
the appointments, or some other such inadequacy. The judges, as I said
before, must maintain a real and an active interest in all these things.
But the governance of a public defender or a legal aid system should be
insulated from the courts, insulated from the prosecutor; it should be an
independent body of lawyers.53
Judges were not the only ones concerned about placing the federal defender
program under the judiciary’s control. While considering the 1970 amendments to
the Act, which gave districts the option of creating federal defender offices, a Senate
report characterized placement in the judiciary as an “initial phase” from which the
program should grow and evolve. The legislative history makes clear that Congress
saw the judiciary as a temporary home for any defense program:
Clearly, the defense function must always be adversary in nature as well as
high in quality. It would be just as inappropriate to place the direction of the
defender system in the judicial arm of the government as it would be in the
51

The Wall Street Journal, Aug. 18, 1964, p. 10, col. 3–4
Proceedings at the1969 Judicial Conf., U.S. Court of Appeals, Tenth Circuit: Min. Standards for
Criminal Justice, 49 F.R.D. 347, 374 (1969).
53 Id.
52

14

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-58

AR-2423

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 60 of 342 Page ID
#:27642

prosecutorial arm. Consequently, the committee recommends that the need
for a strong independent administrative leadership be the subject of continuing congressional review until the time is right to take the next step.54

2.4 Prado Report: First Independent
Review of the Criminal Justice Act
That “congressional review” would not come for another 20 years. Not until the
Judicial Improvement Act of 1990 did Congress ask the Judicial Conference to conduct further study of the federal appointed counsel program. Led by Judge Edward
C. Prado, then a federal district court judge for the Western District of Texas, the
“Prado Committee” included federal judges, defenders, professors, and a former
United States Attorney. The Committee faced obstacles in its comprehensive review,
including the unavailability of reliable, empirical data about the program, time and
budget constraints, incomplete and inaccurate panel attorney rolls, and the absence
of any formal analyses of the quality of representation provided by federal and community defenders and panel attorneys.
Despite these challenges, the Prado Committee submitted its report to the
Judicial Conference on January 29, 1993.55 Finding significant problems in the
administration of the CJA, the Committee made several recommendations for
reform, some of which the Judicial Conference ultimately adopted. These included
eligibility standards for membership on a CJA panel, additional training programs
for panel attorneys, increased compensation for panel attorneys, and reimbursement for necessary and reasonable travel time. The report also recommended the
establishment of more federal defender offices in districts with the caseloads to support it, and the creation of evaluation procedures to review staff and attorney performance in defender offices, which the Judicial Conference agreed to as well.
However, the centerpiece recommendation of the report was to create an independent defense agency under the judiciary. Citing the growing size and complexity of federal defense services, the Prado Committee concluded that a dedicated
agency was necessary to manage the program effectively. The Committee also found
that judicial involvement in the program impaired the quality of CJA representation
while overburdening the courts, whose responsibilities under the CJA had grown as
caseloads had increased.
Analyzing the letters, comments, testimony, and surveys it received, the Prado
54

S. Rep. No. 91–790, 91st Cong., 2d Sess. at 18 (1970).
Comm. to Review the Criminal Justice Act, Rep. of the Comm. to Review the Criminal Justice Act,
at 2, reprinted in 52 Crim. L. Rep. (BNA) 2265 (1993) [hereinafter Prado Report] (quoting S. Rep. No.
91–790, 91st Cong., 2d Sess. at 18 (1970)).

55

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-59

15

AR-2424

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 61 of 342 Page ID
#:27643
BACKGROUND

Committee ultimately recommended what the Senate Judiciary Committee and
Chief Justice Burger had believed would be necessary to fulfill the CJA’s mission “of
a strong, independent office to administer the federal defender program.”56 While
the Judicial Conference took up many of the Prado Committee’s recommendations,
the Conference rejected the call for independence.57

2.5 How Things Have Changed Since
the Passage of the Criminal Justice Act
In 1964, when Congress first passed the CJA, the landscape of criminal justice at
the federal level looked considerably different. Criminal jurisdiction was extremely
limited.58 Because there were a “comparatively small number of criminal cases”
in federal courts — only a third of which would be eligible for services under the
CJA — Congress initially thought the program would be “both manageable and relatively inexpensive.”59 During debate over the bill, a congressman stated his assumptions about the expected cost:
Now, if we assume that each attorney would spend one hour in his
office and one hour on each of these cases, the $25 fee would amount
to $250,000 a year. Of course, in a complicated felony case, the time
expended and the cost involved might be substantially greater than the
average, especially if appeals are involved. However, it is equally true that
in many cases, if not most cases, less than an hour of courtroom practice
and less than $15 in fees may be involved.60
Initially, the program proved less costly than expected. However, the program
and its cost began to grow rapidly. The number of appointments increased. And
by the time of the Oaks Report in 1969, the cost per case had risen to $125.61 These
same trends continued in the years to come. Along with growth in federal criminal jurisdiction, there was an increase in the complexity of individual cases, and a
significant rise in the percentage of defendants who required appointed counsel. By
56

Prado Report at 9–10, quoting Senate Report No. 91–790, 91st Cong. 2d Sess. April 23, 1970, at 18
Rep. of the Judicial Conf. of the United States on the Federal Defender Program 3, submitted by the
Federal Judiciary to Cong. pursuant to Sec. 318 of the Judicial Improvements Act of 1990, Pub. L. No.
101–650 (1993) [hereinafter JCUS Report 1993]
58 The Wall Street Journal, August 18, 1964, p. 10, col 3–4; John J. Haugh, The Federal Criminal Justice
Act of 1964: Catalyst in the Continuing Formulation of the Rights of the Criminal Defendant, N.D. Law
Rev (1965) Vol. 41 Issue 6 Art. 11, at 1005, n.68.
59 John J. Haugh, The Federal Criminal Justice Act of 1964: Catalyst in the Continuing Formulation of
the Rights of the Criminal Defendant, N.D. Law Rev (1965) Vol. 41 Issue 6 Art. 11 at 1004
60 44 Neb L Rev 703, fn 55 pg 720; Statement of Congressman Poff, 110 Cong. Rec. 447 (1964)
61 Oaks Report, Roman L. Hruska, Preface to Oaks Report, at III (1968).
57

16

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-60

AR-2425

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 62 of 342 Page ID
#:27644

the time of the Prado Report in 1993, the number of CJA appointments had more
than quintupled, from 16,000 in 1964 to approximately 80,000 thirty years later. Total
program expenditures in fiscal year 1993 surpassed $295 million. The Prado Report
identified various underlying causes, including massive growth in the number of
federal prosecutions overall, a significant increase in drug cases, a drastic increase
in the length and complexity of federal criminal cases, and the introduction of sentencing guidelines and mandatory minimums.62
The CJA program itself expanded and matured to satisfy the demand for
appointed counsel. By 1993, approximately 40 federal public defender offices
(FPDOs) had been established to serve over half of the 94 judicial districts.
Additionally, there were nine community defender offices (CDOs) — non-profit
organizations incorporated to provide criminal defense services on par with their
federal defender counterparts — representing indigent defendants in 10 districts.63
Still, the Prado Report recognized that the capacity of the defender program
had not kept pace with the enormous rise in need. The Report stated that after three
decades, “The management needs of this large and complex program have outgrown what can properly be expected through even the highly conscientious efforts
of the Judicial Conference and the Defender Services Committee.”64
Continued expansion of federal criminal jurisdiction,65 even greater case
complexity and challenges in sentencing, voluminous electronic discovery, and
an exponential increase in immigration cases have led to even further growth of
the defender program under the CJA. Today, there are 81 federal and community
defender offices serving 91 judicial districts. The number of appointments to those
offices has more than quadrupled, from 37,685 in 1993 to 161,540 in fiscal year 2016,
while the number of cases appointed to panel attorneys has more than doubled since
the Prado report to 80,535. Even since 2000, total appointments to panel attorneys
and defender offices have nearly doubled, from 118,494 to 226,710 in 2015.66 Today,
roughly 93 percent of criminal defendants in federal court require appointed counsel.
62

Prado Report at 1
JCUS Report 1993 at 3
64 Prado Report at 1
65 While the expansion of federal criminal jurisdiction has been the subject of many other reports,
for comparison, in 1990 just before the Prado Committee began its study, the total requested for
just salaries and expenses for United States attorneys employed by the Department of Justice was
$454,279,000. For FY2015, at the start of this Committee’s study, for salaries and expenses, the DOJ
requested $1,995,300,000. These numbers do not include the significant amount of money expended
towards investigation, forensic analysis, or requested by other agencies like the FBI or DEA for
assistance with federal prosecutions. See Office of Mgmt. & Budget, Exec. Office of the President,
Budget of the United States Gov’t, Fiscal Year 1990, 485 (Jan. 9, 1989); U.S. DOJ, FY2015 Summary
Information by Appropriation: U.S. Attorneys, available at https://www.justice.gov/sites/default/
files/jmd/legacy/2014/05/04/usa.pdf, (last visited July 26, 2017).
66 U.S. Federal Courts, Judicial Business 2000 28 http://www.uscourts.gov/sites/default/
files/2000judicialbusiness.pdf. (last visited July 26, 2017); U.S. Federal Courts, Federal Judicial Caseload
Statistics, Criminal Justice Act — Judicial Business 2015 http://www.uscourts.gov/statistics-reports/
criminal-justice-act-judicial-business-2015, (last visited July 26, 2017).
63

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-61

17

AR-2426

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 63 of 342 Page ID
#:27645
BACKGROUND

A CJA program that was created on the understanding that its budget would be
small and its appointments few has been required to grow well beyond its original
design into a billion dollar program. An evaluation of the program’s needs and an
investigation into how it could adapt and evolve to meet the sheer volume and complexity of modern criminal defense work was well overdue.

2.6 Administration of the Criminal
Justice Act by the Judiciary
2.6.1 Hybrid System of Defense
Since the CJA’s amendment in 1970, the federal defender program has functioned as
a hybrid system comprised of public defender offices and appointed private attorneys. This system allows for flexibility, since panel attorneys can step in to handle a
sharp increase in prosecutions. It also addresses conflicts that may arise in multi-defendant cases, with the defender office often taking the lead defendant while panel
attorneys act as counsel for the other defendants. Lastly, the current system offers the
consistency of having an institutional defender office, which not only sets the bar for
defense best practices locally but, with ready access to resources, can often provide
training opportunities and assistance to panel attorneys in that district.
There are two kinds of defender offices within the CJA system:67

Federal Public Defender Offices (FPDO)
FPDOs are headed by a federal public defender appointed by the Circuit
Court and subject to various reappointment processes every four years.
All staff in an FPDO are government employees. The Circuit Court determines the number of Assistant Federal Defenders an office may hire and
so exercises additional control over FPDOs.

Community Defender -Organizations (CDOs)
CDOs are non-profit corporations funded by the Defender Services
Program. CDOs are managed by a board of directors and employ an
Executive Director who functions as the district’s Federal Defender.
From the perspective of a defendant, FPDOs and CDOs operate identically (in
this report, they are referred to collectively as “federal defender offices” or FDOs)
Private attorneys, depending on the district, either apply to be included on
the local “CJA panel” or are placed on the panel through some other process. Panel
attorneys are often solo practitioners or from small firms and also take paying clients in addition to their appointed cases. Each district has a CJA panel attorney
67

18

18 U.S.C. Section 3006A(g)(1) and (2).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-62

AR-2427

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 64 of 342 Page ID
#:27646

district representative to communicate with the national program and disseminate
information among panel attorneys. This program was instituted after the Prado
report, to improve communications with panel attorneys.

2.6.2 National Administration
The Criminal Justice Act places the national administration of the defender program under the authority of the Judicial Conference of the United States (JCUS or
Judicial Conference) and the Administrative Office of the United States Courts (AO
or Administrative Office). JCUS is authorized to create rules and regulations for
the program,68 while the director of the AO is tasked with supervising the expenditures of funds appropriated for indigent defense.69 The statute also charges JCUS
with determining the hourly rate for panel attorneys70 as well as the maximum
amount to be paid to a panel attorney on any one case without additional justification and oversight.71
The Judicial Conference is the judiciary’s governing body. It consists of the
Chief Justice of the Supreme Court, who presides; the chief judges of each circuit;
and one district judge from each circuit. The Conference administers judiciary
funds and makes policy for the administration of the courts. JCUS has committees
to advise the larger Conference on a variety of matters, such as the Committee on
Criminal Law, the Committee on Court Administration and Case Management, and
the Committee on Information Technology. The Executive Committee is the chief
decision-making body within the Conference, determining the jurisdiction of the
other committees and setting the calendar and agenda for JCUS.
The Defender Services Committee (DSC), comprised entirely of judges, is the
JCUS Committee charged with overseeing the CJA program. DSC provides policy
guidance, reviews budget and staffing requests for defender offices, monitors legislation affecting the appointment and compensation of counsel, assists to ensure
adequate and appropriate training for defense attorneys, and helps determine
long range goals for the program. As part of the DSC’s process, it receives feedback
from the defender community through established working and advisory groups.
Although DSC is directly responsible for overseeing the defender program, under
the current JCUS structure, this Committee does not have final decision-making authority on any aspect of the CJA program and cannot advocate directly to
Congress for appropriations for the defender program. Furthermore, under the current structure of JCUS, even DSC’s limited authority is subject to diminution. As an
example, in 2012, the Executive Committee altered DSC’s jurisdiction, removing its
68

18 U.S.C. § 3006A(h)
18 U.S.C. § 3006A(i)
70 18 U.S.C. § 3006A(d)(1)
71 18 U.S.C. § 3006A(d)(2)
69

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-63

19

AR-2428

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 65 of 342 Page ID
#:27647
BACKGROUND

authority to determine individual defender office staffing and compensation levels
and placing that power with the Judicial Resources Committee, which performs
these functions for court entities.
The AO performs administrative functions for the federal judiciary and oversees the expenditure of appropriated funds. Its mission is to serve and support the
federal judiciary pursuant to the policies, guidance, and direction of the Judicial
Conference. The AO provides the working staff for all JCUS committees and so plays
an important role in JCUS policymaking. It assists in creating the judiciary’s budget,
maintains a legislative office that has contacts with Congressional staffers to track
and offer comment on legislation affecting the judiciary, and provides auditing services and financial accountability for court entities, among other tasks.
Within the AO, the office responsible for staffing DSC and assisting in the
national administration of the CJA is the Defender Services Office (DSO). DSO’s mission is divided between supporting defenders and panel attorneys and, as part of the
AO, supporting judiciary interests. DSO provides training to CJA practitioners, advises
on legal and policy issues affecting the provision of counsel and other services under
the CJA, assists individual defender offices in formulating budgets, serves as staff to
AO working and advisory groups, and collects limited data on the defender program.
Until 2013, DSO was a “directorate,” reporting directly to the head of the AO.
This status recognized DSO’s unique non-judicial role. During a reorganization of
the Administrative Office, DSO was demoted to become an office within the AO’s
Department of Program Services, grouped with other court services like pretrial services and probation.

2.6.3 Local Administration
The CJA gives local district and circuit courts significant authority in administering
the program. The statute requires each district to develop and, with the approval of
the circuit judicial council, implement its own plan for providing representation to
defendants financially unable to hire their own lawyer.72 This local control creates
considerable variation across districts in the provision of defense services.
CJA panel attorneys are subject to much greater judicial control of their daily
activities than attorneys who work in federal and community defender offices.
While defender offices receive an annual budget, have salaried employees, and have
the freedom to hire experts, use investigators and paralegals, or purchase computers and software as needed without judicial approval,73 district courts do have
the ability to determine whether to have a defender office at all, and whether the
institutional defender office will be an FPDO or a CDO. District courts also have the
authority to close a defender office or alter its organizational structure (i.e. from a
72
73

20

18 U.S.C. § 3006A(a)
18 U.S.C. § 3006A(g)(2)

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-64

AR-2429

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 66 of 342 Page ID
#:27648

FPDO to a CDO or vice versa).74 But individual judges do not direct or influence the
way lawyers in defender offices represent their clients.
The same is not true for a private panel attorney appointed to a CJA representation whose daily activities are subject to judicial scrutiny. In most districts,
judges decide which attorneys may be on the panel, how cases are assigned,
and whether attorneys should be removed from the panel. The presiding judge
in a case where a panel attorney has been appointed to a CJA client determines
whether and how much a panel attorney will be paid for work on a case.75 And
while in some districts panel attorneys submit fee requests (commonly referred
to as “vouchers”) for payment through a CJA supervisory attorney or the federal
defender for an initial review, in almost every district it is the presiding district
judge who must approve a voucher before it can be paid. Additionally, there are
case compensation maximums on panel attorney fees and expert and investigator
costs. If a panel attorney’s voucher exceeds $10,300 for a non-capital felony case
or an expert or investigator voucher exceeds $2,400, payment must be approved
by the chief judge of the circuit court or a designee.76

•

74

18 U.S.C. § 3006A(g)(1)
18 U.S.C. § 3006A(d)(1)-(2)
76 18 U.S.C. § 3006A(d)(2); 18 U.S.C. § 3006A(e)(3). For a history of panel rate and case maximum
increases see chart on page 54.
75

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-65

21

AR-2430

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 67 of 342 Page ID
#:27649

Findings

A-66

AR-2431

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 68 of 342 Page ID
#:27650

Section 3: National
Administration of the CJA
3.1 Background and Introduction
Since the Prado Report, the federal public defense function has grown considerably. While in 1993, the program’s budget was $295 million, in fiscal year 2017, program expenditures are expected to exceed $1.1 billion. And while there were 80,000
appointments under the program in 1994, there are now over 242,000.77 At the time
of the Prado Report, there were approximately 49 FDOs and CDOs representing over
half of the 94 federal judicial districts, while today there are 81 such organizations
serving 91 of the 94 judicial districts. Considering these numbers, it would seem that
the program has grown and developed — even flourished — under the auspices of
the federal judiciary. Indeed, the judiciary has fostered the development of federal
defender offices in almost every district, instilling a strong defense culture in federal
courtrooms across the country.
Though these successes inform this Report, they do not resolve the questions
that the Committee was charged with answering. While the judiciary has served as
a committed steward, the current structure has hindered the progress of the CJA
Program. As a former member of DSO succinctly explained the issue:
The question facing this Committee is not how well the judiciary has
done in managing the defender services program within the existing
constraints that limit its ability to do so. It is whether there is sufficient or
indeed any rationale for continuing to operate within those constraints
and limitations, rather than making the changes needed to give the
77

These include panel attorney and defender appointments. U.S. Federal Courts, Federal Judicial
Caseload Statistics, Criminal Justice Act — Judicial Business 2016, U.S. Courts, www.uscourts.gov/
statistics-reports/criminal-justice-act-judicial-business-2016.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-67

23

AR-2432

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 69 of 342 Page ID
#:27651
FINDINGS

defender services program the elements that any modern governmental
or business programmatic model would have. A governance structure
that has an unconflicted mandate to carry out a clearly defined mission
and that can be held accountable for its successes and failures.78
This section addresses the suitability of the judiciary’s governing structures to
the task of administering the CJA. The Committee wishes to make it clear that this
review is focused on the current structure and function of this governance; not on the
individual judges who operate within that structure. Indeed, witnesses who appeared
before the Committee made the important distinction between individual judges and
the structure under which those judges must operate. As one defender testified:
I feel tremendous support locally from my judges. . . .Our chief judges in
both districts really went to bat for us during sequestration, but they were
going to bat for us within the judiciary. They were having to do battle within
the judiciary about what was going on, as did the chief judges all around the
country who very much appreciated the work that we were doing.79
But since federal public defense practice has grown, this structure has created
fundamental conflicts between the public defense attorneys and their administrator,
the judiciary. A closer examination of the current structure amplifies these conflicts.80

3.2 Current Structure and Governance
The Criminal Justice Act provides the JCUS authority to issue rules governing local
plans for the provision of public defense. The current structure also provides the
Director of the Administrative Office with authority to create rules and procedures
for, and otherwise administer, the Defender Services Program. Thus, the same entities that determine rules, regulations, and policy for public defense also provide
administrative support for and advocate on behalf of federal judges.81

3.2.1 Judicial Conference Committees Relevant
to the Governance of Defender Services
The JCUS carries out its work primarily through a number of standing committees, several of which interact with, and have authority and influence over, the
78

Steven G. Asin, Former Deputy Assistant Director, DSO, Administrative Office of the U.S. Courts,
Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 7.
79 David Patton, Executive Director, Federal Defenders of New York, S.D.N.Y & E.D.N.Y, Public
Hearing — Philadelphia, Pa., Panel 3, Tr., at 13.
80 For an overview of the basic structure, see Section 3.2, Current Structure and Governance, supra.
81 18 U.S.C. § 3006A(h) (2012).

24

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-68

AR-2433

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 70 of 342 Page ID
#:27652

CJA program.82 Most central to the program’s mission is the Defender Services
Committee, which oversees “the provision of legal representation to defendants in
criminal cases who cannot afford an adequate defense.”83 The Executive Committee
is the most powerful committee of JCUS, acting as “the senior executive arm of the
Judicial Conference.”84 Because it “[p]repare[s] the discussion and consent calendars for meetings of the Judicial Conference;” the Executive Committee decides
what topics and issues the entire Judicial Conference will address at each semi-annual meeting.85 The Committee on the Budget’s mission is “to assemble and present
to Congress the budget for the judicial branch.”86 It determines what resources will
be requested for indigent defense. Lastly, the Judicial Resources Committee determines the staffing formulas governing federal defender offices. As discussed below,
the fact that the majority of decision-making authority over the CJA program largely
rests with Committees other than the Defender Services Committee leads to less
informed and less effective administration of the program.

3.2.2 The Administrative Office and its Role
in the Governance of Defender Services
JCUS also supervises the Director of the Administrative Office, and through the AO
Director, the entirety of the judiciary’s administrative apparatus.87 The AO’s mission
statement makes clear that the Office is dedicated to one entity: “The Administrative
Office of the United States Courts supports, through excellence and innovation, the
constitutional and statutory mission of the federal judiciary . . .”88 Among the AO offices
that significantly affect the budget, policy, and governance of the defender program are
the Defender Services Office, the Budget, Accounting, and Procurement Office (BAPO),
the Office of General Counsel (OGC), and the Office of Legislative Affairs (OLA).89
The Defender Services Office’s mission is “to ensure that the right to counsel
guaranteed by the Sixth Amendment, the Criminal Justice Act, and other statutory
82

See generally About the Judicial Conference, U.S. Courts, http://www.uscourts.gov/about-federalcourts/governance-judicial-conference/about-judicial-conference (last visited Oct. 5, 2017).
83 Id.
84 Id.
85 Id.
86 Id.
87 28 U.S.C. § 604 (2012).
88 The rest of the mission reads, “. . . to provide equal justice under the law as an independent and
equal branch of government.” Given that defenders are positioned under our system of criminal justice
to act in an adversarial role in relation to the prosecution of an individual by the government, the
additional emphasis on the judiciary as a fundamental part of that government is another conflict of
mission with the defense program. It should also be noted that the AO still has limited authority, as
one witness pointed out during Committee hearings. “The AOUSC has little direct authority. If a judge
does not want to follow the CJA’s dictates, let alone Judicial Conference policies, the AO cannot direct
the judge to do so.” Steven G. Asin, Former Deputy Assistant Director, DSO, Administrative Office of the
U.S. Courts, Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 6.
89 See Appendix D for full list of acronyms.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-69

25

AR-2434

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 71 of 342 Page ID
#:27653
FINDINGS

authorities is enforced on behalf of those who cannot afford to retain counsel and
other necessary defense services.”90 DSO is charged with providing leadership,
management, oversight, and support to “(1) Maintain public confidence in the
nation’s commitment to equal justice under law; and, (2) Ensure the successful
operation of the constitutionally-based adversary system of justice by which both
federal criminal laws and federally guaranteed rights are enforced.”91
In contrast to DSO, other offices within the AO that have substantial influence over the defender program focus their efforts on support of the judiciary as a
whole. For example, “The Office of Legislative Affairs (OLA) carries out the judiciary’s legislative liaison activities with Congress, other government entities, and private sector organizations with an interest in legislation and other activity affecting
the judicial branch.”92 Specifically, OLA develops, presents, and promotes legislative initiatives endorsed by the Judicial Conference.93
BAPO is responsible for preparing the judiciary’s appropriations requests and
managing its budget: “The Budget, Accounting and Procurement Office (BAPO) is
responsible for the management, oversight, and support of the judiciary’s finance,
budget, and procurement activities.”94 The office is responsible for the congressional
appropriations requests of the entire judiciary. (The budget process will be discussed
in more detail below.) Within BAPO the Financial Liaison and Analysis Staff’s mission is to “coordinate the judiciary’s liaison activities with the congressional appropriations and budget committees and assist in the coordination of such activities with
the executive branch regarding budget matters.”95 Its functions include:
1. Provide staff support to the Judicial Conference Committee on the Budget’s
Congressional Outreach Subcommittee and other Conference committees
as needed on financial matters.
2. Serve as the judiciary’s point-of-contact with congressional appropriations
and budget committees on budget matters.
A. Prepare testimony on the judiciary’s budget.
B. Coordinate responses to congressional inquiries and reports.
C. Represent the judiciary’s financial interests to Congress.
D. Track congressional budget resolutions and the judiciary’s
appropriations bill.96
These tasks are entrusted to BAPO alone; the other offices within the AO
cannot independently speak directly with congressional appropriators. This is true
90
91
92
93
94
95
96

26

Administrative Office of U.S. Courts, 1 AO Manual § 330.40.
Id. § 330.40 (a).
Id. § 320.60.
Id. § 320.60(b)(3).
Id. § 340.30.
Id. § 340.30.20.
Id. § 340.30.20(b).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-70

AR-2435

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 72 of 342 Page ID
#:27654

even when the Defender Services appropriation is being discussed with congressional staff. BAPO staff does occasionally invite the program staff or a JCUS committee
member to accompany them to the Hill to discuss a particular topic, though in the
case of Defender Services this is extremely rare.97 And while defenders can meet
with anyone in their capacity as an individual defender, they cannot speak for the
program as a whole. Thus, BAPO generally serves as the sole point of contact from
the AO to appropriations staff regarding the Defender Services budget requests.98
In short, the distinct missions of DSO, which primarily supports the provision
of defense counsel and expert services, and of the AO, which primarily provides
administrative support to the courts, are not aligned.99 With these vastly different
missions, DSO fits poorly within a larger structure dedicated to serving the interests
of the judiciary as a whole. And, as this program has grown along with the number
of federal prosecutions, this conflict has become more pronounced.

3.3 Fundamental Weaknesses in the
Current Structure and Governance
The Committee has identified the following issues with placing the CJA administration within the current structure of the Judicial Conference and the Administrative
Office. The Committee’s findings in these areas are supported by testimony from the
public hearing and other public and non-public documentation. These are:
1. the Defender Services Committee’s lack of authority to make meaningful
decisions about the oversight of the CJA program;
2. the Defender Services Office’s lack of status and authority to effectively
manage and support the administration of the CJA program; and
3. the federal defender and panel attorney’s inability to meaningfully participate in the governance of and advocacy for the CJA program.
The Prado report identified many of these same issues more than twenty
years ago, and in some cases the resulting conflicts have increased in severity over
time. A former federal defender who worked within the federal defense system
for decades observed that there has been “a sea change within the administrative
office and the judicial conference over the last, not just the sequester 3 year period,
but I would say probably going back 5 to 7 years. That sea change has significantly
97

This last occurred in 2014 for Defender Services when then-chair of the Defender Services
Committee and one DSO staff member went with BAPO staff to meet with staff from the House
appropriations subcommittee on the issue of the CJA panel attorney hourly rate request.
98 There is a subcommittee of the Budget Committee dedicated to congressional outreach as well.
99 The Defender Services Office staff who work for the Director of the Administrative Office also support
the Defender Services Committee. This creates a structural conundrum. The primary focus of the Defender
Services Office should be the provision of defense counsel and expert and investigative services.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-71

27

AR-2436

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 73 of 342 Page ID
#:27655
FINDINGS

reduced the independence of the defense function, within the administrative
office, within the judicial conference.”100
Other witnesses echoed this sentiment. A former member of the Prado
Committee testified about a 2004 change in the AO’s structure when the director of
the AO at the time, Leonidas Mecham, created the Office of Defender Services as an
independent directorate within the AO. “He recognized [defenders’] unique importance and recognized the importance not only of the function, but the nature of
the work, and elevated the Office of Defender Services to a distinct high level status
within the judiciary, in order to provide judicial input that was deferential to the
needs of the defender community.”101 He told the Committee this recognition and
respect for the importance of the defender function has been lost. Under the 2013
reorganization of the AO, “ODS [the precursor to DSO] was basically demoted.”102
Given that the “federal judiciary did assume a fiduciary duty to look after
the independence of the defense function,”103 the gradual erosions of institutional
protections are troubling, witnesses told the Committee. A former employee with
DSO explained that “with the budget armageddon that we have all experienced in
the last few years, I think there’s been a scarcity mentality that has set in the judiciary and I think a lot of those protections have been eroded.”104 Defenders told the
Committee they no longer believed that the administrative structure afforded the
program the respect and resources it needed:
I could honestly believe that the defender program was the gold standard
for indigent defense in the country if not in the entire world. Then came
the demotion [of DSO]. Then came the sequester. Then came the work
measurement study. We had known all along that we could not survive
without the judiciary in our corner. In this dark time, we were reminded
that the judiciary could exert as much influence and control as it desired
over the administration of the indigent defense program.105

3.3.1 DSC’s Lack of Decision-Making
Authority Over the CJA Program
Emblematic of the structural tensions between the CJA program and its parent the
judiciary is the role of the Defender Services Committee within the JCUS. While it
is the mission of the DSC to represent the interests of the CJA program within the
JCUS, the Committee heard testimony that the DSC has too little authority to truly
advance those interests.
100
101
102
103
104
105

28

Steve Wax, Legal Director, Oregon Innocence Project, Public Hearing — Portland, Or., Panel 1, Tr., at 5.
Thomas Hillier, Former FPD, W.D. Wash., Public Hearing — Portland, Or., Panel 1, Tr., at 1.
Id. The AO’s reorganization is discussed later in this section.
Stephen McCue, FPD, D.N.M, Public Hearing — Santa, Fe, N.M., Panel 2, Tr., at 10.
Id. at 10.
Louis Allen, FPD, M.D.N.C., Public Hearing — Miami, Fla., Panel 1, Tr., at 8.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-72

AR-2437

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 74 of 342 Page ID
#:27656

DSC’s Ability to Advocate for the CJA Program
One reason often given for the concentration of decision making authority within
the Judicial Conference structure is the importance of the judiciary speaking with
“one voice” in its representations to other branches of government, the press, or any
other entity.106 However, as the CJA Program has grown in size and sophistication,
its requirements and responsibilities have increasingly diverged from those of the
judiciary. The former chair of the DSC told the Committee,
while I fully understand the need for the judiciary to speak with a consistent voice, and I appreciate the difficult and generally successful work
that has been done by [another JCUS] committee and its staff, I believe
that there are issues specific to the defender and panel attorney programs
on which we could assist and should have the opportunity to be heard.107
The budget formulation process is an example of where the DSC does not
always prevail in being able to advocate for the best interests of the CJA program.
The budget process is something that came up repeatedly throughout the hearings.
Though the DSC is the committee with the most knowledge about and experience
with the defender program, it lacks the authority to effectively advocate for the CJA
budget within the judiciary and with Congress. Once the DSC meets and makes its
recommendations on funding requests, those recommendations are then filtered
through the Budget Committee and, ultimately, the Judicial Conference. As noted
earlier, it is the Executive Committee’s role to determine whether issues raised will
be discussed during one of the JCUS’s biannual meetings. Particularly problematic are impediments to the DSC’s ability to directly formulate and transmit to the
JCUS its budget request. If DSC’s view of CJA program needs is never conveyed to or
approved by the JCUS, it cannot be considered by Congress. A more in-depth discussion of the budget process is set forth below.
The same is true of DSC’s perspective on proposed legislation affecting the
program. The DSC often has little or no say in the formulation of Conference policy
on legislation.108 Because OLA is bound to advance only positions approved by the
Conference, even where potential legislation may have a profound effect on the CJA
106

During a meeting with the AO administration and senior executives, the Committee was told that
the judiciary must speak with one voice in its representation to other branches of government, the
press, or any other entity.

107

Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 4–5.

108

The DSC’s jurisdiction is extremely limited in terms of its input on legislation: “Monitor,
analyze, and propose for Judicial Conference consideration legislation affecting the appointment
and compensation of counsel and, where appropriate, make recommendations to other Judicial
Conference committees and to the Judicial Conference regarding issues which impact upon
the defender services program.” See The Judicial Conference of the United States and its
Committees August 2013, Appendix Jurisdiction of Committees of the Judicial Conference of
the United States (As approved by the Executive Committee, effective March 13, 2017).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-73

29

AR-2438

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 75 of 342 Page ID
#:27657
FINDINGS

program, the DSC’s perspective may never be heard by Congress.
One defender pointed out to the Committee that the fight the DSC had to wage
on behalf of the CJA program, however, was indicative of the problems the DSC
faces in advocating for the program within the current system:
[W]hen I’m watching [former DSC Chair] Chief Judge Blake fighting
tooth and nail for something . . . it impressed upon me, “What is the view
of the judiciary as far as independence of the defense function when the
respected chair of DSC has to fight this hard to execute something that
everyone had assumed was a given?”109
In spite of the difficulties presented in the current structure, the DSC’s efforts
were recognized by defenders who testified that judges appointed to the DSC had
often become unfailing allies in the competition for resources and policy changes
within the Judicial Conference. Former employees at DSO also lauded the work it
has done, one of them telling the Committee, “The Defender Services Committee
I think has done an outstanding job. People did come to it with varying degrees of
experience and have been great advocates for the program.”110 A defender told the
Committee that even if the judges appointed to the DSC have no experience with
criminal defense and have never cared much about the defense function, “when
judges come out of Defender Services Committee, they usually leave having a really
better understanding of what we do, and a newfound respect for it.”111 Another
defender agreed, testifying that the DSC, “spent enough time with defenders over a
period of years that they seemed, even if they may have come in hesitant at first or
skeptical at first, they developed an appreciation of exactly what it is we do and how
difficult it is and how much of it goes on out of sight of the court and the judges.”112
What the Committee heard was that the DSC did not have as much authority
over the program’s decision-making as it should. As one panel attorney testified, “right
now they’re governed by the Budget Committee [and] by the Executive Committee.”113

Loss of Jurisdiction over Defender Staffing and Compensation
On February 25, 2013, the Executive Committee transferred authority over staffing and compensation in defender offices from the DSC to the Judicial Resources
Committee. Announcing these changes, the Executive Committee stated that, “In
advising you of this decision, I would emphasize again the Executive Committee’s
overarching purpose in making these changes, which is to enhance coordination
109

Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr., at 20.
Richard Wolff, Former Chief, Legal, Policy, and Training Division, DSO, Public
Hearing — Philadelphia, Pa., Panel 7, Tr., at 12.
111 Marianne Mariano, FPD, W.D.N.Y, Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 11.
112 Louis Allen, FPD, M.D.N.C., Public Hearing — Miami, Fla., Panel 1, Tr., at 21.
110

113

30

Peter Schweda, CJA Dist. Rep., E.D. Wash., Public Hearing — Portland, Or., Panel 5, Tr., at 5.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-74

AR-2439

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 76 of 342 Page ID
#:27658

and oversight of the judiciary’s resources.”114 Where the DSC had previously worked
with budget analysts and defenders to determine staffing and budgets for individual
offices, the change in jurisdiction removed this collaboration and effectively eliminated the DSC’s role in the staffing of offices.115
A member of the Judicial Resources Committee (JRC) testified before this
Committee in Philadelphia, stating that in regard to defender staffing, “The Judicial
Conference and Executive Committee asked the Judicial Resources Committee to
take over that function so that we could have a national work measurement study
and a national staffing formula.”116 This was reportedly a strategic decision to streamline the budget process. The Judicial Resources Committee could create a staffing
formula for the defender offices similar to those used in other court units in the
judiciary. That formula could then be used in creating and presenting to Congress
a national budget. Indeed, a JRC member, when asked about returning jurisdiction
to the DSC, told the Committee, “I don’t know that there’s a benefit for returning it
to the Defender Services Committee or to the defender community once this [work
measurement] study is done. I think likely the reason is that we have a history of
doing staffing formulas and then revising those on a rotating 5-year basis.”117
However, the loss of DSC jurisdiction over staffing has consequences for
defender offices and their ability to represent their clients. The then-chair of the
Defender Services Committee’s budget subcommittee explained why the loss of
jurisdiction could undermine the defense program: although the JRC may have the
ability to modify and reevaluate the staffing formulas and surveys on work measurement every five years, that schedule and reliance on staffing formulas fails to
accommodate for the specific needs of defender offices:
The work measurement study and the accompanying transfer of jurisdiction over staffing to the Committee on Judicial Resources will in my
view adversely impact the ability [of DSC] to respond to individual FDO
office staffing needs that inevitably but predictably arise . . . As you know,
the defense function is unique in that it only acts in response to prosecutorial initiatives, initiatives that are totally out of its control. While it
is perfectly appropriate to use a staffing formula as the starting point for
an FDO budget process, restricting the flexibility of a defender organization to adjust staffing needs in response to an unforeseen change in
114

JCUS Memorandum from Judge William B. Traxler to various JCUS Committees, “Subject: Follow
Up on Changes in Committee Jurisdiction, February 25, 2013.

115

The 2013 jurisdictional change removed DSC’s authority over defender office staffing and
compensation and placed it under the Judicial Resources Committee. Because personnel costs amount
to approximately 80 percent of federal defender office budgets, many heads of offices describe the
change as removing budget authority.

116

Chief Judge Lawrence Stengel, E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 8, Tr., at 6.

117

Id. at 17.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-75

31

AR-2440

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 77 of 342 Page ID
#:27659
FINDINGS

caseload whether by virtue of the number of cases or the complexity of
the cases, or sudden changes in the law, places the quality of the representation at risk in my view.118
An example of a sudden change in constitutional law which gave rise to a need
for staffing flexibility was the 2015 Supreme Court ruling in Johnson  v.  US, which
held a portion of the Armed Career Criminal Act unconstitutional.119 Because a
habeas petition seeking relief based on a new rule of constitutional law must be
filed within one year of the Supreme Court’s ruling, defenders had only twelve
months to review the cases of every individual sentenced under the Act, as well as
those sentenced under similarly-worded acts, determine which individuals had
valid claims for relief, and file habeas petitions in district court. Sentences under
these acts are lengthy and thousands of individuals sentenced might still be imprisoned. Accordingly, defenders were required to review cases from as long as thirty
years ago, and the volume of individuals potentially eligible for relief was staggering.
In the end, the decision in Johnson resulted in a review of approximately 35,000 files
and more than 10,000 petitions being filed as a result of that review. One federal
defender told the Committee that after Johnson, “We have 1700 cases to review and
probably about ten percent of those we want to file a [habeas petition], but we’re
looking at this five year average that I can’t go out and hire people and Defender
Services can’t give me people to deal with those cases.”120 Additionally, the workload
increase was not uniform — some offices were barely affected while others reported
to be still struggling to work through past cases to assist their clients. The inability of
DSC to respond quickly to the staffing needs of defender offices in such situations
inhibits the effective representation by those offices.121

3.3.2 AO Re-organization and the Loss
of Directorate Status of DSO
As described earlier, the Defender Services Office is the entity within the AO that
provides leadership, direction, administration, management, oversight and support for the federal appointed counsel system.122 Similar to the structural tensions
discussed between the DSC and the larger JCUS, DSO operates within a structure
that is predominantly focused on judges and court staff.
118

Mag. Judge Jonathon Feldman, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 6.
135 S. Ct. 2551.
120 Elizabeth Ford, Executive Director, CDO, E.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6,
Tr., at 32.
121 From Miriam Conrad: “We have some districts where prosecutors have agreed to waive
the statute of limitations. We have other districts where they haven’t. Each defender is trying to
negotiate that and fight it out on its own.” Miriam Conrad, FPD, D. Mass. & D.N.H. & D.R.I., Public
Hearing — Philadelphia, Pa., Panel 3, Tr., at 18.
122 Administrative Office of U.S. Courts, 1 AO Manual § 330.40.
119

32

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-76

AR-2441

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 78 of 342 Page ID
#:27660

The Committee heard testimony from many witnesses that the re-organization (discussed below) has made the DSO less flexible, has weakened the authority
of the chief of the office, and has created difficulties in supporting federal defense.
Defenders also testified that they saw the change in DSO’s status as indicative of the
judiciary’s failure to appreciate their distinct mission and needs.
Within the AO, before 2013, DSO (then named the Office of Defender Services)
was an independent “directorate,” reporting to the Director of the AO. As illustrated
in the chart below, there was a direct line of communication between Office of
Defender Services and the AO Director.

Administrative Office of the United States Courts (pre-restructuring)

Director
Office of Audit

Office of Management,
Planning
and Assessment
Long-Range
Planning Office

Associate Director
and General Council

Office of Judicial Conference
Executive Secretariat

Office of
Legislative Affairs

Office of
Public Affairs

Judicial Impact Office

Office of Court
Administration

Office of
Defender Services

Office of Information
Technology

Office of
Internal Services

Office of Facilities
and Security

Office of Judges
Programs

Office of Finance
and Budget

Office of Human
Resources

Office of Probation and
Pretrial Services

In 2013, the AO reorganized its structure in an effort “to reduce operating costs
and duplication of effort, simplify the agency’s administrative structure, and provide
enhanced service to the courts and the Judicial Conference.”123 This reorganization
(“re-org”) was meant to: “Simplify organizational structures;” “Empower managers
and streamline governance;” and “Create flexibility to respond to changing circumstances.”124 One core goal was “[t]o enhance service to the courts and the Judicial
Conference.”125 To achieve this, the re-organization would: 1) “Refocus on the AO’s
core mission,” in order to “sustain, and where possible improve, our support of the
123

Memorandum of Association Director Minor to Federal Public / Community Defenders and
Memorandum of Understand, at Exh. B (April 24, 2014).
124 Administrative Office of U.S. Courts, AO Document: Restructuring the Administrative
Office: Maintaining Excellence in an Era of Fiscal Austerity 5–6.
125 Id. at 4.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-77

33

AR-2442

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 79 of 342 Page ID
#:27661
FINDINGS

courts and the Judicial Conference;” 2) “Enhance the partnership between the AO
and the courts;” and 3) “Accomplish the AO’s mission with fewer resources.”126
Under the re-organization, the Office of Defender Services (“ODS”) became
the Defender Services Office (“DSO”) and is no longer an independent directorate. It is instead considered a “program” under the newly formed Department of
Program Services. DSO is grouped together and supervised with programs such
as the Court Services Office, the Probation and Pretrial Services Office, and the
Judiciary Data and Analysis Office, all programs that exist to serve the courts. DSO’s
requirements are evaluated not independently but in the context of these other
offices’ needs. The chart below shows the current AO structure after re-org.
Defenders expressed concern that their program was now more vulnerable. In
their view, the re-organization demonstrated a lack of understanding of the unique
role defenders play as independent advocates within the criminal justice system.
Several told the Committee they wanted to see DSO restored to its previous position
within the AO structure to show the judiciary’s commitment to the defense function. A federal defender told the Committee that with the placement of DSO in the
Department of Program Services,
as things have turned out, we feel that we are being perceived as a service
to the judges rather than a separate constitutional mission. We believe
that there’s a tension between the Defenders doing what they have to
do in defense of their clients and the administrative office serving and
servicing judges and the judicial mission. The Director in the administrative office looks to judges, we look to the client. We are more akin to the
opposite side of the US Attorneys rather than probation and pretrial.127
Defenders also told the Committee that they were concerned that the demotion of DSO spoke generally to the decreasing ability of anyone within the current governance structure to advocate for the CJA program. Reinstating DSO to an
entity that answers directly to the Director of the AO, and is separate from other AO
offices that serve the courts,
gives the CJA [panel] and our offices a voice within AO. As I understand it
right now, if there are issues impacting indigent defense, because we are
a program service, there is a bureaucracy that has to be followed before
those concerns make their way to the decision-makers. If we are a directorate . . . I mean [previously] there were still processes in place, but there
was a more direct method of advocating for and on behalf of the CJA
panel and defender offices under the prior system.128
126

Id. at 4–5.
Jon Sands, FPD, D. Ariz., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 23.
128 Kevin Butler, FPD, N.D. Ala., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 20.
127

34

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-78

AR-2443

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 80 of 342 Page ID
#:27662

Administrative Office of the United States Courts
Office of the
General Counsel (OGC)
Sheryl L. Walter, General Counsel
William S. Meyers, Deputy General Counsel

Office of the Director (D)
James C. Duff, Director

Office of the Deputy Director (DD)
Jill C. Sayenga, Deputy Director
Gary A. Bowden, Chief of Staff

Ethics Staff (ETH)

Rules Committee Support
Staff (RCS)

Judicial Conference
Secretariat (JCS)
Katherine Hord Simon,
Judicial Conference
Secretariat Officer

Office of Audit
Veleda T. Henderson, Audit Officer
Office of Fair Employment
Practices (OFEP)
Nancy J. Dunham, FEP Officer

Office of Public Affairs
(OPA)
David A. Sellers, Public
Affairs Officer

Office of Legislative
Affairs (OLA)
Cordia A. Strom,
Legislative Affairs Officer

Department of Program Services
(DPS)

Department of
Administrative Services (DAS)

Department of
Technology Services (DTS)

Michel M. Ishakian, Chief of Staff

Michael Milby, Chief of Staff

Terry A. Cain, Chief of Staff

Laura C. Minor, Associate Director

Judicial Services Office
(JSO)
Michele E. Reed, Chief

Probation and Pretrial
Services Office (PPSO)
Matthew Rowland, Chief

Court Services Office
(CSO)
Mary Louise Mitterhoff,
Chief

Judiciary Data and
Analysis Office (JDAO)
Gary Yakimov,
Chief

Defender Services Office
(DSO)
Cait T. Clarke,
Chief

James R. Baugher, Associate Director

Joseph R. Peters, Associate Director

Human Resources Office
(HRO)
Patricia J. Fitzgibbons,
Chief Human Resources
Officer

Budget, Accounting, and
Procurement Office
(BAPO)
Karin O’Leary,
Chief Financial Officer

Technology Solutions
Office (TSO)
Farhad K. Safaie, Chief
Technology Officer

Cloud Technology
and Hosting Office
(CTHO)
Robert D. Morse,
Chief

Facilities and Security
Office (FSO)
Melanie Gilbert,
Chief

Administrative Systems
Office (ASO)
Joseph W. Bossi,
Chief

Systems Deployment
and Support Office
(SDSO)
Ronald E. Blankenship,
Chief

Infrastructure
Management Office
(IMO)
Tim Hanlon,
Chief

IT Security Office (ITSO)
Bethany J. De Lude, Chief
Information Security
Officer

AO Technology
Office (AOTO)
John C. Chang,
Chief

Case Management
Systems Office (CMSO)
Andrew M. Zaso, Chief

While reinstating DSO as an independent directorate could be a temporary
solution that would allow for more flexibility and a stronger office to better support
the defense function, it is not a panacea. Other problems, described below, exist and
cannot be remedied solely by restoring DSO to its former status.

3.3.3 Inability of Defenders to
Meaningfully Participate in JCUS
The attenuation of the defender and panel attorneys’ input creates a void of information which not only disenfranchises the defenders but also puts decision-makers in a position of deciding on policies or funding without the best and most
complete information. Simply stated, “[T]he information flow is defective when
you carve people out and you cut people out of the process.”129 As the CJA program
has grown, the link between those doing the work of public defense and those
making the decisions that impact the program’s governance and administration
129

Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr., at 6.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-79

35

AR-2444

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 81 of 342 Page ID
#:27663
FINDINGS

has become more important, not less.
During the Committee’s public hearings, many of the judges involved in this
process voiced their frustration. A member of the DSC told the Committee, “The
current structure requires the voice of defenders to be filtered through the judges.
That filter in many respects is unnecessary and, more importantly, [it] deprives the
defense community of their best advocates on policy and funding issues of national
importance.”130 A former chair of the DSC131 told the Committee about a conference
call convened to discuss how to handle the CJA program during sequestration:
On this conference call there was us in New York and then on the other
end of the call was the chair of the Executive Committee and then a staffer
from the Budget Committee. When you do this stuff long enough . . . you
recognize talking points when you hear them. The talking points that we
heard were the talking points that we had been getting from the Budget
Committee for a decade. The most remarkable thing about the call to me
was there was no one on that call from the staff from the Office of Defender
Services, no one there from Defender Services Committee. A decision that
went right to the heart of the function of defender services was being made
with no input whatsoever from anybody who knew what was going on.132
A magistrate judge told the Committee the question facing the Committee
regarding the current structure asked, “[I]s there a better system? Is there a better
way for the defenders and the CJA lawyers to have a seat at the table, to have a
voice into what’s going on? . . . I do think it’s important for the CJA lawyers and the
federal defenders to have a true seat at the table and a true voice in what is going
on with the defender program.”133
The former general counsel for the District of Columbia’s public defender program, which advocates to Congress for its own budget and legislative interests, spoke
forcefully for the need for defender voices and input to be incorporated into all decisions regarding a defense program. She testified that subsuming defender needs into
the judiciary’s mission: “isn’t a good fit. It isn’t part of the judiciary’s job to be zealous
advocates for indigent clients.” 134 She pointed out that as defenders have a very specific mission, “When it comes to getting into the trenches and fighting for what we do
and how we should do it and how we should be evaluated about how we do it, we’re
the ones that are obligated to our clients. We’re the ones that are obligated under our
130

Mag. Judge Jonathon Feldman, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 8.
From 1999 to 2008, Judge John Gleeson was a member of the Defenders Services Committee and
served as Chair from 2005 to 2008. The sequestration at issue occurred in FY 2013.
132 Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr., at 6.
133 Mag. Judge William Matthewman, S.D. Fla., Public Hearing — Miami, Fla., Panel 3, Writ. Test., at 23–24.
134 Julia Leighton, General Counsel, Public Defender Service for D.C., Public Hearing — Minneapolis,
Minn., Panel 1, Tr., at 25.
131

36

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-80

AR-2445

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 82 of 342 Page ID
#:27664

rules of professional conduct to keep that goal center all the time.”135
The Committee is concerned about the pervasive inability of those most
impacted by the oversight of the federal defense program to have any say in its
governance. As a former member of DSO told the Committee, “Even with that help
and assist from [DSC], there are limits to what is able to be done. Not only are there
limits, but at times, the Defender Services Committee just isn’t listened to . . . . There is
an internal judiciary power structure, if you will, and defenders aren’t a part of it.”136
The most important information about the functioning of the program comes
from those doing the work at ground level — federal defense attorneys. There is an
advisory structure that is intended to keep DSC informed about the CJA program,
with such working groups as the Death Penalty Working Group, the Community
Defender Organization Working Group, and the Performance Measurement
Working Group, among others. These groups are made up of federal defenders
and panel attorneys, they are assisted by staff at DSO, and their work informs the
Defender Services Advisory Group (DSAG). DSAG’s membership also includes both
federal and community defenders and panel attorneys, and it works with DSO and
ultimately the Defender Services Committee to assist in the oversight, governance,
and support of the CJA program. However, no defense attorney — either defender or
panel attorney — has a voting membership on any Judicial Conference committee.
So while structures theoretically exist to capture and transmit their knowledge
and insight to decision-makers with authority over the program’s management, that
theory often does not lead to practice, and defender voices are then only heard in
an advisory capacity, still subordinate to the needs of the judiciary.
As with the lack of federal defender and panel attorney input within the
Judicial Conference structure, when it comes to legislation and policy proposals
defenders are placed in the difficult position of acting as dedicated advocates for
their clients while trying to work within a governing structure whose mission is to
serve the courts. This placement harms both the defenders and the judiciary — the
former by silencing them when they have a duty to speak for their clients; the latter
by placing the judiciary in a conflicted position of having to speak for both the
defenders and their own interests.137
Defenders testified about their frustration with not having a seat at the legislative and policy tables both inside and outside the Judicial Conference. A defender
testified that because defenders “have that constitutional responsibility, we should
135 Julia Leighton, General Counsel, Public Defender Service for D.C., Public Hearing — Minneapolis,
Minn., Panel 1, Tr., at 25.
136 Richard Wolff, Former Chief, Legal, Policy, and Training Division, DSO, Public
Hearing — Philadelphia, Pa., Panel 7, Tr., at 12.
137 As mentioned above, the DSC’s jurisdiction regarding legislative input is extremely limited. Often,
even regarding legislation that will directly affect the CJA program or defenders, the DSC is not asked for
any comment, nor is it necessarily notified of legislation proposed either in Congress or by the judiciary.
This will be discussed below with the recent example of legislation proposed by the judiciary to expand
the policing powers of probation officers.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-81

37

AR-2446

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 83 of 342 Page ID
#:27665
FINDINGS

have a voice in whatever agency or committee oversees us, we should have an
ability to advocate for ourselves in front of Congress and the legislating bodies.”138
The Director of the 2255 Project (discussed further in Section 9) admitted to the
Committee that while taking on the responsibility of advocating for the program
could seem daunting, “One of the reasons is we know this stuff. This is what we do
day in and day out and we can talk about it.”139

3.4 Oversight of National
Budget for the CJA
A black letter principle of an effective public defense system is that the
quality and effectiveness of that system, the ability of the lawyers to meet
their Sixth Amendment obligations, is directly dependent on the resources
the government is willing to devote to that system of public defense.140
During the public hearing in Philadelphia, as the Brigadier General overseeing the defense for the Guantanamo Bay Military Commissions told the Committee,
“The problem isn’t who you report to; it’s who owns the purse.”141
Yet the CJA program, placed under the governance structures of the JCUS
and AO, cannot seek the resources it needs directly from funders. And because the
JCUS and AO are by statute and policy charged with pursuing the best interests of
the judiciary, Defender Services’ needs for resources must be subsumed within the
pursuit of the interests of the judiciary as a whole. This is a structural conflict. And
so, despite the best efforts of all the individuals and offices involved in the process,
the problems surrounding the budgeting of a national defense delivery system continue to plague the program.
Described below are the conflicts over funding, the inability of those charged
with management of the CJA to determine or advocate for its budget within JCUS
and with Congress, and the recent difficulties in obtaining adequate funding and
resources for the program to ensure those Sixth Amendment obligations.

3.4.1 Formulation of the CJA Program Budget
Given that the needs of defenders are reactive to forces beyond their control, the
development of a budget for the administration of the CJA is necessarily a complex process. Placement of the CJA’s management within the judiciary’s governing
138

Jon Sands, FPD, D. Ariz., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 6.
Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 26.
140 Mag. Judge Jonathon Feldman, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 7.
139

141

38

Brigadier General John Baker, U.S. Marines, Public Hearing — Philadelphia, Pa., Panel 5, Tr., at 18.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-82

AR-2447

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 84 of 342 Page ID
#:27666

structure further complicates this task by creating obstacles to obtaining funding
and limiting flexibility necessary for the program to be properly administered.
The process of creating a budget for the Criminal Justice Act program begins
with budget analysts within the Defender Services Office.142 These analysts consider past year’s costs, projected caseload, staffing formulas, and any new initiatives in projecting the program’s actual needs. However, this estimate of the program’s needs is not what is transmitted to Congress, or even necessarily to the DSC.
Because DSO is a part of the AO’s structure, its estimates are reviewed and sometimes altered by many other offices within the AO, including BAPO, the staff for the
Budget Committee. Thus DSO’s budget formulations are subject to judiciary needs
before those formulations are even transmitted to the DSC.
A principle policy mechanism is also used to limit the Defender Services (the
account name for the entire CJA program within the judiciary’s budget) requests.
Each year, before the beginning of a new appropriations cycle, the chair of the
Budget Committee transmits to the Committees with authority over various judiciary “programs” a “guidance letter.” The guidance letter informs the Committee
(in the case of the CJA, the Defender Services Committee) chair of the maximum
percentage increase the Committee should request in a given year — a budget cap.
The Budget Committee’s guidance instructs the Defender Services Committee (like
other JCUS “program” committees) to limit its request to the JCUS regardless of
programmatic needs identified such as new prosecutorial initiatives, developments
in the law, or changes in caseload. These caps can operate differently depending
upon how the baseline is set. For example, for the FY 2018 request, the cap was
set at four percent with the FY 2017 current services as the base. However, for the
FY 2019 request, the cap was set at four percent above the FY 2018 baseline which
assumed the FY 2017 funding levels.143 In other words, while the four percent was
the same, the starting point chosen from which to build each year’s request was
very different. If strictly adhered to, this level of funding would have required significant reductions to FY 2019 current services.
These caps are not hard ceilings; the Budget Committee has approved requests
exceeding the limitations. But the limitations send a message to Committee chairs,
who must present their program’s budget request to the Budget Committee, about
what will or will not be approved and presented to JCUS. Ultimately, this process
leads to situations where JCUS is not informed of and Congress is not requested to
fund what DSO or DSC has determined to be the true needs of the program.
This process plays out in an environment where the DSC lacks any real power
142

This description of the formulation of the budget is based upon information and discussions with
DSO, budget staff, and other employees at the AO as well as direct knowledge of members of this
Committee involved in the process.
143 That FY 2017 funding level was based on the appropriated level plus the projected carryforward
which was listed in the FY 2018 congressional request.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-83

39

AR-2448

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 85 of 342 Page ID
#:27667
FINDINGS

to influence Budget Committee and JCUS decisions. This is not a recent development; the former deputy assistant director of DSO told the Committee that for years
before any jurisdictional changes in JCUS committees, “recommendations regarding
Defender Services appropriations requests would come in and [BAPO] would look
at our request that was put forth by the Committee of Defender Services. They’d
look at the justification for it and they would say that’s simply too much. We’re going
to cut that appropriation request by ‘X’ percentage.”144
After this extensive review process has taken place and the Judicial Conference
has approved a Defender Services budget request, defenders, DSO and the DSC
are excluded from the advocacy for the funding in Congress. The Chair of the
Budget Committee and the Director of the AO represent the judiciary branch in
Congressional budget hearings and answer questions regarding appropriations from
legislators for the entire branch. BAPO staff represents the branch in day-to-day
communications with Congressional appropriations staff.
Under this structure, none of the people with the subject matter expertise — not
the chair of the DSC, not the chief of DSO, not the defenders — may appear before
the appropriations committees in the House and Senate, or have any contact with
appropriations staffers on behalf of the national program. Any questions about the
CJA program and advocacy for its budget to Congress are handled by the Budget
Committee Chair, the Director of the AO, or the BAPO staff.145 Therefore, those who
ultimately must approve funding for the defender services program are unable to
make fully-informed decisions about the needs of that program.

Fundamental conflict over funding
As stated, each year, the Judicial Conference approves the requests that will be presented to Congress. The judiciary’s appropriations strategy, the Committee was told,
is to limit requests for increases in funding to demonstrate to the appropriators that
the judiciary is a prudent manager of resources. The belief underlying this approach is
that it increases the likelihood that Congress will fully fund these limited requests.146
While the Executive Branch agencies request appropriations to meet their
programmatic needs, the Committee was told that there is a pervasive belief within
the judicial branch that a request to fully fund the judiciary “would undermine their
144

Steven G. Asin, Former Deputy Assistant Director, DSO, Administrative Office of the U.S. Courts,
Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 18.
145 The Committee was told that the BAPO staff has a good working relationship with appropriations
staffers on Capitol Hill, and so many of these exchanges happen informally and cannot be relayed
here. BAPO’s Financial Liaison Office is tasked with preparing testimony on the judiciary’s budget and
coordinating responses to congressional inquiries and reports. See Administrative Office of U.S.
Courts, 1 AO Manual § 340.30.20 (2).
146 See Memorandum from Judge Anthony J. Scirica, former Chair of the Executive Committee, on
Cost Containment to Conference Committee Chairs (April 6, 2009) (“[T]he judiciary’s cost containment
program has helped tremendously to provide credibility with Congress in our budget requests and has
helped the judiciary secure adequate appropriations.”).

40

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-84

AR-2449

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 86 of 342 Page ID
#:27668

advocacy for the entire judiciary’s appropriation before the Congress.”147 Because the
judiciary’s primary mission is to support the courts as a branch of the government,
the defender program, which is not a core function of the judiciary, particularly in an
adversarial system, is at a disadvantage in obtaining the funding it requires.
In looking at the manner in which the JCUS has managed the Defender Services
account and requests for increases to it, the Committee considered the question of
whether the needs of the judiciary as a whole take priority over those of the CJA program. The Committee heard testimony that the needs of the CJA program were, by
design of the current structure, necessarily subordinated to those of the judiciary.
Defenders’ view is that the request for resources for their program is limited in
order to fully fund core judiciary functions. This was not merely the opinion of the
defenders. A widely circulated memo on cost containment within the judiciary states:
Defender Services. Third, we have all experienced the difficulties of budget
shortfalls in the Defender Services program. Achieving significant, tangible cost containment in the Defender Services program has proved to
be particularly challenging. Many of the ideas suggested by the Defender
Services Committee require changes in legislation or changes in practice
or policy by the Department of Justice. Congress has repeatedly expressed
its concern about the level of growth in this account and the judiciary’s cost-containment efforts in this program. In spite of the mission of
the Defender Services program, the judiciary cannot expect Congress
to continue to provide significant appropriations increases annually. If
such increases are provided, it will be at the expense of the Salaries and
Expenses account and by extension, the courts. Thus, the judiciary must
re-focus its efforts to achieve real, tangible cost savings in this program.148
This view that a dollar spent on the Defender Services appropriation is a dollar
away from the courts distills the conflict inherent in judiciary control of the CJA
program budget. When DSC has pushed for greater CJA program funding in the
past, “the Budget Committee said we’re not going to debate your numbers. We’re
not doubting what you’re saying that that is the calculation of what is needed. We’re
just telling you you’re not going to get it and you’re going to have to operate with
less. . . . We’re not going to go forward and ask for all the money that we think that we
actually need to manage the program.”149
The former deputy assistant director of the Defender Services Office confirmed
that many within the current JCUS structure view the budget as a zero-sum game
147

Steven G. Asin, Former Deputy Assistant Director, DSO, Administrative Office of the U.S. Courts,
Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 18.
148 JCUS Budget Committee memo (provided to the Committee)
149 Steven G. Asin, Former Deputy Assistant Director, DSO, Administrative Office of the U.S. Courts,
Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 19.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-85

41

AR-2450

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 87 of 342 Page ID
#:27669
FINDINGS

between defenders and courts, telling the Committee that as the judiciary’s budget
increased, “[I]t began to see a tactical need to limit the growth of the defender services
appropriation as a way to limit the overall growth in the judiciary’s appropriation. This
was pretty much the situation that existed when I started with the program in the late
1980s. Since then, the judiciary’s focus and control over the federal defense function
based upon its need to protect its own institutional interest has steadily increased.”150

Cost of Defender Services Grew at a Slower Rate
than the Judiciary’s Overall Budget 151
7

SPENDING (in Billions)

6
5
4

Judiciary minus
Defenders

3

CADCOJS
minus
Defenders

2

CADCOJS
Salaries &
Expenses

1

Defender
Services

0

2005

2007

2009
2011
FISCAL YEAR

2013

2015

Indeed, analysis of the judiciary’s budget over ten years, from FY 2005 to 2015,
shows that the courts’ budget has grown more rapidly than that of defenders. As
shown in the graph above, while court costs rose quickly, the defender program
was targeted to contain costs, even though its costs were growing at small, predictable rates each year.152
Recently, the Budget Committee’s Recommendations/Actions of July 2016
regarding the FY2018 budget present further examples of this conflict. The Budget
Committee recommended that the judiciary seek no more than a four percent
increase over prior year’s requirements. But two categories were exempted from
this limitation because the Budget Committee “felt it was important to include
150

Id. at 5.
The Judiciary account includes the Supreme Court Salaries and Expenses, Supreme Court Care
of Building and Grounds, Court of Appeals for the Federal Circuit and Court of International Trade.
“CADCOJS” is the total combined costs for the Courts of Appeals, District Courts and Other Judicial
Services. CADCOJS Salaries and Expenses are just those specific expenses of the Courts of Appeals,
District Courts, and Other Judicial Services. See Administrative Office of U.S. Courts, The
Judiciary FY17 Congressional Budget Summary.
152 Administrative Office of U.S. Courts, The Judiciary Fy07-Fy17 Congressional Budget
Summary. The Committee was told that the defender account “has grown vastly more than all other
accounts in recent years” and that the Budget Committee had been criticized by other sub-committees
in reports about the rapid growth of the defender budget.
151

42

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-86

AR-2451

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 88 of 342 Page ID
#:27670

resources in the FY2018 request for enhanced cybersecurity requirements and for
the necessary infrastructure related to new courthouse construction.”153
At the same time, the Budget Committee did not recommend funding defender
staff positions that the Judicial Resources Committee’s work measurement study
and resulting staffing formula found to be necessary and appropriate. Fully funding defender offices is not recommended because “the Budget Committee does
not believe that the additional $8.l million for 44 additional staff can be adequately
justified to Congress at this time.”154 Such an increase cannot be adequately justified
in part because, “Adjustments to the request were necessary to address Defender
Services and judiciary-wide cybersecurity and information technology enhancements
while moderating the increase in appropriated funds in this account for FY 2018.”155
This funding conflict was explored by the JCUS more than 10 years ago. In 2004,
it tasked the DSC to determine whether, from a financial standpoint, the judiciary
would be better served by removing the CJA program from its management: “In April
2004, as part of a comprehensive cost-containment effort for the entire judiciary,
the Executive Committee of the Judicial Conference of the United States suggested
that the Committee on Defender Services consider whether Defender Services
should be a separate program outside the judiciary.”156 After studying these concerns, the DSC issued their report: “Should the Structure of the Defender Services
Program be Changed? Report to the Committee on Defender Services of the Judicial
Conference of the United States” (hereafter the “2005 Subcommittee Report”).157 The
Executive Committee had expressed concerns over the budget conflict described
above, between the adequate funding of a national federal defense program and
the effect that it could have on the appropriations to the courts. Then Executive
Committee Chair Chief Judge Carolyn Dineen King stated that the growth in the
defender program in response to increased prosecution and defense costs “could
result in Congress having to appropriate funds for the Defender Services account
at the expense of other judiciary accounts, particularly the Salaries and Expenses
account . . . .”158 The Executive Committee admitted that defenders and judges were
pitted against each other in the budget, and had concerns about the “perceived
potential adverse impact of the [defense] program’s continuing growth on ‘other’
153

Administrative Office of U.S. Courts, July 2016 Budget Committee Recommendations/
Action 1.
154 Id. at 3.
155 Id. Another reason given was that the Budget Committee did not think that defenders could hire
fast enough to fill all the FTE received in FY 17, especially since the full-year appropriation came late
thus delaying the start of the hiring.
156 Letter, JCUS Committee on Defender Services to Judge Thomas F. Hogan, “Re: Exploration of
Whether the Defender Services Program Should be Placed Outside the Judiciary,” January 5, 2006.
157 See generally Subcommittee on Long Range Planning and Budgeting, Should the
Structure of the Defender Services Program be Changed? (2005) (prepared for the Committee
on Defender Services).
158 Id. at 1.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-87

43

AR-2452

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 89 of 342 Page ID
#:27671
FINDINGS

judiciary accounts.”159
The Subcommittee Report recognized that there were budgetary conflicts in
the placement of the CJA Program within JCUS. Under “Program-Wide Concerns”
the report stated, “There are inherent tensions in the appropriations process.”160
The report listed the same concerns voiced by many witnesses to the Committee:
Independence concerns are raised by the judiciary’s responsibility to request appropriations for the operation of both the courts and
the Defender Services program. Questions could arise about whether
enough time is spent discussing Defender programs and issues with
Appropriations Committee staff and whether there is an inherent conflict in having to advocate for funding for both court operations and
defender services.
The Report posed several questions about the placement of the CJA program,
and concluded that the Defender Services program should not advocate independently for its own budget, as “the Defender Services program needs a buffer
with Congress,” and “if Defender Services presented its own budget request it
would be perceived as self-serving.”161 Additionally, answering why the CJA budget
should be subject to revision by the Budget Committee, the report suggested,
“These revisions are necessary control measures to ensure the overall judiciary
budget request is credible.”162
Despite the conflict-of-interest concerns and recognition that the needs
of the judiciary might be funded at the expense of the CJA program, the 2005
Subcommittee Report ultimately found that in regard to cost containment, removing
the defense system from the JCUS structure “would not provide any advantage to
the judiciary in terms of securing more funding for its other accounts. Nor would it
provide any funding advantage to the Defender Services program.”163
In January 2016, Judge John Gleeson testified before the Committee at its Miami
hearing. On the subject of the 2005 Subcommittee Report, he told the Committee:
We were asked as part of cost containment to look into this and address
a number of suggestions . . . one fulcrum of that decision was a representation from the Budget Committee that we accepted. And that is that
having the defender program as part of the judiciary had no impact on
the defender program budget. That is to say it was not the case that a
dollar into the defender budget was perceived as a dollar out of the other
159

Id. at 9–10.
Id. at 15 (emphasis in original).
161 Id. at 25.
162 Id.
163 Id. at 28.
160

44

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-88

AR-2453

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 90 of 342 Page ID
#:27672

spending programs. I don’t think that’s true.164
When a Committee member asked Judge Gleeson whether he believed this was
a departure from the time when the report was written, Judge Gleeson stated, “I don’t
think it was true then, but we accepted it as true.” 165 He told the Committee, “I think
there should be fundamental structural change. I think wresting the obligation, the
responsibility to deliver indigent defense away from the judiciary is a good idea.”166

Congressional Advocacy for Funding the CJA
It is this Committee’s understanding that the Prado Report recommendations for
an independent defense entity faltered in part due to concerns that Congress would
not adequately fund such an agency. That concern was given careful consideration
by our Committee which examined the following funding issues:
ÑÑWhat

actual budget/funding advantages and protections are provided by
continuing to house the CJA within the judiciary;

ÑÑWhether

the CJA budget suffers under a structure whereby CJA funding
requests are contained within, and are in competition with, the overall
funding for the entire judiciary; and

ÑÑHow

Congress would receive budget advocacy by defenders.

The evidence examined by the Committee suggests that while the judiciary continues to be committed to obtaining adequate funding, judicial advocacy for public
defense can be undermined by a focus on other judiciary priorities. While the institutional prestige of the third branch certainly benefits the CJA program, this advantage is insufficient to outweigh deficits that result from the divergent missions and
funding needs of the judiciary and the CJA.
The Current Practice of Advocacy for CJA Budgets
Funding for the judiciary is included each year in the Financial Services and
General Government (FSGG) Appropriations bill. In any given year, either the
House or Senate Appropriations FSGG Subcommittee may hold hearings concerning the judiciary budget. As described above, the Chair of the Judicial Conference’s
Budget Committee and the Director of the AO represent the judiciary before congressional appropriations committees. BAPO’s Financial Liaison and Analysis Staff
(“Financial Liaison Staff” or “FLS”) also work with congressional staff advocating for the judiciary’s appropriations request. Conversely, the Defender Services
Committee, DSO, and defenders have no Judicial Conference-approved role in separately advocating for the Defender Services account, which is one of four separate
164

Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr., at 40–41.
Id. at 41.
166 Id. at 40.
165

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-89

45

AR-2454

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 91 of 342 Page ID
#:27673
FINDINGS

accounts that make up the main part of the judiciary’s appropriation request.167 The
Chair of the Budget Committee may ask other representatives to accompany her to
appropriations hearings. In recent years, no member of the DSC, representative of
DSO, or defender has been asked to appear at these hearings.168 Indeed, DSO and
defender staff can interact with Congressional appropriations staff only by arrangement of the FLS. This has rarely happened.
Judiciary as Advocates for Defense Funding
The Committee received testimony from judges, and some defenders, that the CJA
program is best served by continuing the judiciary’s advocacy for its budget. This
position is primarily premised upon the belief that by being under JCUS supervision, the defender budget will be protected from political influence, and that without this protection, the federal defense program’s funding could be jeopardized.169
For instance, one federal judge told the Committee that her “fear is that
Congress, which is even further removed from observing the critical work that these
fabulous attorneys do, will be even less understanding of the need for funding without our support.”170 Another judge expressed concern that if defenders approach the
legislative branch, “for a certain amount of money to defend somebody who’s committed what appears to be a very heinous crime, I don’t know that you have that level
of sympathy for the defense function in all areas of the political realm.”171
These witnesses supported judicial budget advocacy for several reasons, including: 1) the current quality of advocacy for the CJA is quite high; 2) the defender
budget is protected from unusually steep cuts by being part of the larger judiciary
budget; 3) the defender budget receives more favorable treatment because it benefits
from the judiciary’s institutional prestige; 4) defenders would be poor advocates for
their budget, and Congress does not understand or support the defender mission,
thus necessitating judicial protection.172
These justifications are examined below.

167

The Salary and Expenses (S&E), Jurors Fee, Court Security, and Defender Services accounts are the
four most often discussed when speaking about judiciary funding. There are also accounts for the AO, the
Federal Judicial Center, the United States Sentencing Commission, and the Supreme Court. While these
are sent with the other four requests, the Judicial Conference is not involved in those four accounts.
168 Michael Nachmanoff, former Federal Public Defender for the Eastern District of Virginia, did testify
with the chair of the Budget Committee and others, at a Senate Panel on the impact of sequestration in
July 2013. This was not a formal appropriations hearing.
169 The Committee disagrees with the premise advanced by some that some judges or the judicial
branch would cease to support the CJA program if it was no longer located within the JCUS structure.
To the contrary, the Committee firmly believes that judges would continue to support strong Sixth
Amendment protections and the integrity of the criminal justice system in their courts.
170 Mag. Judge Cheryl Pollak, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 2b, Tr., at 3.
171 Chief Judge Lawrence Stengel, E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 8, Tr., at 26.
172 Judge Federico Moreno, S.D. Fla., Public Hearing — Miami, Fla., Panel 6, Tr., 21–25.

46

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-90

AR-2455

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 92 of 342 Page ID
#:27674

HIGH QUALIT Y OF CURRENT ADVOCACY

While the Committee recognizes that the Budget Committee may be strongly committed to the highest quality public defense, the current structure does not promote
advocacy for the CJA in the budgeting process. Generally, DSO staff reviews a draft of
the testimony prepared by BAPO staff, but is not actively involved in the preparation
which can lead to a loss of understanding of some of the nuances of public defense.
This lack of a comprehensive knowledge of the issues can result in incomplete
information being provided during the hearings or a loss of opportunity to advocate.
While additional information can be provided after a hearing, the in-person testimony has a different impact. Some examples have included:
ÑÑOn more than one occasion Congress was advised that CJA budget growth

was disproportionate to that of the judiciary. But as the budget growth chart
shown on page 42 demonstrates, since 2005 the costs required to maintain the
CJA have risen at a much slower rate than that of the judiciary as a whole;173
ÑÑSuggestions

that CJA panel attorneys’ perform unnecessary legal work to
safeguard themselves against lawsuits and as a result inflate CJA costs. Yet
the committee heard no evidence that this existed, and heard very little testimony from judges about inflated voucher submissions;174

ÑÑStatements

to Congress that the eVoucher system was set up to more carefully scrutinize CJA vouchers and contain costs, creating the unfavorable
impression that CJA counsel bills are generally excessive;175

ÑÑSubmission

to Congress of information that defender staffing for immigration cases would be affected only in the border courts, when in fact
defender offices nationwide are currently dealing with increased staffing
needs for immigration cases;176

ÑÑWhen

given the opportunity to advocate for public defense, the Budget
Committee has focused instead on the needs of the judiciary as a whole.

It is worth repeating that it is the Committee’s view that the examples cited
above stem from the structural defect of tasking the Budget Committee representatives with also having to advocate for CJA funding. Charged with advocacy primarily
for core functions and supported by staff with that same charge, the judiciary must
173

Judiciary FY2014 Budget: Hearing Before the Subcomm. on Financial Services and General
Government of the H. Comm. on Appropriations, 112th Cong. (2013) (statement of Judge Julia Gibbons,
Budget Committee Chair).
174 Judiciary FY2013 Budget: Hearing Before the Subcomm. on Financial Services and General
Government of the H. Comm. on Appropriations, 111th Cong. (2012) (statement of Judge Julia Gibbons,
Budget Committee Chair).
175 Judiciary FY2018 Budget: Hearing Before the Subcomm. on Financial Services and General
Government of the H. Comm. on Appropriations, 115th Cong. (2017) (statement of Judge Julia Gibbons,
Budget Committee Chair).
176 Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-91

47

AR-2456

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 93 of 342 Page ID
#:27675
FINDINGS

balance the needs of the courts against the needs of public defense. If defender
budget requests create a concern that funds for other core functions may be
depleted, defense needs can suffer.
INSTITUTIONAL SHIELDING OF DEFENDER BUDGETS

A number of supporters of the current CJA budgeting practice expressed a belief
that because CJA budgeting requests are part of the larger judiciary appropriation, the CJA’s budget cannot be easily targeted for cuts. However, the CJA budget
is a separate account, one of four contained within the judiciary appropriation,
and entirely visible to Congress. Over the years, Congress has frequently treated
the Defender Services account differently from other judiciary accounts — granting
sometimes greater, sometimes lesser percentages of the Defender Services request
than of the other accounts. And on at least one occasion described below, despite
strong judicial opposition, Congress chose to target a particular defender program;
not simply overall Defender Services spending levels.
INSTITUTIONAL PRESTIGE OF THE JUDICIARY

Even if the Defender Services account is fully visible to Congress, a number of witnesses suggested that the judiciary’s institutional prestige serves to protect defender
funding. The Budget Committee chair has noted that the judiciary’s budgeting process “instills confidence within the Appropriations Committees in Congress that the
funding needs for Defender Services, and for other Judiciary accounts that fall under
the jurisdiction of the Judicial Conference, have received appropriate scrutiny.”177
It seems likely to the Committee that the Defender Services account receives
favorable treatment by Congress both because judges are well respected and the
judiciary carries substantial institutional prestige. It is also clear that the judiciary’s
budget process ensures that Defender Services requests are well justified and documented. But it does not necessarily follow that the public defense community could
not obtain the same positive results acting on its own as an independent entity.
As to the more particular benefit posited by the Budget Committee Chair that
Congress knows the Defender Services request has received appropriate scrutiny
before its submission, it seems very likely that this benefit can be replicated. DSO
staff has experience working with BAPO staff in creating formal budget submissions.
However, the benefit the account may receive as a result of respect for the
judiciary as an institution is a different issue. Individual judges who appear before
Congress are often known to and respected by members of Congress. But this does
not mean that separation of the CJA function from the judiciary, either partly or
entirely, will result in a complete loss of this benefit. Judges as individuals, and the
judiciary as an institution, have supported the Defender Services program because
177

3.26.2014_Judge Gibbons. House Approps Hearing QFRs, Questions for the Record Submitted by
Congressman Mike Quigley.

48

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-92

AR-2457

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 94 of 342 Page ID
#:27676

it is constitutionally mandated. Neither the individuals’ nor the institution’s commitment to provision of high quality public defense is likely to diminish because of
any change in where the CJA program is housed. The evidence on this is quite clear.
One striking example is that of 87 chief judges who, individually witnessing
the devastation visited on defenders by sequestration, signed a letter in support of
defenders while forgoing advocacy for other core court functions that faced serious cuts.178 A shared commitment to the Sixth Amendment means that judges and
defenders should always find common cause on the need to adequately fund indigent defense. The current relationship is simply not a prerequisite to judicial support.
Moreover, if Congress is not convinced of the value of the public defense program, judicial influence may be insufficient to save it. This premise is illustrated by
Congress’ defunding of Post-Conviction Defender Organizations (PCDOs). In 1988,
Congress had authorized the federal judiciary to support the creation of the PCDOs
to address a looming crisis in state and federal post-conviction death penalty cases.
In January of 1993, the Prado Committee submitted its report praising their work
and recommending continued support and funding of PCDOs. But by July of that
year, the Senate Appropriations Committee expressed concerns over the escalating
cost of the organizations. The judiciary’s appropriations request that was approved
by the Conference sought continued funding of the PCDOs.
However, judicial support was not enough to protect the organizations
in Congress. PCDOs had received a harsh reaction from death penalty proponents, which prompted criticism of the program from the National Association of
Attorneys General and Congressman from states with the death penalty. In turn,
Congress acted to defund PCDOs. In an appropriations bill passed in January of
1996, Congress funded the Defender Services account but added a special directive
that no funds were to be expended for PCDOs after April. Without federal funding,
many of the PCDOs dramatically scaled back operations; seven of the 20 offices
closed their doors entirely.
The Committee cites this example to illustrate that judicial support for public
defense does not always result in Congressional approval. While the prestige of the
judiciary is likely an asset in securing necessary funding, after careful consideration
and considerable debate, the Committee believes that defenders are their own best
advocates, and will receive continued judicial support.
DEFENDER ADVOCACY AND CONGRESSIONAL RECEPTION

Numerous witnesses proposed greater defender program involvement in congressional advocacy, arguing that it would be favorably received. Considerable evidence demonstrates that defenders would be more effective and better informed
advocates for their program. The former chair of the DSC told the Committee,
“I also support a greater role for the committee, DSO staff, defenders and panel
178

Letter, Chief Judge Loretta A. Preska, S.D.N.Y. to Senator Joseph Biden, August 13, 2013

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-93

49

AR-2458

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 95 of 342 Page ID
#:27677
FINDINGS

attorneys themselves in advocating to Congress as part of the appropriations process. While I fully understand the need for the judiciary to speak with a consistent
voice. . . . I believe that there are issues specific to the defender and panel attorney
programs” on which defenders should be heard.179
One federal defender told the Committee he believed that defenders needed
legislative access through official channels that wasn’t informal or “by virtue of
personal relationships.”180 He explained, “We have a constitutionally and congressionally mandated budget, and yet we have no voice in legislative or budget decisions. . . . If we are committed to structural independence within the judiciary, as the
lowest common denominator at minimum, there must be a defender voice, and
a DSO voice, on legislative decisions such as budgetary decisions.”181 Recognizing
the importance of ongoing relationships with budget appropriations staffers in
Congress, the Chief of Defender Services pointed out that it would be defenders that
could best represent their own program. Not only do defenders have “survey data,
but we also could answer questions and tell stories. That ongoing relationship is
very critical when Congress is deciding on our budget, and defender involvement
would add more substance and information to those discussions.”182
The DC Public Defender Service, which requests its own budget from Congress
directly as an independent agency, is an example of how advocacy for public
defense, independent of judicial oversight, can be effective. The former General
Counsel of that organization told the Committee,
The directors at PDS have good relationships with the Hill. They know
the program inside and out. They’ve lived the program. They can explain
it to Congress. It is no different than any other audience, and they come
in as subject-matter experts. They come in passionate about what they
do. They know their performance, and they know the outcomes they’re
achieving, and they can describe it to Congress.183
The Committee agrees that, as “subject-matter experts,” defenders have an
important role to play in advocating for their needs before Congress.
A representative from The Constitution Project, a non-profit which focuses on
constitutional rights and criminal justice issues, echoed those sentiments, telling the
Committee that federal defenders and panel attorneys are “really fantastic advocates
with Congress. They can speak with meaning about what budget cuts will do to clients and people on the ground . . . [I]t is really important to have that independence,
179

Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 4.
Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr., at 2.
181 Id. at 7.
182 Cait Clarke, Chief, DSO, Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 20.
183 Julia Leighton, General Counsel, Public Defender Service for D.C., Public Hearing — Minneapolis,
Minn., Panel 1, Tr., at 17.
180

50

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-94

AR-2459

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 96 of 342 Page ID
#:27678

to allow for an independent entity to advocate for federal public defenders with
Congress because those budget cuts are impacting their offices.”184 She went on:
Speaking as a policy counsel who does a lot of advocacy on criminal
justice issues before Congress, I think what really resonates with staffers
and members of Congress is people who can go in and speak with experience and lean on their own experience. Having federal defenders who
can go in and speak to the importance of funding is so important.185
The experience of sequestration lends credibility to the testimony of many
witnesses endorsing the ability of defenders to secure necessary funding. Facing
significant consequences for the program, some federal defenders made the decision to reach out to Congress directly to request emergency funding to preserve the
program. Ultimately, Congress was responsive. Defenders told the Committee that
the experience, though it created tension with the AO and the JCUS, was instructive.
“I think Congress, when they understood the problems the defenders were facing
during the sequestration, we came out pretty well with Congress and support from
both sides, from the Republicans and the Democrats.”186
Defenders told the Committee that their successful appeals to Congress
showed they could be effective advocates for their program with Congress and congressional appropriations staff.187
As one witness who has worked in criminal and civil rights for decades stated,
the lesson to take away from sequestration is that the federal defender program “is
a great brand. It didn’t matter whether you had a D, or an R, or an I label, who you
went to talk to. The federal defender program has an excellent reputation across
Congress. The second thing is, unlike other expenditures, this is a necessity. . . this is
a fundamental need of government, to keep the courts open and to see that indigent people have representation.”188
The evidence is convincing that defenders are capable of advocating for the
CJA and that Congress would continue to provide adequate funding for their needs.
Maintaining the status quo leaves in place a structure whereby the defense budget
competes with the budget for the judiciary.

184

Madhuri Grewal, Senior Counsel, The Constitution Project, Public Hearing — Philadelphia, Pa.,
Panel 8, Tr., at 13.
185 Id. at 19.
186 Michael Filipovic, Former FPD, D. Or, Public Hearing-Portland, Or. Tr. at 36.
187 See also section “Federal Defenders Become Effective Advocates with Congress” Supra at p.62
188 George Kendall, Director, Public Service Initiative, Squire Patton Boggs,
PublicHearing — Minneapolis, Minn., Panel 3, Tr., at 26.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-95

51

AR-2460

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 97 of 342 Page ID
#:27679
FINDINGS

3.5 Panel Attorney Hourly Rates
In 1964 when Congress passed the Criminal Justice Act, the hourly rate was set at
$10 per hour for out-of-court work and $15 per hour for time spent in court.189 In
1986, the rates were revised and Congress authorized annual, recurring cost-of-living adjustments (COLAs).190 If the statutorily authorized COLAs provided to federal employees had been provided to the panel attorney rate on a recurring, annual
basis since 1986, the authorized non-capital hourly rate for fiscal year 2017 would be
$145,191 and for 2018 would be $148.192
Although the current maximum panel attorney hourly rate in non-capital
felony cases is $148,193 panel attorneys are only being paid $132 per hour to represent CJA clients. For the past four years, the Defender Services Committee has
requested the panel attorney rate to be raised to the full statutorily authorized
amount for non-capital cases; however, as explained below, the Budget Committee
has requested only lesser increases.

3.5.1 Budget Process to Determine Panel Attorney Rates
When formulating a budget request for the Defender Services program, the
Defender Services Committee makes recommendations regarding possible
increases to the CJA panel attorney hourly rates. The Budget Committee, subject to
Judicial Conference approval, then determines what panel attorney rate to request
from Congress. The Chair of the Budget Committee explained that whether to seek
panel attorney rate increases is a political determination, based on whether she
believes a rate increase is likely to be approved. The Budget Committee and its staff
weigh a number of factors in determining whether an increase request is appropriate, including considering the budget needs of all other judiciary programs and
offices. In recent years, the Defender Services Committee has requested that the
Judicial Conference seek funding for the full statutorily authorized rate in FY 2016,
FY 2017, FY 2018, and FY 2019.194 The Budget Committee has advanced alternate requests for less than the statutorily authorized maximum, and the Executive
Committee has rarely placed a panel rate increase proposal on the JCUS discussion calendar. When asked why panel rate increases had not been requested or at
189

Criminal Justice Act of 1964 (Pub. L. 88–445)
18 USC 3006A(d)(1); 7A Guide to Judicial Policy § 230.20.
191 This rate is approximate and changes depending on economic variables.
192 FY18 House Appropriations testimony Judge Gibbons written statement pp. 8–9
193 The discussion in this section will refer only to the non-capital panel attorney hourly rate. In 2005,
Congress increased the capital hourly rate to $160. See Omnibus Appropriations Act, 2005 (Pub. L. No.
108-447). Since that time, the capital rate has received all applicable COLAs; therefore, the CJA panel
attorney capital rate, currently at $185 per hour, has reached the statutorily authorized rate.
194 See chart in Executive Summary at XVI
190

52

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-96

AR-2461

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 98 of 342 Page ID
#:27680

least discussed more often by JCUS, the Chair of the Budget Committee explained:
“Just because a committee requests something doesn’t mean that a member of the
Judicial Conference deems it relevant to talk about.”195
Some panel attorneys who testified felt that the judiciary was prioritizing court
budgets over appointed CJA counsel. Regarding the judges’ decision not to ask
Congress to increase the CJA hourly rate, one panel attorney expressed his frustration to the Committee:
For 11,000 CJA panel reps [sic], the judges decided not to even approach Co
ngress and ask for what the rate should be right now. Think about that. Who
does that benefit? Now, they did it “for our own good.” Well, thank you. I
really appreciate that, but I don’t feel very good about it, as you can tell.196

3.5.2 Effects of the National CJA Panel Rate
Insufficient hourly-rate funding for CJA panel attorneys has consistently been
identified as a threat to effective representation. The hourly rate paid to CJA panel
attorneys has fallen well behind prevailing rates for legal work. As the gap between
rates paid for CJA representation and those earned elsewhere in the law grows,
highly qualified lawyers become increasingly unwilling to accept CJA appointments. Some of the best lawyers doing this work leave the panel altogether.197 This
problem is not a new one.
In 1993, the Prado Committee found that “[a] primary reason for the growing dissatisfaction with the functioning of [the] private bar component of the CJA
program stems from the historically and increasingly inadequate compensation
paid to panel attorneys.”198 Over two decades later in 2005, a subcommittee of
the Defender Services Committee, evaluating the placement of the CJA program
within JCUS, reached the same conclusion,199 finding that the primary reason that
attorneys declined CJA appointments was the “low level of CJA panel attorney
compensation and concerns about voucher reductions.”200 Surveys commissioned
by the subcommittee supported this finding. The subcommittee concluded that
“the failure to fund the panel attorney program adequately, including fair and reasonable compensation rates, has adversely impacted . . . the availability of qualified
195

From notes taken contemporaneously in a meeting between the Committee, Judge Gibbons, and
members of BAPO on September 29, 2015.
196 John Convery, CJA Dist. Rep., W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 6, Tr., at 33.
197 See e.g. in section C below: “What I understand is that some of the best and the brightest have left
the list, so there’s a relationship between who you get and how you treat people.” Retired Judge Nancy
Gertner, Senior Lecturer, Harvard Law School, Public Hearing — Philadelphia, Pa., Panel 2b, Tr. at 9;
“I’ve had lawyers tell me ‘I can no longer work for free.’” Deborah Williams, FPD, S.D. Ohio, Public
Hearing — Philadelphia, Pa., Panel 10, Tr. at 29.
198 Rep. of the Judicial Conference Comm. CJA Rev. Comm., March 1993, at 37. Emphasis added.
199
200

Gleeson Report p.16
Id. at 14

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-97

53

AR-2462

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 99 of 342 Page ID
#:27681
FINDINGS

attorneys to accept CJA appointments.”201
This Committee’s conclusions are no different. Both the $132-per-hour
non-capital rate which Congress has funded, and the unfunded $148 statutorily
authorized non-capital rate, are too low and need to be significantly increased. These
rates cause the loss of qualified counsel from CJA panels and make it difficult to
attract young, capable federal criminal practitioners to an aging panel. As explained
more thoroughly in other parts of this report, for those qualified attorneys who do
remain on the panel, the low hourly rate creates significant financial hardships.

3.5.3 Rate increases Over Time
The chart below shows the non-capital hourly rates paid panel attorneys between
2002 and today:202

History of Criminal Justice Act (CJA) Rates
Non-Capital Hourly Rates for CJA Panel Attorneys
If services were performed between...

The hourly rate maximum is...

5/5/2017 to present

$132

1/1/2016 through 5/4/2017

$129

1/1/2015 through 12/31/2015

$127

3/1/2014 through 12/31/2014

$126

9/1/2013 through 2/28/2014

$110

1/1/2010 through 8/31/2013

$125

3/11/2009 through 12/31/2009

$110

1/1/2008 through 3/10/2009

$100

5/20/2007 through 12/31/2007

$94

1/1/2006 through 5/19/2007

$92

5/1/2002 through 12/31/2005

$90

Historically, Congress has funded a panel attorney rate well below the maximum rate authorized by statute. For instance, in 2002, the statutorily authorized maximum hourly rate was $115, yet Congress funded a rate of only $90 per hour. In 2008,
the statutory maximum rate was set at $133, but Congress funded only $100 per hour.
And in 2014, the statutory maximum rate was $141, but Congress funded an hourly
rate of $126.203 This low rate and the historically slow growth of that rate have damaged the ability of panels to recruit and keep qualified defense attorneys. This report
takes up the issue of the rate’s impact on effective representation in greater depth in
Section 7, but it became clear in the course of this study that the slow incremental
201

Id.
See Guide to Judiciary Policy, 7A , Ch.2, § 230.16(A).
203 See also chart in Executive Summary at XVI.
202

54

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-98

AR-2463

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 100 of 342 Page ID
#:27682

increase in the hourly rate damages the CJA’s ability to secure high quality representation for those unable to afford counsel.
By any measurable market comparator, the hourly rate for CJA panel attorneys
is extremely low. The 2005 Subcommittee report, discussed above, ultimately recommended a considerable rate increase. The report concluded:
CJA panel attorney representations and pay rates have been thoroughly
examined by this Committee. As a result, the Committee believes in
order to maintain a high quality of panel representations, both the hourly
rates and case compensation maximums must be addressed. Within the
amounts provided herein, and effective January 1, 2005, this Committee
recommends the hourly rates payable to capital case attorneys be
increased to $160 per hour.

3.5.4 Locality
When CJA counsel live and work in areas with high overhead costs, the effect of
these low rates is exacerbated. For example, the financial burden of defending a
client will vary greatly between an attorney who lives and works in San Francisco,
California, with a monthly cost of living calculated to be $11,273,204 and one who
lives and works in Mobile, Alabama, with a monthly cost of living of $5,828.205
Locality increases are consistently implemented for federal judiciary employ206
ees, but the CJA non-capital hourly rate does not change by locality. A panel
attorney practicing in San Francisco succinctly explained this problem:
I’ll just say two things about San Francisco. We all know it, it is an extraordinarily expensive place to live. For the past nine months, it has been the
highest rent paying area in the country, eclipsing New York by a very large
degree . . . and at $129 an hour, that’s just not a sustainable hourly rate.207
Additionally, the federal defender from the Southern District of Indiana supports locality increases:
If you are being paid, say, $100 an hour in San Francisco, that is certainly
not the same as $100 an hour in some rural county in South Carolina.
204

Cost of Living Index, The Council for Community and Economic Research, https://store.coli.
org/compare.asp (last visited Jan. 19, 2017) (estimating the monthly cost of living for a husband and
wife with children ages 6-17 in San Francisco, CA).
205 Cost of Living Index, The Council for Community and Economic Research, https://store.coli.
org/compare.asp (last visited Jan. 19, 2017) (estimating the monthly cost of living for a husband and
wife with children ages 6-17 in Mobile, AL).
206 5 U.S.C. § 5304 (2012); Compensation, U.S. Courts, http://www.uscourts.gov/careers/
compensation (last visited Jan. 19, 2017) (“Judiciary pay consists of base pay plus a locality pay
component and a cost-of-living allowance component.”).
207 Mary McNamara, CJA Dist. Rep., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 6, Tr., at 4.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-99

55

AR-2464

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 101 of 342 Page ID
#:27683
FINDINGS

So, I do think that there’s some merit to locality increases, particularly for
large cities where rates of overhead are so much higher than in some of
the more rural areas in this country.208

3.5.5 Overhead
Even if an attorney does not live and work in a high-cost area, increasing overhead
costs diminish the effective rate paid by the CJA. Neither the Judicial Conference nor
Congress has ever evaluated how these increasing costs affect the value of the CJA
rate. Overhead costs create a financial hardship for CJA counsel and discourage the
acceptance of cases by capable private defense attorneys.209 Solo practitioners must
pay costs for maintaining their practices, including malpractice insurance, staff,
computer equipment, IT services, electronic legal research services, telephones,
rent, and other miscellaneous overhead items.210
Testimony reflected that overhead costs amounted to as much as $70 – 100 of
the $132 hourly rate. Recent survey data confirms that increasing overhead costs
have substantially eroded the net income of CJA attorneys. The 2015 Survey of
Criminal Justice Act Panel Attorney District Representatives and Individual Panel
Attorneys, commissioned by the Administrative Office of the U.S. Courts, revealed
that the average overhead per billable hour in non-capital cases was $85.211 Thus, in
2015 CJA attorneys would have earned an effective hourly rate of $42 ($127 minus
$85) at then current rates.
The same survey illustrates the significant gap between panel attorneys and
privately retained counsel. While panel attorneys netted a mere $42 per hour,
retained attorneys netted more than $150 more per hour.212 With overhead consuming so much of the CJA rate, the rate is inadequate. As the CJA representative from
the Northern District of California explained:
We’re only three lawyers, I asked my office manager, “What’s our overhead
per hour attorney work?” Afterwards, I almost regretted that I asked because
it was so depressing when I got the answer. It was almost $100 an hour. . . . I
would say in Los Angeles, our overhead is probably about $70 an hour. In
my law firm it’s higher, but I’d say for a sole practitioner, which most of the
panel is, it’s probably about $70 an hour. Once you subtract out what people
pay on their taxes, they’re probably left with about $30 an hour.213
208

Monica Foster, CDO, S.D. Ind., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 35.
In the 2005 Gleeson report, nearly 40 percent of CJA panel attorneys reported declining cases
based on the low level of compensation. pg 15-16

209
210

Ken Gomany, CJA Panel Atty., N.D. Ala., Public Hearing — Birmingham, Ala., Panel 4, Tr., at 19.
Westat Survey. See Appendix C: Survey Data Considered.
212 Michele A. Harmon et al., 2015 Survey of Criminal Justice Act Panel Attorney District
Representatives and Individual Panel Attorneys 45 (Westat 2015).
213 Marilyn Bednarski, CJA Dist. Rep., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 6, Tr., at 9–10.
211

56

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-100

AR-2465

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 102 of 342 Page ID
#:27684

3.5.6 How Rate Affects Representation
Other lawyers who work in the federal criminal justice system are effectively paid a
much higher rate. Federal defenders and U.S. Attorneys do not bear the cost of overhead, have access to staff provided by the office, and receive benefit packages.
The Committee appreciates the fact that federal defenders and U.S. Attorneys
cannot engage in the private practice of law. However, this is becoming a reality
for some CJA panel attorneys as well. There are two factors associated with federal
practice which may also make it difficult to maintain a private practice. The first
is that the complex nature of federal criminal defense requires panel attorneys
to take a sufficient number of cases to remain proficient in complicated areas of
law.214 Taking the number of cases at this hourly rate to maintain that proficiency
may become a financial burden. Second, as panel attorneys become more skilled
in federal defense, they take on increasingly complex and difficult cases, which
may inhibit their ability to accept private cases to support their practices.215 If
CJA panels are to retain qualified counsel, the need for adequate rates must be
addressed.
The low hourly rate is demoralizing and discourages continued participation
in federal public defense representation. One panel attorney said that in Pittsburgh,
“I think there are paralegals who make more money than that or who bill at higher
rates.”216 Another panel attorney told the Committee the rate is “demoralizing. Many
times the ancillary services people get the same as what the [CJA] lawyer gets.”217
Finally, a panel attorney testified in Philadelphia:
Because I need to save money . . . I made the decision . . . to share an office,
not office space, but literally share an office with another very experienced attorney. . . . We love the work, we’re committed to the work and we
do it. But, really, I shouldn’t be sharing an office at this point of my career.
I shouldn’t be forced into that position.218
To continue to attract qualified panel attorneys to take cases under the CJA,
the hourly panel rate must be higher.

214

The Vera Report recommended 4-5 cases a year, though witnesses who testified to the Committee
recommended a higher number. Please see section B; Jon Wool et al., Improving Public Defense
Systems: Good Practices for Federal Panel Attorneys Programs, Vera Inst. Of Just. 7 (June 2003),
available at https://www/vera.org/publications/good-practices-for-federal-panel-attorney-programsa-preliminary-study-of-plans-and-practices (last viewed 9/25/2017).
215 See Mark Windsor, CJA Panel Atty., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Writ.
Test., at 1–2; See also Jessica Hedges, CJA Board Chair, D. Mass., Public Hearing — Philadelphia, Pa.,
Panel 9, Tr., at 11 (“I [have had] to turn away good civil cases recently . . . to focus on [my urgent CJA
cases]. I am losing a lot of money on making that choice.”).
216 Patrick Livingston, CJA Dist. Rep., W.D. Pa., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 11.
217 Bobbi Sternheim, CJA Dist. Rep., S.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 29.
218 Jessica Hedges, CJA Board Chair, D. Mass., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 30.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-101

57

AR-2466

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 103 of 342 Page ID
#:27685
FINDINGS

3.6 Examples of How Structural Conflicts
Influence the Administration of the CJA
3.6.1 The Lessons of Sequestration
In FY 2013, a budget crisis known as “sequestration” that occurred during the same
time period as other budget cuts, had a debilitating effect on federal defender organizations and CJA panel attorneys across the country. The impact of this crisis was
well-publicized in the national media and recognized by the judiciary and Congress.
Sequestration refers to the across-the-board spending cuts required by the
Budget Control Act of 2011 (Pub.L. 112–25, S. 365, 125 Stat. 240, enacted August 2,
2011) which were amended by the American Taxpayer Relief Act of 2012 (Pub.L.
112–240, H.R. 8, 126 Stat. 2313, enacted January 2, 2013). When these severe cuts to
the federal budget were conceived, and ultimately passed, Congress believed the consequences would be “so dangerous, and so reckless” that it would provide an incentive to pass a responsible budget to confront the nation’s spiraling deficits. Instead,
Congress failed to act, and the severe cuts went into effect on March 1, 2013.219

Sequestration’s Impact on the Defender Services Program
Due to the effects of sequestration and other budget cuts, from the end of
September 2012 through September 2013, federal public defender organization staff
levels dropped from 2,778 to 2,497 full time equivalent (FTE) employees, a reduction
of 281, or approximately 10 percent of the total FPDO workforce. In addition, in FY
2013, over 149,000 hours (approximately 18,625 days) of furloughs and 21,000 hours
of leave without pay were taken by federal defender organization staff. The initial FY
2014 on-board staffing levels for all federal defender organizations were 9.5 percent
below the Defender Services Committee-approved staffing levels. These widespread
furloughs and layoffs in FY 2013 caused an unprecedented loss of experienced
federal defender staff and, in some offices, created an untenable conflict between
choosing to hire a needed expert for a case or furloughing more defender staff.
Sequestration also negatively affected CJA panel attorneys. A temporary emergency rate cut of $15 per hour for both capital and non-capital cases went into effect
to already below market rates. On September 17, 2013, this hourly-rate reduction
was followed by several weeks of delays in panel attorney payments due to insufficient funds in the Defender Services account and the partial government shutdown.
Additionally, a reduction in the national training budget for substantive legal training for both defenders and panel attorneys drastically decreased training on the
substantive legal knowledge and skills necessary for criminal defense practice.
219

See Senate Judiciary Committee’s Subcommittee on Bankruptcy and the Courts held a hearing
entitled, “Sequestering Justice: How the Budget Crisis is Undermining Our Courts.” July 2013, pg. 1-2.

58

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-102

AR-2467

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 104 of 342 Page ID
#:27686

Unique Posture of Federal Defender Offices
Amplified the Effect of Sequestration
Late in fiscal year 2012, Congress authorized defenders to increase staffing in
response to rapidly-rising caseloads. When Congress authorizes new positions,
especially when it does so late in a fiscal year, it is the practice to fund only part of a
year’s cost for the position to account for the time it takes to hire new staff. The following year a higher level of funding is needed to maintain the same positions for
a full year. As a result, Congress’s action the in FY 2013 in funding the government
through a Continuing Resolution at the prior year’s appropriations levels resulted
in an immediate and severe shortfall in the Defender Services Account: all the new
positions Congress approved in the prior year were only partially funded in FY 2013.
As a consequence, in February of 2013, before sequestration went into effect, DSO
announced to federal defender offices that their budgets for the year would be cut
by roughly five percent, a cut that would have to be absorbed in the remaining eight
months of the year. Two months later, sequestration would impose a further five
percent cut on defender budgets to be absorbed in the remaining six months of the
year. The effect of the cuts was doubled by this timing. Defenders had only half a
year to manage a ten percent cut to full year funding.
Federal defender organizations had little ability to manage this shortfall. More
than 90 percent of federal defender budgets are dedicated to personnel and space.
The remaining funds go to necessary expenses like case-related travel and necessary
expert services, categories not amenable to reduction without affecting the quality of
representation.220 Prior to the 2015 Work Measurement Study conducted by the AO,
DSO funded federal defender offices at amounts needed for authorized staff, and the
number of authorized staff was set based on actual need. In contrast to other judiciary “programs” subject to staffing formulas and funded at certain levels not necessarily related to actual staff on board, defender offices did not maintain funded but
vacant positions that could provide a “cushion” during a fiscal emergency.

JCUS Committee Actions During Sequestration
Witnesses told the Committee that the manner by which the judiciary handled the
budget during sequestration was not only devastating to the CJA program but also
changed the way they regarded placement of the CJA Program within the judicial branch. Indeed, the opening of the National Association of Criminal Defense
Lawyers (“NACDL”) 2015 report on federal public defense explains that it was in
light of the sequester that their task force to study the federal defense system was
commissioned: “If a shining light in the country’s indigent defense system was
itself so vulnerable to shifting political winds, was there something fundamentally

220

Testimony from DSO received by the Committee, meeting at the AO June 2016.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-103

59

AR-2468

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 105 of 342 Page ID
#:27687
FINDINGS

flawed with that model?”221 The President of the NACDL told the Committee,
“Those problems became very manifest in 2013 with the sequester crisis . . . During
that crisis, there was a feeling among the defender community that when money
got tight, that the Judiciary looked after itself more than the defenders and that
the defenders, who had long relied upon the Judiciary to be their advocates for
Congress, for funding, were let down.”222
Some witnesses explained to the Committee that the defenders were not singled out during sequestration; all offices and programs in the judiciary were affected.
A federal district judge who was chief judge at the time told the Committee that the
judiciary took “significant hits” during the budget shortfall.223 “For instance in my district, our funding for staffing was cut by one-third and we had to reduce our staffing
costs . . . . There was in no way an attempt that I’m aware of by the judiciary to meet the
budget restrictions by decimating the federal defenders or defender services.”224
This assertion is, on its face, accurate.225 Defenders operated under the same
Continuing Resolution and were subject to the same sequestration related percentage cuts as the rest of the judiciary. But for reasons particular to the program,
defenders were affected far more severely than the judiciary’s various programs.
More important for purposes of this discussion, judiciary decisions about how these
shortfalls would be managed prioritized judiciary needs over those of the CJA and in
doing so damaged the program.
The Defender Services Committee, aware of these facts and of the harm
these cuts would cause federal defender offices, recommended to the Executive
Committee — which has exclusive jurisdiction to create the judiciary’s yearly
spending plans226 — that the shortfall in available funds be addressed by planning
to delay payments to CJA panel attorneys at the end of the fiscal year. The judiciary
could then either seek supplemental funding in the current fiscal year to timely
make these payments or seek sufficient funding in the following fiscal year to make
221

National Association of Criminal Defense Lawyers Report, Federal Indigent Defense: The
Independence Imperative, 2015, available at www.nacdl.org/federalindigentdefense2015 (last
visited Oct. 6, 2017) at 5 [hereinafter “NACDL Report”]. The report goes on to state that in light of
sequestration, “[f]or NACDL, which has increasingly devoted resources to promoting indigent defense
reform among the states, the federal indigent defense crisis was a grave concern. This concern was
heightened as many within the federal indigent defense structure urgently sought support for efforts
to restore funding. It was in this context” that the report was commissioned. NACDL Report at 5.
222 Gerry Morris, President, National Assoc. of Criminal Defense Lawyers, Public Hearing — Santa Fe,
N.M., Panel 4, Tr., at 7.
223 Judge Rosanna Peterson, E.D. Wash., Public Hearing — Portland, Or., Panel 3, Tr., at 2.
224 Id.
225 The following information is based on interviews held with those involved at the time and direct
Committee member knowledge.
226 The Judicial Conference of the United States and its Committees August 2013, Appendix
Jurisdiction of Committees of the Judicial Conference of the United States (As approved
by the Executive Committee, effective March 13, 2017). The Jurisdictional Statement of the Executive
Committee of the Judicial Conference which gives this Committee explicit authority to, “ . . . fashion
spending plans for the federal judiciary’s congressionally approved appropriations.”

60

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-104

AR-2469

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 106 of 342 Page ID
#:27688

payment at that time. This strategy had been used successfully in past funding
crises to prevent long-lasting damage to institutional defenders. But DSC did not
have the authority to authorize this course of action. The Executive Committee
alone could approve a spending plan. It declined to authorize delaying year-end
payments to CJA panel attorneys, requiring instead that cuts of nearly ten percent
be imposed on defender offices. These cuts had to be absorbed in roughly half of
the fiscal year. The results were both predictable and catastrophic.
As noted above, on a large scale, defenders laid off and furloughed workers.
Many valued employees, demoralized, left the program. And when funding was
restored the following year, it went unused as defenders, having just faced near
devastation from the way their budgets had been managed, were wary of hiring new
employees. Federal defenders who did attempt to hire found out that high-quality
prospective employees, aware that defenders had laid off employees only the prior
year, were reluctant to apply for those positions defenders sought to fill. As a result,
defender staffing has lagged behind needs for years.
Though the Executive Committee’s fiscal year 2013 spending plan largely
spared CJA panel attorneys the effects of sequestration cuts, the following year’s
plan did not. The Budget Control Act called for further sequestration cuts in successive years. DSO estimated that, were institutional defenders to be forced again
to absorb the entirety of the account’s shortfalls, federal defender offices would be
subject to budget cuts of up to 23 percent with staffing cuts at an even higher level.
In FY 2014 the Defender Services Committee again recommended to the
Executive Committee that a spending plan address the shortfall by deferring yearend panel payments (those that would become due a year later in August and
September of 2014) and seek from Congress supplemental funding to avoid any
actual delays. The Executive Committee chose instead to impose a ten percent cut
on defenders, a $15/hour reduction to the panel attorneys’ rate, and a brief deferral
of year-end panel attorney payments as a way of addressing the possible shortfall.
The $15 reduction to the panel attorney hourly rate went into effect in September 1,
2013, and lasted until February 28, 2014.227
In October of 2013, after a government shutdown, Congress reached a budgetary agreement increasing discretionary spending. A subsequent appropriation
funded the Defender Services account at a level that could no longer (after layoffs
had taken place) be used. A drop in the panel attorney appointments further diminished demands on the account. The following year, the Defender Services account
showed an over $75 million surplus.
Despite this $75 million-plus surplus, CJA panel attorneys have never been
made whole following the rate reduction. The Defender Services Committee urged
JCUS to seek full funding of the panel’s statutorily-authorized rate ($144/hour at
227

Guide to Judiciary Policy, 7A, Ch. 2 § 230.16(A).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-105

61

AR-2470

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 107 of 342 Page ID
#:27689
FINDINGS

the time) as a way of reducing the surplus and retaining qualified panel members
demoralized by the year’s rate cut. The Budget Committee pursued an alternative
course. Private attorneys who had accepted CJA appointments prior to sequestration and other budget cuts were forced to accept a reduced rate of payment for work
done, and the higher hourly rate was never paid after sequestration ended.

Federal Defenders Become Effective Advocates with Congress
During sequestration the judiciary’s position that the branch must “speak with
one voice” and that all contacts with Congress take place through specified staff
at the AO limited the federal defenders’ ability to contact Congress on behalf of
the Defender Services program and seek additional funding. Thus, the Defender
Services program was deprived of its best advocates during a crisis. Additionally,
because of the structural conflicts already mentioned above, and the inability
to speak directly to Congress on behalf of the Defender Services program, many
defenders believed their concerns would not be conveyed.
Facing dire consequences for the federal indigent defense, some federal
defenders made the decision to reach out to Congress directly to request emergency
funding to preserve their ability to continue to provide representation to CJA clients.
Ultimately, Congress was responsive. Another defender told the Committee that
rather than needing judges to protect the program from legislators, the defenders’
experience with reaching out for assistance illustrated:
Part of what we learned from that I think is that Congress was actually
fairly responsive, understood those needs. In fact, defenders got one of
the two, I think it was, anomalies or special additional amounts of money
to help out during that crisis.228
Rather than looking at the defense program with skepticism, a defender testified to the Committee that, “When congressmen asked me for information during
the sequestration and we provided it to them and to their staffers, we were greeted
with an understanding of what our role is and what we have to do. The skepticism
that we thought we would meet was not there.”229

Views on CJA Structure Change Following Sequestration
The effects of the judiciary’s management of appropriation shortfalls under sequestration have had a profound effect on defenders’ views of the judiciary’s management of the program. Whether all judiciary accounts bore the brunt of steep budget
cuts equally or not, federal defenders and panel attorneys repeatedly asserted to the
Committee their belief that they were targeted for greater cuts under sequestration
in order to spare the courts’ funding. A former defender testified that historically the
228
229

62

Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 18.
Jon Sands, FPD, D. Ariz., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 26.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-106

AR-2471

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 108 of 342 Page ID
#:27690

program had received “a lot of protection [from DSC and JCUS] . . . . [M]ost of us felt
that, in terms of funding, that we needed the judges to go to the Hill . . . . we didn’t get
that protection. In fact, we were actually competing with the judges, and the judges
were going to win. That’s what’s changed my opinion about pulling all of it out from
underneath the judiciary.”230 As of the writing of this report, many federal defender
offices are still trying to recover from sequestration cuts in 2013. One defender testified it was not just her office, but “all of us are invested in trying to staff up our office
to recoup the losses from sequestration because we lost a lot of people.”231
Because of the unique circumstances of the CJA program, the defense community could not prepare for sequestration in the way that some other offices or
programs in the judiciary could. The program’s mission requires it to be responsive to decisions made in a different branch of government. Simply put, unless the
Department of Justice had stopped prosecuting or lessened its caseload in the lead
up to sequestration, the CJA program could not take preventive budgetary measures
without endangering the quality of representation. The former assistant director of
DSO acknowledged that some within the AO blamed the CJA program for some of its
steep cuts; he testified, “Yes, their complaint was that we weren’t taking radical cuts
in anticipation that sequestration might happen.”232 However, he told the Committee:
We took the view that, as Congress had taken, that this is a constitutional
mandate and you can have all the sequestration that you want, but when
you’re going to arrest somebody and charge them with a crime, they’re
entitled to a lawyer, not a sequestered lawyer. They’re entitled to services. . . . We were asking for the amount of money that was needed to provide the basic elements of a defense, not a Cadillac defense, not a Ford
defense, a Sixth Amendment defense.233
Sequestration highlighted the conflict created by placing the defense program within the judiciary. The judiciary made decisions on CJA spending considering the best interests of the judiciary — not those of the program. The CJA program could not, as an independent entity, make budgetary decisions that would
preserve defenders’ ability to fulfill their duties and obligations to the defendants
they represented. Surely, the Committee was told, there was “a really good rationale why this made a lot of sense for the federal judiciary as a whole to take this
approach. That may have made sense for them as a whole, but within that context,
this program [CJA] gets hurt.”234
230

Franny Forsman, Former FPD, D. Nev., Public Hearing — San Francisco, Cal., Panel 4, Tr., at 11.
Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 15.
232 Steven G. Asin, Former Deputy Assistant Director, DSO, Administrative Office of the United States
Courts, Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 17.
233 Id. at 17–18.
234 Id. at 21.
231

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-107

63

AR-2472

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 109 of 342 Page ID
#:27691
FINDINGS

And while individual judges across the country continue to support a strong
defense program, the erosion of the Defender Service Committee’s authority has
caused defenders to rethink their position within that structure. The concern of
defenders is not the product of any lack of commitment to the Sixth Amendment on
the part of individual judges. Rather, it is a product of the very real conflicts created
by housing the CJA program under the JCUS. There are times when the interests of
the CJA program and the judiciary diverge. And these divergences become more
obvious, and more severe, in times of constrained resources.235 Inevitably then, the
views of the Defender Services Committee and the interests of the CJA program are
subordinated to the pressing needs of the judiciary.

3.6.2 Work Measurement
The 2015 Work Measurement Study of Federal Defender Organizations is another
example of how the structural conflicts caused by placing the CJA program within
the judiciary affects CJA program administration. The September 2013 Report of the
Judicial Conference announced that the Judicial Resources Committee, in consultation with the Defender Services Committee, would develop new national staffing
formulas for FPDOs and CDOs.236 Until that time, defender organization staffing
had been based on formulas created by the Defender Services Office, taking into
account weighted cases237 and historical needs of the district. In December of 2013,
the federal defender offices began participation in an extensive work measurement
study program to determine their staffing needs.

Recognition of Defenders’ Distinct Function
Work measurement studies had previously been used in other court programs, and
the thought was that such staffing formulas should be equally applied to defender
offices. The study ended in June of 2015. While all defender organizations participated,238 some told the Committee that it harmed morale because defenders felt the
Work Measurement study did not recognize the distinct mission of the defender services program, instead treating them as another program meant to serve the courts.
One defender testified that such a study misunderstood the nature of the work
that defenders do. “We were told that everyone else had to do work measurement,
probation officers, court people and so we were just like everybody else and we’re
not. When they tried to do work measurement on the U.S. Attorneys they couldn’t
235

See discussion above on sequestration; NACDL Report at 5.
Judicial Conference Report Sept 2013; see also discussion DSC jurisdiction change above.
237 Evaluated under a study prepared by the RAND corporation
238 All FPDO employees were required to participate in the data collection, and defenders told the
Committee the process was onerous. One defender testified, “It was laborious to do it. It was added on,
we already had too much work to do.” Henry Martin, FPD, M.D. Tenn., Public Hearing — Birmingham,
Ala., Panel 6, Tr., at 12.
236

64

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-108

AR-2473

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 110 of 342 Page ID
#:27692

do it, and to be compared to court reporters and probation officers, and to assume
that our tasks can fit into widgets, was devastating to morale.”239 Despite defender
misgivings about the study, the defender community was lauded as a “model of
cooperation” for their participation in it.240
While the study itself may have created tension between defenders and the
judiciary structure, it also unequivocally supported what defenders had been
repeatedly asserting: rather than being an account out of control, their program
was understaffed. The chair of the JRC told the Committee that, “despite early concerns that a rigorous, statistically-driven work measurement study would lead to
a recommendation . . . for a reduction of the staffing formula, actually the opposite
happened. We ended up with a recommendation that was approved by the Judicial
Resources Committee and approved then by the Conference for an increase in 8.6
percent across the board for the defender community.”241

Lack of Flexibility
While there were positive results to the study, defenders highlighted for the
Committee that there are two main problems with the staffing formulas and work
measurement data: the staffing formulas, while designed for stability, are not flexible enough for a program that is reactive to the decisions of another branch of government, and the staffing and weight measures don’t take into account the many
forms of representations that defenders engage in for their clients.
Defenders told the Committee that the inflexibility of the staffing formulas
makes it difficult to respond to new laws, prosecutorial initiatives, or Supreme Court
rulings (see, e.g., Johnson v. United States above and California – Proposition 66 below
in Chapter 9). The rigid application of the current formula, which averages work
measurement findings over five years, “removes needed flexibility from the DSC that
has the institutional experience and responsibility to support the defenders unique
mission. Defenders need to be able to respond to changes in prosecution policies or
court initiatives in different areas of the country.”242 As one district judge pointed out,
the “real problem, I think, is that everything about CJA, everything about defender
services, is by its nature reactive. It depends on how many cases are filed by the U.S.
Attorney’s Office.”243 Although the work measurement process may have been “well
intentioned and successfully performed thanks to both AO staff and the defenders
themselves,” it does not adequately address this quality of defenders’ work.244
For example, in 2014, the United States Sentencing Commission voted to
239
240
241
242
243
244

Marjorie Meyers, FPD, S.D. Tex., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 32–33.
Chief Judge Lawrence Stengel, E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 8, Tr., at 8.
Chief Judge Lawrence Stengel, E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 8, Tr., at 7.
Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 4.
Judge Rosanna Peterson, E.D. Wash., Public Hearing — Portland, Or., Panel 3, Tr., at 36.
Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 4.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-109

65

AR-2474

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 111 of 342 Page ID
#:27693
FINDINGS

amend the drug sentencing guidelines. Often referred to as “drugs minus two,”
this amendment was also retroactive, requiring that closed cases be reviewed and
motions filed to give defendants the benefit of the new sentencing guidelines.245 A
defender told the Committee the work formula “is so inflexible. It does not recognize that we have to react to what other people do in the system. [Because of]
drugs minus two, we have 1400 cases in our office to review and most of those will
get motions filed.”246 Despite the need, the federal defender office was unable to
hire additional staff to assist with that case review. One long-time defender told
the Committee, “I really didn’t see it ultimately as being a long-term benefit to us.
It may have temporarily saved us because it showed that we do work more than
they thought we were but all it did was measure what we’ve been doing, not what
we should be doing.”247 The defender lamented that the staffing formula didn’t
include any flexibility to “anticipate the changes and new challenges that would
come to us that in the past we’ve been able to adjust to.”248

Inability to Accurately Quantify Representational Tasks
Additionally, some offices fared poorly in work measurement and will lose staff
and positions not because they are overstaffed, but because the formula does
not take into account all the work the defenders do in the course of serving their
clients. This work includes drug courts, re-entry courts, and veterans’ courts.
“That kind of work doesn’t really count into our staffing formula, and it raises
some very difficult ethical issues sometimes . . . I think as we start to think out
of the box in terms of how the criminal justice system operates, I think we also
have to think outside of the box in terms of how we staff and fund it.”249 One federal defender who, as a result of work measurement, was directed to lay off nine
of her staff members250 told the Committee:
These programs are in our hearts, this [is] what our clients need, this is
what we should be doing, this is making our communities better, but
the reality of it is that if every lawyer that I assign to go work on mental
health court, or to go work with the veterans, or to go work with our
tribal communities is getting less than a misdemeanor’s case worth of
credit. We cannot continue to sustain our involvement in these programs, and to me that would be a tragic loss and a complete inability to
245

For more information, please see http://www.ussc.gov/sites/default/files/pdf/amendmentprocess/materials-on-2014-drug-guidelines-amendment/20140724_FAQ.pdf.
246 Elizabeth Ford, Executive Director, CDO, E.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6,
Tr., at 33.
247 Henry Martin, FPD, M.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 12.
248 Id.
249 Miriam Conrad, FPD, D. Mass. & D.N.H. & D.R.I., Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 34.
250 Kathy Nester, FPD, D. Utah, Public Hearing — Portland, Or., Panel 6, Tr., at 36.

66

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-110

AR-2475

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 112 of 342 Page ID
#:27694

evolve what it is we do and why we do it. The science says we should be
doing this. Every other agency in the federal family has acknowledged
this is important and is investing resources in it. I think the defender
services need the flexibility, and frankly, to bring in the CJA panel.251
Federal defender offices do not get credit under staffing formulas for helping to manage the CJA panel.252 While some FPDOs manage to do so, others
would like to but simply can’t. A defender told the Committee, “I would take
that on . . . [but] I’m fully staffed, and we don’t have any room for panel management. So we would have to figure out a way where the work measurement
studies . . . take into account that non-case related work we would do managing a
panel, but I would be happy to help.253

Returning Jurisdiction to the Defender Services Committee
Finally, one defender pointed out to the Committee that because the study and its
resulting formulas provide an empirical basis for CJA budgeting, concerns about
overspending should be assuaged. That being so, justification for depriving the DSC
of authority over defender staffing and budgets is, if it ever existed, now lacking.
Because of work measurement, the program now has an empirical
and analytical tool to address its staffing, resources and requirement, and the need for judicial oversight over the defender program
is substantially reduced. As a consequence, at a minimum, DSO
should be re-elevated to the directorate within the AO and judicial
oversight of our staffing and budget limited. This will allow DSO the
ability to more effectively advocate not just for necessary resources
but also advocate for policy and programs initiatives that will be
beneficial to the accused.254
The Committee recognizes the need for metrics to appropriately staff offices
and promote accountability. But those metrics must take into account the need for
flexibility in a fundamentally reactive program.

3.6.3 Clemency
On April 23, 2014, the then-acting Deputy Attorney General announced a
Department of Justice initiative “to encourage qualified federal inmates to petition to have their sentences commuted, or reduced, by the President of the United
251

Id. at 34–35.
A recent adjustment to the formulas provides minimal credit to those offices that, because they are
losing staff, would otherwise abandon this work.
253 Laine Cardarella, FPD, W.D. Mo., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 25.
254 Kevin Butler, FPD, N.D. Ala., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 2.
252

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-111

67

AR-2476

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 113 of 342 Page ID
#:27695
FINDINGS

States.”255 Given the volume of applications, DOJ requested volunteers and assistance in screening applications, and the Deputy Attorney General wrote a letter
requesting the three FPDOs in the Washington, D.C. area to consider detailing one
or two staff members from each office to assist in the initiative.256 Additionally,
some U.S. district courts issued orders authorizing their district’s FPDO to represent
applicants applying for clemency.257
In response to these initiatives and efforts, then AO Director Judge John Bates
requested an opinion from the AO’s general counsel about the appropriateness of
appointing CJA counsel or federal defenders. In a memo dated July 30, 2014, the
General Counsel determined that district judges had no authority to appoint federal
defenders or panel attorneys to represent non-capital clemency applicants. 258
Among other reasoning, the General Counsel’s memo addressed the language
of the CJA which states, “A person for whom counsel is appointed shall be represented at every stage of the proceedings from his initial appearance before the
United States magistrate judge or the court through appeal, including ancillary matters appropriate to the proceedings.”259 The AO’s General Counsel asserted that “the
plain language of subsection (c) of section 3006A makes clear that courts’ authority
to appoint counsel in ancillary matters extends only to those ancillary matters that
are germane to judicial proceedings.”260
The memo notes that, “While courts have discretionary authority to appoint
FPDOs to assist in various administrative tasks for the general benefit of their office,
the courts, or the judiciary, there is no authority to appoint federal defenders or
panel attorneys to represent individual non-capital clemency applicants.” 261
The Committee heard from defenders and defender organizations about the
impact the General Counsel memo had on the clemency process. The NACDL
reported that, “Because defenders had the files, historical knowledge, and expertise
to determine if their clients qualified for clemency, their non-participation has had
a substantial negative impact on the ability to identify those who might qualify for
clemency.”262 A defender stated, “These limitations on our representation deprive
255

https://www.justice.gov/pardon/clemency-initiative Qualifications included that current inmates
had been convicted of low-level, non-violent crimes, had served at least ten years in prison, and had
demonstrated good conduct in prison.
256 Legal memo from Robert Loesche, AO General Counsel to Judge John Bates, AO Director,
Authority to Appoint Criminal Justice Act Counsel in Non-Capital Clemency Matters and to Detail
Federal Public Defender Office Staff to the Office of the Pardon Attorney, July 30, 2014 pg 2. Available
on JNET, access restricted to judiciary employees, at http://jnet.ao.dcn/court-services/cja-panelattorneys.
257 Id.
258 Id.
259 18 U.S.C. 3006(a)(c).
260 Loesche Memo at 6.
261 Id. at 7. See also Memorandum from Judge John D. Bates, Director, Administrative Office of U.S.
Courts, and Judge Catherine C. Blake, Chair. Judicial Conference Committee on Defender Services, July
31, 2014 p. 2
262 NACDL Report at 31.

68

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-112

AR-2477

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 114 of 342 Page ID
#:27696

defendants of much needed assistance in trying to obtain post-conviction relief.”263
A former defender who is now a panel attorney disagreed with the General Counsel
memo. He told the Committee that, for defenders, “[W]e don’t feel that we’re
part of the judiciary, we work for our clients and these were the people who were
impacted by that opinion that limited involvement.”264 He wrote to the Committee
that the memo was “a crushing emotional blow to defenders to be told they could
not help former clients suffering over-punishment. But, the more damaging consequence of the AO’s decision is that many eligible prisoners will not have petitions
for commutation processed in time for consideration.”265 Another defender agreed
that because of this decision, it was “questionable whether all those cases that are
ripe for review will be timely entertained during this administration.”266
As the clemency issue described above illustrates, where policy initiatives and
client interests are concerned, the AO and the judiciary’s views can conflict with the
defenders at a very basic level — who should be represented under the CJA.

3.6.4 Probation Officer Protection Act
This conflict of missions is also illustrated in a recent bill passed in the U.S. House of
Representatives. Nearly a decade ago in its March 2008 meeting, the JCUS adopted a
recommendation to “seek legislation that would permit probation officers, whether
in a search context or otherwise, to arrest, based on probable cause, persons who
assault, resist, or impede the officer in the performance of official duties.”267 A bill
to do so, H.R. 1039, the “Probation Officer Protection Act of 2017,” was introduced
and passed in the House of Representatives. Before it passed, two federal defenders
wrote a letter to the representatives on the House Judiciary Committee on behalf of
Federal Public and Community Defenders outlining their position against the bill.
They wrote, “We oppose the bill because it would violate the Separation of Powers,
would invite Fourth Amendment violations, is unnecessary for purposes of supervision or safety, and would instead escalate the risk of harm to all concerned and
undermine effective supervision.”268
Unfortunately, there is no evidence the Committee can find that the Defender
Services Committee had any chance to meaningfully consider and respond to this
proposal before it was approved by the Judicial Conference. No one from the Defender
Services Office or the defender community was included in meetings with congressional staff on this bill. Also, since the AO’s Office of Legislative Affairs only promotes
263

Marjorie Meyers, FPD, S.D. Tex., Public Hearing — Birmingham, Ala., Panel 6, Writ. Test., at 4.
Thomas Hillier, Former FPD, W.D. Wash., Public Hearing — Portland, Or., Panel 1, Tr., at 14.
265 Thomas Hillier, Former FPD, W.D. Wash., Public Hearing — Portland, Or., Panel 1, Writ. Test., at 3.
266 Leigh Skipper, Executive Director, CDO, E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 6.
267 Available on JNET, access restricted to judiciary employees, at http://jnet.ao.dcn/legislation/
legislative-summary/crime/safe-searches-us-probation-officers-2017
268 Patton-Sands letter, March 30, 2017 pg 1. See Appendix E.
264

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-113

69

AR-2478

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 115 of 342 Page ID
#:27697
FINDINGS

JCUS legislative policies, even if the Defender Services Committee, the AO’s Defender
Services Office, or the defenders had voiced opposition, it would not have been communicated or included in any submissions if it was contrary to that policy.
During the markup of the bill, Rep. Conyers advanced many of the arguments
put forth in the Federal Public and Community Defenders’ letter in opposition to the
bill, illustrating the importance of defender input to legislators. It appears that the
defenders felt forced to circumvent the JCUS governing structure to give input on the
bill. The current structure had failed to allow for the defense view to be heard. Under
the current structure, there does not appear to be a mechanism for the defender program to have an official position that is contrary to that of the judiciary. Finally, this
structure does not allow federal defenders to act as advocates for the CJA program or
their clients on legislative matters that affect federal criminal defense.
Once again, the CJA program is simply not suited to be subsumed within a
judiciary structure whose goal is to serve the courts. As a judge on the Defender
Services Committee said,
The defenders today are uniformly individuals at the very top of their
profession, experts in the field of federal criminal defense who for the
most part have devoted their careers to defense of the indigent. . . the
fact remains that the direction of the defense function is controlled by a
committee made up entirely of judges, leaving the nationally-recognized
experts in the criminal defense profession and the lawyers charged with
implementing policies and providing the representations with no vote
and little authority over the direction of the defense function.269

•

269

70

Mag. Judge Jonathon Feldman, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 8.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-114

AR-2479

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 116 of 342 Page ID
#:27698

Section 4: Local CJA
Panel Administration
The Criminal Justice Act requires each United States district court, with the approval
of the relevant circuit court, to formulate and implement a district-wide plan for
providing representation to any criminal defendant who cannot afford to hire an
attorney.270 The CJA also grants authority to the Judicial Conference of the United
States (JCUS) “to issue rules and regulations governing the operation of district
plans” for providing legal representation for indigent defendants.271
While plans can and should vary to reflect local conditions, the fundamental
goals of any plan are the same: to ensure there is a pool of qualified lawyers (both
panel attorneys and institutional defenders), that counsel is promptly appointed,
that these defense attorneys have the resources necessary to properly represent their
clients, and that they are fairly compensated. Even though up-to-date plans that
conform to JCUS policies are a requirement around the country, there are currently
districts without CJA plans, districts that have not updated their plans in decades,
and districts that do not follow their own plans.

4.1 Importance of CJA Plans
for Representation
Local plans are critically important to the administration of the CJA. These plans are
meant to spell out the process for selection and retention of panel attorneys along
with many other essential aspects of representation in ways that meet the particular
needs of the district. Doing so helps ensure that qualifying defendants are provided
270
271

18 U.S.C. § 3006A(a) (2012).
18 U.S.C. § 3006A(h).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-115

71

AR-2480

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 117 of 342 Page ID
#:27699
FINDINGS

with timely appointed counsel, as well as ensure those counsel will represent defendants consistent with the best practices of the legal profession, so that the rights of
individuals are safeguarded.
A federal defender told the Committee that plans were essential to creating a
knowledgeable, experienced panel of private attorneys to take CJA appointments,
as they provide “a structure for admitting members to the CJA panel and removing
them.”272 Without such a structure, unqualified attorneys are appointed to represent
individuals charged with serious offenses.273 The Committee heard repeatedly that
CJA plans that contain these types of provisions are necessary to provide high-quality representation by CJA panel attorneys. Conversely, the absence of a plan creates
serious concerns about the quality of representation.
Despite the requirements of the CJA, there are districts or divisions where
there is no CJA plan, or no list of panel attorneys to be assigned by the courts. The
President of NACDL told this Committee, “I get calls from lawyers all the time in
civil firms and they are saying I just got an appointment, what should I do?”274 In
one division of the Western District of Texas, every attorney who is a member of
the federal bar regardless of practice area is automatically deemed to be a member
of the panel. As a result unqualified, inexperienced lawyers receive appointments — one of the problems the Criminal Justice Act was passed to correct. The
federal defender for that district told the Committee that she and the two previous
defenders before her tried unsuccessfully to get the division to adopt a plan.275 The
division has a tradition, she testified,
of picking someone out of [the] audience to represent the client or picking up the phone and calling somebody to do it. . . . [I]f there’s only a civil
lawyer who has never done criminal work, the first thing they do is they
call the branch chief in Austin and our office will help walk that person
through the case. It becomes very problematic though, if we have a
co-defendant because then we can’t offer that assistance because of the
privilege and confidentiality issues.276
A federal defender in another district in Texas told the Committee about
something in his district informally called a “non-voluntary panel,” in which lawyers
are conscripted to represent defendants.277 He told the Committee that his office
is “currently shepherding through a case where the lawyer . . . only practices tax law
and [has] no real experience in doing these types of cases.278 Given the complex
272
273
274
275
276
277
278

72

Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 13.
Id. at 13–14.
E. Gerry Morris, Pres. NACDL, Public Hearing — Santa Fe, N.M., Panel 4, Tr., at 26.
Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 26.
Id.
Jason Hawkins, FPD, N.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 25.
Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-116

AR-2481

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 118 of 342 Page ID
#:27700

nature of federal criminal litigation, the defense should be “on the same footing as
[government] counsel with training and expertise,” to protect the rights of the defendant under an adversarial system.279 Where there is not a current and adhered-to
plan codifying practices to establish an effective and efficient system for providing
CJA representation, then the statute itself is not being implemented to provide the
protections it was designed to ensure.
Other districts have CJA plans that exist on paper but are ignored in practice.
A federal defender told the Committee that under the plan in her district, “You are
technically on the panel, on the CJA panel, whether or not you are qualified. Every
person who is admitted to the bar of the [district] is considered to be on the panel,
and that includes whether or not you are dead because they don’t strike your name
off after you die.”280 She further explained that if her office wants to contact panel
attorneys to offer training or other support, “it is very difficult to get a meaningful
list of those lawyers who are practicing routinely.”281
In another district, the Committee was told:
[W]e have a model CJA plan. We’ve had it for years, it’s been re-adopted
any number of times, the last time was 2011. We have it, but the judges of
my district totally ignore it. It has different things on it about criteria for
admission to the panel. There’s supposed to be a mentor panel, you’re
supposed to have a three-year review. They don’t do any of that.282
Moreover, because many plans lack review procedures for panel attorneys
and don’t have structures in place to assist and train them when judges have concerns about the quality of their practice, some panel attorneys find that they are no
longer receiving appointments. Judges simply tell the magistrate judge, “Don’t send
this person back into my courtroom.”283 This hurts the individual attorney and the
panel. With proper plans that include policies that provide feedback and training
for these attorneys, many of these lawyers would not be faced with exclusion from
appointments but instead would be “salvageable.”284 Instead of being identified
for training or support that could improve overall quality of representation in the
district, they “just magically don’t get cases anymore, which doesn’t improve the
performance standards of anyone.”285
There are considerable benefits to updating and implementing plans with
provisions to promote a qualified and well-trained panel. A panel attorney told the
279
280
281
282
283
284
285

E. Gerry Morris, Pres. NACDL, Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 26.
Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 1.
Id.
Rochelle Reback, Former CJA Panel Atty., M.D. Fla., Public Hearing — Miami, Fla., Panel 5, Tr., at 12–13.
Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 25.
Id.
Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-117

73

AR-2482

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 119 of 342 Page ID
#:27701
FINDINGS

Committee that an updated plan in her district led to the creation of a system in
which lawyers are required to apply to be on the CJA panel, and the size of the panel
is designed to allow the attorneys to become and remain proficient by regularly
receiving appointments. The new plan also has provisions for training.286 As a result
of this updated plan, the panel attorney reported an increase in performance and
practice among panel attorneys. It also created an environment which encourages
younger, less experienced attorneys to join the panel.287

4.2 Aspects of Effective Plans
Many CJA plans do operate well and are effective at ensuring quality representation. Adopting a structure that incorporates best practices not only sets the stage
for the consistent provision of high-quality defense; such a plan is also perceived by
defense lawyers to be fair and reasonable. As one CJA panel attorney district representative told the Committee, “I think culture comes after structure. I don’t think
you can get a good culture without a good structure.”288

4.2.1 Who Should Manage the Panel
Judiciary policy provides that panel administration and management “should be
centralized in one organizational element (such as the clerk’s office or, where appropriate, the federal defender organization) to ensure that counsel is appointed as
expeditiously as possible, appointments are equitably distributed, and information
on availability of counsel is maintained.”289 On the whole, testimony this Committee
received indicates that a critical aspect of an effective plan is involving the local federal defender organization and panel attorneys in the administration of the plan. CJA
panels function more effectively when the defender office, a CJA committee, or a CJA
supervisory attorney manages applications from lawyers to join the panel — as well as
their removal, if necessary, from the panel — and their appointment to cases. While
judicial input is necessary to create a high-quality panel of attorneys, most practitioners believe that panels controlled exclusively by judges generally function less
well and are less satisfactory to the participating attorneys. Although a minority view,
some witnesses who testified before this Committee disagree. One federal defender
told the Committee, “The panel is managed by the district court in my district, and it
is preferred to be that way by our panel members.”290 She stated that panel attorneys
286

Melanie Morgan, CJA Panel Atty., D. Kan & W.D. Mo., Public Hearing — Santa Fe, N.M., Panel 5, Tr.,
at 14.
287 Id. at 13–14.
288 Mary McNamara, CJA Dist. Rep., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 6, Tr., at 20.
289 Guide to Judiciary Policy, Vol. 7, Part A, Ch. 2 § 210.30.40.
290 Doris Randle-Holt, FPD, W.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 7.

74

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-118

AR-2483

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 120 of 342 Page ID
#:27702

“believe it’s a conflict for the defender [office] to manage the panel.”291 Others who
supported judicial management of panels explained: “[J]udges feel that they are in
the best position to determine who is doing a good job and who is not.”292
In districts with judge-managed panels, attorneys often believe they have
no avenue to remedy problems in panel administration. More often than not, the
Committee heard concerns similar to the ones expressed by a panel attorney district
representative who testified that at national CJA conferences, other panel attorneys
“tell me that all the time, they say, ‘In my district, I couldn’t possibly say X, Y and Z
to our judge, he would get offended or she would have me off the panel.’”293 In fact,
the Committee faced real difficulty in gathering information about the functioning
of the CJA in certain districts because panel attorneys feared their candid testimony
might provoke judicial retaliation. Some panel attorneys in districts with judge-managed panels were concerned that speaking out would mean not getting any future
appointments. A representative from the New Mexico Criminal Defender Lawyers
Association told the Committee that in preparing for her testimony there were lawyers who sought anonymity and others who were willing to speak but raised concerns about discussing these issues.294 She believes there needs to be a “mechanism
for CJA lawyers to share those concerns about that — that fear of reprisal.”295
These concerns and many others raised during testimony support moving
panel administration away from judicial control.296 In districts where this is already
the model, judges still play a critical role in the selection, retention, appointment,
and removal of panel attorneys. Witnesses agreed that judicial input, rather than
judicial control, is key to the success of CJA panel management. A panel attorney
testified, “The judges have to be involved in those kinds of decisions. They have to
have some involvement in the process. They see the lawyers, they see issues that
we don’t know about, but I don’t know that they should be the only final arbiter.”297
Another panel attorney stated that with the “buffer that we have in place with our
CJA administrator,” she believes “there has been a benefit in having the court on that
initial selection process.”298 Finally, a former defender told the Committee,
291

Id.
Chief Judge Barry Ted Moskowitz, S.D. Cal., Public Hearing — San Francisco, Cal., Opening Test.,
Tr., at 8.
293 Mary McNamara, CJA Dist. Rep., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 6, Tr., at 37–38.
294 Teresa Duncan, N.M. Crim. Def. Lawyers Assoc., Public Hearing — Santa Fe, N.M., Panel 4, Tr.,
at 24. Testimony such as this encouraged the Committee to hold closed-door sessions with panel
attorneys who wished to remain anonymous.
295 Id.
296 Eric Vos, FPD, D.P.R., Public Hearing — Miami, Fla., Panel 1, Tr., at 5; Daniel Albregts, CJA Panel
Atty., D. Nev., Public Hearing — San Francisco, Cal., Panel 4, Tr., at 21–22; Jeffrey Lindy, CJA Dist. Rep.,
E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 4, Tr., at 7.
297 Debra DiIorio, CJA Panel Atty., S.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Tr., at 26.
298 Melanie Morgan, CJA Panel Atty., D. Kan & W.D. Mo., Public Hearing — Santa Fe, N.M., Panel 5,
Tr., at 23.
292

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-119

75

AR-2484

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 121 of 342 Page ID
#:27703
FINDINGS

I think that judicial input is necessary. Because when I was first a
defender where we wrote the local plan, we had nothing but attorneys
and no judges on the selection committee, and I realized fairly quickly
that there was no way that those lawyers were going to know enough
about whether somebody should be on the panel or off the panel. There
should be judicial input and a procedure or process for receiving that
[input]; as well as there should be a procedure or a process for clients to
be able to register complaints with regard to lawyers.299
While a great deal of the work lawyers do in preparing a case is not visible to
judges, their input is nevertheless essential in evaluating a lawyer’s performance.
Certainly, any scheme of panel management should consider judges’ views in determining who will be on the panel and, in an individual case, whether work was completed and done well. However, this does not require judicial management. In a
number of districts where the panel is managed primarily by the federal defender or a
CJA supervising attorney, plans provide for receipt and consideration of judicial input.
Administration of the CJA panel by institutional defenders was widely
praised. One defender whose office manages panel administration felt his district
could be a model for others: “My office and myself do everything, from A to Z. We
select the panel attorneys when we have conflicts, we work closely with them to
give them advice all the time. We have extensive training sessions for them. We
have a listserv, a newsletter rather, that we give to them.”300 A panel attorney told
the Committee that the basis for administration by defender offices exists already
in the relationship between CJA attorneys and the defender office.301 Panel attorneys in many districts already use the defender office as a resource and look to
them for assistance. “[I]nformally it happens now anyway. Lawyers reach out, they
call, they want advice, and it should be encouraged. . . . I think [formal administration] would be welcomed.”302
Limited resources can be an impediment to moving administration into
defender offices, however. As a defender told the Committee, “[M]y efforts to
have a CJA panel administrator in my district were 100 percent dependent on
them being my employee. The clerk’s office said . . . [t]hey were not going to pay for
them.”303 Some defenders believe they could easily absorb panel management if
funds were made available.
Another defender offered a similar view:
I’ve been so impressed with the panel administrator[s] . . . the way they
299

Franny Forsman, Former FPD, D. Nev., Public Hearing — San Francisco, Cal., Panel 4, Tr., at 18.
Thomas McNamara, FPD, E.D.N.C., Public Hearing — Miami, Fla., Panel 1, Tr., at 5.
301 Anthony Ricco, CJA Dist. Rep., E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 37.
302 Id.
303 Susan Otto, Former FPD, W.D. Okla., Public Hearing — Santa Fe, N.M., Panel 1, Tr., at 44.
300

76

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-120

AR-2485

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 122 of 342 Page ID
#:27704

approach the review with the panel, the relationship they have with the
panel to be able to persuade the panel to take cases when they have
frustrations or when they maybe have full caseloads. . . . That’s a cost that
the court doesn’t have to have. . . . We’re not getting any benefit additions
to our budget by virtue of taking that administrative responsibility away
from the court, but I think we provide an amazing service.304
In some other districts, local CJA committees or boards that assist with panel
administration have proven to be effective. Tasks of these committees include panel
selection and removal and voucher review. Committee members often include
judges, the CJA panel attorney district representative, the federal defender, and
other experienced defense attorneys. According to a CJA panel attorney representative in one district, the local CJA committee “screens, investigates, does due diligence on every single panel applicant to our district. We are invited by the court to
discipline lawyers when and if the need arises.”305 These structural elements, this
witness said, are institutionalized in the CJA plan and transparent to panel attorneys, and help create a strong culture of defense in the district. She provided the
following example of how the disciplinary process works:
There was an attorney, a very, very valuable member of our panel. Many
of the judges thought he over-billed, thought his bills were excessive,
unreasonable. Instead of simply arbitrarily cutting him from the panel,
they came to us and they said, “We have a problem with this person. We
want you to look at it, tell us, do we have a real problem here or not?”
We looked at the issue. . . . We peer counseled that person. The person
changed his billing practices. That person is now a fully respected, happy
member of our panel, the judges enjoy his work. He turns in excellent
work. I think without our structure, that sort of situation could have been
combustible. It could have led to rancor. It could have led to somebody
being summarily dismissed from the panel and then infecting the attitude
in the panel towards the judiciary.306
The most common function of these mixed committees involves panel
selection. One judge explained how revamping his district’s selection committee
improved the quality of representation. “When I first started we had people who
were appointed to two-year terms, but they were just automatically renewed. Unless
you committed some act of misconduct and were removed by the judge you just
stayed on the panel forever.”307 Under the current plan, the selection committee
304

Heather E. Williams, FPD, E.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr., at 26.
Mary McNamara, CJA Dist. Rep., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 6, Tr., at 20.
306 Id.at 21.
307 Judge Robert Scola, Jr., S.D. Fla., Public Hearing — Miami, Fla., Panel 2, Tr., at 24.

305

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-121

77

AR-2486

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 123 of 342 Page ID
#:27705
FINDINGS

is chaired by the federal defender and consists of 15 experienced defense lawyers.
“They make recommendations to the court as to who should be approved. . . . We
really do make an effort to have more geographical, gender, and racial and ethnic
diversity on the panel.”308
Similarly, a panel attorney told the Committee that the change in his district’s
CJA plan to create not only a selection committee and membership requirements
but also a reapplication process and membership requirements had improved representation: “[A] panel selection committee takes applications once a year. . . . Every
three years you have to reapply. That seems to be making progress in getting a better
qualified panel of attorneys to handle cases.”309
In another district, where the selection committee consists of the Chief Judge,
the federal defender, and five senior panel members, the federal defender explained
the process: “We meet once a year to consider the renewal portion of the panel and
any new applicants. In advance of that meeting we will have reviewed both a fairly
comprehensive written application and the notes from an interview that would have
been conducted with each applicant by me and at least one or two members of the
selection committee or members of my staff.”310
However, not all panel administration by committee was praised. Some panel
attorneys expressed concern that there was still too much judicial control. One
panel attorney told this Committee there is a concern among panel members in his
district that the judiciary has undue influence on who gets to sit on the selection
committee: “[S]o does the court really have one vote or does it have multiple votes
because of who has been appointed to this committee that considers the applications?”311 And despite the committee process to select attorneys for the panel, when
it came to appointments in the district, this same witness described judges in his
district who “seek out certain attorneys to handle cases.” “I wouldn’t question necessarily the experience of those attorneys that are being sought out,” he explained,
“[but] I think that creates the perception of favoritism.”312
A consistent theme in testimony was that if committees are involved in panel
administration, defense attorneys’ voices needed to be heard and they need to
be part of the decision-making process. “That the judges consult us first when
they have an issue with a lawyer, we feel like we can actually say truth to power,”
one panel attorney explained. “I really think that’s the solution . . . a structure that
encourages participation at every level.”313 Similarly, a CJA supervisory attorney told
this Committee, “I believe our plan is successful because the court, the panel, and
308
309
310
311
312
313

78

Id.
Mark Foster, CJA Dist. Rep., W.D.N.C., Public Hearing — Miami, Fla., Panel 6, Tr., at 10.
Henry Martin, FPD, M.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 16.
Phillip Sapien, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 24.
Id.
Mary McNamara, CJA Dist. Rep., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 6, Tr., at 38.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-122

AR-2487

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 124 of 342 Page ID
#:27706

the federal defenders all have input into the process. We all have a stake in the outcome and we all meet and discuss issues that arise.”314

4.2.2 Achieving Quality Representation
As discussed above, updating and implementing CJA plans can improve the quality of
representation in a district. Two plan features are particularly important: First, plans
must ensure that panel attorneys are appointed to a number of cases sufficient for
them to remain proficient in federal criminal practice; and second, plans must require
that panel members participate in regular training on topics relevant to CJA practice.

Panel Size and Adequate Appointments
Judiciary policy states: “The membership of the panel should be large enough to
provide a sufficient number of experienced attorneys to handle the CJA caseload,
yet small enough so that panel members receive an adequate number of appointments to maintain their proficiency in criminal defense work and thereby provide
a high quality of representation.”315 In order to ensure balance and fairness in the
adversarial process, CJA plans and the appointment practices within the district
must provide that panel lawyers receive enough appointments to remain proficient
when defending against skilled government attorneys. As one panel member told
the Committee, “Criminal defense is not a hobby.”316
Some districts struggled with finding the balance between having enough
panel attorneys able to handle large multi-defendant cases while keeping the panel
small enough to ensure members of the panel receive enough cases to remain proficient in federal criminal law. One judge reported: “We have had years where, due
to the number of big indictments, we’ve had conflicts such that we’ve just plum run
out of people who don’t have a conflict in a particular case.”317 Another judge told
the Committee that, currently in her district, she believes the panel was an appropriate size, but keeping it so is a constant concern.318 A private attorney told the
Committee that districts should, “err I think on the side of having a smaller number
of people on the panels so they’re doing a larger number of cases. I think in general that’s going to get you a better class of lawyer given what you’ve got to work
with.”319 This will require some large districts to reduce the size of their panel, “and
really focus on training these people, getting them better qualified, getting them
to understand the use of experts, how to use experts, enhancing trial skills, and

314
315
316
317
318
319

Diana Weiss, CJA Supervising Atty., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 1, Tr., at 10.
Guide to Judiciary Policy, Vol. 7A, Ch 2, § 210.30.10(b).
Mark Windsor, CJA Panel Atty., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Tr., at 7.
Judge Cathy Bissoon, W.D. Pa., Public Hearing — Philadelphia, Pa., Panel 2a, Tr., at 8.
Mag. Judge Kelly Rankin, D. Wyo., Public Hearing — Portland, Or., Panel 3, Tr., at 30.
James Felman, Former CJA Panel Atty., M.D. Fla., Public Hearing — Miami, Fla., Panel 4, Tr., at 34.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-123

79

AR-2488

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 125 of 342 Page ID
#:27707
FINDINGS

having just a better well-rounded group of people to pick from.”320 Geography can
complicate this calculus, as one panel attorney testified: “One area where we do
experience some difficulties and I know the court has experienced some difficulties
is the availability of sufficient numbers of qualified counsel in some of the more
remote divisions.”321
According to a report by the Vera Institute of Justice entitled, “Good Practices
for Federal Panel Attorney Programs,” to stay abreast of new developments in
substantive, sentencing, and procedural areas of practice, panel attorneys need at
least four appointments per year.322 Most panel attorneys who testified before this
Committee agreed that the number of cases need to maintain proficiency is higher
than the Vera report recommendation.323 One explained why giving panel attorneys
a sufficient number of cases is so important:
I just finished a case a couple of months ago . . . . There were issues of
statutory interpretation as to the applicability of a mandatory minimum.
There were guideline issues. There were variance issues. . . . The district
court ultimately agreed with me. . . . What I find most troubling is that in
my research I found a case from this district, from a year or two ago, in
which the exact same issue had been raised, and CJA counsel did not
raise it. As a result, the defendant in that case ended up with [a significantly longer] sentence because there was no argument about the applicability of the mandatory minimum in those circumstances.324
This attorney stressed to the Committee, “These cases are not cases for dabblers or neophytes. The stakes are simply too high.”325

Training as a requirement for Panel Membership
There was also general agreement that panel membership should include a training
requirement.326 Training of panel lawyers has a demonstrable positive effect. One
320

Chief Judge Christina Armijo, D.N.M., Public Hearing — Santa Fe, N.M., Panel 1, Tr., at 32.
Richard Durbin, U.S. Attorney, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 6, Tr., at 4.
322 Jon Wool et al., Improving Public Defense Systems: Good Practices for Federal Panel Attorneys
Programs, Vera Inst. Of Just. 7 (June 2003), available at https://www/vera.org/publications/goodpractices-for-federal-panel-attorney-programs-a-preliminary-study-of-plans-and-practices (last
viewed 9/25/2017).
323 The Committee was most often told a minimum for proficiency was 5 or 6 appointments. See Pete
Schweda, CJA Dist. Rep., E.D. Wash., Public Hearing — Portland, Or., Panel 5, Tr., at 17; Jennifer Horwitz,
CJA Dist. Rep., W.D. Wash., Public Hearing — Portland, Or., Panel 5, Tr., at 18–19 (“I think the sweet spot is
a minimum of 5 to 6 cases a year to stay proficient in federal practice.”); Tom Coan, CJA Dist. Rep., D. Or.,
Public Hearing — Portland, Or., Panel 5, Tr., at 18. One panel attorney recommended 7–10 cases per panel
attorney, per year. Jim Ayers, CJA Panel Atty., E.D.N.C., Public Hearing — Miami, Fla., Panel 5, Tr., at 1.
324 Robert Richman, Board Member, Minn. Assoc. of Criminal Defense Lawyers, Public
Hearing — Minneapolis, Minn., Panel 4, Tr., at 3–4.
325 Id. at 4.
326 For more on training, please see Section 7.
321

80

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-124

AR-2489

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 126 of 342 Page ID
#:27708

federal defender, whose office greatly expanded training opportunities, explained:
“Last year we offered forty hours of CLE [continuing legal education] that my office
sponsored and presented. We have a second chair program, a mentoring program
where young lawyers who don’t have the experience can come in and go through
this year long program. . . . This has proven effective in the quality.”327
Many districts in the process of updating their plans or that had recently done
so recognize the importance of increased training and incorporated requirements
into their plans.328 For example, one district recently put into place a requirement
of four hours annually of mandatory CLE in federal criminal practice. Failure to
comply with the four-hour training requirement is grounds for removal from the CJA
panel.329 Because most local training opportunities are organized or sponsored by the
federal defender organization, they are offered at low or no cost, and thus are widely
accessible. Training opportunities can improve communication between panel attorneys and the local institutional defender, and create a feedback loop resulting in training that is more responsive to the specific needs of the panel and issues of concern in
the district. And by opening up training to non-panel members, districts potentially
can widen the pool of lawyers qualified for admission to the panel.

4.3 Best Practices in Panel Administration
4.3.1 Model Plan
The Defender Services Committee and Judicial Conference have recently adopted
an updated Model Plan that “is intended to provide guidance in the implementation and administration of the Criminal Justice Act, as required under 18 U.S.C.
§ 3006A(b).”330 Objectives of the plan are “to attain the goal of equal justice under
the law for all persons” and “to provide all eligible persons with timely appointed
counsel services that are consistent with the best practices of the legal profession,
are cost-effective, and protect the independence of the defense function so that the
rights of individual defendants are safeguarded and enforced.”331
This Committee does not recommend a “one-size-fits-all” approach to forming a plan, and the Model Plan is designed to accommodate local districts’ individual determinations about CJA administration. At the same time, the model plan
highlights structures and practices that have been successful in districts around
327

Melody Brannon, FPD, D. Kan., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 17.
Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 3–5; Amy Sirignano,
CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 9–12.
329 Amy Sirignano, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 10.
330 Guide to Judiciary Policy, Vol. 7A, Ch. 2, Appx. 2A: Model Plan for Implementation and
Administration of the Criminal Justice Act p. 1 (hereinafter “Model Plan”).
331 Model Plan at 4.
328

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-125

81

AR-2490

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 127 of 342 Page ID
#:27709
FINDINGS

the country — a compilation of best practices that matches very closely with what
numerous witnesses who appeared before this Committee described and recommended as successful practices. Notable among these are the use of a committee to
manage the CJA and a training requirement for attorneys selected to the panel.
The Model Plan proposes the establishment of a CJA Panel Committee to
administer the panel. The recommended makeup of that Panel Committee is:
[O]ne district court judge, one magistrate judge, the [federal public
defender/community defender], the CJA Panel Attorney District
Representative (PADR), a criminal defense attorney who practices regularly in the district who may be a CJA panel member, and an ex officio staff member employed by the [federal public defender/community
defender/clerk] who will act as administrative coordinator.332
While the Model Plan allows that the composition of the Panel Committee
“can be adjusted to reflect the degree of judicial, federal defender, or panel attorney
involvement that is desired by each district court,”333 as demonstrated by suggested
membership, its base recommendation is one of judicial input but not control.334
The duties of the Panel Committee include determining panel membership, recruitment for the panel, an annual report, maintaining a removal process, voucher
review, and creating and sustaining a mentoring program.335
The Model Plan includes recommendations that districts establish term limits
on the panel service and a reappointment process336 and suggests that districts
require CJA panel members to attend a specified number of continuing legal education hours annually relevant to the practice of criminal defense in federal court.337

4.3.2 CJA Supervisory Attorney Pilot Program
In 1997, the Judicial Conference of the United States (JCUS) authorized a pilot program to test one of the suggestions of the Prado Committee: that the responsibility
332

Id. at 14.
Id.
334 Please note that the Model Plan recommends best practices within the constraints of the current
structure of the CJA.
335 Model Plan at 16–17. The Model Plan states that the Panel Committee should “[r]eview and make
recommendations on the processing and payment of CJA vouchers in those cases where the court, for
reasons other than mathematical errors, is considering authorizing payment for less than the amount
of compensation claimed by CJA counsel. The judge will, at the time the voucher is submitted to the
CJA Committee, provide a statement describing questions or concerns they have with the voucher.
Counsel will be notified of the potential voucher reduction and given the opportunity to provide
information or documentation relevant to the voucher and concerns raised by the judge. The CJA
Committee will issue a written recommendation to the judge.” Id. See also Section 5 for why removal of
voucher review from the judiciary would be consistent with best practices.
336 Model Plan at 19–20.
337 Id. at 24.
333

82

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-126

AR-2491

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 128 of 342 Page ID
#:27710

for panel management and voucher review be transferred to a local administrator in each district. The pilot ran in three districts, each of which assigned the CJA
supervising attorney different duties, though they each had the same core assignments (panel administration, case budgeting, and voucher reviews for reasonableness).338 The supervising attorney in Maryland was additionally charged with
making panel appointments.339
At the request of the AO, the Federal Judicial Center (FJC) evaluated
the pilot program and in a final report released in April of 2001 entitled The
CJA Supervising Attorney, A Possible Tool in Criminal Justice Administration,
proclaimed the pilot a success, a conclusion that the Judicial Conference
endorsed.340 As the report explained:
There is no question that these positions have value. Appointed counsel in these districts appreciate . . . the availability of a central, accessible,
knowledgeable resource for assistance with CJA issues. Judges appreciate
being relieved of tasks many feel they do not have time for, they are not
proficient at, and/or it is inappropriate for them to do.341
The FJC concluded that although the position did not directly improve the
quality of representation, it “may have indirect positive impacts,”342 including “effectively managing CJA panels to ensure that they contain only highly-qualified attorneys,” and attracting high-quality attorneys by ensuring impartiality in panel administration, given “the possibility that a CJA supervising attorney who supervises how
attorneys are assigned to cases can influence attorneys’ perceptions of fairness.”343
Notably, this was true in the district in Maryland, where the CJA supervising attorney
had the additional responsibility of appointing CJA panel attorneys to cases. Surveys
of Maryland judges conducted as part of the evaluation indicated an improvement in
their opinions of assignments.344
338

Tim Reagan et al., CJA Supervising Attorney: A Possible Tool in Criminal Justice Act Administration,
Fed. Judicial Ctr., Apr. 2001, available at https://www.fjc.gov/content/cja-supervising-attorneypossible-tool-criminal-justice-act-administration.
339 “Maryland’s CJA supervising attorney reviews all payment vouchers with signature authority for
vouchers under statutory limits. She also negotiates budgets in capital cases and makes approval
recommendations to the court. She supervises appointment of attorneys to the panel and assignment
of attorneys to cases. In California Central the CJA supervising attorney has signature authority
for all vouchers. He does not participate in case budgeting and he only recently began to assume
panel management responsibilities. In California Northern the CJA supervising attorney’s primary
responsibility is the development and implementation of case budgeting procedures. She reviews
some vouchers and makes payment recommendations to the court. Recently she began to supervise
mathematical and technical reviews of all vouchers. She has virtually no responsibilities for panel
management.” Tim Reagan et al., CJA Supervising Attorney: A Possible Tool in Criminal Justice Act
Administration, Fed. Judicial Ctr., Apr. 2001, at 16.
340 See generally id.
341 Id. at 1.
342 Id. at 2.
343 Id.
344 Id. at 46.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-127

83

AR-2492

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 129 of 342 Page ID
#:27711
FINDINGS

Each of the three districts chose to maintain the position, even though JCUS did
not continue to provide dedicated funding. However, JCUS did recommend that other
districts create “supervising attorney positions in courts that would find it of value.”345

4.4 eVoucher
eVoucher is “an automated solution for the paper-based Criminal Justice Act (CJA)
vouchering system to prepare, submit, review, and certify CJA vouchers for payment. It is designed with built-in features to support other CJA-related business
functions from case budgeting to reporting.”346 The program,
eliminates paper and manual processing. An attorney electronically
sends a voucher to the court. The court reviews and audits electronically, then sends it to the judge electronically, and when appropriate it
is electronically sent to the circuit for review and approval. It can also be
sent back to the clerk’s office or back to the attorney if a clarification or
modification is needed.347
Attorney vouchers, as well as those for experts and other service providers, are
submitted and reviewed in eVoucher.
Some witnesses who testified before this Committee also offered positive views
of eVoucher. A panel attorney said, “eVoucher filing has made it tremendously better
for us in not only getting paid but also in letting the court know what it is we’ve done
on the case. . . . You can type in as much as you need.”348 This attorney believes the
information helps judges understand the work that goes into representing someone,
enabling judges to make a more informed review of the associated expenses.349
There are high hopes generally among both panel attorneys and judges for
eVoucher. It seems to have lived up to those hopes at the local level. And while there
are many advantages to an on-line billing system from an efficiency standpoint,
eVoucher also offers the potential of reinforcing judicial conference policy and providing access to never-before-captured payment information. However, as implemented today, eVoucher does not yet live up to the other hopes and expectations
many stakeholders had for it on the national level, and it represents a lost opportunity to improve the CJA program nationally.
345

JCUS-MAR 02, at 23.
Available on JNET, access restricted to judiciary employees, at http://jnet.ao.dcn/court-services/
cja-panel-attorneys-and-defenders/evoucher
347 Nevada-Grown eVoucher System Going National, U.S. Courts, May 7, 2014, available at http://
www.uscourts.gov/news/2014/05/07/nevada-grown-evoucher-system-going-national.
348 Kathy Luker, CJA Panel Atty., N.D. Ala., Public Hearing — Birmingham, Ala., Panel 4, Tr., at 3–4.
349 Id.
346

84

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-128

AR-2493

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 130 of 342 Page ID
#:27712

A critical advantage of any electronic billing program is the ability to collect
and analyze relevant information. The eVoucher program has the potential to provide much-needed data, but the national reporting capabilities are not currently
activated to collect the data the program needs for proper management. For example, eVoucher is not currently enabled to collect information on voucher cutting.350
Additionally, the system does not mandate the input of an explanation before a
reduction to a submitted voucher. Both of these would provide valuable information
for the CJA program. Because the AO, which has the power to determine the information-gathering capabilities of eVoucher, has not enabled these features, the data
required to thoroughly monitor, track, and understand how the CJA program operates across the country remains inadequate.
Further, the governance and oversight of the eVoucher program is not currently
placed with the entities that have been tasked with oversight of the CJA program:
DSO and DSC. The program is currently managed out of the Case Management
Systems Office.351 While this office may seek input from DSO and DSC, it is an additional level of bureaucracy between the management of the system and the main
stakeholders in its use.
The Judicial Conference and Congress increasingly expect that available data
will be used to justify requests for program resources and then efficiently manage
them. Transfer of authority over the eVoucher program to DSC and DSO would
facilitate the management of the systematic collection and use of data to better project needs and oversee the CJA program. Judge Catherine Blake, former chair of the
Defender Services Committee, explained, “Nationally, an electronic voucher processing system would give the Committee more accurate and timely projections of future
payments and obligations. . . . That will help us prepare our appropriations request to
Congress and responsibly manage the overall defender services program.”352

•

350

For example, while the system can show amounts claimed and amounts paid, those figures could
reflect vouchers that had withholds, etc. Therefore it is not a reliable indication of voucher reductions
made as a part of the court’s reasonableness review. Though this particular issue may be addressed in
an upcoming eVoucher release, there are still many similar data issues that need to be addressed.
351 See supra Section 3.3.3 for information about the structure of the AO.
352 Nevada-Grown eVoucher System Going National, U.S. Courts, May 7, 2014.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-129

85

AR-2494

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 131 of 342 Page ID
#:27713
FINDINGS

Section 5: Compensation
System Under the CJA
The CJA guarantees an appointed attorney “shall, at the conclusion of the representation or any segment thereof, be compensated . . . for time expended in court” and
“for time reasonably expended out of court.”353 Attorneys may also request reimbursement for reasonably incurred expenses. The panel attorneys who are paid
on an hourly rate — currently $132 per hour in non-capital felony cases — submit
“vouchers” itemizing their time and expenses. As established earlier in this report,
judges review those vouchers and ultimately determine how much to compensate
and reimburse CJA panel attorneys.354

5.1 Policy Regarding Compensation
The Criminal Justice Act sets “case maximums” for compensation providing for
increases as the hourly rate increases.355 The current maximum in non-capital
felony cases is $10,300.356 This cap can be waived if the presiding judge determines
the representation is “extended or complex” and “certifies that the amount of the
excess payment is necessary to provide fair compensation.”357 The chief judge of the
circuit or his designee also must approve any payments that exceed the case maximum. (For discussion of the circuit court approval process, see Section 6. For more
on capital cases, see Section 9.)
353

18 USCA § 3006A (d)(1).
18 USCA § 3006A (d)(5).
355 18 USCA § 3006A (d)(2).
356 Case compensation maximum amounts vary by case type and do not include reasonable expenses.
Guide to Judiciary Policy, Vol. 7A, Ch. 2, §§ 230.23.20 and 230.23.10(d).
357 18 USCA § 3006A (d)(3).
354

86

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-130

AR-2495

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 132 of 342 Page ID
#:27714

The statute does not define “extended or complex,” and the Guide to Judiciary
Policy provides minimal instruction: (1) “If the legal or factual issues in a case are
unusual, thus requiring the expenditure of more time, skill and effort by the lawyer
than would normally be required in an average case, the case is ‘complex’”; and
(2) “If more time is reasonably required for total processing than the average case,
including pretrial and post-trial hearings, the case is extended.”358 At the current
rate of $132 per hour, the case maximum of $10,300 supports just under 80 hours
of attorney time. The complexity of cases prosecuted federally has increased significantly since the Prado report. As discussed in other areas of this report, there has
been a radical change in the nature and a quantum jump in the volume of discovery. As a result, a substantial percentage of criminal prosecutions are “extended or
complex,” requiring more than 80 hours for effective representation.
In these more complex cases, panel attorneys may request interim payments
while the case is in process: “Where necessary and appropriate in a specific case, the
presiding trial judge may arrange for interim payments to counsel and other service
providers.”359 In these instances, district court judges are encouraged to withhold
20 percent of each interim payment.360 At the end of the case, the attorney submits a final voucher seeking payment of the total amount withheld from the earlier
vouchers.361 The final voucher is submitted to the chief judge of the circuit court
who decides how much of the withheld funds, if any, will be paid.362 The process is
“designed to strike a balance between relieving court-appointed attorneys of financial hardships in extended and complex cases, and the practical application of the
statutorily-imposed responsibility of the chief judge of the circuit court to meaningfully review any claims for excess compensation,” as discussed below.363

5.2 Problems with Judicial Review
Under the CJA, the presiding judge in a case decides how much the defendant’s
attorney will be paid. This includes deciding whether work performed by a CJA
attorney will be paid and whether the defendant’s lawyer will be able to hire investigators, interpreters, psychologists, forensic accountants, or other specialized services
providers whom the attorney deems necessary to defend a criminal case.364 If fees
358

Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.23.40(b).
AO Memorandum from James C. Duff, April 18, 2016, Review and Approval of CJA Vouchers; See
Guide, Vol. 7A, §§ 230.73, 310.60.
360 Guide to Judiciary Policy, Vol. 7A, Appx. 2C. The Committee heard that some districts require interim
vouchers, but not all district judges are willing to allow interim vouchers even when there is a lengthy trial.
361 Guide to Judiciary Policy, Vol. 7A, Appx. 2C.
362 Under another option, the circuit judge periodically reviews cumulative interim vouchers.
363 Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.73.10(c).
364 See 18 U.S.C. § 3006A (d)(5); (e).

359

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-131

87

AR-2496

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 133 of 342 Page ID
#:27715
FINDINGS

exceed certain statutory thresholds, the chief judge of the circuit or a designee also
must approve payment.365
This aspect of the CJA is especially problematic. More than 14 years ago, the
Vera Report voiced concerns:
Judges and lawyers alike report that compensation issues, even more
than the appointment process, expose the awkward, conflicting nature of
the relationship between panel attorneys and the judges who effectively
hire them. Unlike defender office attorneys, who are subject only to the
fiscal constraints of their organization, panel attorneys are closely regulated by judges in every aspect of their representation. This arrangement
poses potential dangers that districts must address if they are to assure
high-quality defense services.366
Some judges accept this role in approving the defense attorney’s fees as a
necessary obligation, given that someone must oversee the use of public funds.
And some judges see themselves as the actor most capable of (reluctantly) filling
this role — being the least bad of several poor alternatives. Still, not a single witness
who testified before this Committee described the current process as ideal. Not one
wholeheartedly endorsed having judges decide how much to pay one side’s lawyer.367
Reasons for dissatisfaction with the status quo are many. Some are the inevitable result of any third-party payer system: it is difficult to align the interests of the
payer and the client (in this case, the panel attorney); the payer may value services
differently than the client; and the payer’s knowledge about the need for services
is limited. Other problems are peculiar to a system in which individual judges are
making these decisions: With more than 1,000 federal judges, it is impossible to
impose a high degree of consistency. Additionally, assigning an administrative task to
the system’s highest-value employees is a poor allocation of resources, and because
judges are already overworked it is difficult for them to devote sufficient time to the
task. But the most pernicious problems are created by requiring the neutral arbiter
in our adversary process to step out of that role and effectively decide what resources
one of the two opposing parties can bring to bear on the proceedings. As discussed
below, witnesses often described this as a fundamental conflict of interest.
365

18 U.S.C. § 3006A (d)(3).
Jon Wool, K. Babe Howell, Lisa Yedid, Improving Public Defense Systems: Good Practices for Federal
Panel Attorney Programs, Vera Inst. of Just., 29 (June 2003).
367 See e.g. Judge Federico Moreno, S.D. Fla. Public Hearing — Miami, Fla., Panel 6, Tr. at 20; Judge
Max O. Cogburn, W.D.N.C., Public Hearing — Miami, Fla., Panel 2, Tr. at 19; Judge Leon Holmes,
E.D. Ark., Public Hearing — Birmingham, Ala., Panel 1, Tr. at 16; Judge Leo Sorokin, D. Mass.,
Public Hearing — Philadelphia, Pa., Panel 2b, Tr. at 13; Judge Michael Putman, N.D. Ala. Public
Hearing — Birmingham, Ala., Panel 1, Tr. at 18; Judge Richard Boulware, D.Nev., Public Hearing — San
Francisco, Cal., Panel 5, Tr. at 8; Chief Judge Michael Seabright, D. Haw., Public Hearing — San Francisco,
Cal., Panel 5, Tr. at 23; Chief Judge Raner Collins, D. Ariz., Public Hearing — Santa Fe, NM, Panel 1, Tr. at
18; Chief Judge Vicki Miles-LaGrange, W. D. Okla., Public Hearing — Santa Fe, NM, Panel 1, Tr. at 14.
366

88

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-132

AR-2497

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 134 of 342 Page ID
#:27716

5.2.1 Requiring Judges to Determine the Defense
Attorney’s Compensation Distorts the Adversarial Process
Some witnesses expressed an uneasiness and general lack of comfort, viewing the
process as unseemly.368 One judge explained: “I know when I came on the bench
I . . . did not think about the fact that would have to review vouchers. I hate it. I hate
it. I can’t stand looking at other lawyers’ work and trying to decide if their work is
worth what they say that it’s worth. . . . I think it would be fine for somebody else to
take it on.”369 Another observed it “seems to put the judge in the position of being
something like the client and determining as though the defense lawyer is “working for us, and we’re determining whether or not the lawyer’s bills are appropriate
under all the circumstances. It is a position that I’m not comfortable with.”370
Many witnesses focused on the fundamental unfairness of the judge deciding
how much to pay one side, while the other side is unencumbered by this kind of
judicial control. One judge, for example, testified, “I think a system that the judge
who presides over the case, determines what experts have been hired, how much
someone is paid — I think that’s a system filled with problems.”371 A former panel
attorney elaborated:
The judges don’t oversee whether [the United States Attorney’s Office]
hire an expert, whether they bring an extra agent onto a case, whether
they do any of those things. For some reason, it’s ingrained in us that for
the defense side, there needs to be some judge overlooking the defense
lawyer to make sure that the defense lawyer doesn’t overspend the taxpayer money. It’s the same taxpayer money on the government side.372
Every voucher submitted is an implicit representation by the attorney that she
worked the billed hours and believed the work was reasonable in the context of the
case. Every refusal by a judge to pay for the hours the attorney billed also carries
implicit messages: that the work was not actually done, or that it was unreasonable
to expend time on that work, or that it was unreasonable to spend that amount of
time. That attorney, in the next case where she believes this same type and amount
of work to be necessary, must now consider her own interests. She won’t be paid for
the work if she does it. And the judge, who often has control over her selection to
the panel as well as her appointment to the individual case will consider her professional judgment suspect; after all, she continues to unreasonably expend time on
“They hate having to get down in the weeds with the lawyers on how much time they spent on
this, that, or the other and balancing when you have a multi-defendant case, these widely disparate
vouchers.” Susan Otto, FPD, W.D. Okla., Public Hearing — Santa Fe, NM, Panel 1, Tr. at pg. 42.
369 Judge Max O. Cogburn W.D.N.C., Public Hearing — Miami, Fla., Panel 2, Tr. at 19.
370 Judge Leon Holmes E.D. Ark., Public Hearing — Birmingham, Ala., Panel 1, Tr. at 14.
371 Chief Judge Raner Collins, D. Ariz., Public Hearing — Santa Fe, NM, Panel 1, Tr. at pg. 18.
372 David Markus, CJA Panel Atty., S.D. Fla., Public Hearing — Miami, Fla., Panel 5, Tr. at 29-30.
368

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-133

89

AR-2498

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 135 of 342 Page ID
#:27717
FINDINGS

CJA representations. The attorney must also consider the client’s interest: The judge
will make numerous discretionary calls over the course of the litigation that could
either help or harm her client.
The problem becomes acute when panel attorneys must challenge a judge’s
ruling.373 One panel attorney described his dilemma when confronting a judge
who, having denied his motion to suppress evidence, then wanted to cut his fees:
“[A]t the same time that he’s refusing to pay my bill and he’s literally saying that I
spent too much time on suppression issues. I am looking at his ruling and memorandum thinking that he’s made errors and I need to challenge this.”374
A defender recounted a case where a panel lawyer moved to recuse a judge
because of a conflict of interest in a case. After a denial of that motion and the completion of the case, the same judge then reviewed the panel lawyer’s voucher:
This lawyer was also an experienced CJA lawyer and had previously been
in the defender’s office. He raised a conflict of interest between the judge
overseeing the case . . . where the guards were charged with violating civil
rights of some prisoners at a prison. The judge, right off the bat at the
very beginning, said, “Well I have represented this prison on many occasions.” We kind of saw that as a conflict of interest quite frankly. So that
issue was raised. [The judge] was very perturbed that it would be, that he
would be called unethical by any standard, and he cut that whole portion of the voucher . . . 375
A judge’s decisions to deny payment in one case can reverberate and affect
advocacy in other cases. A panel attorney described one case initially designated
“extended or complex” by the district court and in which all of the attorneys representing the defendants who pleaded guilty were compensated well above the case
maximum. One defendant went to trial. After conclusion of the trial, the presiding
judge decided the case was not “extended or complex” and authorized only the case
maximum — which was, at that time, $10,000. This ruling required the attorney who
had received interim payments to pay back $50,000 to the court. Defense attorneys
observed that this “claw back” has had a “tremendous chilling effect across the panel.”376 The message perceived by members of the panel was that the court thought
this case should not have been tried.
Moreover, when attorneys seek approval to hire experts, justifying the request
often requires disclosing confidential information to the judge in writing or
defending the request in person. As one judge recognized, this can function as “a
373

E. Gerry Morris, President NACDL, Public Hearing — Santa Fe, NM, Panel 4, Tr. at 9.
Mark Shea, CJA Panel Atty., D. Mass. Public Hearing — Philadelphia, Pa., Panel 4, Tr. at 20.
375 Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, NM, Panel 3, Tr. at 35.
376 Mark Windsor, CJA Panel Atty, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Tr. at 14 (for
another example of a similar claw back see Windsor Tr. at 5-8).
374

90

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-134

AR-2499

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 136 of 342 Page ID
#:27718

deterrent.”377 “They have to come in and see me face to face . . . and explain to me
why [they] need this particular expert in this particular case.”378 One panel attorney
explained he was reluctant to ask judges for expert services because “I don’t want
them to know that I think that this might be an issue in this case. Because what if
the expert, I asked for it and then I don’t use the expert, what does the judge think
the expert found and is that going to affect the judge?”379 Similarly, another panel
attorney testified: “I feel uncomfortable explaining that process to the same judge
that is going to be deciding my client’s fate. I do a lot of work in child pornography
cases. I do a lot of submissions for experts for forensics reviews. I do a lot of requests
for psychologists. Often times I don’t use those individuals, and yes I’m concerned
[about that].”380 A panel attorney district representative explained that it can compromise an effective defense to disclose “defense strategies that haven’t been fully
worked out,” and disclose confidential information about your client “that you
otherwise would never tell a judge.”381 A federal defender told the Committee, “My
attorneys share really intimate and important details of a client’s mental health and
other parts of their [life] in order for us to decide together whether this is money
well spent. . . . I cannot imagine having to go say those things to any judge.”382
An attorney reluctant to disclose to the presiding judge confidential information
necessary to justify hiring an expert — or an attorney facing a judge who has denied
similar services in the past — may simply abandon that line of defense or mitigation.
That judicial review of fees can discourage appropriate advocacy is particularly
problematic. As the Supreme Court has made clear, “Attorneys work . . . under canons
of professional responsibility that require the exercise of independent judgment on
behalf of the client: ‘A lawyer shall not permit a person who recommends, employs,
or pays him to render legal services for another to direct or regulate his professional
judgment in rendering such legal services.’”383 Independence of defense counsel is
a bedrock principle of our adversarial criminal justice system. The structure of the
CJA which requires the presiding judge to fix compensation of appointed attorneys
and approve expert services requests appears to directly violate this principle. If the
system is to “advance the public interest in truth and fairness,” a defense lawyer must
serve “the undivided interests of his client.”384 The Court also stated that, “equally
important, it is the constitutional obligation of the State to respect the professional

377

Judge Michael Putman, N.D. Ala. Public Hearing — Birmingham, Ala., Panel 1, Tr. at 22.
Id.
379 Daniel Albregts, CJA Panel Atty., D. Nev., Public Hearing — San Francisco, Cal., Panel 4, Tr. at 43.
380 Gilbert Schaffnit, CJA Panel Atty. Dist. Rep., N.D. Fla., Public Hearing — Miami, Fla., Panel 6, Tr. at 28.
381 Peter Schweda, CJA Panel Atty. Dist. Rep., E.D. Wash., Public Hearing — Portland, Or., Panel 5, Tr. at 6.
382 Laine Carderella, FPD, W.D. Mo., Public Hearing — Birmingham, Ala., Panel 2, Tr. at 4.
383 Polk City v. Dodson, 454 U.S. 312, 321–22, (1981)(quoting DR 5-107(B), ABA Code of Professional
Responsibility (1976)).
384 Polk City at 318–19 (1981) (quoting Ferri v. Ackerman, 444 U.S. 193, 204 (1979)).
378

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-135

91

AR-2500

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 137 of 342 Page ID
#:27719
FINDINGS

independence of the public defenders whom it engages.”385 Judicial determinations
of the defense lawyer’s fees and the lawyer’s reaction to those determinations may
compromise the independent professional judgment the law requires.
These complaints all point to a concern that the CJA distorts the adversarial
process by requiring judges to decide what work panel attorneys can do and what
experts they can hire. This problem is structural. In every case in which a panel
lawyer is appointed, the judge will need to step out of his or her role as judge and
become the defense’s paymaster. In requiring this, the CJA risks diminishing or distorting the defense attorney’s single-minded focus on the client’s interests.
It is as if at some point in every baseball game, the umpires would take leave
from their primary roles and assume for only one team the manager’s duties of determining strategy, selecting players, providing equipment, and then return to umpiring
the game. In every game, the players, i.e., the lawyers, know that this will happen in
the next case and the next case and the next. And if they want to stay on the team — if
they want to play, and be paid to play, and get the proper equipment to play — they
know they better not challenge the umpire’s calls.

5.2.2 Judges Are Not Well Situated to
Decide the Reasonableness of Fees
It would be hard to accept this distortion of the adversarial process even if judges
were well-equipped to review defense attorneys’ bills — but they are not. In modern
federal practice, the work that is visible to the judge is the proverbial tip of the iceberg. Our adversarial system expects that advocates will winnow the mounds of
information available and bring to court only that small amount critical to decision-making. As Arizona’s chief judge observed, “The judge only sees what happens in the courtroom . . . most of the case happens outside of the court room, away
from the judge’s eyes.”386 One judge who had been both an Assistant United States
Attorney and a federal defender described her own realization that much of the case
would never be known to her:
It was interesting, the very first trial I had I was looking around in my
office. I wanted to know where the 302s were and where the statement was
and then I realized, “No, no, no, you don’t get that. You are an impartial
arbiter. You just decide on matters as they’re presented to you in trial.”387
Knowing so little about how the case looked to the attorney who shaped it for
presentation in court, this judge found it difficult to decide what services were or
weren’t reasonable. Another district judge who had been a federal defender — for
385

Polk City at 321–22 (1981)(internal citations omitted).
Chief Judge Raner Collins, D. Ariz., Public Hearing — Santa Fe, NM, Panel 1, Tr. at 18.
387 Judge Kathleen Williams, S.D. Fla., Public Hearing — Miami, Fla., Panel 3, Tr. at 28.
386

92

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-136

AR-2501

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 138 of 342 Page ID
#:27720

more than a decade — described a similar realization: “judges are actually not in a
good position to evaluate anything effectively with respect to defense strategy, and
I know that now sitting on the bench. . . . [T]here are things that I don’t see, that I
can’t see in the context of defense of a case and that I’m not likely ever to be able to
see.”388 He elaborated:
First, one of the things as a judge that you never see . . . is client management issues as it relates to investigation. There’s no way to capture that.
You won’t see why, for example, is someone having to, in a document
case that’s 200 documents, spending 30 hours to go to the client review
there. The client may have mental challenge issues. You may not want the
judge to know that. The client may have education issues. You may not
want the judge to know that.389
The problem this judge faces in reviewing a voucher is not just that he lacks
direct knowledge of what goes on outside of his courtroom but also that, in our
adversarial system, he shouldn’t have access to this information. There are things
that a defense attorney should not communicate to the judge who will later decide
her client’s fate and is duty-bound to act as a neutral arbiter.
One judge explained that, because he simply cannot know the work an attorney puts in outside the courtroom, he evaluates vouchers not using a reasonableness standard but based on his personal familiarity with the panel attorney:
[T]here is no way that I can know whether a claim for a time item by a
lawyer is real or reasonable, or anything of that sort, other than looking at
the reputation of the lawyer that I know. If it’s a lawyer that I have known
for years, and I know is trustworthy, I have no reason to assume that
there’s going to be a padded or fraudulent voucher submitted to me.390
The number of federal judges with significant criminal defense experience is
limited. As one judge said: “Personally, I’m not sure we’re very competent to do it.
Most of us have been out of the practice of law for a long time and . . . the farther we
get removed from the practice of law, I think the more inexpert we become at judging what is a reasonable cost.”391 Another judge stated:
[W]hen the judge hasn’t been trained to be a defense lawyer, never tried a
defense case in their life, now is put in a position trying to determine how
much money someone should get paid, that’s not fair to the judge, it’s not
fair to the litigant either.392
388

Judge Richard Boulware, D.Nev., Public Hearing — San Francisco, Cal., Panel 5, Tr. at 8-9.
Id at 25.
390 Judge Michael Putman, N.D. Ala., Public Hearing — Birmingham, Ala., Panel 1, Tr. at 18.
391 Judge Rosanna Peterson, E.D. Wash. Public Hearing — Portland, Or., Panel 3, Tr. at 3.
392 Chief Judge Raner Collins, D. Ariz., Public Hearing — Santa Fe, NM, Panel 1, Tr. at 18.
389

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-137

93

AR-2502

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 139 of 342 Page ID
#:27721
FINDINGS

Targeted training for judges might lessen this problem, but the judges who
testified before this Committee reported that their judicial training did not include
even an introduction to the basics of criminal defense or any discussion of how
to evaluate vouchers. One circuit judge stated that he went through “baby judge
school” as a magistrate judge, as a district judge, and as a circuit judge, and despite
all the training for each, “there was no discussion of the CJA.”393 Without such training, most judges had no experience or practical knowledge to help them determine
what constituted “reasonable” defense work. There was broad agreement that this
lack of training does a disservice to all involved.
Some training that was previously provided has been discontinued. A defender
who had been faculty for judicial training on the CJA explained: “They stopped
doing that and I asked them why and the answer was that they shortened the [training] because of budget issues.” 394 Other useful training has also been cut. “[There
was a] series of criminal justice management seminars . . . giving [judges] the viewpoint from the CJA and why an expert would be needed. Those seminars went by
the wayside about eight or ten years ago when the budget cuts were made.”395 In the
absence of training, the only regular communication judges receive on CJA matters
is through emails from the Administrative Office. Judges admitted that emails were
not enough, as most judges, given the number they receive each day, simply “don’t
read the emails”396 or see “a memo from the AO [and] hit delete.”397 Emails are not
an adequate substitute for substantive CJA training.
In the absence of formal training, there are some ad hoc efforts to fill gaps in
knowledge. Panel attorneys described efforts to educate judges about what defense
attorneys do: “I’ve had meetings with judges about vouchers. . . . [T]here was a
learning curve for one of our new judges and he appreciated the fact that I came
in and sat down and explained some things and he was just trying to get a feel for
what’s reasonable.”398
Sometimes federal defenders fill this role. One judge told the Committee, “One
quasi-solution that many of us have come up with is to ask the federal defender’s
office to take a look at the billing, to see if anything jumps out at them. They do it for
us, I think on an ad hoc basis, because we try and work collaboratively.”399 A federal
defender confirmed: “I’ve been contacted on a number of occasions by judges who
have received a voucher and want my take on the voucher, and then sometimes my
assistance with interfacing with the CJA lawyer regarding the voucher.”400 Another
393
394
395
396
397
398
399
400

94

Judge Luis Felipe Restrepo, 3rd Cir., Public Hearing — Philadelphia, Pa., Panel 2a, Tr. at 2
A.J. Kramer, FPD, D.D.C., Public Hearing — Philadelphia, Pa., Panel 6, Tr. at 33.
Id.
Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr. at 20.
Judge Kathleen Williams, S.D. Fla., Public Hearing — Miami, Fla., Panel 3, Tr. at 21.
Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 25.
Mag. Judge Carolyn Delaney, E.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr. at 12.
Michael Caruso, FPD, S.D. Fla., Public Hearing — Miami, Fla., Panel 1, Tr. at 30.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-138

AR-2503

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 140 of 342 Page ID
#:27722

defender told the Committee she had “to spend a substantial amount of time educating the bench about what is required [of the defense] in a federal criminal case.”401
In some cases, Circuit Case Budgeting Attorneys provide needed guidance and
advice. One judge told the Committee that when there’s a concern about a voucher,
she and others in her district request the assistance of the case budgeting attorney,
and “the consensus is that this has worked quite well.”402 Although these informal
efforts to educate and assist judges are laudable, they do not solve the problem of
judges being poorly situated and ill-equipped to review panel attorney vouchers.

5.2.3 Judicial Voucher Review Produces
Wildly Inconsistent Outcomes
A system of voucher review involving more than 1,000 independent decision-makers
who receive no formal training yet are tasked with deciding whether services rendered are “reasonable”403 will necessarily produce wildly varying results. Testimony
confirmed this. There is no uniformity in how “reasonableness” determinations
are made. And given that judges are not held to or constrained by any administrative direction, it is unlikely that uniformity could be imposed. Outcomes vary widely
between circuits, between districts, and even between judges in the same district.
A former member of the Defender Service Committee agreed the current
review process is extremely inconsistent between judges. He stated, “There are over
600 district court judges that review vouchers . . . not counting magistrate judges . . .
and they had to do it with their own different way. There’s no one way that everybody does it. Those types of things could be more streamlined and more uniform.”404 A panel attorney testified that even where judges are supportive and panel
attorneys feel respected, voucher review is still not uniform:“[T]he judges came to
the bench from very different paths. They don’t all share the same background and
they don’t all share the same judicial philosophy and they certainly don’t all share
the same attitude about funding the CJA panel.”405
Another source of inconsistency is the varying degree of pressure judges feel to
contain costs. What is considered “reasonable” can change depending on the general
fiscal climate or specific pressures to conserve funds. Although Judicial Conference
policy discourages consideration of funding levels or appropriations shortfalls in
voucher review,406 judges candidly admit they are affected by these concerns. As
one judge confided, “I’m very much concerned with cost containment, and I’m very

401
402
403
404
405
406

Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, NM, Panel 3, Tr. at 26.
Mag. Judge Cheryl Pollak, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 2b, Tr. at 2.
See 18 USCA § 3006A (d)(1).
Chief Judge Raner Collins, D. Ariz., Public Hearing — Santa Fe, NM, Panel 1, Tr. at 5.
Debra Di Iorio, CJA Panel Atty., C.D. Cal. Public Hearing — San Francisco, Cal., Panel 3, Tr. at 2.
See Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.33.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-139

95

AR-2504

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 141 of 342 Page ID
#:27723
FINDINGS

much concerned that whatever decision I make is also going to affect cost.”407
One way that districts have tried to promote greater consistency and reduce
unwarranted voucher cutting is by adoption of a “presumptively reasonable” standard. One panel attorney told the Committee:
I do think there also as I said needs to be a degree of deference . . . . If an
attorney that we have entrusted with panel membership says that this was
a necessary thing to do, there needs to be a really good reason for you to
say that it’s not necessary. If somebody is abusing this, they shouldn’t be
on the panel . . . . I’ve seen abuses, they shouldn’t be countenanced. [But]
we shouldn’t be presumed to be abusing. We should be presumed to be
reasonable. We should be presumed to be rational, and we should be presumed to be professional. 408
As one federal defender explained, that is the standard that attorneys at FDOs
and CDOs are held to by their supervisors: “I don’t look at the request from my attorneys in my office and say, ‘Is it absolutely necessary? Is there anything you could do?’
In a normal case . . . . If they’ve written an explanation of why they need it and it’s the
first request, I’m going to approve that presuming it’s reasonable.”409 Another federal
defender testified that deferring to panel attorney requests as reasonable sends an
important message to the entire panel about the value of a zealous defense for every
client. He told the Committee that panel attorneys should be concerned about the
client and building an effective defense, not about whether a judge will challenge
the cost of that defense and potentially withhold payment.410 That presumption is
already used by the CJA supervising attorney in one district, where “part of her job
is to go through vouchers line by line reviewing what the attorney had indicated on
there. She may ask for clarification or have an attorney maybe explain a little more in
detail so the judge understands. But it’s presumptively reasonable.”411

5.2.4 Arbitrary Voucher Cutting
The problems described above, lack of knowledge, experience, training, and inconsistency affect efforts to apply the vague “reasonableness” standard to a particular
407

Judge David Carter, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 5, Tr. at 6.
Rachel Brill, CJA Panel Atty, D.P.R., Public Hearing — Miami, Fla., Panel 6, Tr. at 30-31. The
Committee heard testimony that some judges required attorneys to submit vouchers accompanied
by research trails printed from Lexis or Westlaw in order to justify time researching an issue for their
clients and be compensated for it. See David Eisenberg, CJA Panel Atty. Dist. Rep., D. Ariz., Public
Hearing — Santa Fe, NM, Panel 6, Tr. at 28.
409 Lisa Hay, FPD, D. Or., Public Hearing — Portland, Or., Panel 6, Tr. at 24 (also stating she takes into
account whether the expert rate looks reasonable based on the going rates in her district, which she is
familiar with in her position as lead defender).
410 Rene Valladares, FPD, D.Nev., Public Hearing — Birmingham, Ala., Panel 3, Tr. at 11.
411 Jessica Salvini, CJA Panel Atty., D.S.C., Public Hearing — Miami, Fla., Panel 4, Tr. at 29.
408

96

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-140

AR-2505

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 142 of 342 Page ID
#:27724

bill submitted by a particular attorney in a particular case. These may result in inappropriate cuts to vouchers. However, panel attorneys also find that a presiding judge
may decline to approve payment for their services not because that judge has determined that hours were not worked, or were excessive for the tasks accomplished,
or that services provided were not reasonable. Instead, panel attorneys regularly
see their compensation reduced for reasons unrelated to any evaluation of the work
they have done on a particular case. The reasons for these cuts vary, but none are
consistent with the requirements of the CJA.

“Pro Bono” Voucher Cuts
A number of circuits and districts regularly cut vouchers with the explanation that
CJA representation is part of an attorney’s pro bono obligation and therefore counsel should not expect to receive full payment for hours expended.
One federal defender who manages his panel testified that during a set period
of time he reviewed 131 excess compensation vouchers from his district and determined that 30 percent of those vouchers had been reduced by the circuit court. In
each case, the district court had already reviewed the vouchers, determined that
they were reasonable, and authorized full payment. The reason given by the circuit for reduction, in almost every case, was that CJA representation is a form of
pro bono work, and as such, attorneys are not entitled to and should not expect full
compensation.412 One attorney described this type of reduction as “systematically
reducing the ‘real’ hourly rate” of CJA work. He noted that while hourly rates had
slowly increased over the years, voucher cuts which resulted in less than full payment for the services provided essentially negated those rate increases. For panel
attorneys, these voucher cuts convey the message: “ . . . we want you to zealously represent your client but we are not going to pay you for it.”413
When Congress passed the CJA, it considered attorneys’ professional obligation to provide pro bono services and accounted for it with an hourly rate below
market levels.414 Both the plain language of the Criminal Justice Act and the legisla-

412

David Stickman, FPD, D. Neb., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at p.25.
Robert Richman, Board Member, Minn. Assoc. of Criminal Defense Attorneys, Public
Hearing — Minneapolis, Minn., Panel 4, Tr. at 3.
414 The Defender Services Committee adopted the following resolution in June 1990:
The Sixth Amendment to the Constitution places upon the government the obligation to
provide, at its expense, effective assistance of counsel to persons financially unable to secure
their own legal representation. Pro bono legal services have been an outstanding contribution
of the legal profession to our society and have greatly assisted the government in providing
these constitutionally mandated services. The complexities of modern criminal litigation and
the economics of practice, however, make it fundamentally unfair to expect lawyers to perform
increasingly burdensome work for which they are inadequately compensated. It is the sense of
the Committee that equal access to justice is impaired when, for those with limited financial
resources, that access depends upon mandatory pro bono legal services.
413

Reported to the JCUS in September 1990 at CR-DEFSVS-SEP 90, p. 20.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-141

97

AR-2506

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 143 of 342 Page ID
#:27725
FINDINGS

tive history establish that attorneys who provide services under the Act are entitled
to receive payment for all time expended that is reasonable and necessary for the
representation. The practice of cutting vouchers as a means of imposing an additional pro bono obligation upon panel attorneys is not consistent with the language
or the spirit of the Act.

Refusal to Pay for Certain Types of Work
In certain districts and/or circuits, classes of otherwise compensable work are
excluded from payment, resulting in substantial cuts to payments. These disfavored
expenses include client meetings, travel time, and discovery review.
Client “Hand-Holding”
Time spent meeting with clients has been the subject of particular scrutiny. Multiple
meetings with clients are sometimes derisively labeled as “hand-holding,” for which
judges refuse to approve payment. But building a trusting relationship with clients is
one of the most important tasks of a defense attorney. As one panel attorney said:
I have had success in settling those cases which should be settled precisely because I spend the time to get to know my clients, to listen to what
they have to say and to discuss the evidence with them. At that point,
when they believe that I’ve listened to them, it’s much easier for them to
accept my statement, “Dude, don’t go to trial; you’re going to get killed!”
But you have to put in the time. I don’t think it’s hand-holding, I think it’s
an essential part of providing adequate defense to my clients, and I think,
ultimately, it saves a bundle of money.415
Another panel attorney practicing in a circuit where the former chief judge had
announced that multiple client visits were unnecessary came to the same conclusion: In the federal system where “most cases result in a plea, the only way that’s
going to happen is if your client trusts you as a lawyer, and that requires face time,
not only to be an effective advocate for your client, to know who that person is, but
for your client to trust you.”416
Even when judges approve payment for client visits, they often decline to pay
for time spent meeting with a client’s family. In some districts, communications
that do not directly advance the client’s case (as for example by arranging bond or
obtaining sentencing letters) are considered non-compensable.417 This is so even
though an attorney who does not establish a cooperative relationship with a client’s
family will have a difficult — and more time-consuming — job arranging for bond or
415

Debra Di Iorio, CJA Panel Atty., C.D. Cal. Public Hearing — San Francisco, Cal., Panel 3, Tr. at 13.
Robert Richman, Board Member, Minn. Assoc. of Criminal Defense Attorneys, Public Hearing —
Minneapolis, Minn., Panel 4, Tr. at 19.
417 Id.
416

98

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-142

AR-2507

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 144 of 342 Page ID
#:27726

obtaining those same sentencing letters.418 In other districts, even communications
on those topics may be considered non-compensable.419
Panel attorneys explained that judges sometimes miss the importance of gathering relevant and important information about the client from family and others
who know the client best and the value of establishing a relationship with people
whom the client knows and trusts. Just how much time is reasonable to spend with
a client and his family is not subject to a bright line rule. Where such meetings assist
the attorney in building a working relationship with the client, they are reasonable.
And failure to establish a trusting relationship with a client can have financial as
well as human costs. Most notably, a rupture in the attorney/client relationship
requiring appointment of new counsel will always increase CJA costs.
Travel Time
Judges were often reluctant to pay for time attorneys spent traveling to meet in
person with clients and witnesses. When clients are housed remotely or witnesses
are in far-flung locations, travel by the attorney is essential to proper representation.
Judiciary policy provides that, “[C]ompensation must be approved for time spent in
necessary and reasonable travel.”420 However, some districts have adopted policies
to discourage even necessary and reasonable travel.
A panel attorney district representative in a large western district testified, “A
few years ago, the court determined that it would not allow us to travel, that vouchers would be cut for travel cost. Attorneys were placed in the position of wondering
whether they would get paid for making the trip, sometimes a very long trip, to meet
with their clients.”421 And a federal defender from a rural district emphasized to the
Committee, “It is difficult to appropriately represent someone who is detained twoand-a-half hours from your office if one of the things that goes through your mind
is a practice that exists to say that two client visits is enough and that amounts after
that [are] getting cut.”422
There is also tremendous inconsistency, even within a single district, as to
when payment for travel will be approved. One panel attorney’s experiences exemplify what the Committee had heard about these inconsistencies:
I’ve had the opportunity to have several judges be very understanding
418 Anthony Solis, CJA Panel Atty Dist. Rep., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 6,
Tr. at 23.
419 See e.g., U.S. v. Aadal, 280 F. Supp 866 (S.D.N.Y. 1967) (holding efforts to secure bond not
compensable); U.S. v. Brock, 2010 WL 4320445 (S.D. Fla.)(holding “handholding” is not compensable);
U.S. v. Cobas 2010 WL 4814679 (S.D. Fla.)(holding time spent assisting family with bond paper work
and explaining sentencing not compensable).
420 Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.60(a).
421 Wendy Curtis Palen, CJA Panel Atty. Dist. Rep., D. Wyo., Public Hearing — San Francisco, Cal.,
Panel 6, Tr. at 6.
422 Neil Fulton, FPD, D.N.D. & D.S.D., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at 3.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-143

99

AR-2508

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 145 of 342 Page ID
#:27727
FINDINGS

of the role that I play. They’ve authorized trips to Kabul, Afghanistan to
represent Blackwater guards charged with killing Afghan civilians. They’ve
authorized trips to Djibouti to represent Somali pirates. They’ve authorized trips to Guantanamo Bay. And I’ve had other judges that have not
authorized travel trips thirty minutes to the local jail to meet with the
client. I guess the point that I’d like to make and will probably emphasize
throughout the entire process is just the disparity and the differences and
the randomness by which judges approve and don’t approve things.423
The Committee recognizes that travel time can require significant resources,
especially in large districts. But in the era of remote detention, voluminous discovery, and mandatory minimum sentences, viewing crime scenes and evidence, interviewing witnesses, and meeting with clients to prepare their defense or review their
discovery are both reasonable and necessary in every representation. All of these
necessary activities will require time spent traveling.
Discovery424
The use of technology has greatly increased the volume of discovery in criminal
cases. Discovery in a typical multi-defendant drug case, which once consisted of a
couple hundred pages of reports, now may consist of those same reports, cell tower
data, GPS information, scores of hours of videos from pole cameras, hundreds of
hours of audio tapes, texts, emails, social media posts, etc.
Panel attorneys often find judges unwilling to compensate them for the time
spent reviewing all of this information. One panel attorney testified, “I have one
judge who will tell me point blank if you spend more than two hours in any given
day reviewing discovery, it’s excessive.”425 Another panel attorney had a similar
experience: “I’ve been told that, ‘You’re not going to get the kind of money you want
because it’s just too much money for discovery, ask your client what he did then
you’ll find out where to look. Go to the U.S. Attorney’s office and ask them.’”426
The following specific example is telling. In a case involving 41 defendants, in
which the attorney’s client potentially faced the death penalty, almost 50,000 pages
of discovery, 400 hours of audio and video recordings and hundreds of hours of
media files were disclosed to the defense.427 The court found the number of hours
spent reviewing documents “unreasonable” because the government had provided
28 pages of “targeted discovery.”428 The court believed that by using this “targeted
423

James Broccoletti, CJA Panel Atty. Dist. Rep., E.D. Va., Public Hearing — Philadelphia, Pa., Panel 4,
Tr. at 1.
424 Discovery, and specifically e-discovery, will be discussed later in the report (see Section 11).
425 Juan Milanes, CJA Panel Atty., E.D. Va. and D.P.R., Public Hearing — Miami, Fla., Panel 4, Tr. at 28.
426 David Eisenberg, CJA Pa nel Atty. Dist. Rep., D. Ariz., Public Hearing — Santa Fe, NM, Panel 6, Tr. at 28.
427 Mark Windsor, CJA Panel Atty., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Writ. Test., at 6
428 Id.

100

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-144

AR-2509

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 146 of 342 Page ID
#:27728

discovery,” the attorney could have significantly reduced the time spent on discovery review.429 But asking the government what the defendant did or reviewing “targeted discovery” is only a starting point to a full understanding of the defects in the
government’s case and any possible defenses.
A federal defender explained that judges are often unaware of the amount of
discovery work involved.
I think in the past judges could be fairly confident by looking at the
docket sheet or recalling what happened in court to get a general sense of
how complex the case was and what type of work went into the defense
of the case. Because of the change in our practice, I don’t think that’s
any longer the case. . . . [There is] a great amount of discovery that has to
be reviewed even if there is not a trial . . . . You need to do a substantial
amount of work that’s unknown to the district court judge.430
A district judge told the Committee that in her experience some judges cut
vouchers based on “sticker-shock.” “They just believe that the cost for the defense
in the case . . . is just too big.”431 This problem occurs most in cases resolved by
plea. One attorney indicated that the judges in his district reflexively cut vouchers to the case maximum when the case was resolved through a plea as opposed
to a trial.432 Of course, it is often only after a thorough review of discovery that a
decision can be made, by both client and attorney, that resolving the case through
a plea is the best course.

5.2.5 Voucher Cuts Based on Generalizing
or Averaging Case Costs
Faced with voucher reviews, a task for which they have inadequate time and training,
some judges use shortcuts such as benchmarks or averaging. Some set compensation amounts for different types of cases. For example, a case that involves a felon in
possession of a firearm should cost “X.” Such benchmarks are often informal; a judge’s
belief about what that type of case “should” cost. As one federal defender explained:
I saw a case recently where the case had a lengthy suppression hearing. The
government insisted they would not give a plea agreement that preserved
the issue. They went almost to trial. Finally the government backed down . . .
It was around a $20,000 voucher. The judge just looked at it with no
explanation, said, “This is a run-of-the-mill case. I’m only giving $7,000.”433
429

Id.
Michael Caruso, FPD, S.D. Fla., Public Hearing — Miami, Fla., Panel 1, Tr. at 31.
431 Judge Cathy Bissoon, W.D. Pa., Public Hearing — Philadelphia, Pa., Panel 2a, Tr. at 13.
432 Mark Foster, CJA Panel Atty. Dist. Rep., W.D.N.C., Public Hearing — Miami, Fla., Panel 6, Writ. Test. at 2.
433 Eric Vos, FPD, D.P.R., Public Hearing — Miami, Fla., Panel 1, Tr. at 29.
430

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-145

101

AR-2510

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 147 of 342 Page ID
#:27729
FINDINGS

Other judges have predetermined what “reasonable” means, regardless of the
case or circumstances. A federal defender testified: “A prevailing view by one judge
is that a guilty plea is only worth $2,500, regardless of the case facts.” 434 Many judges
believe they have general ideas of what classes of cases should cost and use these in
reviewing vouchers: “Having reviewed that many [vouchers], do I have a gut visceral
on what an average § 922 defendant should be or probation revocation should be as
far as cost goes? Absolutely. Do I look at everyone independently? Yes.”435
Voucher averaging also seems to be common. Witnesses described voucher
averaging in districts as geographically diverse as Puerto Rico,436 Montana,437 the
Western District of Pennsylvania,438 and Texas.439 The presiding judge will compare
the fees of lawyers representing co-defendants and award all fees close to the average. In one case, a judge reduced a panel attorney’s voucher after comparing it to
the amount a co-defendant had paid retained counsel. The CJA counsel’s voucher,
although under the case maximum, was more than what the private lawyer had
charged to represent the co-defendant.440 The reviewing judge thought that fact
alone merited a reduction in the panel attorney’s voucher.441
These practices may seem like logical ways to save time or control costs. But
by their nature, they are contrary to the letter and spirit of the CJA, which requires
judges to review each voucher independently, within the context of the client, the
case, and the services provided. The process recognizes that the demands of a case
vary not only by the charge but also by the amount of evidence amassed, the potential lines of defense, and the peculiarities of the individual client. Relying on averages
and benchmarks ignores these realities. They are inconsistent with the aim of the CJA
to procure high-quality representation fitted to the needs of the case and client.
434

Parks Nolan Small, FPD, D.S.C., Public Hearing — Miami, Fla., Panel 1, Writ. Test. at 4.
Chief Mag. Judge John Ott, N.D. Ala., Public Hearing — Birmingham, Ala., Panel 5, Tr. at 18.
436 Judge Aida Delgado-Colon, D.P.R., Public Hearing — Miami, Fla., Panel 3, Tr. at 37: “First of all the
averaging not necessarily has the purpose of taking the voucher to an amount below the maximum
cap. Sometimes you use it as the model”
437 Tony Gallagher, Comm. Def., D. Mont., Public Hearing — Portland, Or., Panel 6, Writ. Test. at 5:
“Sometimes panel attorneys perceived that the decision whether to pay a voucher in full was not based
on an assessment that the hours worked were reasonable and necessary to provide a defense, but
were strictly tied to comparison with others in the case (‘your voucher was much higher than the codefendant’s lawyer’).”
438 Patrick Livingston, CJA Panel Atty. Dist. Rep., Public Hearing — Philadelphia, Pa., Panel 9, Tr. at 18:
“One of the cases that I became aware of in my district involved a lawyer who had done something
minimally was discharged in favor of another lawyer, and I don’t know the full details of it. The other
lawyer came in late in the case, and worked the file, his wiretaps, and he studied and he studied and he
studied. Then in two months’ time, he got all the wiretaps reviewed and analyzed, and then he put in
an interim payment, and that was one of the cases in which the judge compared what he did to what
the terminated lawyer did. When I heard about it, I just scratched my head. I couldn’t understand it.”
439 Richard Esper, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 36:
Despite the fact that his case had considerably different charges and circumstances, “the judge, as a
justification for cutting my voucher, said it wasn’t consistent with the vouchers of the other four lawyers
who represented the other four” co-defendants.
440 Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 33-34.
441 Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 33-34.

435

102

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-146

AR-2511

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 148 of 342 Page ID
#:27730

5.3 The Scope and Gravity of
Inappropriate Voucher Cutting
A great deal of the written and oral testimony this Committee received concerns
judges cutting panel attorney fees. More dissatisfaction was expressed in this area
than in any other into which the Committee inquired. In some sense, it is curious
that the process of reviewing and paying the bills of attorneys selected by judges to
represent the indigent accused should produce so many problems. The standard
for payment is simple. Attorneys are to be compensated for time spent in court and
time “reasonably expended out of court.” The time spent in court is known and is to
be compensated whether reasonable or not. In deciding whether time spent out of
court should be compensated, a reviewer should need to ask only three questions:
Was the work actually undertaken; was the work undertaken a reasonable means
of achieving the client’s aims in the litigation; and was the time spent to accomplish that work reasonable? These are the questions that the language of the statute
implies. In the abstract, answering these questions should not be difficult, particularly when attorneys are selected by judges for their professional competence, and
presumably their integrity, as well. Therefore voucher cutting — the failure to pay
attorney bills in full — should not be a major concern. Yet it is.

In your experience, how widespread is the cutting
or denial of vouchers in your district?
100% of
the judges
75% or less
of the judges
50% or less
of the judges

5.41%
8.35%
14.12%

25% or less
of the judges

72.11%
0%  10%  20%  30%  40%  50%  60%  70%  80%  90%  100%

The evidence that inappropriate voucher cutting regularly occurs and is widespread — if not pervasive — was overwhelming. Witnesses, both judges and attorneys alike, described it. No one disputed that it occurs. In addition to this testimony,
the Committee conducted a nationwide survey of panel attorneys and consulted
independent reports to inform its review. Although the majority of panel attorneys
surveyed (72%) believe that voucher cutting happens in just one out of four cases or
less, given the volume of cases handled by panel attorneys nationwide that’s still an
extraordinary number of vouchers being cut.
Two aspects of the Committee’s efforts to obtain information on the scope

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-147

103

AR-2512

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 149 of 342 Page ID
#:27731
FINDINGS

and frequency of voucher cutting bear mention. First, although the Prado Report
was criticized for the lack of data supporting its recommendation to unburden
judges of the responsibility for voucher review, the AO and the judiciary have not,
in the intervening 24 years, collected system-wide data on the payment of vouchers. Even today, the newly deployed eVoucher system does not currently have the
national reporting capabilities to provide all of the data which the program should
have for its management.442 Second, the Committee was somewhat hampered in
collecting information because many panel attorneys feared that criticizing judges
could have negative consequences for them and their clients. A federal defender
bluntly told the Committee: “Unfortunately, Judge, I suspect you won’t hear
those testimonials [from panel attorneys]. because if somebody is pulling back
on what they need for representation because of the fear of what’s happening to
people around them or even to themselves in the past they’re not going to be very
inclined to come forward and make the bold statement that you need to hear.”443
One veteran panel member, who had recently relocated to another area of the
country and thus was in a unique position to provide testimony about his previous
district, told the Committee: “I’m here today to publicly talk to you about voucher
averaging and all of the other problems in that district because I can assure you
the vast majority of the members of the panel are not in a position to talk to you.
Because they understand. They fear that talking to you publicly may result in them
not being on that panel.”444 And the Committee did hear public testimony that
panel lawyers who challenged voucher cuts in their districts had suffered negative consequences.445 Because of these concerns, the Committee held a number
of closed-door sessions with witnesses, including panel attorneys. While those
individuals are not quoted, their testimony supports what the Committee heard in
public hearings and helped inform the Committee’s recommendations.

5.3.1 Self-cutting (“Voluntary” Reductions)
One additional factor complicated the Committee’s efforts to gather information on
the effects of voucher cutting — the practice of “self-cutting,” or submitting bills that
do not reflect all time reasonably expended on a case. This practice does not include
those lawyers, often from large private firms, who choose to consider their CJA work
as a contribution to the public good. Rather it concerns the practice of panel attorneys who are unwilling to bill for all time reasonably expended in order to avoid
disclosing confidential client information, prevent larger voucher cuts by judges and
the impression that their billing is “excessive,” and/or avoid delays in payment.
442

See discussion of e-Voucher in Section 4.4.4.
Deborah Williams, FPD, S.D. Ohio, Public Hearing — Philadelphia, Pa., Panel 10, Tr. at 29.
444 Juan Milanes, CJA Panel Atty., E.D. Va. and D.P.R., Public Hearing — Miami, Fla., Panel 4, Tr. at 9.
445 Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 2.
443

104

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-148

AR-2513

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 150 of 342 Page ID
#:27732

Because there is no accurate means to measure these self-cuts, the Committee
was left to rely on the surveys discussed above and on testimony about the practice.
In the Committee’s survey, attorneys were asked to indicate how often they sought
full compensation. Of the 2,384 responses, approximately 40 percent of attorneys
reported they “rarely” or “never” submitted a bill for all time invested in a case. Just
17 percent reported they “always” bill for all work undertaken.
The practice of self-cutting is encouraged in a number of ways, not all nefarious. For instance, one federal defender whose office reviews vouchers told the
Committee that if a voucher is a couple hundred dollars over the case maximum, he
will call the attorney to ask if the attorney is willing to take a voluntary cut to bring
the voucher below the maximum. As the defender explained to the Committee,
“[T]he process of going to the circuit just takes a lot of time. Oftentimes [panel attorneys] would prefer to go ahead and just take the cap rather than wait on the money.
It’s not used as a threat at all, it’s just a courtesy.”446
Similarly, a judge explained that in his district they did not get many vouchers over the limit, and when they did, his practice was to write the attorney a letter
and say, “I’m going to have to send this up for circuit review unless you just want
to take the statutory maximum. Most of the time the lawyer will say, ‘I’ll take the
statutory maximum.’”447 The judge was trying to spare the lawyer the inevitable
delay in payment associated with circuit court review but in doing so reinforced the
practice of self-cutting.
Circuit court review of vouchers is addressed in more detail below in Section
6, but it is worth noting here that the Committee found that a considerable number
of attorneys self-cut their vouchers to remain below the case maximums that would
trigger circuit review. Depending on the circuit, this may be done to expedite payment or to prevent the circuit from cutting the voucher.
In one circuit with a known practice of significantly cutting CJA vouchers
even when the vouchers have been approved at the district level, district court
judges encourage attorneys to cut their vouchers to stay within the case maximum. And judges themselves may “strategically” cut vouchers in an effort to avoid
more drastic cuts at the circuit level. Although this is being done to support the
lawyers, it has created pressure on them to cut their own vouchers or “accept” cuts
that are made for their benefit.448
Other times the encouragement of self-cutting is more problematic. Until
recently, one district maintained a local policy that no panel attorney, no matter
the client or case, could be paid more than $3,500 for any felony case that resulted
in a plea in a CJA representation. Panel attorneys received clear feedback from
446

Parks Nolan Small, FPD, D.S.C., Public Hearing — Miami, Fla., Panel 1, Tr. at 39.
Judge Leon Holmes E.D. Ark., Public Hearing — Birmingham, Ala., Panel 1, Tr. at 25.
448 Neil Fulton, FPD, D.N.D. & D.S.D., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at 20;
Alexander Reichert, CJA Panel Atty., D.N.D., Public Hearing — Minneapolis, Minn., Panel 5, Tr. at 25-26.
447

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-149

105

AR-2514

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 151 of 342 Page ID
#:27733
FINDINGS

the district court judges that regardless of the reasonableness of their work, they
needed to reduce their own vouchers to $3,500 or less. When one panel attorney submitted a voucher for more, he told the Committee, “The judge called
me personally . . . and the reason was not that I had billed them too much for
the work. . . . It was that the other attorneys on the panel were submitting $3,500
vouchers and it was just not fair for me to submit excess vouchers if they were cutting their vouchers. . . . After that I did cut my vouchers . . .”449 In another district,
“one of the judges had a meeting with the entire CJA panel [and] suggested that
the size of CJA attorneys’ bills could be a factor that would be considered in deciding whether or not they should be reappointed to the panel.”450 This message was
not lost on panel members.451

Do you bill for all the time you or other members of your defense team (lawyers,
paralegals, investigators, and other experts) spend on a CJA appointment.
I always bill for all
of the work done

17.28%

I usually bill for all
of the work done
I sometimes bill for
all of the work done

33.18%
9.98%

I rarely bill for all
of the work done
I never bill for all
of the work done

23.95%
15.60%
0%     10%     20%     30%     40%     50%

Self-cutting exacerbates the problems already discussed. It hides the true
cost of the defense from judges and leads them to misunderstand what a zealous
defense of an individual requires. This in turn can lead a judge to consider appropriate billing unreasonable. As one lawyer explained, “I worry that judges think that a
robbery can always be done underneath the statutory maximum because there are
so many people who are just billing under that to avoid making waves.” 452
And self-cutting can discourage advocacy as effectively as judicial cuts.
Attorneys who must reduce their own bills will soon learn that it is against their
financial interest to be so thorough in their work. One attorney admitted that he
found himself second-guessing whether he should prepare a document on behalf
of his client because the court might think it was not a reasonable expense. “It
occurred to me, should I be doing a sentencing memo here or are they going to
449

LeRoy Percy, CJA Panel Atty., N.D. Miss., Public Hearing — Birmingham, Ala., Panel 7, Tr. at 23.
Miriam Conrad, FPD, D. Mass., Public Hearing — Philadelphia, Pa., Panel 3, Tr. at 2.
451 Id.
452 Teresa Duncan, New Mexico Criminal Defense Lawyers Association, Public Hearing — Santa Fe,
NM, Panel 4, Tr. at 25.
450

106

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-150

AR-2515

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 152 of 342 Page ID
#:27734

think that I shouldn’t have done a sentencing memo here? Just the fact that that
even enters my mind now is wrong.”453

If you have not billed for all the time you or other members of your defense team
spent on a panel representation, why was this so?
I thought we should have
been more efficient

27.55%

Some work would not be considered
compensable by policy or statute

34.79%

It was too inconvenient or
difficult to track the work
A case budgeting attorney or court staff
member encouraged me to reduce the bill
A panel representative or public defender
encouraged me to reduce the bill
A judge instructed me
to reduce the bill

41.78%
3.27%
1.41%
2.36%

I thought the district court
would cut the bill anyway
I thought the appellate court
would cut the bill anyway
I was worried about getting
a future appointment

19.05%
6.79%
15.13%

I wanted to keep the
voucher under a cap

38.91%
22.47%

Other

0%      10%     20%      30%     40%      50%

5.3.2 Voucher Cutting is Increasing
There is also a widespread perception that voucher cutting is becoming more frequent. At every hearing, witnesses testified that voucher cutting has increased
markedly over the past few years, particularly since sequestration. The amount of
testimony made clear that panel attorneys have become increasingly concerned
about judges’ decisions to reduce their compensation.
Federal defenders, who are often in the position to see or hear about the
voucher cuts, confirmed these trends. One federal defender testified, “I have a lot of
lawyers who call me up and say, you know what, I’ve been on the panel for twenty
years and I’ve never had a voucher cut and all of a sudden I am getting these cuts
and . . . the only explanation is, that is too much money for that kind of case.”454
Another defender, involved in the voucher review process, told the Committee, “I’m
453

Mark Shea, CJA Panel Atty., D. Mass., Public Hearing — Philadelphia, Pa., Panel 4, Tr. at 10.

454

Stephen McCue, FPD, D.N.M., Public Hearing — Santa Fe, NM, Panel 2, Tr. at 36.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-151

107

AR-2516

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 153 of 342 Page ID
#:27735
FINDINGS

able to see the attorneys whose vouchers are being cut . . . I do think that it is something that is more frequent now than it was pre-sequestration.”455 And in a written
submission, another federal defender informed the Committee that in his District
“reductions in compensation have occurred with greater frequency in several high
profile, multi-defendant cases in the past twelve months”.456
Chief Judge Catherine Blake, former chair of the Defender Services Committee,
testified that during sequestration voucher cutting was a pervasive problem such that
the Defender Services Committee felt the need to address the practice. She testified:
Essentially we were receiving information from panel attorneys, from
some of the advisory groups within the AO that there certainly was at
least a perception that vouchers were being cut because of the difficult
financial times, that there were judges who genuinely believed that in a
difficult financial time cutting everybody a bit was an appropriate way
to go to help conserve resources. That of course is contrary to Judicial
Conference policy. And also, to the extent that perhaps some judges
believed that by cutting voucher they were saving money for their own
court, that is of course not correct.457
To address this misperception, Chief Judge Blake along with Judge John
Bates, then Director of the AO, issued a memorandum to all federal judges dated
December 23, 2014, reminding them: “It is the responsibility of judicial officers to
carefully review payment vouchers for compliance with the CJA ‘reasonableness’
requirement. Reducing vouchers simply in the interest of cost-containment, however, or as a result of concerns about the Defender Services budget, is contrary to
Judicial Conference policy.”458
Unfortunately, it appears the practice has not stopped, and “anecdotal information indicates judges are cutting vouchers and denying expert funding requests
based on a perception that they need to reduce payments in order to contribute to
the overall judiciary cost-containment effort.”459

5.3.3 Effects of Voucher Cutting
The effects of voucher cutting are very difficult to capture and quantify. It is hard
to discern what attorneys didn’t do because of a concern that they wouldn’t be
455

Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, NM, Panel 3, Tr. at 31.

456

Tony Gallagher, Comm. Def., D. Mont., Public Hearing — Portland, Or., Panel 6, Writ. Test. at 5.

457

Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr. at 26.
Judge John Bates and Judge Catherine Black, Payment of Criminal Justice Act Counsel, December
23, 2014. The memo quoted from the Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.33 (Impact of
an Appropriation Shortfall on Voucher Review) which states clearly that sequestration and budget
concerns should not change how vouchers are reviewed.
459 Tony Gallagher, Comm. Def., D. Mont., Public Hearing — Portland, Or., Panel 6, Writ. Test. at 6.
458

108

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-152

AR-2517

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 154 of 342 Page ID
#:27736

compensated for such work, or what experts weren’t retained for the same underlying reason. It is difficult to measure how often concerns about future appointments
subtly shift defense strategies to keep vouchers below the case maximum. And the
Committee cannot know how many quality attorneys reduced or eliminated their
CJA work because of voucher cuts. But what is clear is that as a result of voucher
cutting, all of these things are happening to some degree.
The Committee heard testimony from panel attorneys that stories about
voucher cuts move quickly through close-knit defense communities in their districts, resulting in a chilling effect among the attorneys. “It’s not an across-theboard-problem and it doesn’t happen to everybody . . . [but] when it does happen it
spreads through the CJA panel like wildfire because it’s a fear, it’s a perception that
we have,” one panel attorney told the Committee.”460 It is the fear of investing the
time and effort and then not being paid. Most attorneys accept the possibility of
smaller reductions, but few can absorb reductions that equal weeks or even months
of unpaid work.461 The Committee heard from many panel attorneys committed
to the work but also struggling financially. As many panel attorneys are solo practitioners or members of small firms, this lost revenue could threaten the viability
of their practice. Their main concern is not the low hourly rate — although that is a
problem — but the voucher cuts.
One panel attorney, concerned about substantial cuts in her district and
enhanced scrutiny of CJA vouchers, explained to the Committee that even though
she has the duty to provide effective and zealous representation to her clients, she
also has to be concerned whether someone reviewing the voucher will think she
spent too much time researching an issue or meeting with her client. “I have to think
about whether I’m going to get paid for something before I do it. I have to think
about whether or not a district court judge reviewing this for reasonableness [will
approve it].”462 In some districts, the attorneys are placed in the very difficult position of investing hours they almost surely will not be compensated for, or reducing
the efforts they make on behalf of their clients. One district representative disclosed,
“I know lawyers who have curtailed their research and the brief writing that they’ve
done because they know they are not going to get paid past a certain point . . . . They
don’t necessarily want it to happen that way but from a business perspective and
what they can invest in a case, it affects how they approach the case . . .”463 This is the
reality whether it is a brief, a five-hour round-trip to the jail that the attorney will not
be paid for, or knowing that if a case goes to trial almost none of their time will be
460

Debra Di Iorio, CJA Panel Atty., C.D. Cal. Public Hearing — San Francisco, Cal., Panel 3, Tr. at 23.
Dan Scott, CJA Panel Atty. Dist. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Tr. at
17-19; Mark Windsor, CJA Panel Atty, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Tr. at 5, 13.
462 Marilyn Bednarski, CJA Panel Atty., C.D. Cal., CJA Panel Atty Dist. Rep., Public Hearing — San
Francisco, Cal., Panel 6, Tr. at 10.
463 Melody Brannon, FPD, D. Kan., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at 21-22.
461

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-153

109

AR-2518

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 155 of 342 Page ID
#:27737
FINDINGS

compensated. No professional wants to admit that lack of compensation will affect
her decision, but at some point there is the real possibility that it will.
Some attorneys are curtailing their efforts so as to avoid submitting a
voucher that is above the case maximum. A concern commonly heard was that
attorneys felt “pressure to keep fees down” and worried that if their vouchers consistently exceeded the case maximum, they would be cut from the panel.464 No
one wants to be perceived as “milking the CJA system”465 by submitting a voucher
over the case maximum — even when they put in the work. Judge John Gleeson
spoke of a culture that exists in some districts where the reality is that panel
attorneys do not want their voucher scrutinized and so they make the decision to
“either do the work and it’s not compensated, or they don’t do the work.”466 Either
the attorney suffers or the client does.
In the long term, qualified attorneys may reduce the amount of CJA work
they accept. One attorney explained that she had decided to expand her privately
retained work because she had started to question the value of her CJA services to
the courts. In the past she had not been concerned about getting paid for her work,
assuming, “It’s the government, they’ll pay me.”467 Now, she is making changes
in her practice. In another large district, CJA representatives reported that morale
among panel members had suffered greatly.468 On a scale of 1 to 10, with 10 being
high and 1 being low, 70 percent of the panel reported morale to be 3 or less.469
In another district, an attorney spoke of how “demoralizing”470 it was to have his
voucher cut. He noted that even if it is not a criticism of the quality of the work,
or an allegation that anything about the voucher was improper, the reduction in
compensation for work done is still “hard not to take personally.”471 These attorneys
continued to accept CJA work, but others have decided not to.
Some attorneys have chosen to give up their CJA practice and leave the panel.
A former district court judge told the Committee, “What I understand is that some
of the best and the brightest have left the list, so there’s a relationship between who
you get and how you treat people.”472 Voucher cutting, panel attorneys told the
Committee, made them feel they were not being treated as professionals or with the
464

Lori Nakaoka, CJA Panel Atty., D. Idaho, Public Hearing — Portland, Or., Panel 5, Tr. at 30.
Teresa Duncan, New Mexico Criminal Defense Lawyers Association, Public Hearing — Santa Fe,
NM, Panel 4, Tr. at 25.
466 Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr. at 27.
467 Shaun McCrea, CJA Panel Atty., D. Or., Public Hearing — Portland, Or., Panel 4, Tr. at 34.
468 Marilyn Bednarski, CJA Panel Atty Dist. Rep., C.D. Cal., Public Hearing — San Francisco, Cal., Panel
6, Tr. at 9.
469 Id.
470 Robert Richman, Board Member, Minn. Assoc. of Criminal Defense Attorneys, Public
Hearing — Minneapolis, Minn., Panel 4, Tr. at 17.
471 Id.
472 Retired Judge Nancy Gertner, Senior Lecturer, Harvard Law School, Public Hearing — Philadelphia,
Pa., Panel 2b, Tr. at 9.
465

110

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-154

AR-2519

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 156 of 342 Page ID
#:27738

respect they deserved. A federal defender told the Committee that in his district,
some of the best criminal defense lawyers he knows have left the panel because of
the “hassle,” and “the denigration of the defense function that they feel from that.
They just don’t want to deal with it.”473 Another federal defender also confirmed
that the best attorneys in her district were leaving the panels as well. She said that
because the panel attorneys have “experienced tremendous voucher cuts, some of
the very top layer of the panels over the years have dropped off because they just
couldn’t tolerate [it]. I’ve had lawyers tell me ‘I can no longer work for free.’”474
Not only are attorneys leaving panels in some districts, the Committee was
informed of instances in which experts refused to work with panel attorneys for fear
of not being paid. A federal defender whose panel had faced a great deal of voucher
cuts told the Committee that she was able to retain experts, but panel attorneys in
her district no longer could. “[T]he experts themselves have had their bills cut and
so they don’t trust that the panel lawyers will be able to get them paid. Whereas if
they work for defender offices, they know they’re always going to get paid.” 475
Voucher cutting also damages efforts to recruit new attorneys to the panel.
One CJA panel attorney district representative told the Committee that voucher
cutting had harmed his panel’s ability to retain promising younger attorneys to take
the place of older, retiring attorneys (for more on the aging panel across all districts,
please see Section 11). He was also concerned that young attorneys who did join the
panel would quickly tire of the cuts and caps and soon abandon CJA practice.476

5.4 Other Recurring Issues
in Voucher Review
5.4.1 Overbilling
The Committee attempted to determine whether overbilling — inflating or padding CJA vouchers — was a substantial problem. Consistent testimony from both
judges and attorneys suggests that while some overbilling occurs, the percentage
of vouchers involved is very small. A district court judge in California said that
the percentage of panel attorneys who overbill is a “very small number,” adding
“I don’t want the exception to become the rule or leave you with that impression . . . . I never mean to imply that 99.9 percent didn’t fairly play by the rules.”477
Another judge wrote to the Committee that in her district, “the vast majority of
473

Neil Fulton, FPD, D.N.D. & D.S.D., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at 27.
Deborah Williams, FPD, S.D. Ohio, Public Hearing — Philadelphia, Pa., Panel 10, Tr. at 29.
Id.
476 Edward Hunt, CJA Panel Atty., E. D. Wis., Public Hearing — Minneapolis, Minn., Panel 4, Tr. at 25.
477 Judge David Carter, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 5, Tr. at 37.
474
475

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-155

111

AR-2520

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 157 of 342 Page ID
#:27739
FINDINGS

panel members seek reasonable reimbursement for their services.”478 A case-budgeting attorney told the Committee that while “every attorney on the CJA panel
in the circuit is not a saint,” of the vouchers that went to the circuit “probably less
than one percent are reduced.”479 And sometimes, witnesses stated, overbilling
occurs inadvertently, often by newer attorneys on the panel who lack experience
submitting vouchers. 480
Overbilling by even a small number of panel attorneys has the potential to
tarnish the reputation of the program and affect all attorneys in a district. Any
multimillion-dollar government program requires financial oversight, but without experience or training in the defense function, and without data that could
be analyzed for patterns of financial abuse, it is exceedingly difficult for judges to
identify overbilling. The current system of review by individual judges disperses
accountability and fails to provide sufficient oversight. Centralizing the process
of voucher review and approval would make it much easier to identify unjustified
billing patterns.
Consistent with the FJC study’s findings on the value of CJA supervisory
attorneys, witnesses also stated that individuals with defense experience are better
suited than judges to spot problematic billing practices. A panel attorney told the
Committee he would be more accurate and strict when necessary in reviewing
vouchers than the judges in his district because he has the experience and knowledge about how to run a defense.
I’ll give you an example. A colleague came up to me so excited that a
judge approved an investigator to go to South America to get some documents. I said, “I can’t believe you got approval for that. It’s such a waste
of money. You could have gotten an investigator in that country to go
over to get the document, to get it notarized, and send it back to you.” I
would never have authorized that.481
Similarly, one federal defender testified that her office would have a better perspective on voucher review than judges because, “we know from our own experience what are and are not reasonable expenses.”482
Because taxpayer money is being spent, individuals with sufficient knowledge
of defense practice should be the ones tasked with reviewing attorney expenditures.
And those individuals charged with review should themselves be subject to oversight. Neither district nor circuit judges have the experience, training, or time necessary to perform this monitoring function.
478

Judge Cathy Bissoon, W.D. Pa., Public Hearing — Philadelphia, Pa., Panel 2a, Writ. Test. at 3.
Bob Ranz, Case Budgeting Attorney, 6th Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr. at 12.
480 Mag. Judge Clifford Shirley, E.D. Tenn., Public Hearing — Birmingham, Ala., Panel 5, Tr. at 9.
481 Bobbi Sternheim, CJA Panel Atty., S.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 9, Tr. at 25.
482 Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, NM, Panel 3, Tr. at 34.
479

112

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-156

AR-2521

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 158 of 342 Page ID
#:27740

5.4.2 Delays in Payment
Except in long and complex cases, the CJA compensation system requires that an
attorney complete the representation before submitting a voucher for payment.
Yet when a case is of any substantial duration, this can impose a financial hardship
on the attorney. This is a particular problem for new attorneys building a practice
because “most cases stretch out over months during which the attorney must wait for
compensation while absorbing not only general office overhead but also case specific
expenses.”483 When payment of the voucher is substantially delayed further hardship
results. And delays in payment discourage attorneys from accepting CJA cases.
As in all voucher matters, the timeliness of reimbursement varies among districts and judges. A panel attorney who takes appointments in two different districts explained that in one district where “vouchers are reviewed first by the CJA
Administrator for completeness and reasonableness and then submitted to the district court for approval,” vouchers are generally paid in “as quickly as two weeks.”484
In the second district in which she practices, however, “the turnaround time for payment has been six to eight weeks.”485 There are judges within districts, the Committee
was told, that are timely while their colleagues in the same district are not. A panel
attorney wrote to the Committee about the considerable delay in processing vouchers in his district, noting that payment takes an average of two to three months, and if
circuit court review is required, the process takes at least six months.486
In some districts, the delay in payment is the most significant concern among
panel attorneys. “Our biggest problem with vouchers is the delay that some panel
members experience in receiving the fee.”487 One panel attorney told the Committee
that even in one district which is very supportive of the defense function and does
not suffer from unwarranted voucher cutting, the various ways that payment on CJA
cases is delayed is a hardship.488 A defender told the Committee that in the district
where he practices, “Criminal cases move quickly. Deadlines are strictly enforced.
Yet at the end of the case, vouchers often languish on judges’ desks.”489
As suggested above, when a voucher requires circuit court review, the delay
can be considerably longer. Since claiming excess compensation requires circuit
court review, panel attorneys must balance the need to receive payment soon
against the need to receive excess compensation.
483

Wendy Holton, CJA Panel Atty., D. Mont., Public Hearing — Portland, Or., Panel 4, Writ. Test. at 4.
Melanie Morgan, CJA Panel Atty. Dist. Rep., D. Kan. & W.D. Mo., Public Hearing — Santa Fe, NM,
Panel 5, Writ. Test. at 2.
485 Id.
486 Rod Personius, CJA Panel Atty. Dist. Rep., W.D.N.Y., Public Hearing — San Francisco, Cal., Panel 4,
Writ. Test. at 8.
487 Lisa Costner, CJA Panel Atty., Dist. Rep., M.D.N.C., Public Hearing — Birmingham, Ala., Panel 7, Writ.
Test. at 2 (“I am hopeful that e-voucher, which has just been implemented, will resolve this issue.”).
488 Jennifer Horwitz, CJA Panel Atty. Dist. Rep., Public Hearing — Portland, Or., Panel 5, Tr. at 20-21.
489 Stephen McCue, FPD, D.N.M. Public Hearing — Santa Fe, NM, Panel 2, Writ. Test. at 5.
484

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-157

113

AR-2522

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 159 of 342 Page ID
#:27741
FINDINGS

If a panel attorney questions a reduction in a voucher at the district or circuit
level, that is also likely to delay payment. One panel attorney testified that while there
is already a lengthy wait time for vouchers to be approved, “any complaint or resistance to cuts is met with further delay. The prospect of weeks, and sometimes months,
being tacked onto an already-protracted process is an obvious deterrent for attorneys
to object to the cuts.”490 The result is that attorneys are effectively discouraged from
challenging cuts even when they believe those cuts are unwarranted. As noted above,
delayed payments affect the ability and willingness of quality attorneys to accept CJA
appointments. It is unfair to delay paying attorneys and unreasonable to expect judges
to expediently process vouchers given all of their other responsibilities.

5.4.3 Interim Vouchers to Facilitate Payment
As noted above, judiciary conference policy provides a mechanism for attorneys
handling extended and complex cases to seek payments at fixed intervals prior to
the conclusion of a case to avoid financial hardship.491 An attorney must apply and
receive approval from the presiding judge to do so. This allows panel attorneys to
take on extended and complex representations without facing severe financial hardship. The policy is not a requirement that interim payments be allowed, and in practice the ability to obtain approval to be paid throughout the course of a case varies
by district and among judges within a district.492
In some districts, approval of interim payments is automatic. Once a case is
determined to be “extended or complex,” meaning that the costs of representation
are likely to exceed the case maximum, or another locally determined threshold
is met, interim vouchers are instituted as a matter of course. For instance, “in the
District of Kansas, interim vouchers are authorized by local rule every two months”
once a representation has reached $2,000.493 A panel attorney who practiced in the
District of New Mexico testified that “anytime it’s declared a complex case, when
the judge signs that order . . . interim payments will be allowed.”494 This is also true
in the Northern District of California, where the CJA Supervisory Attorney told the
Committee, “We require counsel in all mega-cases to submit case budgets every six
months and interim vouchers every 60 days.”495 And in one of the largest districts in
the country, the Central District of California, every panel attorney, even for smaller
490

Rachel Brill, CJA Panel Atty, D.P.R., Public Hearing — Miami, Fla., Panel 6, Writ. Test. at 2.
Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.73: “Where it is considered necessary and appropriate
in a specific case the presiding trial judge may arrange for periodic or interim payments to counsel.”
492 Edward Hunt, CJA Panel Atty., E. D. Wis., Public Hearing — Minneapolis, Minn., Panel 4, Tr. at 14.
493 Melanie Morgan, CJA Panel Atty. Dist. Rep., D. Kan. & W.D. Mo., Public Hearing — Santa Fe, NM,
Panel 5, Writ. Test. at 2.
494 Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 34.
495 Diana Weiss, CJA Supervising Atty., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 1, Writ.
Test. at 2.
491

114

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-158

AR-2523

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 160 of 342 Page ID
#:27742

representations, uses an interim vouchering system.496
Where interim voucher payments are approved and used, the Committee
heard positive feedback from panel attorneys. One panel attorney testified that his
vouchers were generally approved and paid every four to six weeks. “The judge was
trying the case, as well as reviewing vouchers . . . [but] it worked well.”497 Although
interim vouchers “increase the number of vouchers to process,” a case budgeting attorney told the Committee, “we have found that judges and CJA staff find it
easier to audit for technical compliance and reasonableness when the vouchers are
shorter in page count and closer in time to when the services were provided.”498 This
was confirmed by an assistant federal public defender, who testified that, “In complex cases, some of the judges will require interim vouchers to be submitted every
30 days or 60 days to keep a handle on [the case] and that seems to help.”499 The
process benefits the judges by allowing them to avoid having to review months, or
years of voucher entries in one voucher, and it benefits the attorneys because it provides them with some compensation during the time the case is pending.
Some districts, however, rarely approve interim payments.500 In one such
district, the Committee was told that it was not uncommon for panel attorneys to
experience significant financial losses from extended CJA representations. One panel
attorney reported that his representation in an extended case was financially “devastating.”501 He testified that he, “finally had to be placed in the embarrassing position
of informing the judge, your Honor, I need this payment because at this point I’ve
run out of all of the reserves. I’ve been borrowing money to keep up with this case.”502
Despite the benefits of interim vouchers, panel lawyers are reluctant to avail
themselves of this option because they fear providing detailed information to the
presiding judge during a case. These panel attorneys found the detail required to be
“too intrusive” and were concerned it might “compromise the work product privilege and invade the independence of the lawyer to develop a defense for the client
while worrying whether the judge will approve payment for the exploration of that
defense.”503 Unfortunately, because the current structure requires judicial review of
requests for interim vouchers, panel attorneys must balance their financial needs
against the risk of disclosing client information and defense strategy to the court
during the pendency of the case.
Regardless of the problems with the interim voucher process, most witnesses
496

Judge Virginia Phillips, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 5, Writ. Test. at 10.
Jim Ayers, CJA Panel Atty., E.D.N.C., Public Hearing — Miami, Fla., Panel 5, Tr. at 36.
498 Kristine Fox, Case Budgeting Atty., 9th Cir., Public Hearing — San Francisco, Cal., Panel 1, Writ.
Test. at 3.
499 Fred Heblich, Jr. Assistant FPD, W.D. Va., Public Hearing — Philadelphia, Pa., Panel 6, Tr. at 28.
500 Judge Aida Delgado-Colon, D.P.R., Public Hearing — Miami, Fla., Panel 3, Tr. at 34.
501 Juan Milanes, CJA Panel Atty., E.D. Va. and D.P.R., Public Hearing — Miami, Fla., Panel 4, Tr. at 7.
502 Id.
503 Rochelle Reback, Former CJA Panel Atty., FL-M, Public Hearing — Miami, Fla., Panel 5, Writ. Test. at 6.
497

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-159

115

AR-2524

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 161 of 342 Page ID
#:27743
FINDINGS

agreed that interim vouchering is beneficial to the panel attorneys. The failure to
provide interim vouchering could lead qualified and able panel attorneys to refuse
more complex cases because of the financial risk. Attorneys who find themselves in
the situation of facing a long trial, without any hope of compensation until its completion, could become concerned that without a resolution short of trial, they might
face financial hardship. The lawyer’s self-interest would then be in conflict with that
of his client. This is fair to neither client nor lawyer, and it is not difficult to imagine
these circumstances giving rise to a collateral attack on any conviction.

5.4.4 Lack of Due Process
Circuit courts have agreed uniformly that the decision to deny or reduce a
voucher is an administrative act that cannot be appealed. Voucher reductions
at the district level are final, and panel attorneys are without recourse to judicial
review.504 In most districts, panel attorneys also have no way to seek administrative review of payment determinations. As the Vera Report concluded, this lack
of recourse diminishes panel quality in two ways: “First, highly-qualified attorneys may choose to forgo panel membership. Second, some panel attorneys may
improvidently cut corners if they cannot be confident that all their work will be
compensated or reimbursed.”505
In 2006 the judiciary policy was amended, to include the following recommendation: “If the court determines that a claim should be reduced, appointed
counsel should be provided: prior notice of the proposed reduction with a brief
statement of the reason(s) for it, and an opportunity to address the matter.”506 Prior
notice and an opportunity for a panel attorney to respond is not mandatory, merely
suggested; and a memorandum transmitting the new policy made clear that “no
hearing, formal or otherwise, is required, and no right to review the judge’s decision
is conferred.”507 Yet even this recommendation met with significant resistance. Judge
John Gleeson, Chair of the Defender Services Committee during the time the
recommendation was proposed and debated, told the Committee:
504

See for instance United States v. French, 556 F.3d 1091, 1093 (10th Cir. 2009), “Every circuit court
of appeals to consider this jurisdictional question has held that CJA fee compensation determinations
made by the district court are not appealable,” the Circuit had no jurisdiction to consider a voucher
reduction); and In re Carlysle, 644 F.3d 694, 698-700 (8th Cir. 2011), ( “the non-adversarial nature of the
CJA voucher process, which is wholly ex parte, evidences an administrative act not a judicial decision.”);
see also Shearin v. United States, 992 F.2d 1195, 1196 (Fed. Cir. 1993); United States v. Bloomer, 150 F.3d
146, 148 (2d Cir.1998); Landano v. Rafferty, 859 F.2d 301, 302 (3d Cir. 1988); United States v. Rodriguez,
833 F.2d 1536, 1537–38 (11th Cir.1987); In re Baker, 693 F.2d 925, 927 (9th Cir. 1982); United States v.
Smith, 633 F.2d 739, 742 (7th Cir.1980); United States v. Johnson, 391 F.3d 946, 948 (8th Cir. 2004); United
States v. Linney, 134 F.3d 274, 281 (4th Cir.1998); United States v. Stone, 53 F.3d 141 (6th Cir. 1995).
505 Jon Wool, K. Babe Howell, Lisa Yedid, Improving Public Defense Systems: Good Practices for Federal
Panel Attorney Programs, Vera Inst. of Just., 13 (June 2003).
506 Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.36(a)
507 Committee of Defender Services, AO memo, “New Criminal Justice Act Guidelines Regarding
Voucher Reduction Procedures and Policies,” April 7, 2006.

116

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-160

AR-2525

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 162 of 342 Page ID
#:27744

I thought this was a no-brainer. We’re judges. Notice and opportunity to be
heard is our middle name. We don’t adjourn a trial without giving somebody an opportunity to be heard. It seemed to me at the time that you take
a $20,000 dollar voucher and you cut it to $10,000, that’s somebody’s livelihood. Where do we get off not giving notice and opportunity to be heard?
But I was shocked that the pushback, at how ingrained it was . . . 508
A former employee at DSO at the time confirmed how difficult it was for
Judge Gleeson to convince his colleagues to make this change in policy. He had
to convince them that this was “a fairness issue and [that] judges are about fairness.”509 He added, “I think what’s so frustrating from our vantage point at times
is how much effort is required to get some very small, what seemed like some
very small and reasonable steps. It’s still a guideline. Any judge who wants to cut a
voucher, and not contact attorneys can do that.”510 And unfortunately, some judges
do continue to cut vouchers without providing any due process to counsel, or
giving any consideration to the revised judicial policy.511
Some judges routinely provide an informal opportunity for defense counsel to
advocate for their full voucher amount. One federal defender told the Committee
that in his district, in the rare instance a voucher was cut, “the judge will give an
order to the panel attorney or letter saying, ‘I’m considering a reduction. Please
respond to these particular areas.’ The attorney then responds and a lot of times
the judge does not make the cut at that time.”512 A judge informed this Committee
that it was his policy, to “give every lawyer an opportunity to respond. If I intend to
reduce a voucher I will send a letter to the lawyer explaining that I’m considering it
and I’d like to hear from you and what you have to say.”513 Many of the judges that
testified about this issue supported the idea that if a voucher is to be cut, the attorney should be entitled to some due process.514 One judge advocated for a national
standard that would require every CJA plan provide for due process and notice
when a voucher is to be cut.

Cuts without explanation
In districts that have not followed the Judicial Conference’s recommendation to provide attorneys with notice and an opportunity to address the matter,
508

Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr. at 4.
Richard Wolff, Former Chief, Legal, Policy, and Training Division, DSO,, Public
Hearing — Philadelphia, Pa., Panel 7, Tr. at 13.
510 Id.
511 Mag. Judge Cheryl Pollak, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 2b, Tr. at 10.
512 David Stickman, FPD, D. Neb., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at p 27.
513 Senior Judge Donald Graham, S.D. Fla., Public Hearing — Miami, Fla., Panel 2, Tr. at 8.
514 See e.g. Mag. Judge William Matthewman, S.D. Fla., Public Hearing — Miami, Fla., Panel 3, Tr., at
30; Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr. at 4; Judge Luis Felipe
Restrepo, 3rd Cir., Public Hearing — Philadelphia, Pa., Panel 2a, Tr. at 6.
509

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-161

117

AR-2526

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 163 of 342 Page ID
#:27745
FINDINGS

practitioners often learn of cuts only when they receive a reduced check. No explanation of the cut is provided. Other times, attorneys are told only that the bill was
simply too high or that the presiding judge had a “gut feeling” that it should be
reduced. Such cuts are particularly demoralizing, driving away qualified attorneys
and making recruitment difficult. As seen in the survey results below, among panel
attorneys surveyed by this Committee, 29 percent “rarely” or “never” received an
explanation for a voucher cut.

If you have had a voucher(s) cut or denied, were you given an opportunity to
contest the decision or provide an explanation?
Always

39.06%

Usually
Sometimes

14.19%
10.38%
28.31%

Rarely
Never

8.06%
0%     10%     20%     30%     40%     50%

Many panel attorneys expressed frustration during public hearings that they
were not informed of the reviewing judge’s intention to cut their voucher or the
basis for the cut. As one panel attorney testified: “In some districts, we will receive
notification when our vouchers are being cut and given the opportunity to respond
to that. In other districts, we don’t know until we receive a check in the mail.”515 As
a result, attorneys are deprived of an opportunity to explain to the judge why the
cuts are unwarranted or to fully understand the judge’s reasoning and anticipate
how to prevent such cuts in the future.
Frustration is highest when judges cut vouchers based on a visceral sense
that the voucher is simply too high. A panel attorney expressed frustration with
this, testifying, “If you have a judge who cuts your bill by a certain amount of
money and says, ‘Well, it was just a gut feeling,” how is a panel attorney supposed to take that? What was it about my bill? What line item did you have a
problem with?”516 The lack of any requirement to justify voucher cuts allows cuts
to be based upon a “gut feeling.” Reflecting on this attorney’s comments made
during the course of a Committee hearing, one judge noted, “I’m not sure how
those judges who do cut viscerally justify that. I do think that there should be a
515

Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 2.
Anthony Solis, CJA Panel Atty Dist. Rep., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 6,
Tr. at 39.
516

118

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-162

AR-2527

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 164 of 342 Page ID
#:27746

justification component to any cutting that goes on.”517 Another district court
judge voiced her own frustration with these unexplained, or unexplainable, cuts.
She described her efforts in trying to encourage her colleagues to revisit their reasons for imposing cuts or denying professional services under the CJA. “[T]here
have been occasions where lawyers have come to me and said, ‘My voucher was
cut’ or ‘An investigator was denied’ and I’ve gone to the judge and he said, ‘Well, I
thought it was appropriate.’ And that was it.”518

If you have had a voucher(s) cut or denied, were you given an explanation?
Always

12.34%
35.43%

Usually

23.44%

Sometimes
Rarely
Never

13.16%
15.63%
0%     10%     20%     30%     40%     50

Panel attorneys expressed additional frustration that they sometimes would
not learn of a cut until they received a check for the representation. “It’s wrong to
do work and submit a voucher and get no notice and open the envelope and find
that your check is less than what you billed and have no idea that that was coming.”519 Because the payment does not include any notice that the voucher has been
reduced, sometimes attorneys do not even realize the voucher has been cut until
they go back and compare the amount they billed to the amount they received.
A panel attorney district representative in one district, who is also a former
federal defender, testified that in a difficult terrorism case the circuit court cut his
voucher by $45,000, representing roughly half of the hours he had worked on the
case. He received no notice from the circuit court, learning of the cut only when the
district’s federal defender notified him. Asked whether he sought some form of due
process, he replied, referring to the judge who reviewed his voucher, “He doesn’t
give due process, so I didn’t ask for any.”520
A circuit judge and former panel attorney told the Committee, “One of the
great frustrations lawyers expressed to me when I was the CJA rep is that vouchers

517

Judge Cathy Bissoon, W.D. Pa., Public Hearing — Philadelphia, Pa., Panel 2a, Tr at 14.
Mag. Judge Cheryl Pollak, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 2b, Tr. at 10.
519 Debra Di Iorio, CJA Panel Atty., C.D. Cal. Public Hearing — San Francisco, Cal., Panel 3, Tr. at 3.
520 Dan Scott, CJA Panel Atty. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Tr. at 18.
518

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-163

119

AR-2528

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 165 of 342 Page ID
#:27747
FINDINGS

were cut with no explanation and no recourse.”521 He suggested that a change in
judicial policy would be an improvement. Specifically, he suggested changing the
discretionary language of notification, i.e. the attorney “should” be notified of a proposed voucher reduction, to mandatory language — the attorney “shall” be notified
of such a reduction. His proposed changes would also require that attorneys have
the right to respond to the proposed cut.522 Ultimately, he told the Committee, “If
there was some transparency in the process and lawyers were told this is why it’s
being cut, they had at least a dialogue with the individual cutting the voucher, I
think it would be a real improvement . . . ”523

Inability to Appeal and Repercussions
A decision to reduce an attorney’s fees is not appealable. Under the current statute,
“If a CJA lawyer wishes to know why his or her voucher has been halved there is not
a standard mechanism adhered to by which they can redress that.”524 A CJA panel
attorney district representative told the Committee that he had been the substitute
for formal process. When a judge had a problem with a voucher, he got a phone call
from the judge. “It was a rather new lawyer to the panel and had been submitting
vouchers that were getting some eyebrows . . . . [The judge] called me and asked me to
get in touch with the lawyer and discuss his vouchers with him and how they were
being viewed. “That’s kind of the closest that we’ve come to a formal process.”525
Without formal procedures, attorneys are often unwilling to challenge a judge’s
decision on fees because of the tremendous power judges wield over selection,
appointment, and compensation of attorneys. The Committee was told by one federal defender that,
[The] really good CJA lawyers are reluctant in my district to push back
against decisions from our courts about their CJA budgets or their CJA
vouchers being cut because judges wield an incredible amount of power.
Not just in the decisions . . . in terms of litigation, in terms of appointments, but there’s all the indirect power where lawyers just don’t want to
be held in the bad graces of the local bench.526
Even when panel attorneys are provided with some notice or process, the
right is not always meaningful. Panel attorneys are frustrated that when they made
significant efforts to explain to the court how their vouchers were justified, they
521

Circuit Judge Luis Felipe Restrepo, 3rd Cir., Public Hearing — Philadelphia, Pa., Panel 2a, Tr. at 10.
Id. at 6.
523 Id. at 10.
524 Judge Kathleen Williams, S.D. Fla., Public Hearing — Miami, Fla., Panel 3, Tr. at 22.
525 Gordon Armstrong, CJA Panel Atty. Dist. Rep., S.D. Ala, Public Hearing — Birmingham, Ala., Panel
7, Tr. at 17.
526 Jim Wyda, FPD, D. Md., Public Hearing — Philadelphia, Pa., Panel 10, Tr. at 8.
522

120

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-164

AR-2529

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 166 of 342 Page ID
#:27748

still received little or no response.527 After learning that the court had determined
that his claims for discovery review were excessive compared to his co-defendants,
an attorney spent four hours setting forth his response to the proposed cuts. He
received no response from the judge, only the check with the original proposed
cut.528 Another panel attorney told the Committee about her experiences being
given an opportunity to respond to the proposed cut:
We have a chart that [my paralegal] has created for the amount that we
have billed and then the amount that we were ultimately paid, and that’s
what I reviewed in preparing my testimony today. I can say that 60 percent of my cases this calendar year have received a reduction of some
sort. The times that I have been given the opportunity to meet with the
judges, I would say about 50 percent of the time, those are still reduced.529
In a few districts, panel attorneys who protested voucher cuts have found
their names in published opinions described as “scathing.”530 These opinions then
influenced the way that the rest of the panel practiced criminal defense. A federal
defender told the Committee:
We have had more than one published opinion cutting in great detail,
talking about the pro bono obligations of counsel. They were rather
scathing. They were very detailed. At least in one of the cases the judge
had asked for a written response from the attorney and then turned
around and wrote another opinion quoting what the attorney had said.
Judges don’t have to do this more than once or twice to get the message
across. . . . One of the attorneys didn’t take any more cases. It had a very
direct chilling effect . . . in how [other] attorneys billed. There was self-cutting no doubt because of those opinions . . . 531

Models of providing process
Some districts have instituted successful models providing process before vouchers are cut. Many of these districts have a committee or other non-judicial group
to review questioned vouchers and make independent determinations.532 A key
to their success seems to be the inclusion of attorneys on these committees who
527

Mark Windsor, CJA Panel Atty, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Tr. at 15.
Juan Milanes, CJA Panel Atty., E.D. Va. and D.P.R., Public Hearing — Miami, Fla., Panel 4, Tr. at 10.
529 Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, NM, Panel 5, Tr. at 2.
530 Melody Brannon, FPD, D. Kan., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at 28.
531 Id.
532 One judge in a district without such a committee suggested it as the best option for providing
process. Mag. Judge William Matthewman, S.D. Fla., Public Hearing — Miami, Fla., Panel 3, Tr., at
25 recommended districts “establish a committee just like we have committees to review issues of
attorney professional misconduct.”
528

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-165

121

AR-2530

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 167 of 342 Page ID
#:27749
FINDINGS

understand what is required for an effective defense. In the Western District of
Washington, for example, the federal defender explained that the district’s standing
committee meets four times a year to consider issues with vouchers,533 reviewing
half a dozen each year.534 The committee reviews vouchers only when the attorney
or the judge involved requests a review.535 The CJA panel attorney district representative described the standing committee’s process:
[W]e just finished reviewing a voucher that was referred to the standing
committee, and it was a pretty exhaustive process where we went to the
attorney and asked some questions. We went to the judge and really tried to
get more clear on the judge’s concerns, and went back to the attorney, and
then we took a position and I think we’ve just submitted that to the judge.536
This standing committee can intervene where a lawyer has made mistakes in
billing and can refer the attorney for “counseling and mentoring.”537 The committee
can also investigate vouchers flagged by judges as containing questionable assertions of work done. For example, in one case a voucher requested reimbursement
for time spent discussing a suppression motion with the client that was never filed.
After inquiring, the review committee found, “There were good reasons to spend
time with the client to recommend against filing the motion because of the negative ramifications it would have.”538 Judges would not normally have access to this
kind of information when conducting a “reasonableness” review.
A Northern District of Alabama judge described his district’s process when
attorneys request review of a voucher reduction. Within seven days of receiving
notice, a panel attorney can ask a CJA Administrative Committee to review the
reduction.539 The Administrative Committee gives panel attorneys the opportunity
to raise concerns about the cuts and the Committee then issues recommendations.540 As this judge acknowledged, “ultimately it is the district judge’s call, but
we do provide an opportunity for the committee to have input. . . . I think that gives
lawyers on the panel a level of comfort that they’re not going to be arbitrarily having
their vouchers cut.”541
Participants in these committee processes emphasize that they do not rubber
stamp either the proposed reductions or the original voucher. As one defender
explained:
533
534
535
536
537
538
539
540
541

122

Mike Filipovic, Former FPD, D. Or., Public Hearing — Portland, Or., Panel 6, Tr. at 15.
Id. at 2.
Id. at 21.
Jennifer Horwitz, CJA Panel Atty. Dist. Rep., Public Hearing — Portland, Or., Panel 5, Tr. at 38.
Mike Filipovic, Former FPD, D. Or., Public Hearing — Portland, Or., Panel 6, Tr. at 15.
Id. at 16.
Mag. Judge Michael Putnam, N. D. Ala., Public Hearing — Birmingham, Ala., Panel 1, Tr. at 19.
Mag. Judge Michael Putnam, N. D. Ala., Public Hearing — Birmingham, Ala., Panel 1, Tr. at 19.
Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-166

AR-2531

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 168 of 342 Page ID
#:27750

CJA peer reviewing their colleagues’ work is no joke. They do not rubber
stamp their colleagues’ work, including people who are friends. I’ve
watched them review the vouchers of excellent attorneys in my district
who are friends of these attorneys, and they take it dead serious. They cut
those vouchers, they recommend cuts to those vouchers, or they support
those vouchers, but they do it in a very meaningful way.542
In all districts with such committees, recommendations are non-binding, and
“the court is free to accept, reject, or modify” the committee’s recommendation.543

5.4.5 Independent Support for Changing
the Current System of Voucher Review
In fall of 2015 the National Association of Criminal Defense Lawyers (“NACDL”)
issued a report, “Federal Indigent Defense 2015: The Independence Imperative.” The
report listed “Seven Fundamentals of a Robust Federal Indigent Defense System,”
the fifth of those fundamentals being “Decisions regarding vouchers must be made
promptly by an entity outside of judicial control.”544 According to the report, which
considered interviews with panel attorneys, defenders, and judges across the country, many panel attorneys,
often face arbitrary cuts at the hands of judicial officers whose decisions
need not be explained and cannot be challenged. Allowing judges to
determine the amount of time and effort an attorney devotes to a case
improperly puts the judge in the position of determining the amount
of justice for an indigent defendant and forces the private bar to subsidize the government’s obligation to provide zealous and meaningful
representation. Some lawyers leave the panel as a result of this practice.
Control over vouchers must be removed from unreviewable, unregulated
judicial control and given to a truly independent administrator outside
of the judiciary.”545
The NACDL interviewed former AO Director and District Judge John D. Bates,
who admitted that while the AO “has emphasized educating the judiciary about
‘fairness’ and ‘proper examination’ of vouchers, the AO could not impose upon district judges a national standard because ‘district courts are fiefdoms.’”546
The Vera Institute study of the federal defender system supports the assertions
made by many of the judges who testified at this Committee’s hearings that they did
542

Marianne Mariano, FPD, W.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 3, Tr. at 34-35.
Leigh Skipper, Comm. Def., E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 3, Tr. at 6.
544 NACDL Report pg 10.
545 NACDL Report pg 10.
546 Id. at 50.
543

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-167

123

AR-2532

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 169 of 342 Page ID
#:27751
FINDINGS

not feel they were qualified for or in the position to adequately review vouchers or
service-provider requests. According to that study,
somewhat more than half of the judges we spoke to stated candidly that
they were not fully qualified to make decisions about certain matters such
as when an expert should be retained, what is a reasonable fee for their
services, or how many hours are reasonable to spend on investigations
or plea negotiations. Moreover, even when judges are fully qualified to
make these decisions, some judges said they feel it inappropriate to do
so as presiding judge in the case because of the ex parte nature of these
contacts and the dangers inherent in the court intruding into the strategic
planning of the defense.547
Additionally, adopted in 2002, the American Bar Association’s Ten Principles of
a Public Defense Delivery System were created to address “the fundamental criteria
necessary to design a system that provides effective, efficient, high quality, ethical,
conflict-free legal representation for criminal defendants who are unable to afford
an attorney.”548 The very first principle on the list is: “The public defense function,
including the selection, funding, and payment of defense counsel, is independent.”549
Finally, in its amicus brief in the recent case of Christeson v. Roper,550 the ABA
challenged the notion that attorneys appointed under the CJA in death penalty and
habeas representation are supposed to provide their representation pro bono:
Reliance on [pro bono] representation is not a substitute for an adequately funded defense. . . . Yet federal courts too often fail to grant the
funding necessary for . . . attorneys to provide effective representation. Pro
bono representation cannot be the norm for constitutionally or statutorily mandated counsel. [It] undermines the Court’s important role
of safeguarding the statutory right to counsel, [and] also conflicts with
numerous ABA standards, including the 2003 ABA Guidelines for the
appointment and Performance of Death Counsel in Death Penalty Cases
and the ABA Standards for Criminal Justice.551
For more on death penalty and capital representation under the CJA, please
see Section 9
547

Jon Wool, K. Babe Howell, Lisa Yedid, Improving Public Defense Systems: Good Practices for Federal
Panel Attorney Programs, Vera Inst. of Just., 30 (June 2003).
548 American Bar Association, Ten Principles of A Public Defense Delivery System (Feb. 2002), available
at http://www.americanbar.org/content/dam/aba/administrative/legal_aid_indigent_defendants/
ls_sclaid_def_tenprinciplesbooklet.authcheckdam.pdf (last visited April 26, 2017).
549 Id.
550 Christeson v. Roper Brief Of Amicus Curiae American Bar Association In Support Of Petitioner, No.
16-2730 (8th Cir) (August 17, 2016).
551 Id. at 3–4.

124

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-168

AR-2533

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 170 of 342 Page ID
#:27752

5.5 Alternative Approaches
to Voucher Review
In the majority of districts, judges alone conduct a reasonableness review of attorney fees and requests for expert witnesses and other specialized services. But some
districts centralize and facilitate the review process by relying upon CJA supervisory attorneys, CJA administrators employed either by the court or the federal defender office, and/or circuit case-budgeting attorneys to review resource
requests and vouchers and make recommendations to the presiding judge, who
then approves payment. On the whole, these approaches mitigate many of the
problems associated with judicial review.

5.5.1 Use of CJA Supervising Attorneys
and CJA Administrators
In its 1997 study, the FJC evaluated the use of supervising attorneys to review vouchers, and concluded:
Appointed counsel in these districts appreciate the prompt and reliable
reviews of their payment vouchers that the CJA supervising attorneys provide, and the availability of a central, accessible, knowledgeable resource
for assistance with CJA issues. Judges appreciate being relieved of tasks
many feel they do not have time for, they are not proficient at, and/or it is
inappropriate for them to do.552
The FJC cited many benefits to tasking supervising attorneys with voucher
review, including:

Effectiveness of Representation
ÑÑThey

can relieve presiding judges of direct supervision of one party’s litigation strategies, which alleviates a potential conflict of interest that attorneys
might perceive if they think one strategy will help the attorney earn more
money but another might be more beneficial to the client.

Fairness to Counsel
ÑÑCentralizing

voucher review, so that all vouchers are reviewed by a single
attorney hired specifically to perform that task, can improve panel attorneys’ impressions of fairness, because the vouchers can be reviewed
promptly and consistently.

552

Federal Judicial Center Report to the Judicial Conference Committees on Defender Services,
Judicial Resources, and Court Administration and Case Management, The CJA Supervising Attorney: A
Possible Tool in Criminal Justice Act Administration, April 2001, Executive Summary, at 1.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-169

125

AR-2534

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 171 of 342 Page ID
#:27753
FINDINGS

Accountability
ÑÑThe

CJA supervising attorney can facilitate accountability through his or her
central oversight of CJA expenses.

ÑÑMoreover,

the person selected for the position can be hired to have necessary special skills, such as experience with accounting or criminal defense,
which judges may not have.

ÑÑCase budgeting is growing in importance as an aspect of accountability. CJA

supervising attorneys can relieve judges of budgeting responsibilities, which
some judges feel ill-equipped for and which some judges and attorneys — but
not all — believe present troubling ex parte and role-conflict issues.553
Having a single person reviewing vouchers (or supervising review of vouchers)
led to much greater consistency for panel attorneys and an increase in the impression of accountability in supervising expenditures among judges.554 The report
concluded that, on the whole, judges lacked the time needed to thoroughly review
vouchers, leading to delays in payment and/or cuts that were either too severe, or
on the other hand, insufficient.555
A report by the Vera Institute of Justice completed in 2003 reached similar conclusions, finding that placing voucher review into the hands of a centralized administrator with defense experience was a better model than saddling the judiciary with
the sole responsibility for reviewing vouchers. The report, Improving Public Defense
Systems: Good Practices for Federal Panel Attorney Programs, stated, “Those who
have experience with this method report that it has yielded great improvements in
the speed, fairness, and consistency of panel attorney compensation. By serving as a
single, expert intermediary between the individual presiding judge and panel attorneys, the administrator promotes fairness and consistency and mitigates conflicts
that may arise with judicial contacts.”556
Echoing the report’s conclusion, one judge who testified before this Committee
underscored the vital role of supervising attorneys in voucher review:
When all of us in all of our various districts were looking to cut back, we
as judges were adamant [the CJA Supervising Attorney] was not going to
be cut because it is such as a critical part of our process. . . . The key ingredient in our view for why that process works is that the person who sits
in that seat is a respected former member of the defense bar, and that, I
think, is important.557
553

Id. at 2–3.
Id. at 83, 84.
555 Id. at 126.
556 Jon Wool, K. Babe Howell, Lisa Yedid, Improving Public Defense Systems: Good Practices for Federal
Panel Attorney Programs, Vera Inst. of Just., 30-31 (June 2003).
557 Judge Gonzalez Rogers, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 5, Tr. at 1.
554

126

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-170

AR-2535

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 172 of 342 Page ID
#:27754

A district’s CJA panel representative agreed, testifying that, “it’s very important to note that [the CJA Supervising Attorney] is a very, very well respected
member of the defense bar, has been a CJA lawyer for over two decades. We
all know her. When she says a voucher is unreasonable, it’s unreasonable and
none of us complains about it. She comes with inherent credibility.”558 A CJA
Supervising Attorney echoed these views:
I was a panel member for over ten years and I’ve been working on CJA
cases in this district for almost thirty years prior to taking this position.
I know the judges who I practiced before who I’m now working with as
well as the panel members . . . . I do a reasonableness review of the vouchers. Having an experienced federal practitioner and a former member of
the panel gives both the court and the panel confidence that there will be
a fair and reasonable review of vouchers.559
A district judge in Maryland admitted that while the system, “is not perfect,”
having a supervising attorney “has gone a long way to bring some consistency to
what would otherwise be ten or fifteen different district judges who all may take
slightly different approaches to the idea of reviewing the vouchers.”560
Other districts have since added supervising attorney positions, sometimes as
court employees, other times as employees of the federal defender office (as discussed in the next section). The Committee heard positive reviews of these positions, wherever they were located.561 South Carolina placed its CJA administrator
within the defender office. According to the defender, this system guards against
arbitrary voucher cutting. A panel attorney also praised the administrative attorney
position, telling the Committee:
I cannot tell you what a difference that has made and how valuable that
attorney is to our panel in South Carolina. I have been a panel attorney
for twelve years. I have seen from the start to finish exactly what the difference has been once she came on and started assisting panel attorneys
with the review of vouchers. It has been invaluable. I think the Committee
has heard that in South Carolina, the amount of vouchers that are cut systematically has dropped drastically.562
A panel attorney from Kansas told the Committee that the CJA Administrator
in that district acted as a “buffer” between panel attorneys and the courts.563 Also
558

Mary McNamara, CJA Panel Atty. Dist. Rep; Public Hearing — San Francisco, Cal., Panel 6, Tr. at 3.
Diana Weiss, CJA Supervising Atty., N.D. Cal., Public Hearing — San Francisco, Cal., Panel 1, Tr. at 10.
560 Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr. at 21.
561 Rich Curtner, FPD, D. Alaska, Public Hearing — San Francisco, Cal., Panel 7, Writ. Test. at 3.
562 Jessica Salvini, CJA Panel Atty., D.S.C., Public Hearing — Miami, Fla., Panel 4, Tr. at 14.
563 Melanie Morgan, CJA Panel Atty. Dist. Rep., D. Kan. & W.D. Mo., Public Hearing — Santa Fe, NM,
Panel 5, Tr. at 14.
559

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-171

127

AR-2536

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 173 of 342 Page ID
#:27755
FINDINGS

a highly respected former criminal defense attorney, “she has the ability to red flag
things that she knows might cause the judge some question or concern and talk
to the lawyer about that. She also then is a conduit with the court. When the court
says, ‘Why would this attorney think it was necessary to spend all of this time?’ she
can get that information.”564
Having an intermediary between themselves and the judges before whom
they appear assisted the panel attorneys immensely. Additionally this intermediary, by making the system more efficient, can reduce long-term costs. A panel
attorney in Oregon told the Committee that the administrator intervened to obtain
funding when the attorney had an urgent need for an investigator. “I kept calling
our CJA administrator asking what’s happening here, and she courageously needled the judge a little bit and it got done. . . . To me, the bottom line is that efficiency
at that end creates efficiencies at the other too. Lots of money was saved once we
got that investigator,” allowing the attorney to “settle this case at a different level.”565
Finally, witnesses from districts that did not have a CJA supervising attorney
or administrator position suggested them as partial solutions to problems with
the current system. A federal defender told the Committee that such a position
“would have a number of beneficial effects,” including lowering defense costs.566
Not only would panel attorneys feel more comfortable requesting funds from a
former defense attorney acting as an administrator, the position “would be part of
a cost-containment strategy in that if those experts’ requests are funneled through
a single administrator, then that administrator on behalf of the CJA could achieve
some of the bargaining power that the FPDs have.”567

5.5.2 Voucher Review by Federal Defender Organizations
There are a number of districts where the federal or community defender office
performs an initial review of vouchers and issues a recommendation to the presiding judge.568 Some witnesses questioned whether it is appropriate for the FPDO
564

Id.
Thomas Hillier, Former FPD, W.D. Wash., Public Hearing — Portland, Or., Panel 1, Tr. at 14.
566 Michael Caruso, FPD, S.D. Fla., Public Hearing — Miami, Fla., Panel 1, Tr. at 17.
567 Id.
568 See e.g. Rebecca Hudsmith, FPD, M.D. La. & W.D. La., Public Hearing — Birmingham, Ala., Panel
2, Writ. Test. at 2 (“The office reviews all vouchers submitted by the panel attorneys for payment of
compensation and expenses prior to forwarding same to the presiding judicial officer for final approval.
An employee in each of the three offices is primarily responsible for the initial voucher review. I
conduct the final voucher review for all CJA vouchers over $3,500 and prepare memos to the Courts
for all vouchers over the statutory maximum.”); Claude Kelly, W.D. La., Public Hearing — Birmingham,
Ala., Panel 2, Writ. Test. at 2 (“It is the responsibility of the FPD office to review all attorney and
expert vouchers and obtain approval for funding and payment.”); A.J. Kramer, FPD, D.D.C., Public
Hearing — Philadelphia, Pa., Panel 6, Writ. Test. at 1 (“Our office also reviews all vouchers for lawyers
and experts submitted in district court cases (we do not process vouchers for the court of appeals). The
vouchers are reviewed, a recommendation is made, and they are sent to the judge for final approval.”)
565

128

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-172

AR-2537

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 174 of 342 Page ID
#:27756

or CDO to be involved in reviewing vouchers and requests for service providers
by panel attorneys. For defenders considering housing a CJA administrator within
their office, the major concern was financial, since most defender offices are already
understaffed.569 One federal defender admitted to the Committee that she has long
believed her office should take on the responsibility of administering the panel and
reviewing vouchers, but simply does not have the resources.570
The second concern involves conflicts of interest. Some believed having the
defender office responsible for review is an “inherent conflict,” given the basic functioning of the hybrid system of defense: “Where there is a public defender and there
are CJA lawyers involved, there is a conflict by defenders representing either another
defendant that is indicted or cooperating individual.”571 A federal defender agreed,
“There’s this inherent conflict between our office and the panel . . . . We have a conflict with almost every case they have.”572 Others, however, believe the conflict exists
more in theory than in practice. One panel attorney told the Committee, “I think we
have to get away from the notion that simply because perhaps [an administrator is]
housed within the federal public defender’s office that means that they are somehow controlled by the federal public defender or that there’s going to be a conflict
of interest.” 573 The panel attorney explained that the CJA administrator and the
federal defender office run on separate and independent computer systems, each
“password-protected and secure,” and the administrator’s office is set apart from
the other defenders.574 The panel attorney concluded, “It works for us.”575 A federal defender who has a CJA Supervising Attorney housed within her office told the
Committee that “[w]e haven’t really run into any conflicts, and we have a backup
system for conflicts right now.”576 Others also described putting safeguards in place
to prevent or mitigate potential conflicts of interest.577
On the whole, testimony about FDO and CDO involvement in voucher review
was overwhelmingly positive. The Chief Judge in the District of Minnesota, whose
federal defender office performs an initial review of vouchers, testified that it was “a
very good system,” and the judges “appreciate the hard work the office does with the
voucher system, making sure that there are no mistakes made in the calculations,
flagging issues for us to review.”578
569

See e.g. Public Hearing — Portland, Or., Panel 6, Tr. at 17-25.
Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, NM, Panel 2, Tr. at 26.
571 E. Gerry Morris, President NACDL, Public Hearing — Santa Fe, NM, Panel 4, Tr.at 13.
572 Eric Vos, FPD, D.P.R., Public Hearing — Miami, Fla., Panel 1, Tr. at 20.
573 Melanie Morgan, CJA Panel Atty. Dist. Rep., D. Kan. & W.D. Mo., Public Hearing — Santa Fe, NM,
Panel 5, Tr. at 28.
574 Id.
575 Id.
576 Melody Brannon, FPD, D. Kan., Public Hearing — Minneapolis, Minn., Panel 2, Tr. at
577 Steve Wax, Legal Director, Oregon Innocence Project, Public Hearing — Portland, Or., Panel 1, Tr. at 7, 28.
578 Chief Judge John R. Tunheim, D. Minn., Public Hearing — Minneapolis, Minn., Panel 6, Tr. at 13.
570

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-173

129

AR-2538

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 175 of 342 Page ID
#:27757
FINDINGS

Federal defenders involved in voucher review told the Committee that having
their offices involved, even though the voucher ultimately had to be approved by the
judge, is beneficial. One defender wrote that voucher review “requires considerable
time,” but he believes that review “benefits both the judges and the panel attorneys . . . . Because I have been a federal criminal trial attorney for 50 years, the judges
trust my judgment.”579 The federal defender from Oregon agreed that the review takes
a great deal of time, but stated: “We are willing to expend the time and resources on
the panel because having a united, strong defense bar improves the quality of the
criminal justice system, which helps all of our clients.” 580 Explaining the value added
of involving the federal public defender, she wrote, “A separate administrator would
not have the institutional knowledge and perspective of the FPD that comes from
managing what is essentially a medium-sized law firm. The FPD is more likely than a
separate administrator to be aware of areas for efficiency, new developments in the
law, and systemic solutions that can be proposed to the court.”581

5.5.3 Case-Budgeting Attorneys
Although circuit CJA case-budgeting attorneys (CBAs) are placed in the office of the
circuit executive, their involvement with budgeting at the district court level makes
discussion of the important role they play appropriate here.
In 2004, the Defender Services Committee launched a pilot program to
“[e]stablish a source to provide objective case-budgeting advice for judges, in order
to limit the costs of representations in capital and large [non-capital] mega-cases.”582
A case budgeting program was intended to provide better management of the highest-cost cases. Many of these cases involved multiple defendants. Though amounting
to less than three percent of all representations, these high-cost cases accounted for
one-third of the cost of all representations.583 In creating this program, DSC hoped to
help both judges and panel attorneys develop reasonable budgets for these high-cost
cases and also assist attorneys in obtaining the resources necessary to provide effective representation. DSC also hoped to better coordinate and obtain more control
over service provider rates.584 The pilot was designed with “the recognition that many
judges do not have the time, training, expertise, or tools to assess whether payment
claims made by attorneys and service providers are necessary and reasonable.”585
579

Thomas McNamara, FPD, E.D.N.C., Public Hearing — Miami, Fla., Panel 1, Writ. Test. at 2.
Lisa Hay, FPD, D. Or., Public Hearing — Portland, Or., Panel 6, Writ. Test. at 9.
581 Id.
582 Adopted by the Judicial Conference (Report of the Proceedings of the Judicial Conference of the
United States, Sept. 2004, at 6–7).
583 Margaret S. Williams, Circuit CJA Case-Budgeting Attorney Pilot Project Evaluation (2007–2009),
Federal Judicial Center Final Report, p. 1. [hereinafter FJC Case Budgeting Attorney Study]
584 Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr. at 26.
585 FJC Case Budgeting Attorney Study at 1.

580

130

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-174

AR-2539

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 176 of 342 Page ID
#:27758

The pilot program ran for three years, and placed CBAs in the Second, Sixth,
and Ninth Circuits. DSC funded the positions, but the attorneys were hired by and
reported to the circuits.
Their primary responsibility was to provide “objective case-budgeting advice to
attorneys and judges and enhanc[e] case management in the pilot circuits.”586 One
of the Ninth Circuit CBAs described her role:
We meet with counsel to assess case management needs, including electronic discovery issues and forecasting case expenses. In multi-defendant cases, we try to identify ways counsel can share investigative, expert,
paralegal, and electronic discovery management resources. The budgets
we develop encompass both estimated attorney hours and service providers needed for multiple stages of litigation, and we assure counsel that a
budget can be supplemented or amended if circumstances change.587
The Judicial Conference had previously encouraged courts to require panel
attorneys to submit proposed litigation budgets for all capital habeas and capital
prosecution representations, as well as in non-capital felony representations that
were likely to become “mega cases” (defined at the time as in excess of 300 attorney
hours or total costs for attorney and service providers to exceed $30,000).588 Yet both
attorneys and judges struggled to plan and manage large case budgets and contain
costs while ensuring effective representation for clients. DSC believed CBAs could
assist by providing consistent compensation standards, developing case budgeting
training programs, designing cost containment initiatives, and making recommendations on case budgets.589
The pilot program proved exceedingly effective. CBAs lowered the costs
of capital and mega-cases while providing a valued resource for the courts and
defense counsel. The CBAs streamlined the vouchering process; not only were
interim vouchers processed more efficiently, “but changes to vouchers, when they
occur[ed], [were] understood more easily by counsel.”590 Judges reported feeling
“more confident in the changes they [made],” while attorneys had “a source they can
go to when they have questions about the changes made.”591 The Report found:

586

Id at v.
Kristine Fox, Case Budgeting Atty., 9th Cir., Public Hearing — San Francisco, Cal., Panel 1, Writ.
Test. at 3
588 Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.26 (as adopted JCUS-MAR 97, p. 23); and § 640.
The non-capital provision which defines a “mega-case” was amended in September 2015 to allow for
escalation in the threshold corresponding to increases in the panel attorney hourly rate, with the new
“mega-case” threshold being 300 attorney hours or total costs for attorney and service providers to
exceed $40,000. JCUS-SEP 15 at p. 16
589 FJC Case Budgeting Attorney Study at 2.
590 Id. at 34.
591 Id.
587

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-175

131

AR-2540

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 177 of 342 Page ID
#:27759
FINDINGS

Overall, the work of the CBA on district court voucher review is viewed
positively by both attorneys and judges. Attorneys see the work of the
CBA as making the process more efficient, leading to faster payment, and
giving them a resource in the review process. Judges see the work of the
CBA as making their review faster and easier, and giving them a resource
in the review process.592
The FJC estimated that CBAs saved the CJA program approximately $3.7 million
over two years, $2 million more than the program cost to implement.593 Not only did
they save money, CBAs implemented a budgeting system, provided internal controls to monitor spending, and maintained or improved the quality of representation
in the cases they helped manage.594 Judges and panel attorneys both “agreed that
budgeted cases are better managed and may actually result in better representation
of the client because budgeted cases are better planned.”595 In fact, cases that were
budgeted with the help of CBAs utilized “more resources (attorneys and service providers) than the non-budgeted cases, but at no higher cost.”596 In a defender system
plagued by low use of service providers (see Section 7), the CBAs had “a positive
effect on the awareness of resources available for the defense of CJA clients.”597 And
both judges and panel attorneys agreed that cases that are “thought through by
counsel at an earlier stage” result in “improved representation of the client.”598
Recognizing the importance of the program, all circuits except for one now
have CBAs.599 It should be noted that the success of the program results in large
part from the universal practice of hiring experienced and respected former
criminal defense attorneys as CBAs. Judge Gleeson, former DSC chair, told this
Committee, “Who occupies the position strikes me as really critical. We chose
a respected panel attorney.”600 Another judge testified that he “was so complimentary of the case budgeting attorney . . . because she was able to look at those
budgets across the board with her experience as defense counsel, not looking at it
through the eyes necessarily of a judge, but looking at it [as] what does an experienced defense counsel need.”601 Reviewing vouchers, a judge told the Committee,
592

Id. at 26.
Id. at vi.
594 Additionally, “72 percent of attorneys and judges said that the same amount of money could not
be saved without the CBAs.” Id. at vi.
595 Id. at 34.
596 Id. at 28.
597 Id. at vi.
598 Id. at. vi, 28.
599 The two circuits without a CBA are the 11th and D.C. The Ninth Circuit now has three CBAs. One
is paid from Circuit funds because the Circuit determined that its case load justifies the additional
position and experience has shown that the program assists both judges and panel members.
600 Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr. at 26.
601 Mag. Judge Paul Warner, D. Utah, Public Hearing — San Francisco, Cal., Panel 7, Tr. at 15.
593

132

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-176

AR-2541

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 178 of 342 Page ID
#:27760

is “a challenge for judges . . . because we do feel conflicted at times.” 602 Having a
CBA who help shape the case budget helped alleviate these concerns. The Ninth
Circuit Appellate Commissioner stated, “Once we have a budget, I feel very comfortable in approving interim payments as we go along.”603 One of the CBAs
explained, “[judges] relied on me because I came to the job with 28 years’ experience as a CJA attorney. I had done the practice and I was familiar with it.”604 Case
budgeting is an effective means to manage costs and improve quality of representation. Because judges and attorneys require help to efficiently implement budgeting coordinate resources and assist with case planning, CBAs have proven to be an
important asset to the CJA program.

•

602

Mag. Judge Carolyn Delaney, E.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr. at 11.
Peter Shaw, Appellate Commissioner, 9th Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr. at 7.
604 Jerry Tritz, Case Budgeting Attorney, 2nd Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr. at 13.
603

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-177

133

AR-2542

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 179 of 342 Page ID
#:27761
FINDINGS

Section 6: Circuit
Court Oversight
The CJA provides federal circuit courts significant authority over three different
aspects of the federal defense program: 1) approval of panel attorney vouchers and
ancillary service provider requests that exceed the case maximums;605 2) appointment
of federal public defenders and setting their compensation;606 and 3) approval of the
number of attorneys for federal public defender offices.607 There is widespread agreement among judges, circuit executives, federal public defenders, and panel attorneys
that the involvement of circuit courts in the federal public defense system is inconsistent, inefficient, and burdensome for judges.

6.1 Circuit Review of Panel Attorney Vouchers
and Ancillary Service Provider Requests
As discussed in the previous section, the CJA has established panel attorney compensation limits on non-capital felony cases.608 For a non-capital felony appointment, the case compensation maximum amount is statutorily set at $10,300 per
case.609 Compensation may exceed this amount only if the presiding district court
605

18 U.S.C. § 3006A(d)(2)–(3).
18 U.S.C. § 3006A(g)(2)(A).
607 18 U.S.C. § 3006A(g)(2)(A).
608 Guide to Judiciary Policy, Vol. 7A, Ch. 2, § 230.23.20. Case compensation limits do not apply to
expenses and the circuit has no role authorizing the payment of such expenses. Guide to Judiciary
Policy, Vol. 7A, Ch. 2, § 230.23.10(d).
609 18 U.S.C. § 3006A(d)(2); Guide to Judiciary Policy, Vol. 7A, Ch.2, § 230.23.20. This new, higher cap
became effective May 5, 2017. The Judicial Administration and Technical Amendments Act of 2008,
Pub. L. No. 110–406, amended the CJA to raise the compensation maximums “simultaneously” with
aggregate percentage increases in the maximum non-capital hourly compensation rate.
606

134

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-178

AR-2543

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 180 of 342 Page ID
#:27762

judge determines that the matter is “extended or complex” and that payment above
this statutory threshold is “necessary to provide fair compensation.”610 The chief
judge of the circuit — or another circuit judge who is delegated that authority — must
then approve the payment.611 The CJA also limits payments for service providers
to $2,500 per case612 and allows for payments in excess of this amount only with
approval from the circuit court. While district court review of vouchers presents
many problems, as described elsewhere in this report, there is even less rationale for
review by the circuit courts. District judges directly oversee criminal cases as they
move through pretrial proceedings and trial. Thus, the presiding district judge has
firsthand knowledge of the specific circumstances of each case and is better positioned to evaluate how much time and what resources are necessary to effectively
represent a particular defendant. By contrast, circuit judges are removed from the
day-to-day litigation in the trial courts and do not have sufficient familiarity with
individual cases to effectively evaluate attorney fee requests. As one case-budgeting
attorney said, “I have always wondered about why does the circuit need to sign off
on it. Did Congress not trust the district court judges? I don’t know what the reasoning was there, but the judges familiar with the case should have the most input
into the case.”613 Though it might be supposed that circuit assessment was intended
to provide an extra level of review to control costs, the most expensive cases, capital prosecutions, are not subject to that additional scrutiny. A federal defender
expressed similar bemusement, saying, “Why the circuit has any role in reviewing
the district court vouchers is beyond me. I thought it was an appeal, but it’s been
interpreted that they can’t increase the amount, they can only decrease, which
seems to me to make no sense.”614

6.1.1 Burdens on Judges Created by Circuit Review
Requirement
Few circuit judges have previously worked in federal criminal defense. One exception is Judge Luis Felipe Restrepo of the Third Circuit. He is a former federal
defender and CJA panel attorney. Judge Restrepo believes his experience with criminal defense work is essential to his ability to perform his role in reviewing excess
vouchers. He explained, “A lot of it is visceral, quite frankly. I was a CJA lawyer for
13 years. I know what these cases look like.”615 Still, Judge Restrepo agreed that “the
district court judge probably has a better idea as to what the case involved than
610

18 USC § 3006A(d)(3).
18 USC § 3006A(d)(3).
612 This cap also became effective May 5, 2017
613 Bob Ranz, Circuit Case Budgeting Atty., 6th Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr.,
at 12. The legislative history offers no explanation for circuit review.
614 A.J. Kramer, FPD, D.D.C, Public Hearing — Philadelphia, Pa., Panel 6, Tr., at 6.
615 Judge Luis Felipe Restrepo, 3d Cir., Public Hearing — Philadelphia, Pa., Panel 2a, Tr., at 5.
611

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-179

135

AR-2544

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 181 of 342 Page ID
#:27763
FINDINGS

anybody reviewing the voucher [at the circuit level].”616
Circuit judges commonly believe they are poorly positioned to evaluate vouchers. As the Ninth Circuit Appellate Commissioner reported, “None of [the circuit
judges] feel well equipped to do that. . . . [I]t seems irrational to give that kind of
auditing review to people at the top of the management level who don’t have any
prior experience, insight, into the details of the case. . . . I think I can freely say to you
that the unanimous view of the judges who’ve played that role in our circuit is that
they don’t want to do it and they don’t see the rationale.”617
Finally, circuit court review of excess vouchers creates additional work for district
as well as circuit judges. District judges must draft a document to the approving circuit judge describing the case and explaining in detail why the excess cost should be
approved.618 A chief district judge wrote, “The Circuit has encouraged judges to write
memorand[a] justifying the requested amounts, but with our extensive workload, it
is difficult to find the time to provide further justification . . . .[W]e request that the Ad
Hoc Committee recommend elimination of circuit court review of vouchers.” 619

6.1.2 Burdens on CJA Attorneys Created by Circuit Review
The current system also requires panel attorneys to expend “a substantial amount
of time” to try to justify vouchers in excess of the maximum, and that time is not
compensable.620 In the end, circuit review delays, sometimes significantly, payment of vouchers, and can result in substantial cuts to an attorney’s fees. One district CJA representative surveyed panel attorneys in his district about circuit review
and reported that, in the best case scenario, an attorney’s voucher is “found to be
reasonable” and is “paid anywhere from three months . . . to six months later” than
when the attorney would have otherwise been paid.621 Substantial testimony also
showed that some circuits regularly reduce fees with little or no justification.
CJA panel attorneys, many of whom are solo practitioners, often have difficulty absorbing the costs of extended delays of and reductions in payment.
Rather than wait for payment and risk cuts at the circuit level, some panel attorneys simply choose to not bill for otherwise reimbursable work in order to keep
the voucher below the amount requiring circuit court review. One district judge
told the Committee that when a CJA panel attorney in his district submits a
616

Id. at 10.
Peter Shaw, Appellate Comm’r, 9th Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr., at 17–18.
618 Bob Ranz, Circuit Case Budgeting Atty., 6th Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr.,
at 12; see also Guide to Judicary Policy, Vol. 7A, § 230.30(b)(2).
619 Chief Judge John R. Tunheim, D. Minn., Public Hearing — Minneapolis, Minn., Panel 6, Writ. Test.,
at 1.
620 Robert Richman, Board Member of Minn. Assoc. of Criminal Defense Lawyers, Public
Hearing — Minneapolis, Minn., Panel 4, Tr., at 24.
621 Mark Windsor, CJA Panel Atty., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Tr., at 6.

617

136

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-180

AR-2545

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 182 of 342 Page ID
#:27764

voucher requesting more than the case maximum, he sends the lawyer a letter
explaining, “I’m going to have to send this up for circuit review unless you just
want to take the statutory maximum.”622 According to that judge, “Most of the
time the lawyer will write back and say, ‘I’ll take the statutory maximum,’ and it
never goes up for review.”623 For many attorneys, remaining under the cap is “so
much easier . . . than trying to jump through all the hoops . . . and having to go to
the circuit judge.”624 Accordingly, panel attorneys testified that they frequently
“just absorb the cost.”625
Panel attorneys testified that it is sometimes difficult for them to zealously
represent their clients while continually weighing whether expenditures will be
viewed as reasonable and reimbursable by a reviewing circuit judge.626 As the
Federal Public Defender for the Districts of North Dakota and South Dakota
explained, it is “difficult to provide appropriate representation . . . if one of the
things going through the back of your mind is whether your voucher’s going to
be cut if the person goes to trial or you put the appropriate amount of time in to
handle the case.”627 Attorneys who must constantly make these types of calculations are not able to serve the “undivided interests” of their clients as the Sixth
Amendment requires.628
Testimony showed further that in some circuits voucher cutting is used
as an inappropriate cost-saving measure. For example, attorneys in the Eighth
Circuit frequently experience significant cuts to their vouchers.629 Of the 131
excess vouchers submitted to the circuit from the District of Nebraska between
December 2012 and May 2016, “thirty percent were cut at the chief judge level.”630 These cuts were made despite the fact that the presiding district judges
had concluded that the cases were “extended or complex” and that reimbursement was “necessary to provide fair compensation.”631 The circuit did not cut the
vouchers because it disagreed with the district judges’ findings of reasonableness. Rather, the circuit denied these attorneys full payment because the reviewing judge believes that “part of CJA representation should be a public service”
and that “no lawyer is entitled to full compensation for services for the public
622

Judge Leon Holmes, E.D. Ark., Public Hearing — Birmingham, Ala., Panel 1, Tr., at 25.
Id.
624 James Broccoletti, CJA Panel Atty. Dist. Rep. E.D. Va., Public Hearing — Philadelphia, Pa., Panel
4, Tr., at 29.
625 Id.
626 See, e.g., Robert Richman, CJA Panel Atty. D. Minn., Public Hearing — Minneapolis, Minn., Panel 4,
Tr., at 3.
627 Neil Fulton, FPD, D.N.D & D.S.D., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 3.
628 Polk Cty. v. Dodson, 454 U.S. 312, 318–19, (1981) (quoting Ferri v. Ackerman, 444 U.S. 193, 204 (1979)).
629 See Appendix F.
630 David Stickman, FPD, D. Neb., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 1.
631 18 U.S.C. § 3006A(d)(3).
623

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-181

137

AR-2546

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 183 of 342 Page ID
#:27765
FINDINGS

good.”632 Another federal defender in the circuit interpreted these measures as an
effort towards cost containment, saying, “We have a chief judge of the circuit who
cuts vouchers as a cost-cutting measure. He’s open about that.”633
The circuit’s involvement in approving excess vouchers and expert costs can
also diminish confidence in its appellate review. The Constitution requires that
defendants be provided with adequate funds to hire appropriate experts.634 This
constitutional command is all the more critical in capital cases. The case of United
States v. Snarr is illustrative.635 In Snarr, a capital defendant, having been convicted
and sentenced to death, argued that he was denied due process because the circuit’s
chief judge denied the funding request for a “Mexican cultural expert” who would
have presented mitigating information at sentencing, in part because she believed
that “it would be inappropriate for testimony to be adduced by either party characterizing the defendant according to his national origin.”636 In doing so, this chief
judge in effect supplanted the authority of the district judge to rule on the admissibility of evidence in a capital case, and did so as part of his voucher review responsibility and not as part of appellate review of the case.637 And when that defendant
appealed after conviction, the appellate panel was forced to consider whether the
chief judge’s action was correct and whether it was harmful. In the end, the panel
found the chief judge’s decision had not prejudiced the defendant because he had
been able to present some of this evidence through other witnesses.638
Giving the circuit both judicial and administrative functions has the potential
to undermine respect for the rule of law. The Snarr case highlights how having these
functions at the circuit level can lead to a situation which, at the very least, appears
to put the circuit court in the position of reviewing its own administrative decision
as a part of its judicial review.

632

David Stickman, FPD, D. Neb., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 25. In support
of these decisions, the former chief judge repeatedly cited In re Carlyle, which states that “CJA service
is first a professional responsibility, and no lawyer is entitled to full compensation for services for the
public good.” 644 F.3d 694, 699 (8th Cir. 2011).
633 Neil Fulton, FPD, D.N.D & D.S.D., Public Hearing — Minneapolis, Minn., Panel 2, FPDs Tr., at 2–3.
634 Ake v. Oklahoma, 470 U.S. 68 (1985).
635 704 F.3d 368 (5th Cir. 2013).
636 Snarr, 704 F.3d at 403.
637 Although the focus here is on the conflict of having circuit courts involved in approving funding
requests for cases which are being litigated in district court and then reviewing that decision on appeal,
this case also illustrates that the judicial role in authorizing experts can interfere with the defense
counsel’s ability to pursue a particular strategy in a case.
638 Id. at 405–406.

138

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-182

AR-2547

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 184 of 342 Page ID
#:27766

6.2 Appointment and Oversight of
Federal Public Defender Offices
Federal public defender639 offices across the country offer robust, efficient, and dedicated defense to their clients, and the delivery of that defense is typically free from
any direct judicial interference. However, testimony described judicial involvement
that diminished the independence of individual federal public defenders. Federal
public defenders were reticent to speak frankly with the Committee about this
interference. Nevertheless, defenders described effects of judicial control over their
offices, as well as actual judicial involvement in defender operations.

6.2.1 FPD Appointment and Reappointment Issues
The CJA provides circuit courts the authority to appoint the federal public defender
for each district within the circuit for a renewable four-year term.640 Similar to a
panel lawyer, the defender representing litigants before the court has their future job
status controlled by that same court. As one federal public defender explained, the
four-year renewal cycle can undermine the stability of defender offices:
Currently, when a Defender position is advertised, the circuit makes clear
that there is no presumption that the incumbent will be reappointed.
Presumably, this language is included to encourage qualified individuals to
apply for the position. The language, however, creates uncertainty over the
future direction of the office that has a potentially destabilizing impact.641
Not all circuits handle the reappointment process this way. In some circuits,
if an FPD seeks reappointment, the position is not advertised nor are additional
candidates sought. Instead, a reappointment committee is formed to evaluate the
current FPD’s performance. And although this is not as potentially disruptive to the
office as the uncertainty caused by the advertising of the head of the office’s position
every four years, it still can be unsettling for the organization.
The circuit court reappointment process can create the perception, whether
correct or not, that the judiciary has undue influence over the defense. While the
federal defender is appointed by the circuit, district court judges provide input on
selection and reappointment determinations.642 One federal public defender wrote
that the “selection of federal defenders by the circuit was meant to provide some
639

Federal public defenders are appointed by the circuit and are judicial employees, as opposed to
community defenders, who are appointed by an independent board of directors and are not judicial
employees. See 18 U.S.C. § 3006A(g)(2).
640 18 U.S.C. § 3006A(g)(2)(A).
641 Michael Caruso, FPD, S.D. Fla. Public Hearing — Miami, Fla., Panel 1, Writ. Test., at 6.
642 U.S.C. 18 § 3006A(g)(2)(A).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-183

139

AR-2548

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 185 of 342 Page ID
#:27767
FINDINGS

buffer between defenders and the district courts before whom they more routinely
appear. But defenders know, or at least perceive, that the circuit judges rely heavily on the comments from their colleagues on the district court bench.”643 This
arrangement may lead some federal public defenders to base their decision-making at least in part on the preferences of district court judges, rather than focusing
on what is best for their clients. One recently-appointed federal defender explained
this conflict as follows: “I can tell you as a new defender having to make decisions;
it’s there in your mind that the judges are the ones that have appointed you. Not
that you made any conscious decisions that way, but it’s there.”644
A former Deputy Assistant Director of the Defender Services Office told the
Committee that:
There is a certain pressure that comes from having a regular four-year
appointment that’s true for federal public defenders that doesn’t really
exist for community defender organizations. [Some judges] regularly
feed candidates to an office and say, I’d like you to hire these people,
insist on vetting assistant defender hires, [or tell defenders,] “I don’t
know that I want you providing representation in this class of cases
because it’s taking too long. It’s not as efficient.”645
The Committee also received private testimony about a federal public defender
whose refusal to allow circuit involvement in the office’s budgeting of capital cases
jeopardized the defender’s reappointment. Review of defender office litigation budgets is beyond the powers granted to the circuit court by the CJA. Heads of community defender organizations, by contrast, are insulated from this kind of pressure
because they are hired by the organization’s own independent board of directors.
The current structure creates conflicts between federal defenders’ self-interest
in reappointment and their ethical duty to provide effective and zealous representation to their clients. In most cases, circuit appointment of federal public defenders
does not significantly hinder the defense function. Nonetheless, in an adversarial
system, where judges are neutral arbiters, any actual or perceived control of the
defense function by the judiciary can undermine the legitimacy and effectiveness of
the criminal justice system as a whole.

6.2.2 Staffing Issues
Under the CJA, “The Federal Public Defender may appoint . . . full-time attorneys
in such number as may be approved by the court of appeals of the circuit.”646 As
643

David Patton, Exec. Dir., Federal Defenders of New York, E.D.N.Y. and S.D.N.Y., Public
Hearing — Philadelphia, Pa., Panel 3, Writ. Test., at 2–3.
644 Thomas Patton, FPD, C.D. Ill., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 13.
645 Steve Asin, Former Deputy Assistant Director, Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 30.
646 18 U.S.C. § 3006A(g)(2)(A).

140

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-184

AR-2549

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 186 of 342 Page ID
#:27768

part of the recent work measurement study conducted by the Policy and Strategic
Initiatives Division of the Human Resources Office (the staff within the AO that provide support to the Judicial Resources Committee), data collected from FPD offices
was used to create a work measurement formula that indicates how many staff were
needed for each office. The work measurement study showed that many of these
offices are currently understaffed. However, circuit courts retain ultimate staffing
authority over the number of assistant federal public defenders an FPDO can have.
According to one federal public defender, “The judiciary can now decide whether
my office grows, remains at its current level, or goes out of existence simply by
manipulating the number of appointments.”647
Some circuits have demonstrated an unwillingness to increase staffing levels
for offices that have requested additional attorneys. This has been true in some
instances where the staffing formula would provide an office with additional positions but the circuit will not approve requested assistant positions. This has led to
drastic disparities in staffing in different parts of the country.648 For example, in
recent years, the Fifth Circuit has been unreceptive to approving additional attorneys for FPD offices, even when those attorneys were needed to meet the offices’
growing caseloads.649 According to the former Deputy Assistant Director of the
Defender Services Office, federal public defenders in the Fifth Circuit historically did
not feel “comfortable in putting a request for attorney staff increases that they felt
that they needed to the circuit court of appeals because of reactions that it would
draw.”650 Federal public defenders expressed concern to the Committee that if they
asked the circuit for additional attorneys, “their job status would be impacted,” and
they might not be reappointed.651
Indeed, the former Federal Public Defender for the Northern District of Texas
described experiencing a “culture of no” shortly after assuming his appointment:
“Despite rising caseloads and the fact that the prior defender received assurances of
2 additional slots for AFPDs, the prior defender had not filled those spots for fear of
being looked upon as wasteful by the Fifth Circuit.”652 The Federal Public Defender
for the Southern District of Texas recounted a similar experience:
Throughout recent decades, we have had to make strenuous arguments to
justify an increase in the number of AFPD’s positions, and our arguments
have at times been at least partially unsuccessful. For example, when our
647

Bruce Eddy, FPD, W.D. Ark., Public Hearing — Birmingham, Alabama, Panel 6, Writ. Test., at 6.
Report of the Proceedings of the Judicial Conf., JCUS-SEP 15, p. 24-25.
649 See generally Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ.
Test.; Jason Hawkins, FPD, N.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test.; Marjorie
Meyers, FPD, S.D. Tex., Public Hearing — Birmingham, Ala., Panel 6, Writ. Test.
650 Steve Asin, Former Deputy Assistant Director, Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 30.
651 Id.
652 Richard Anderson, Former FPD, N.D. Tex., Public Hearing — Minneapolis, Minn., Writ. Test., at 3.
648

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-185

141

AR-2550

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 187 of 342 Page ID
#:27769
FINDINGS

caseload exploded in 2003, we requested 12 additional AFPD positions.
The Circuit approved only nine and required that they be filled over a
two-year period.653
In her view, the struggle to obtain the necessary number of attorneys to handle
the office’s workload “has had an impact on our effectiveness and on our morale.”654
While local conditions and practices sometimes create different staffing needs
across districts, the number of attorneys an office receives should not be determined
by the individual philosophies of the various circuit judges tasked with approving
attorney levels. Judges play no role in the selection of U.S. Attorneys and their staffs
or in CDO staffing, and the same independence should apply to federal public
defenders. A chief district judge who served on the Defender Services Committee
summed up this structural defect, observing, “I have great respect for my circuit
brethren,” but “I have some doubt about how they are in the best position to determine what the staffing level of any federal defender organization should be.”655

•

653

Marjorie Meyers, FPD, S.D. Tex., Public Hearing — Birmingham, Ala., Panel 6, Writ. Test., at 3.
Id.
655 Chief Judge Raner Collins, D. Ariz., Public Hearing — Santa Fe, N.M., Panel 1, Writ. Test., at 1.
654

142

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-186

AR-2551

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 188 of 342 Page ID
#:27770

Section 7: Quality of
Representation
The CJA program has been described as both the “gold standard” and the “jewel
in the crown” of public defense systems. It deserves this praise, especially when
compared to state systems which, seldom adequately funded, have been starved of
resources for years. The judiciary deserves much praise for insisting that representation under the CJA be provided consistent with the best practices of the profession
and for safeguarding and enabling the program’s growth. Yet despite these accomplishments, there is substantial evidence the Criminal Justice Act increasingly fails
to fulfill its aim of ensuring all defendants equal justice under the law.
Testimony reflected that federal criminal justice has become a three-tiered
system. This stratification exists not from lack of talent or commitment but rather
from lack of resources and independence. Resources and independence matter.
Without the resources necessary for effective representation (including an attorney’s
time) and the independence to act solely in the best interests of the client, an attorney cannot hope to provide quality representation.
From the standpoint of resources and independence, Assistant U.S. Attorneys
sit on the top tier. They call upon the extraordinary resources of the entire
Department of Justice and associated agencies that provide investigative and other
support. They have extensive opportunities to attend high-quality training — and are
paid their salaries while doing so. They are fully independent, able to pursue single-mindedly the best interests of their client, the United States.
On the second tier, federal defenders have less resources and sometimes less
independence, but they are specialists in federal criminal law who benefit from
institutional resources, support, and training — though never at the level of federal prosecutors. In general, assistant federal defenders are free to act solely in the
interests of their clients.
At the lowest tier are CJA panel attorneys. They most likely cannot devote

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-187

143

AR-2552

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 189 of 342 Page ID
#:27771
FINDINGS

themselves exclusively to federal criminal practice. As solo practitioners or members
of small firms, they have little or no institutional support. They receive inadequate
compensation which they must forgo to attend training. They depend upon the
judicial officer presiding over an individual case for any resources and even for their
own pay. While pursuing the best interests of their clients, panel attorneys must
keep one eye on the judge who holds the purse strings.
This system is segmented further by local variation. Some districts have established local plans that safeguard the independence of panel lawyers by diminishing or doing away with the role of the presiding judge in approving attorneys’ fees
and the use of ancillary service providers. Some of these same districts administer
their plan by CJA committees that manage selection to the panel, insulating the
lawyers further from the judges before whom they appear. These committees can
provide panel lawyers with meaningful access to decision-makers and due process
in voucher disputes. In these districts, panel attorneys, less constrained by lack of
resources and impediments to independence, function more like individual assistant federal defenders, diminishing the quality gap.
In other districts, judges maintain control over the selection, appointment,
and compensation of attorneys as well as authorization to use ancillary service
providers. Some districts impose informal, artificial limits on the work panel lawyers can do on behalf of their clients. Sometimes this is in the form of limits on fees
set well below statutory case maximums.656 Other times it is the discouragement, if
not outright bar, of payment for certain facets of a representation (see Section 5). In
such districts, both the independence and the effectiveness of panel lawyers can be
severely compromised.

7.1 Quality of Representation
by Panel Attorneys
Quality of representation by panel attorneys received both harsh criticism and
high praise. A private defense attorney, a former chair of the ABA’s Criminal
Justice Section and liaison to the Sentencing Commission, told the Committee
that from his perspective, panel attorneys “generally . . . are state court practitioners
who make a living on a high volume of cases. They’re willing to take the federal
court appointments because they’ll pay more . . . . They don’t have enough experience day in and day out with the federal sentencing guidelines to do an effective
job” representing clients.657
Stephen Bright, President of the Southern Center for Human Rights, told
656
657

144

LeRoy Percy, CJA Dist. Rep., N.D. Miss., Public Hearing — Birmingham, Ala., Panel 7, Writ. Test., at 1.
James Felman, Former CJA Panel Atty., M.D. Fla., Public Hearing — Miami, Fla., Panel 4, Tr., at 34.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-188

AR-2553

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 190 of 342 Page ID
#:27772

the Committee that the attorneys he knows on CJA panels are trying to get off the
panels and stop taking appointments. According to Mr. Bright, these attorneys were
trying to move into private practice “where they can make some money . . . . They’re
just practicing on the panel. As soon as they build up enough of a reputation, they’re
out of there. They’re going to go off and make some money somewhere. They’re sure
not going to make it doing court-appointed work.”658
Mr. Bright, who primarily works on death penalty cases, told the Committee
that in his experience with CJA panel attorneys representing defendants in capital
habeas cases, there were “a number of cases where the lawyers didn’t even realize
their clients were intellectually disabled because they didn’t spend enough time
with them. They talked to them so little that they didn’t even pick up on that. . . . You
get what you pay for as they say, and you’re not paying very much.”659
However, there were many panel members and federal defenders who disagreed with the generalized criticism about panel attorneys. One panel attorney said
that in his experience, “I could not more emphatically disagree with the statement
that the CJA lawyers are generally of poor quality. . . . Only the best of the best get
on the panel.”660 Another panel attorney testified, “I have to respectfully disagree
because I think we have the best attorneys in the district on our panel. They’re not
attorneys who do it because they need $129 or whatever it is. They do it because
they want to help indigent people.”661
Given conflicting testimony about the quality of representation provided by
panel attorneys, the reasonable conclusion to draw was best captured by a professor at the public hearing in Miami, who stated, “I think there’s a mix on the panels.”662 And there is a general consensus that the quality of representation provided
by panel lawyers is lower than that provided by federal defenders. This view is
supported by the results of surveys of judges. Though in these judges’ view, the gap
in quality between federal defenders and panel attorneys is closing, the panel still
rates consistently lower.663
In 2003, 93.3 percent of all judges reported that federal defenders in non-capital
representations were “very good” or “excellent,” whereas only 71.3 percent of judges
rated panel attorney quality in assigned CJA cases similarly.664 By 2008, 94.8 percent
of judges ranked the overall quality of federal defender representation as “very good”
or “excellent,” while 75.9 percent of judges ranked panel attorneys similarly.665
658

Stephen Bright, President, Southern Center for Human Rights, Public Hearing — Miami, Fla., Panel
4, Tr., at 32.
659 Id. at 33.
660 Juan Milanes, CJA Panel Atty., D.P.R. & E.D. Va., Public Hearing — Miami, Fla., Panel 4, Tr., at 34.
661 Sabrina Puglisi, CJA Panel Atty., S.D. Fla., Public Hearing — Miami, Fla., Panel 4, Tr., at 33.
662 Professor Ricardo Bascuas, U. of Miami School of Law, Public Hearing — Miami, Fla., Panel 4, Tr., at 33.
663 Westat Survey. See Appendix C: Survey Data Considered.
664 Id.
665 Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-189

145

AR-2554

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 191 of 342 Page ID
#:27773
FINDINGS

In the most recent study in 2015, 95.6 percent judges ranked overall non-capital federal defender representation as “very good” or “excellent,” and 80.9 percent of
judges gave panel attorneys high scores for providing quality representation.666 The
recent survey showed a higher percentage of judges ranking panel attorney quality of
representation as “very good” or “excellent” across all competency areas surveyed.667
Of course, these surveys must be considered with some caution. As discussed elsewhere, judges see only a small part of the representation, that which takes place in
court. And there is also the phenomenon revealed by surveys conducted during the
course of the Allen Committee’s study. In 1962 two editors from the Harvard Law
Review conducted their own research into the state of federal public defense.668 They
found that without institutional support or payment, assigned counsel’s role was limited, and most of these attorneys spent less than three hours of out-of-court preparation per client.669 Guilty pleas were prefaced only by “a hurried ten-minute conference in a corner of the courtroom.”670 Those who were assigned counsel received
young, inexperienced lawyers, “little versed in the technicalities of the criminal law
or the questioning of accused persons,” with “little if any courtroom experience.”671
Attorneys were reluctant to refuse a judge’s assignment to a case because “they might
later have to appear before [the judge] on an important matter.”672
Despite the negative conclusions the article came to about the system as a
whole, the majority of lawyers and judges interviewed found the ad hoc system
to provide “adequate” or “very adequate” representation.673 Perhaps because of
the low expectations of counsel for indigent defendants, or perhaps because those
within the system had limited perspective and exposure, 93 percent of lawyers and
judges believed that counsel performed sufficiently.674
That dynamic in which a system’s participants become blind to the system’s
defects is likely still a factor today.

7.1.1 Resources
Nearly all witnesses agreed that the lack of resources available to panel attorneys is one major source of disparity. As one defender stated, “[T]here is simply
666

Id.
Id. The greatest increase was 8.3 percent in competency of courtroom technology, followed by an
increase of 7.9 percent in knowledge/application of U.S. Sentencing Guidelines and case sentencing
law, and 7.1 percent increase in oral advocacy. See id.
668 Bruce J. Havighurst & Peter MacDougall, Note, The Representations of Indigent Criminal Defendants
in the Federal District Courts, 76 Harv. L. Rev. 579 (1963).
669 Id. at 588.
670 Id. at 589.
671 Id. at 596.
672 Id. at 591.
673 Id. at 588.
674 Id.
667

146

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-190

AR-2555

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 192 of 342 Page ID
#:27774

no comparison really in the resources available to our office versus the CJA panel
attorneys.”675 Because panel attorneys must first request resources and then wait
for approval, “There’s no question that there’s a delay in getting resources to the
panel attorneys.”676 One defender explained, “I’ve got ten investigators and paralegals in my office. When I have got a huge white collar fraud case, I’ve got an investigator that is an accountant and a certified fraud examiner. I just hand her the case.
There is simply no comparison really in the resources available to our office versus
the CJA panel attorneys.”677
Panel attorneys need these resources if they are not to be overwhelmed by the
government. As a panel attorney testified, “Every federal [government] case . . . is
going to come with an investigator, the case agent, sometimes two, who often is an
attorney or an accountant. The resources that they have are seemingly unlimited.”678
Witnesses agreed “that there is nothing even close to a level playing field between
the U.S. Attorney’s Office and a CJA panel member.”679 As a district judge explained,
after he became a judge, he could clearly see “the disparity of resources between
one side and another, and what a difference it makes in your ability to represent
your client. [I presided over] a criminal case, [and] you could see what unlimited
resources could do.”680
One panel attorney described the disparity in a recent case to which he had
been appointed,
The case was a mortgage fraud case that had been investigated for years.
I was appointed the lead defendant who was facing and received an
extremely long sentence. I just want to give you a feel for what it’s like
as a CJA panel attorney. Like many, I’m in practice by myself. When I
first met with the prosecution team, I met with four lawyers, two fulltime agents — one a Las Vegas Metropolitan Police Department financial
crimes expert and an FBI agent; they had a financial analyst, two or three
paralegals; and on the other side of the table was me.681
Another panel attorney described a challenge he confronted in a counter-terrorism case to which he was assigned:
I did a domestic terrorism case several years ago. My client was accused
675

Jason Hawkins, FPD, N.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 21.
Steve Wax, Legal Director, Oregon Innocence Project, Public Hearing — Portland, Or., Panel 1, Tr.,
at 24.
677 Jason Hawkins, FPD, N.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 21.
678 Mark Jones, CJA Panel Atty., M.D.N.C., Public Hearing — Miami, Fla., Panel 5, Tr., at 3.
679 Scott Dattan, CJA Panel Dist. Rep., D. Alaska, Public Hearing — San Francisco, Cal., Panel 3, Writ.
Test., at 2.
680 Daniel Scott, CJA Dist. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 14.
681 Daniel Albregts, CJA Dist. Rep., D. Nev., Public Hearing — San Francisco, Cal., Panel 4, Tr., at 2.
676

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-191

147

AR-2556

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 193 of 342 Page ID
#:27775
FINDINGS

of planning to blow up a federal building. One of the things that the
government did was they did a three-dimensional reconstruction, and
they had to provide me with the fees that were expended to this particular engineering firm to do this project. It was 40 grand. By the same
token, I was applying to the court to get, I think it was like $5,000, to get
my own expert to take a look at the incendiary devices that were going
to be used to see if, in fact, the amount of destruction was considered to
be a mass destruction case. I was struck by the total inconsistency of the
approach in that particular case.682
The Committee is concerned about both the perception and realization of
unfairness and the legitimacy of outcomes in federal criminal proceedings when
there are such clear disparities between the quality of representation and resources
the government can bring to bear in a case, as compared to the resources a defendant without financial means can access.
Many witnesses emphasized that the uneven resource allocation in our adversarial system makes the entire system unfair. As one witness stated,
I submit that the argument for parity is so simple and so obvious it’s
not hard to sell to the public or to funders. . . . Why parity in resources?
Because even a superior athlete is at a disadvantage if she has inferior
equipment. While for an athlete it may just be the loss of competition,
how can we disadvantage people who are facing decades of prison time
and even death? If you want a quality system, a fair system, the panel
system must be paid on a par with prosecutors, and it must have access
to similar resources.683
Some CJA panel attorneys expressed deep frustration over the disparity. One
panel attorney testified that in her district,
[I]f you look at the fact that 40 percent of the clients are being represented
by appointed counsel, CJA counsel, that’s a good percentage of people
who are getting funneled through the system and they are not getting
access to the services that the federal defender has and they should
not be deprived of those services just by luck of the draw. Our federal
defender is excellent; they are staffed with incredible attorneys. They
have incredible resources and they do a great job and I think that there’s
a consensus in Idaho that the CJA panel attorneys don’t match up to the
federal defenders for obvious reasons.684
682

Robert LeBell, CJA Dist. Rep., E.D. Wis., Public Hearing — Minneapolis, Minn., Panel 4, Tr., at 10.
Julia Leighton, General Counsel, Public Defender Service for D.C., Public Hearing — Minneapolis,
Minn., Panel 1, Tr., at 3.
684 Lori Nakaoka, CJA Panel Atty., D. Idaho, Public Hearing — Portland, Or., Panel 5, Tr., at 7.
683

148

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-192

AR-2557

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 194 of 342 Page ID
#:27776

Another panel attorney testified that when the public defenders try a case,
“there’s always two lawyers, there’s almost always a paralegal in the courtroom, as
well as an investigator, and if they need other staff they’re there as well. It’s unfortunate, I do everything I can on my appointed cases . . . but it’s almost inevitable that
there’s a disparity” when a defendant does not have the benefit of being represented
by a public defender.685
Finally, one panel attorney explained that panel attorneys simply want parity
with federal defenders in their ability to access resources to close the quality gap.
She told the Committee that she hoped what would come from this CJA review are
solutions “that free up CJA counsel, give us the resources that we want, give us the
ability to access them quickly like the federal defender has. Literally, I want what
they want, they have. I want the resources that the federal defender has.”686

7.1.2 Expert Service Providers
Disparity in resources, between the panel and government attorneys or between
the panel and federal defenders is most obvious when reviewing the use of experts
or other service providers. Testimony showed the extensive use of experts by the
government in the preparation and presentation of cases, from forensic experts
employed by federal law enforcement agencies687 to private psychiatrists and neuropsychologists, whose rates for their services are “substantially greater than what
would be approved under the CJA.”688 As a magistrate judge described his experience
as a former assistant U.S. attorney, “in my prosecutions, I always had a primary case
agent, and routinely supplemented his/her expertise with a financial analyst/accountant and other experts like medical doctors, chemists, finger print analysts, etc.”689
Service providers — whether investigators, paralegals, or discovery coordinators — are critical to effective representation. Investigators, for example, are
used by the government in every case and federal defenders in nearly every case.
Investigators “locate and interview potential witnesses, obtain copies of police
reports and criminal records of convictions, engage in background investigations of
potential witnesses, photograph crime scenes or areas relevant to criminal allegations, meet with the client and his family on certain issues,” among other valuable services.690 These are tasks required by every case that does not settle quickly.
This is true even when the government provides full discovery and even when that
685

Daniel Albregts, CJA Dist. Rep., D. Nev., Public Hearing — San Francisco, Cal., Panel 4, Tr., at 41.
Lori Nakaoka, CJA Panel Atty., D. Idaho, Public Hearing — Portland, Or., Panel 5, Tr., at 8.
687 Lynn Panagakos, CJA Dist. Rep., D. Haw., Public Hearing — San Francisco, Cal., Panel 4, Writ.
Test., at 3.
688 Joseph St. Amant (submitted via Judge Marcia Crone), Senior Appellate Conference Atty., 5th Cir.,
Public Hearing — Birmingham, Ala., Panel 1, Writ. Test., at 6.
689 Mag. Judge Charles Coody, M.D. Ala., Public Hearing — Brimingham, Ala., Writ. Test., at 2.
690 Mag. Judge William Matthewman, S.D. Fla., Public Hearing — Miami, Fla., Panel 3, Writ. Test., at 3.
686

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-193

149

AR-2558

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 195 of 342 Page ID
#:27777
FINDINGS

discovery seems to show that the client is clearly guilty. A panel lawyer’s story of an
arson case to which he was appointed illustrates this point vividly:
From the discovery, [my client] appeared culpable. Very culpable. I
instructed my investigator to interview every person named in the
discovery because the police reports were sketchy. I also kept asking
the prosecution for the interview of one named witness that was omitted from the discovery. My investigator eventually was able to contact
the omitted witness. He was an uninvolved passerby who confirmed
completely the defendant’s story that she was just standing there and
her companion broke the window, started the fire, and then told her,
“You’d better run.” The charges against her were dismissed, and she was
released from jail. In the aftermath, I laid in bed staring at the ceiling,
feeling I had narrowly avoided allowing a horrible injustice to occur.691
Assistance of other experts is essential in many cases. A panel attorney offered
the Committee a succinct explanation for expert use:
[First, they can] assist a lawyer in understanding the facts [of a case].
Second, an expert can help determine why a defendant acted as he
or she did . . . . Third, an expert may be instrumental in providing the
defense attorney information about the defendant that supports a
reduction in the charges or a lesser sentence because of the history and
characteristics of the defendant . . . . The bottom line is: using an investigator and expert more often than not makes a difference in the outcome
of the case. The prosecution is more likely to negotiate a reduction in
the charges or to agree to a lesser sentence or not oppose the defense
request for a lesser sentence.692
Experts are especially valuable at sentencing in the wake of the Supreme
Court’s decision in United States v. Booker.693 Now that the federal sentencing guidelines are advisory and not mandatory, “psychiatric or psychological experts may be
the only way to individualize the defendant, to demonstrate” that a sentence is sufficient but not greater than necessary, as required by 18 U.S.C. 3553(a).694
Furthermore, the “explosion in financial fraud and child pornography cases”695
has necessitated greater use of experts, including specialists in forensic computing,
forensic accounting, and mental health. However, the need for experts is not limited
to such cases; in securities fraud cases, experts are needed to analyze and interpret
691

Shaun McCrea, CJA Panel Atty., D. Or., Public Hearing — Portland, Or., Panel 4,Writ. Test. at 5–6.
Id. at 6–7.
693 543 U.S. 220 (2005).
694 Judge Nancy Gertner (ret.), D. Mass., Public Hearing — Philadelphia, Pa., Panel 2b, Writ. Test., at 4.
695 Michael Caruso, FPD, S.D. Fla., Public Hearing — Miami, Fla., Panel 1, Writ. Test., at 11.
692

150

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-194

AR-2559

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 196 of 342 Page ID
#:27778

market data;696 in national security cases, interpreters are needed to review discovery in foreign languages like Arabic, Pashto and Urdu; and in other cases, “emerging
technologies, including location-based tracking techniques such as GPS and cellsite tracking data, frequently require expert review.”697
FPDOs and CDOs typically have investigators on staff and rely upon their
services in most of their cases. In fact, in many federal defender offices, “every case
is staffed with a staff investigator.”698 Similarly, these offices usually have the funds
necessary to secure other expert assistance when needed.
Because panel attorneys must seek judicial approval for service providers and
experts, significant disparities exist in some districts between the number of cases in
which service providers and experts are used by panel attorneys, as compared to the
number of cases in which such services are employed by FDOs and CDOs.
Comparing the work of his office to the panel attorneys in the Northern
District of Texas, the Federal Public Defender noted that he “employ[s] ten investigators and paralegals on staff,” without which his colleagues “would find it
extremely difficult to represent clients.”699 Yet in fiscal year 2014, panel attorneys
in his district sought and secured service providers of any kind in only 4.5 percent
of their representations.
Similar disparities exist in other districts. The federal defender in the District of
Puerto Rico explained that while he had only twice as many cases as the panel, his
office spent ten times as much on expert and professional services. 700

Panel Attorneys’ Usage Rates of Service Providers —
U.S. District Courts in North Carolina, FYs 2013 and 2014
Districts in North Carolina

Average usage FY 2013

Average usage FY 2014

Eastern District

32 percent

40 percent

Middle District

4 percent

1 percent

Western District

2 percent

2 percent

Empirical data, which included three national surveys conducted by the
Westat research group701of judges, panel representatives and attorneys, public
defenders, and resource counsel, plus payment information from the system utilized by the AO before eVoucher,702 show a low rate of expert usage by panel attorneys. Data from the payment system in fiscal years 2011–2014 showed that across
696
697
698
699
700
701
702

Id.
Id.
Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 3.
Jason Hawkins, FPD, N.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 6.
Eric Vos, FPD, D.P.R., Public Hearing — Miami, Fla., Panel 1, Writ. Test., at 5.
Westat Survey. See Appendix C: Survey Data Considered
Information drawn from 6x payment system provided to the Committee. See Appendix G.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-195

151

AR-2560

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 197 of 342 Page ID
#:27779
FINDINGS

the country CJA panel attorneys on average used service providers in only 14 to 15
percent of their cases.703 During this same period, utilization of such services in
several districts was as low as one percent.704 The highest use was 53 percent for
one district in only one fiscal year.705 This compares to federal defenders who told
the Committee that they use service providers in all of their cases.

Over the last five years, in what percentage of your cases have you sought
permission of the court to engage a service provider (e.g., investigator, paralegal
or other expert*) in a non-capital case?

Percent of cases in which requests were made

Less than
5%

43.13%
17.27%

5-10%

11.27%

11-20%
21-30%

7.34%

31-40%

4.42%

41-50%

4.82%

More than
50%

11.76%
0%     10%     20%     30%     40%     50%

*Interpreters/translators are not included in this question.

The Committee reviewed data about panel attorneys’ utilization of service
providers in non-capital, non-immigration matters. Over the course of the last
three fiscal years, the district with the highest rate of use was the Middle District of
Tennessee, where CJA lawyers employed a service provider in just under half of all
representations. By contrast, panel attorneys in the Southern District of Alabama
employed a service provider in two percent of representations. The Northern District
of Mississippi reported the very same two percent rate of usage, and the Southern
District of Georgia and the Western District of Arkansas showed similar data.
Within a state, districts vary in usage rates and average payments. In one state,
each of three districts had widely varying uses of experts, ranging from a high in one
district of 40 percent to a low of 1 percent in the neighboring district.706
The Committee conducted its own survey of panel attorneys to learn more
about their usage of service providers. The results from those surveys are consistent
703

Id. Data does not include service providers in capital cases, immigration cases, or interpreters.
Id.
705 Id.
706 Id.
704

152

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-196

AR-2561

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 198 of 342 Page ID
#:27780

with other evidence on expert use by panel attorneys. As the table above indicates, sixty percent of lawyers in the Committee’s survey said that they employ a
service provider less than ten percent of the time. In fact, fewer than 12 percent
of panel attorneys have requested a service provider in a majority of their cases.
When asked why they do not seek service providers, almost 84 percent of responding panel attorneys said that most of their cases do not include issues that warrant
assistance. These responses are provided in the following table. At hearings, panel
attorneys offered similar explanations, but the responses stand in contrast to the
practice of federal and community defenders, who regularly employ permanent
investigators and paralegals in their cases and who testified to the importance and
value of such assistance.

If you have not sought to engage a service provider in a non-capital case,
why is this so?
There weren’t issues that would
warrant assistance

83.37%

I preferred to handle
the matter myself

23.44%

I was not familiar with
appropriate service providers

6.81%

There aren’t available service
providers in my area

3.12%

I was unaware of the process to
engage a service provider

5.37%

I thought it would too greatly
reveal case strategy

4.04%

The process to seek permission
is too cumbersome

16.58%

The process to obtain reimbursement
is too time-consuming

11.92%

A case budgeting attorney
recommended against it

0.61%

A public defender
recommended against it.

0.26%

I thought the court would
deny the request

8.85%

I thought the court might fail to
appoint me in future cases

3.63%
11.11%

Other
0%

10%

20%

30%

40%

50%

60%

70%

80%

90%

100%

Some panel attorneys indicated that they prefer to handle the issue themselves
and conduct their own investigations in lieu of employing an investigator. Panel
attorneys also offered this explanation at the Committee’s hearings. One public

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-197

153

AR-2562

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 199 of 342 Page ID
#:27781
FINDINGS

defender explained that there are financial incentives for panel lawyers to complete
the investigation themselves:
[For] the majority of the panel attorneys . . . their sole source of income
is what they earn off of appointments. If they can do the work themselves and bill out that two, three, or four hours then they get money they
otherwise would not. . . . It appears that what they’re wanting to do is to
try to maximize the amount of money they can earn on each case, and
one of the ways they try to do that is not ask for experts but rather do it
themselves707
The Committee also heard other explanations for the low rate of service providers. In rural areas, such as the Dakotas, Wyoming, and New Mexico, it was reported
that particular types of experts are in short supply, making it “difficult to engage them
on appropriate cases due to schedule, physical proximity, and conflicts with their
other obligations.”708 Nationally, some panel attorneys explained that they rely on
investigators and expert assistance provided by the FDO when assisting a client whose
co-defendant is represented by the public defender. Others testified that they can
obtain the same information as an investigator through other means and at a lower
price. As one federal defender explained, though all cases can benefit from an investigator, in illegal re-entry cases one of the key issues is the defendant’s “prior convictions, which you can get on a computer,” thus saving the cost of an investigator.709
These explanations do not fully account for the low rates at which panel attorneys use experts. Some witnesses believed the phenomenon was explained by the
differing cultures of districts. Rates of expert usage show systematic, geographic
differences, reflective of what one district judge called “a matter of court culture
and what people expect.”710 “I think most of it is culture,” a federal defender told the
Committee, and further noted, “I think most people are solo practitioners, come out
of state court where they just don’t use experts much. I think all cases can benefit
from experts.”711 A judge echoed this point, testifying that “notwithstanding that this
topic is covered in educational seminars, CJA panel attorney members simply may
not be aware of the variety of investigative and expert services for which compensation is available under the CJA.”712 Or, as a federal defender, testified:
I think it’s also that [panel attorneys have] not used experts in the past.
They don’t know how to work with one, they don’t know what type of

707
708
709
710
711
712

154

Bruce Eddy, FPD, W.D. Ark., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 26.
Neil Fulton, FPD, D.S.D. & D.N.D., Public Hearing — Minneapolis, Minn., Panel 2, Writ. Test., at 5.
Marjorie Meyers, FPD, S.D. Tex., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 36.
Chief Judge Catherine Blake, D. Md., Public Hearing — Philadelphia, Pa., Panel 1, Tr., at 24.
Marjorie Meyers, FPD, S.D. Tex., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 36.
Mag. Judge Charles Coody, M.D. Ala., Public Hearing — Birmingham, Ala., Writ. Test., at 2.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-198

AR-2563

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 200 of 342 Page ID
#:27782

information to give them. They don’t know the advantages that an expert
can bring to your case whether you’re going to trial or whether it’s mitigation for sentencing expert. They just don’t know how to take the information that an expert can bring them and then what to do with it. I think
there’s a lot of that, they’re just uncomfortable. They’ve never used them,
don’t know how to use them.713
Comparing her district to another district where panel attorneys regularly
employ paralegals, a panel representative explained the attorneys don’t feel “entitled
to use a paralegal in every case. It’s a cultural thing, and I think that maybe we don’t
have strong leadership in the CJA community. We are kind of on our own, and we
look to our judges for what we are thinking is the appropriate use of resources.”714 In
another district, a panel attorney identified culture and lack of institutional support as
a problem as well: “We’ve got a good panel, but there is timidity. Those same people
are timid about applying for experts and investigators . . . we’ve got to change the culture.”715 However, there is currently no support to change that culture, the attorney
explained. “In our area, our neck of the woods so to speak, we have a community
federal offender organization. Good people, really talented lawyers as well, but they
operate as kind of a private law firm separate and apart from us, the panel.”716
These cultural explanations carry some weight, but like the reasons offered
by panel lawyers in response to the Committee’s survey, they are not a full explanation. Ultimately, it is clear that requiring judicial approval of expert services
requests deters some attorneys from seeking necessary assistance. Multiple panel
lawyers testified about the “chilling effect”717 the current approval process has, in
addition to it being a “time-consuming [and] cumbersome procedure that goes
uncompensated for the lawyers.”718
Attorneys may also find themselves in an unpleasant negotiation with the
presiding judge on the expert fees. As a panel representative in one such district
described her experience:
Routinely, when I request an expert and I say, “Look. I’ve talked to the
expert. This is what they charge. This is how many hours I think I’m
going to need. This is the amount I’m asking for,” I’m not approved for
713

Bruce Eddy, FPD, W.D. Ark., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 35.
Lori Nakaoka, CJA Panel Atty., D. Idaho, Public Hearing — Portland, Or., Panel 5, Tr., at 40–41.
715 Edward Hunt, CJA Panel Atty., E.D. Wis., Public Hearing — Minneapolis, Minn., Panel 4, Tr., at 22–23.
716 Id. at 23.
717 Lori Nakaoka, CJA Panel Atty., D. Idaho, Public Hearing — Portland, Or., Panel 5, Tr., at 41.
718 As an attorney explained, “Most panel lawyers are small firm or solo practitioners, so they must
rely on the court to fund the extraordinary expenses of the case. The time they must spend to file
motions and memoranda and attend hearings to justify obtaining necessary defense resources . . . on
investigators, experts, translators, forensic accountants, paralegals, document management, technical
aid and the like, is often excessive and intrusive.” Rochelle Reback, Former CJA Panel Atty., M.D. Fla.,
Public Hearing — Miami, Fla., Panel 5, Writ. Test., at 6–7.
714

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-199

155

AR-2564

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 201 of 342 Page ID
#:27783
FINDINGS

the amount I’m asking for. I’m just trying to think . . . if there’s been an
explanation or if it’s just been the judge crossing the amount out and
just saying, “I’m just going to give you $2500 right now.” Then I had to go
back several times.”719
If multiple experts are required, the attorney will have to repeat this process
multiple times, on each occasion disclosing information concerning the proposed
defense.720 In addition, attorneys sometimes face requests from the judge presiding
over the case to seek a reduced rate from the selected expert. Multiple lawyers spoke
of the challenge of recruiting “qualified experts willing to handle CJA appointments
at hourly rates which are non-competitive in the private sector.”721
As one panel attorney noted, ultimately, “judicial involvement in management
of resources can negatively impact the quality of our representation,”722 creating the
current disparity between CJA panel attorneys and federal defenders. Another panel
attorney was emphatic in stating that judicial review of expert requests entrenches
resource disparities and unfairness:
There is categorically, from my perspective as a defense lawyer, no reasonable, logical, ethical, lawful explanation why there should be a distinction between the defense function and the prosecution function. There is
no reason why as defense lawyers we should have to go to the judiciary
and basically be beholden to their largess . . . The prosecution doesn’t go
through these machinations. We should not have to. It certainly impacts
on the quality of representation.723

7.1.3 Attorney Effort
The low use of expert services by panel attorneys is the most visible disparity in
resources between panel lawyers, federal defenders, and government attorneys.
But limits on the time panel attorneys can devote to a representation are even
more critical. The ways in which judicial management of panel lawyers’ compensation serves to limit attorney effort are discussed fully in Section 5 on compensation. They include the refusal to pay for categories of work, bench marks for how
much a type of case should cost, and “pro bono” voucher cuts. In these and many
719

Jennifer Horwitz, CJA Dist. Rep., W.D. Wash., Public Hearing — Portland, Or., Panel 5, Tr., at 41.
The maximum compensation for investigative, expert, and other services without prior
authorization is $800. See 7 Guide to Judiciary Policy § 310.20.30 (2013).
721 Gilbert Schaffnit, CJA Dist. Rep., N.D. Fla., Public Hearing — Miami, Fla., Panel 6, Writ. Test., at 6.
For example, as a panel lawyer told the Committee, “the approved rate for a forensic accountant is
$150 per hour. However, the ‘going’ rate charged by a forensic account is approximately $270 [per hour]
for a partner, $185 for a manager, and $140 for an associate.” David Eisenberg, CJA Dist. Rep., D. Ariz.,
Public Hearing — Santa Fe, N.M., Panel 6, Writ. Test., at 4.
722 Lori Nakaoka, CJA Panel Atty., D. Idaho, Public Hearing — Portland, Or., Panel 5, Tr., at 41.
723 Robert LeBell, CJA Dist. Rep., E.D. Wis., Public Hearing — Minneapolis, Minn., Panel 4, Tr., at 3.
720

156

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-200

AR-2565

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 202 of 342 Page ID
#:27784

other ways discussed there, the CJA discourages panel attorneys from doing all they
can do for their clients, or indeed all federal defenders do for theirs. As one federal
defender told the Committee, “[T]here is a disparity of the representation . . . [that]
is not because we don’t have excellent attorneys on our panel, because we do. But
my office, the lawyers in my office, the investigators, the paralegals, they are permitted to do more for their clients than the panel is permitted to do in my district.”724
This dynamic exists even when judges impose no specific limitations on representational services, and it is the primary source of disparity. A case budgeting attorney put the disparity in stark terms when he testified before the Committee, stating:
“I would venture a guess that to the best of my knowledge, AUSA’s have never been
told, ‘Prosecute this case as cheaply as you can,’ which is, although it might not be
as blunt as that, that is pretty much what a CJA attorney is given to understand.”725
Quality legal work requires time. When attorneys are told, directly or indirectly,
that they should not spend time traveling to meet with witnesses, meeting with their
clients, or reviewing discovery, the quality of their work will be reduced. When an
attorney must constantly be concerned with what a judge would consider reasonable, it can affect her professional judgment and the quality of her work.

7.1.4 Institutional Support
Compared with federal defenders or federal prosecutors, panel attorneys are at a disadvantage because they lack institutional support. One panel attorney spoke about
the ability of federal defenders to easily converse with colleagues and use more
experienced attorneys in their office as resources. Most panel attorneys are sole
practitioners or members of small firms and cannot easily access this type of collective knowledge. As a witness explained, “[W]hat you do have in a federal defenders
system is a solidarity that is critical in this criminal defense work of being able to go
next door and talk to someone who is an expert . . . it is really vital to . . . effective and
adequate representation and you don’t have that . . . in the panel.”726
The benefits of being part of a cadre of skilled federal criminal practitioners could be replicated for the sole practitioner panel attorney. Many federal
defender offices are able to act as resources for panel attorneys. Their own colleagues may also be willing and able to do so. But the CJA, as currently administered, discourages such collaborative work or brainstorming: most judges will not
allow compensation for time spent in these activities.727 And as discussed in the
Compensation section, the hourly rate is already so inadequate that it discourages
724

Hilary Potashner, FPD, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr., at 24.
Bob Ranz, Circuit Case Budgeting Atty., 6th Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr., at 2.
726 Professor Barbara Creel, Law & Indigenous Peoples Program, U. of New Mexico, Public
Hearing — Santa Fe, N.M., Panel 4, Tr., at 34.
727 See Rochelle Reback, Former CJA Panel Atty., M.D. Fla., Public Hearing — Miami, Fla., Panel 5, Tr.,
at 23; Jessica Salvini, CJA Panel Atty., D.S.C., Public Hearing — Miami, Fla., Panel 4, Tr., at 12–15.
725

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-201

157

AR-2566

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 203 of 342 Page ID
#:27785
FINDINGS

panel attorneys from embarking on any work that will not be compensated.
Ironically, it is possible that providing compensation for these activities would
save the taxpayer money. This is true of both brainstorming specific issues relevant to particular cases as well as more general discussion of legal issues relevant
to criminal practice. By consulting with colleagues who can point them toward
precedent, or transcripts, or even knowledge of a particular judge’s views of a
subject, federal defenders save time by avoiding dead ends and quickly locating useful resources. Federal defenders are able to spot and cull issues, to know
whether to pursue a line of legal or factual investigation, or having decided to
pursue it, where to begin. Panel attorneys, were they freer to consult with federal
defenders and their colleagues, could reap some of these same benefits.

7.1.5 Expertise
Federal defenders are experts in federal criminal law because they do nothing else.
In many districts, panel lawyers receive only a few appointments each year, often
not enough to maintain proficiency in federal defense, and almost never enough to
make a living. They must devote a substantial portion of their energies to areas other
than federal criminal defense. Even in those districts where there are a large number
of appointments in a given year, panel lawyers are often advised they should not
make the CJA their entire practice. More than 90 percent of all federal defendants
have appointed counsel. Some of the remainder who hire counsel will rely upon the
white-collar crime practice groups of large firms. Therefore, the typical panel lawyer
cannot devote herself solely to the practice of federal criminal defense. She is disadvantaged in comparison to both federal defenders and prosecutors.

7.1.6 Compensation
The CJA’s low rate of payment for attorney work diminishes the quality of representation provided. It drives some of the best attorneys out of panel work. As one
panel attorney testified, “More importantly, it is my opinion and the opinion of
some others that what we are experiencing right now in [the district] is the loss of an
entire generation of our best and brightest panel attorneys.”728 A circuit court judge
told the Committee, “We do lose people. We do lose a lot of good people to the rate
system.”729 While a district court judge testified, “I can only hope and pray that you
guys are going to raise the rates so that we can keep our panel at the same quality.”730 A panel attorney in Boston told the Committee that qualified attorneys are
leaving his panel for financial reasons. As he explained, “The economics of doing
728

Mark Windsor, CJA Panel Atty., C.D. Cal., Public Hearing — San Francisco, Cal., Panel 3, Tr., at 7.
Judge Luis Restrepo, 3rd. Cir., Public Hearing — Philadelphia, Pa., Panel 2a, Tr., at 12.
730 Mag. Judge Cheryl Pollack, E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 2b, Tr., at 28.
729

158

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-202

AR-2567

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 204 of 342 Page ID
#:27786

this in Boston are pretty tough . . . . We’re willing to take certain things that we have
to do to do the work we love, but at a certain point, some people, that maybe have
better financial sense than I do, take a walk. And the quality of representation is
going to go down if that starts to happen.”731
In addition, low pay, and the possibility of voucher cuts, leads some CJA attorneys to plead their clients guilty as quickly as possible. One panel attorney said,
“[T]here are, and . . . not saying everybody, and certainly not in every case, but there
are attorneys that want to shut down that case fast. There was a nickname we used
to have for them in courthouse coffee shops, that they were ‘V6ers.’ They were walking violations of the Sixth Amendment.”732

7.1.7 Independence
The sine qua non of effective representation is independence. An attorney must
be able to exercise professional judgment in pursuing the best interests of the client.733 If this pursuit is hindered by self-interest or other concerns, quality will suffer.
The section on Compensation discusses various ways in which judicial control of
appointment and compensation directly compromise an attorney’s independence,
her ability to act solely on behalf of the client. The concerns described there are not
theoretical or abstract. An example shows the direct effect on a lawyer’s judgment
this judicial control can have:
I ran into a recusal issue in a state case where, through investigation I
learned that the judge and the prosecutor had some kind of a very close
relationship. It was an open secret in the community, but no one had
ever filed a recusal motion. I said, “Why didn’t you file a recusal motion?”
The answer from every one of the very good, talented lawyers in that
town were, “If I file that motion, I can’t work here anymore.” I did not live
in that town, that was the only case I had, I was able to file that recusal
motion, and we got through that motion, and that judge was recused.734
In a similar vein, a federal defender described how judicial approval of panel
attorney expert requests can compromise their independent judgment. She testified
that panel attorneys in her district learn quickly that asking for resources can get an
attorney removed from the panel. She said that all it takes is for a single panel attorney to request an expert or service provider once or twice,
731

Mark Shea, CJA Panel Atty., D. Mass., Public Hearing — Philadelphia, Pa., Panel 4, Tr., at 26.
Edward Hunt, CJA Panel Atty., E.D. Wis., Public Hearing — Minneapolis, Minn., Panel 4, Tr., at 22.
733 “[P]artisan advocacy on both sides of a case will best promote the ultimate objective that the guilty
be convicted and the innocent go free.” United States v. Cronic, 466 U.S. 648, 655 (1984)
(quoting Herring v. New York, 422 U.S. 853, 862 (1975)).
734 George Kendall, Director, Public Service Initiative, Squire Patton Boggs, Public
Hearing — Minneapolis, Minn., Panel 3, Tr., at 6.
732

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-203

159

AR-2568

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 205 of 342 Page ID
#:27787
FINDINGS

to be told no and then it’s review time and a judge says, ‘Oh that person
always wants A, B, C, or D.’ Then all of a sudden that person is no longer
on the panel. That sends a very loud message and . . . you can bet that
requests for assistance will drop off immediately because the message is
very clear.735
These attorneys forgo expert requests for their clients because their independence has been compromised by self-interest. The quality of representation, and
their clients, suffer.
As the Executive Director for the Sixth Amendment Project pointed out, this is
a logical result of the current system. “Judicially-controlled indigent defense systems
often follow or adjust to the needs of each judge in each court, rather than focusing
on providing constitutionally effective services to each and every defendant. Fearing
the loss of income by not pleasing the judge overseeing their compensation,” panel
attorneys will tend to construct a defense strategy around a judge rather than a
client. 736 The lack of independence accorded CJA panel attorneys can adversely
affect the quality of representation they provide, and undermine the intent and purpose of the CJA. As the director of the Sixth Amendment Center explained, without
necessary independence, “[d]efense attorneys simply bring into their calculations
what they think they need to do to garner favor with the judge, thereby not advocating solely in the interests of the clients, as is their ethical duty. Such practices stand
in contrast with Sixth Amendment case law.”737

7.1.8 The Importance of Training
Both panel attorneys and federal defenders identified insufficient training of panel
attorneys as a cause of the quality gap between defenders and the panel. A panel
attorney told the Committee that, “there is truly a disparity between defenders and
CJA, and that disparity comes in training.”738 A federal defender agreed, testifying
that, “I think a lot of the deficiencies in the panel is not for lack of ability, or lack of
energy, but simply lack of knowledge.”739
Training cannot remedy deficits of independence or resources, but it is critical
to improving and maintaining lawyers’ expertise. The Prado Committee recognized
that attorneys need access to high quality training if they are to provide representation consistent with the best practices of the profession and recommended that:
735

Deborah Williams, FPD, S.D. Oh., Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 18.
David Carroll, Executive Director, Sixth Amendment Center, Public Hearing — Minneapolis, Minn.,
Live Stream, Tr., at 1.
737 Id.
738 Melanie Morgan, CJA Dist. Rep., D. Kan. & W.D. Mo., Public Hearing — Santa Fe, N.M., Panel 5, Tr.,
at 13.
739 Frederick T. Heblich, Jr., FPD, W.D. Va., Public Hearing — Philadelphia, Pa., Panel 6, Tr., at 12.
736

160

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-204

AR-2569

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 206 of 342 Page ID
#:27788

“The Criminal Justice Act should be amended to require the CJA’s national administrative entity to provide on-going training in federal law and practice, on a par
with that provided to the prosecutors, to attorneys supplying service pursuant to
the CJA.”740 The need for training is as great today as it was in 1993. The National
Association of Criminal Defense Attorneys’ president explained why: “Indigent
defense counsel must have the requisite expertise to provide representation consistent with the best practices in the legal profession. . . . [F]ederal criminal defense has
just become too complicated, too specialized. The lawyers that handle those cases
should have expertise and training in that area of the law. . . . [T]raining must be
comprehensive, ongoing, and readily available.”741
Heeding the Prado Committee’s recommendation, the Defender Services
Office has created a dedicated Training Branch to organize training events for both
federal defenders and CJA panel attorneys. It sponsors national and regional trainings on a broad range of topics relevant to federal criminal practice. Panel attorneys and federal defenders praised the Training Branch’s efforts. The regional and
national training programs sponsored by the Training Branch were valued particularly for the opportunity they provide to learn from colleagues around the nation.
Now years later looking back, I think that the national conferences are
absolutely essential to the success of this program because what happens
is that the lawyers get together and find a common ground with their
experiences. Lawyers in smaller districts get good ideas from lawyers from
the big city districts, and the lawyers from the big city districts get good
ideas from the lawyers from the smaller districts. The beneficiary of it of
this is the people we represent, and the improvement of the program.
That kind of exchange would never take place if we didn’t at least get
together once a year to discuss the issues that we confront.742
A federal defender emphasized the importance of having national training
events. She told the Committee, “I think there’s a real benefit both for CJA lawyers
and for federal defender staff to go to national trainings and to interact with their
counterparts from other areas. We just learned so much from what’s happening in
other districts, things that you might not think about in the culture of your district.”743
National and regional training serves as an antidote to parochialism. Attorneys
not exposed to practices from other areas may be unable to recognize the limitations of their approaches to federal criminal defense. In the experience of a former
federal defender, “every district believes that it’s doing a good job. Every judge, every
740

Prado Report at 56.
E. Gerry Morris, President, National Assoc. of Criminal Defense Lawyers, Public Hearing — Santa
Fe, N.M., Panel 4, Tr., at 9.
742 Anthony Ricco, CJA Dist. Rep., E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 9.
743 Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 15.
741

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-205

161

AR-2570

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 207 of 342 Page ID
#:27789
FINDINGS

defender thinks, wow, the way we do it is really the way it should be done . . . . My
perception however is that those variations include a tremendous disparity in the
quality of the representation that’s provided” from district to district.744
NACDL and the National Legal Aid and Defender Association also sponsor national and regional training that could improve the quality of panel lawyers’
work. But these programs can be costly. A defender explained, “There are offerings
through NACDL and other organizations that require membership that cost a lot
more money for the panel members, even for defenders when I want to send my
staff to a NACDL, program, if they’re not members our cost is higher as well.”745
As useful as national and regional programs are, they cannot fully meet the
panel’s need for more training. The Committee was told by a defender that “[t]he
[DSO] training division does a wonderful job, they always get great reviews; however, panel lawyers have a hard time closing up shop and traveling across the country or regionally for several days.”746 Most panel attorneys are solo practitioners who
operate their own practices. As one panel attorney observed, “I think it is often difficult for solo or small firm attorneys who are on the panel to attend some of the out
of state CLEs.”747 For panel attorneys from rural areas, the problem is greater still. A
defender told the Committee, that especially in these rural districts, travel to attend
regional training programs takes longer and is more expensive. She testified,
It is a financial burden on them. . . . We have many lawyers who could benefit from those programs but because of the costs and the time and the
fact that they are solo practitioners in these largely rural areas it creates a
huge burden on them to be able to receive the training.748
A panel attorney who practices in a rural district agreed that even regional
training was difficult to attend. She told the Committee, “It is estimated that each
regional CLE credit costs approximately $75 per credit, which requires [additional]
time, airfare, and hotel expense and meals. Moreover, the CJA attorney is not able to
bill while attending training.”749 The community defender from Montana explained
that, while he thinks there are very good training opportunities through his office, “I
would like [CJA attorneys] to attend the really great programs put on by the defender
services training branch. Those can cost somebody from Montana about a thousand
dollars to go to, more than that, even though the tuition is free.”750 A panel attorney

744

Steve Wax, Legal Director, Oregon Innocence Project, Public Hearing — Portland, Or., Panel 1, Tr., at 6.
Lisa Freeland, FPD, W.D. Pa., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 15.
746 Elizabeth Ford, Executive Director, CDO, E.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6,
Tr., at 24.
747 Phillip Sapien, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 10.
748 Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 16.
749 Amy Sirignano, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 11–12.
750 Wendy Holton, CJA Panel Atty., D. Mont., Public Hearing — Portland, Or., Panel 4, Tr., at 7.
745

162

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-206

AR-2571

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 208 of 342 Page ID
#:27790

from Montana explained that the geography of the state also affects training opportunities: “We have a huge district, we have one division, the Billings division is actually larger than 24 states, so it’s hard for us to get around to each of the offices, and
get our panel together and train them.”751 Another federal defender in a largely rural
district told the Committee that it is difficult to get the panel attorneys the “training
that they need to learn how to get and use resources to assist their clients. So that is
something that we are working on as putting together a bank of resources they can
use that the judges would approve payments for, so that they can do a better job
representing their clients.”752
In light of these realities, providing local training programs for the panel
is critically important. Witnesses agreed, “We need to expand the local training
opportunities” to give panel attorneys more opportunities to attend.753 As a panel
attorney explained,
I have to pay to go to those [regional and national] trainings. I have to
pay for the hotel when I go to those trainings. I have to take time away
from my cases and not bill on my cases when I go to those trainings. Most
people don’t go to those trainings because they just simply can’t afford to
take the time away and simply financially afford to go to those trainings.
Number one, I think that training should be localized where possible.754
Because DSO lacks the current capacity to sponsor the large number of local
events needed to adequately train panels in 94 districts, the job falls to federal
defender organizations. DSO’s Training Branch supports these efforts, but it lacks
sufficient funding and personnel to provide needed training directly or to supply
the level of support defenders require to meet the need for panel training. Federal
defenders put considerable effort into local training programs. One federal
defender explained:
I felt a responsibility to build a stronger alliance between our office and
the CJA panel. We did that in several ways but we expanded the training
we offered greatly. Last year we offered forty hours of CLE that my office
sponsored and presented. We have a second chair program, a mentoring
program where young lawyers who don’t have the experience can come
in and go through this year long program. The judges like that very much
because there is some basis, there is some qualification before someone
gets the panel. This has proven effective in the quality.755
751

Tony Gallagher, CDO, D. Mont., Public Hearing — Portland, Or., Panel 6, Tr., at 18.
Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 2.
753 Phillip Sapien, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 10.
754 Jessica Hedges, CJA Board Chair, D. Mass., Public Hearing — Phildelphia, Pa., Panel 9, Tr., at 19.
755 Melody Brannon, FPD, D. Kan., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 17.
752

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-207

163

AR-2572

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 209 of 342 Page ID
#:27791
FINDINGS

Another defender stated that for his office, “part of our mission was to raise
the quality of representation in our district . . . . When we give the yearly training, we
don’t just invite CJA panel members, we invite all lawyers in our district to attend
who may want to attend; it’s free.”756
Many defenders’ efforts were highly praised. One panel attorney who practiced
in two districts told the Committee that the “CLE programs that are offered by the
federal public defender service in both districts: outstanding.”757 Another panel attorney stated, “Our federal defender office, it seems like every couple of weeks we have
a CLE over at the federal defenders office that the vast majority of panel attorneys
attend, and most of the assistant federal defenders themselves attend.”758 A defender
described how his office hosts “monthly lunch and learns, monthly round tables, we
have a list-serve that the panel developed now that’s busy every day . . . The interaction, we regularly take calls and visits and so it’s really like one big office to a large
extent.”759 In another district, attorneys can satisfy CLE requirements for panel membership by attending the federal defender’s one-hour monthly CLE training session.760
Defenders sometimes find their best efforts to be inadequate. For example,
in some rural districts, panel lawyers find it difficult to attend even local training
A federal defender from a rural district described the problem: “[I]t is very difficult to reach out to the panel and train them in any sort of meaningful way. We use
a website. We use mailings. We have a protected forum on our website to answer
questions. We field phone calls on a daily basis.” 761 Still, the defender reported that
neither she nor the judges felt the CJA attorneys were receiving adequate training.762
And the training defenders provide can vary from district to district. Where
FDOs do not provide training the quality of representation in their districts will
suffer. A panel attorney urged that more needed to be done to ensure “consistent
training. You can’t have one district that has fabulous seminars and then another
district down the road has no seminars, nor can you depend on just brown bag [discussions] . . . . It’s got to be something better than that.”763
And even in the best of circumstances, defenders cannot hope to provide
training equivalent to that available to federal prosecutors. Government attorneys
have access to a permanent training institution, the National Advocacy Center, or
the NAC, and receive training regularly to promote a high quality of lawyering. One
federal defender observed, “The U.S. Attorneys are forever going to the NAC, and
756
757
758
759
760
761
762
763

164

Carlos Williams, FPD, S.D. Ala., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 19.
Juan Milanes, CJA Panel Atty., D.P.R. & E.D. Va., Public Hearing — Miami, Fla., Panel 4, Tr., at 9.
Matthew McHenry, CJA Panel Atty., D. Or., Public Hearing — Portland, Or., Panel 2, Tr., at 41.
Henry Martin, FPD, M.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 25.
Mag. Judge Michael Putnam, N.D. Ala., Public Hearing — Birmingham, Ala., Panel 1, Tr., at 7–8.
Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 1.
Id. at 1–2.
Edward Hunt, CJA Panel Atty., E.D. Wis., Public Hearing — Minneapolis, Minn., Panel 4, Tr., at 34.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-208

AR-2573

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 210 of 342 Page ID
#:27792

forever going to training. ”764 In fact, defenders do not have this level of institutional
support for their own training.
As essential as defenders’ training efforts are, going forward, FDOs may find
it more difficult to provide the panel with necessary training. Upon being given
responsibility for defender staffing and compensation, the Judicial Resources
Committee created defender staffing formulas. These formulas do not provide additional personnel to defenders for their efforts to train the panel. Rather, these formulas consider only defenders’ work on cases in determining how many employees
an office is allowed. For ethical reasons, defenders must prioritize representation of
their own clients over training CJA panel lawyers. Because DSO’s Training Branch
lacks the capacity to provide training at the local level, quality of representation by
panel lawyers is likely to suffer.
Training attorneys inexperienced in federal practice to join the panel requires
more extensive efforts. As discussed in our diversity section, almost 60 percent of
panel attorneys report being 50 years of age or older. Fewer than 12 percent of panel
attorneys are younger than 40. Unless younger attorneys can be brought into the
program, it will face a crisis in the coming years. To recruit and train new attorneys
for their panel, districts have taken a variety of approaches. The most aggressive
approach taken is the creation of mentorship programs to help attorneys acquire the
experience necessary to effectively represent CJA clients. Mentees not yet qualified
to be members of the panel work under the supervision of either federal defenders
or experienced CJA attorneys.765 In the most successful of these programs, some
compensation is offered to mentees.766 The length of the mentorship and its particular requirements vary from district to district. For a fuller discussion of these programs see diversity Section 8. As one judge observed, where new attorneys, “have
the talent but they don’t have the experience, I think mentorship is one way to do
that and try to build that into the system.”767

7.2 The Quality of Representation
Provided By Federal and
Community Public Defenders
There are 81 defender offices operating in 91 of the 94 federal districts. Only three
764

Frederick T. Heblich, Jr., FPD, W.D. Va., Public Hearing — Philadelphia, Pa., Panel 6, Tr., at 12.
Andrew Skier, CJA Dist. Rep., N.D. Ala., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 21–22.
Mag. Judge Kelly Rankin noted though, that panel attorneys “have to first get permission from the trial
court, the court that’s assigned to the case” to bring on a mentor. Mag. Judge Kelly Rankin, D. Wyo.,
Public Hearing — Portland Or., Panel 3, Tr., at 14.
766 John Convery, CJA Dist. Rep., W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 6, Tr., at 33.
767 Chief Judge Christina Armijo, D.N.M., Public Hearing — Santa Fe, N.M., Panel 1, Tr., at 16.
765

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-209

165

AR-2574

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 211 of 342 Page ID
#:27793
FINDINGS

districts do not have a defender office — the Southern District of Georgia, the
Eastern District of Kentucky, and the District of the Northern Mariana Islands.
Sixty-four of these offices are Federal Public Defender Offices (FPDOs) and 17 are
Community Defender Offices (CDOs). The CJA empowers district courts to determine whether a district will have a defender office and, if so, whether it will be a
CDO or an FPDO.768 In addition, the court has authority to close an office or convert
it to either an FPDO or CDO with approval from the circuit’s judicial council.769

Federal Public Defender Offices
FPDOs are federal government entities within the judicial branch. Federal Public
Defenders are appointed by the court of appeals for a term of four years and may
be reappointed for an unlimited number of four-year terms. The circuit sets the
defender’s salary at a rate not greater than that of the U.S. Attorney in that district.
Federal Public Defenders hire their own staff, but the circuit determines the number
of assistant federal defenders they may employ.

Community Defender Offices
CDOs are non-profit legal services organizations incorporated under the laws of the
state in which they reside and operating under the supervision of a board of directors. These are not federal government offices. CDOs are funded similarly to FPDOs,
but receive their funding as grants. The executive director of a CDO is employed
under the conditions and terms determined by the board. The executive director
hires staff subject to the same formulas that govern Federal Public Defenders. These
offices are subject to state employment protections and regulations, state corporate
and non-profit law, and local tax laws.
CDO executive directors and judges from districts with CDOs testified that
their defender offices had greater independence. Judge Gleeson argued, “They
should all be CDOs in my view. I respectfully disagree with the comments made
yesterday by one of our brother judges . . . who suggested that CDOs are not more
independent. They’re more independent. They’re appointed, the executive directors
are appointed by a board.”770 A circuit judge agreed, “If I had to endorse a model, I
would probably endorse the community-based federal defender that is completely
independent of the Circuit.”771 He preferred the CDO model, “for the simple reason
that I think that it’s really important that the defender office be and be seen as independent from the judiciary. I think that’s critically important in dealing with our
clients I think it’s critically important as the public looks at the way that the criminal

768

18 U.S.C. § 3006A(g)(2) (2012).
Id. § 3006A(a).
770 Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr., at 33.
771 Judge Luis Restrepo, 3rd. Cir., Public Hearing — Philadelphia, Pa., Panel 2a, Tr., at 3–4.
769

166

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-210

AR-2575

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 212 of 342 Page ID
#:27794

justice system functions.”772 While a CDO director said that he and his office interact
regularly with the judiciary on issues involving the court, cases, or attorney performance, the district judges do not engage with the office on “the inner workings and
management of my office, or the structure of my office. That lies with my board.”773
The independence of a CDO is limited by the power of the district court to
change its local CJA plan and convert the CDO to an FPDO or dissolve it entirely.
Vesting this authority in district courts was criticized. One federal public defender
observed, “Having elected which type of defender office a jurisdiction will have,
I think then the judiciary has to step away. Otherwise, its motives for wanting
to change the structure really will be called into question, even if it’s the best
motives.”774 Another defender, the head of a CDO, stated,
I think it is a problem that it’s placed on the judges to have that responsibility. If a judge thinks a US Attorney’s office is not doing a good job, they
have ways of communicating that or participating in some discussion
about that, but they don’t have the ability to fire the US Attorney. And I
don’t think the corollary power should exist.775
Federal public defender offices are also subject to conversion or dissolution.
And, as described in the Section 6 on circuit oversight, their independence is further
constrained by the circuit’s power to appoint and reappoint the defender and to
decide the number of assistant federal defenders. These impingements on institutional defenders’ independence are threats to the quality of representation in the
same manner as limitations on panel lawyers’ independence.
Federal defender offices have also struggled with problems of inadequate
resources. Providing quality representation requires resources, the most critical
of which is the attorney’s time. As the work measurement study conducted by the
Judicial Resources Committee showed, defenders have been chronically understaffed. The degree varied by district and circuit. But in some districts, the distance
between staffing needed and that available was large.
Despite limitations of both independence and resources, FDOs are generally
believed to provide the highest quality of representation. They are rated as good or
excellent by close to 96 percent of judges who responded to the surveys discussed
above.776 Panel attorneys also believe that federal defenders provide their clients
772

Judge Restrepo went on to say “Anecdotally, the other defenders from the circuit that are appointed
by the circuit, I’ve never heard a complaint, but I do like the concept of the independence that the
defender in the Eastern District has.” Judge Luis Restrepo, 3rd. Cir., Public Hearing — Philadelphia, Pa.,
Panel 2a, Tr., at 4.
773 Leigh Skipper, Executive Director, CDO, E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 37.
774 Marianne Mariano, FPD, W.D.N.Y, Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 38.
775 David Patton, Executive Director, Federal Defenders of New York, S.D.N.Y & E.D.N.Y, Public
Hearing — Philadelphia, Pa., Panel 3, Tr., at 40.
776 Westat Survey. See Appendix C: Survey Data Considered.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-211

167

AR-2576

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 213 of 342 Page ID
#:27795
FINDINGS

representation of the highest quality while improving the overall quality of defense
in a district. One panel attorney told the Committee that the primary reason the CJA
program has been,
so spectacularly effective is that we’ve managed to put a defender in
[nearly] every district in the country. A defender who receives enough
money to do their job and to do it well . . . what’s happened in the
smaller districts I think over the last ten or fifteen years, what’s happened is that it’s raised the bar in the district. The Judges now see what
competent counsel on the defense side is, and they are starting to
expect it from all of their lawyers.777
Defender offices enhance the quality of representation by modeling best
practices and demonstrating the importance of access to resources. They can
also improve the panel by assisting in its management, answering questions from
panel attorneys, supplying guidance regarding the use of service providers, and
providing training for panel attorneys. As one defender testified, “I don’t think you
can discount the importance of the relationship of the defender office as setting
a standard, hopefully with consistent representation that all the panel members
will see.” 778 The defender emphasized that his office offers panel attorneys training and personal assistance and advice, which are required necessities, “especially
as the federal criminal practice has become increasingly far more technical and
littered with land mines.”779
By contrast, in districts without defender organizations, quality suffers. The
defender from the Northern District of Georgia testified that in the Southern
District, which does not have a defender office, “they have bankruptcy lawyers
representing bank robbers who have no idea what is going on, and what the rules
are and how to implement the rules, how to even do the most basic things.”780 This
defender went on to explain that, while her office fields calls from panel attorneys in
the Southern District, it’s “a whole different ballgame there and we are not as familiar with the judges in that district as we are with our own. So, they are at a disadvantage and their clients are placed at an enormous, enormous disadvantage.”781
This system produces grievous consequences for clients appointed these attorneys. A panel attorney described an insurance attorney who decided to start taking
CJA panel cases, was assigned to represent a client facing a potential life sentence,
and then was proud, “he plead[ed] out his client to a life sentence.”782 Resource
777
778
779
780
781
782

168

Daniel Scott, CJA Dist. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 4.
Louis Allen, FPD, M.D.N.C., Public Hearing — Miami, Fla., Panel 1, Tr., at 7.
Id.
Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 13.
Id.
Amy Lee Copeland, CJA Panel Atty., S.D. Ga., Public Hearing — Miami, Fla., Panel 5, Tr., at 9.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-212

AR-2577

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 214 of 342 Page ID
#:27796

counsel for the Southern District of Georgia echoed the same sentiments. He testified that quality “[r]epresentation in our district falls to those lucky enough to
maybe get somebody competent. . . . There’s no review as to whether or not you stay
on the panel or whether you’re competent. There’s just no criteria.”783 He testified
further that there is,
the absolute need in my district for a federal public defender . . . to counterbalance an extremely professional United States Attorney’s Office. . . . We
average about 600 indictments a year over the last five years in the district.
Of those 600, 45 on average a year were multi defendant cases. That leaves
somewhere in the neighborhood of 550 individual defendants that probably could have been represented by a federal public defender office. The
vast majority of those individuals would have received far better service
with a dedicated federal public defender office.784
Although FDOs provide high quality representation, several defenders spoke
of a need to guard against blindness to their own deficiencies and to enhance the
quality of representation by instituting standards for FDO representation. A working
group of defenders and panel attorneys organized by the Defender Service Office
has adopted performance guidelines based on those developed by the National
Legal Aid and Defender Association. However, with no independent defense body
to carry out evaluations, these guidelines are not enforced or monitored.785 A community defender told the Committee that while defender offices value their independence, “I also don’t think it’s a bad thing to have some accountability to a group
that is solely focused on quality representation. I think it’s a much more difficult
dynamic when the supervision is by the judiciary that doesn’t have that as its main
mission. . . . I would much prefer that it come from a governing body whose sole mission is quality representation.”786
Another federal defender agreed, telling the Committee that some kind of
national defense center could assist in raising standards among defender offices: “I
think that we should look at ourselves. We think we’re doing great, we [get] some
good feedback, but everything isn’t great everywhere.” 787 He opined, if the CJA program was placed within a structure dedicated to the same mission as the defender
offices, “a national center would elevate everybody.”788 Expounding on the benefits such a center could produce, the same federal defender said, “[I]f we had a CJA
783

Steve Beauvais, Resource Counsel, S.D. Ga., Public Hearing — Miami, Fla., Panel 6, Tr., at 4.
Id.
785 Carlos Williams, FPD, S.D. Ala., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 24.
786 David Patton, Executive Director, Federal Defenders of New York, S.D.N.Y & E.D.N.Y, Public
Hearing — Philadelphia, Pa., Panel 3, Tr., at 16.
787 James Wade, FPD, M.D. Pa., Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 33.
788 Id. at 17.
784

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-213

169

AR-2578

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 215 of 342 Page ID
#:27797
FINDINGS

center [it could be] spreading ideas maybe we should be looking at.”789 Panel members also offered support for these ideas, “the federal defenders performance standards, and have a baseline [for] best practices for our panel members, the quality of
representation would definitely go up.”790

7.3 Additional Issues that Affect
the Quality of Representation
Three additional issues that affect the quality of representation are 1) access to interpreters, 2) remote detention, and 3) the challenges associated with representing Native
American defendants. These issues are not mutually exclusive, and when they overlap, even greater difficulties confront defense attorneys, especially CJA panel attorneys.
While the Committee is unable to adequately address these issues within the scope
of this study, the testimony establishes these are problems that must be addressed to
improve the quality of defense services provided in federal criminal cases.

7.3.1 Ability to Retain Interpreters
Many attorneys testified about their need for interpreters to effectively communicate with their clients, even when the attorney has some ability to speak the client’s
language. Many attorneys who speak the defendant’s language understand how
important it is to have an interpreter, lest “something gets missed in terms of translation of a plea agreement or something.”791 As one panel attorney explained,
[T]here are Spanish speakers and then there are real Spanish speakers . . . . I can carry on a conversation. I can understand things. They understand me. But when you start explaining to them what are their available
paths, what are the particular nuances of evidence that exist against them,
explaining to them these federal sentencing guidelines . . . explaining
adjustments, explaining offender characteristics, explaining the § 3553(a)
factors and variant sentences and grounds for it. I believe you really have
to have someone that is a real Spanish speaker with you.792
A federal defender testified that having an interpreter is paramount. Referring
to bilingual attorneys, he said, “I just wonder with some of them the level of their
expertise and I always feel more comfortable if they’re using a certified interpreter because I have no way of knowing otherwise whether the accuracy of the
789

Id. at 33.
Amy Sirignano, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 27.
791 Phillip Sapien, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 20.
792 Richard Esper, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 6.
790

170

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-214

AR-2579

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 216 of 342 Page ID
#:27798

interpretation is good or acceptable.”793
While an interpreter is fundamental to ensuring the accurate and meaningful exchange of information, panel attorneys reported that they often have difficulty obtaining the funding for them from the court and/or finding interpreters to
hire. A panel attorney who practices in two districts explained that in one district,
“Non-Spanish speaking panel attorneys must provide their own interpreters and
cannot bill the court for this expense.”794 In the other, contract interpreters certified
by the court are provided as a matter of course in all cases where the defendant
is a non-English speaker and panel attorneys are not required to seek approval or
request funding for interpreter services.795 Noting this fundamental difference she
opined, “I believe this is a service that should be provided without question. Having
a trained professional adequately and accurately explain the complex legal process
is a necessary component of indigent defense and effective representation.”796
A panel attorney stated “I take my own interpreter, but again, that’s an
expenditure that I think can be covered under the Criminal Justice Act.”797 He
explained that he and other panel attorneys fear judges will not understand how
necessary a trained interpreter is when the attorney can speak conversational
Spanish. “I know a lot of lawyers who are afraid to ask for that because you are
going to get a voucher cut, number one, and number two, you are going to be
questioned about, wait a minute, you are a Spanish speaker, what’s the problem
here? Why do you need an interpreter?”798
Other panel attorneys reported difficulties even finding interpreters to assist
them, either because of the low compensation rate or a shortage of qualified interpreters. One panel attorney stated, “I had difficulty on occasion finding a contract
interpreter that was willing to do it for the CJA rate.”799 Another panel attorney who
practices in Alabama testified about the lack of federally certified interpreters in a
three-state area, “. . . there’s three in Georgia and I think two in Tennessee. There’s
none in Alabama . . .”800 The defender for the Dakotas testified that in his rural districts, his staff defenders and panel attorneys had difficulty obtaining interpreters.
He testified, “One of the biggest problems we run into is availability of interpreters.
Generally there is, for example, in Fargo, one interpreter who is relied on and the
793

David Stickman, FPD, D. Neb., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 34.
Cori Harbour-Valdez, CJA Panel Atty., W.D. Tex. & D.N.M., Public Hearing — Santa Fe, N.M., Panel
5, Writ. Test., at 3.
795 Id.
796 Id.
797 Richard Esper, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 6.
798 Id. at 7.
799 Phillip Sapien, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 41.
800 Ken Gomany, CJA Panel Atty., N.D. Ala., Public Hearing — Birmingham, Ala., Panel 4, Tr., at 33.
Mr. Gomany also told the Committee that certified interpreters are expensive to retain, and said, “I
understand certified interpreters, they have like a three percent pass rate.” Id. at 9. However, because of
the expense, it makes the cap on service providers very difficult to acquire their services.

794

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-215

171

AR-2580

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 217 of 342 Page ID
#:27799
FINDINGS

court uses them as well, so we run into massive scheduling problems.”801
Remote detention of defendants located long distances from their attorneys can also compound this problem. A panel attorney who also practices in the
Dakotas testified that when clients are detained remotely, “[t]here are no interpreters there, so I have got to try and convince one of our interpreters, who is usually
a . . . person that is doing this on a very part-time basis, that they should take an
entire day off, travel with me to this remote jail and interpret for maybe an hour.” 802
Additionally, panel attorneys have to balance their need for other experts or service providers for their cases, when considering whether to seek funding for an
interpreter. The $800 limitation applicable to experts and other service providers,
without judicial approval, is the “aggregate for the whole case,” so if an interpreter
is hired, that could easily deplete the entire service provider allowance.803
The need for interpreters also intersects with the difficulties defense attorneys
face when appointed to cases with Native American clients. Seeking to bridge this
gap, the University of New Mexico has created a program to train in basic court
procedures individuals who will function as interpreters for indigenous language
speakers.804 A district judge testified that Arizona faces similar difficulties with
indigenous language interpretation. She stated, “[W]e have so many dialects that
come through . . . a trial that I have in December [requires] a Ch’ol interpreter, who
only happens to speak Spanish herself, so it’s going to be a problem with English to
Spanish to Ch’ol and then Ch’ol to Spanish to English.”805
Finally, witnesses explained that judges have been reluctant to pay for interpreter services when a panel attorney has the prosecution’s translation.
An example would be the denial of a request for an interpreter to review taped
phone calls when the government has already had their own interpreter translate them. A key function of the defense is the independent investigation of the
evidence disclosed by the government. Should a key phrase in the transcription
be wrong, the entire defense could be compromised. While common sense
would seem to suggest it is duplicative work for the defense to conduct their
own investigation, it actually is a dereliction of our duty to do any less.806
All of these issues affect a criminal defendant’s right to receive effective assistance of counsel under the CJA.

801

Neil Fulton, FPD, D.S.D. & D.N.D., Public Hearing — Minneapolis, Minn., Panel 2, Writ. Test., at 34.
Alexander Reichert, CJA Dist. Rep., D.N.D., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 11.
803 Natalie Harmon, CJA Administrator, FPDO, W.D. Wash., Public Hearing — Philadelphia, Pa., Panel
4, Tr., at 28.
804 Chief Judge Christina Armijo, D.N.M., Public Hearing — Santa Fe, N.M., Panel 1, Tr., at 6.
805 Chief Judge Raner Collins, D. Ariz., Public Hearing — Santa Fe, N.M., Panel 1, Tr., at 8.
806 Kathy Nester, FPD, D. Utah, Public Hearing — Portland, Or., Panel 6, Additional Writ. Test., “Report
to the Cardone Committee from the District of Utah” at 2–3.
802

172

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-216

AR-2581

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 218 of 342 Page ID
#:27800

7.3.2 Remote Detention of Defendants
Districts or divisions of districts comprised of large rural areas make client representation more difficult for federal defenders and panel attorneys.807 A district judge in
the Western District of Texas explained,
The biggest issue we have, and one that makes us unique, is that the Pecos
Division is larger in land area (30,445 square miles) than 11 states; it is half
as large as 31 states and larger than 60 judicial districts, as well as having
a 500 mile border with Mexico. This is one division, not a district. The distances within the division create serious obstacles for litigants, participants
and the overall due process in the federal court. The only means of travel is
by motor vehicle over large stretches of highway. . . . Defendants are kept in
several county jails spread across the division.808
When clients are detained in remote locations, meeting with them can be expensive, time consuming, and physically demanding for defense counsel. One panel
attorney from Montana explained the hardship created by remote detention this way:
At this time of year, we can have really bad roads and the daytime hours
are short. I really, at this time of year, cannot make that trip and spend
some time with my client and get home in a day. I don’t think it’s safe. In
the summer, I’ll do it. I can’t do it in the winter. That’s an eight-hour round
trip, so just in windshield time, that’s more than a thousand dollars. If I
have other travel costs, which I do, getting a hotel, food, mileage, that’s
probably twelve to thirteen hundred dollars for just a trip to Shelby.809
When clients are detained long distances from their attorneys, local court
rules can make reviewing discovery more onerous. As a panel attorney explained ,
“ . . . [W]e have a rule, a local rule that when a document is designated sensitive material then it can only be reviewed in the presence of counsel. We can’t give it to the
client for him to review so . . . I got to drive 500 miles to see this guy.”810 This “windshield time” can add up quickly, especially in multi-defendant cases. For example, in a
case with sixty-two defendants, approximately thirty were represented by CJA counsel
807

The difficulty caused by having clients remotely detained can be compounded by technology
and discovery issues. A panel attorney told the Committee, “The problem that I see repeatedly, as
far as remote detention, is when there is a protective order regarding discovery . . . . all materials are
sent on CD, and each jail has its own process for dissemination of that information, or access to it,
and invariably there are problems, my clients don’t have nowhere near enough time to access the
information in a case where there’s volumes and volumes of material. If there could be some plan
that’s consistent from jail to jail to ensure that our clients have the same access to the discovery that
we do, that they should have.” Robert LeBell, CJA Dist. Rep., E.D. Wis., Public Hearing — Minneapolis,
Minn., Panel 4, Tr., at 21. For more on this issue please see Section 8 on e-discovery.
808 Judge Rob Junell, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 1, Writ. Test., at 1.
809 Wendy Holton, CJA Panel Atty., D. Mont., Public Hearing — Portland, Or., Panel 4, Tr., at 5.
810 Palmer Hoovestal, CJA Panel Atty., D. Mont., Public Hearing — Portland, Or., Panel 5, Tr., at 12.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-217

173

AR-2582

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 219 of 342 Page ID
#:27801
FINDINGS

and detained in facilities that were a five to seven hour round trip from where the lawyers were located. The federal defender told the Committee, “[Y]ou can imagine the
cost for CJA counsel . . . to go visit their clients. You figure a seven hour trip at even $100
an hour and time to sit down and visit with a client that’s about $1000 a trip. At thirty
counsel, that’s $30,000 for the lawyers to see their clients once.”811
As one panel attorney stated, “Finding ways to house our clients nearer to
us would cut CJA bills dramatically and would help engender more effective representation.”812 Other solutions that might address the challenges resulting from
remote detention also pose their own problems. For example, federal defenders and
panel attorneys voiced concern about instituting video conferencing to reduce the
need for travel. A district judge explained that in her district, “We have instituted
something which I am not sure is successful or not, but our community defender
organization . . . and our probation office have each set up video conferencing abilities . . . with at least some of our detention centers.” 813 The judge admitted, however,
that while some things could be accomplished by video conference, it was probably
not adequate to protect the attorney-client privilege. 814 The judge acknowledged,
“I think it’s a very poor substitute for meeting with the individual and certainly, a
number of CJA attorneys have said they can’t build up the trust with their client by
meeting with them over video, and I think that’s absolutely right. I don’t have any
good solutions for that.”815 A federal defender voiced similar concerns, saying that
he was personally opposed to video conferencing, stating, “Maybe at some point in
the future that might be a way to help out, but it’s fraught with problems right now,
both technological and with personal issues as well . . . we have so many different
facilities that it’s just not really a good option for us.”816
In some districts, federal defenders and U.S. Marshals have worked together
to reduce travel and increase the opportunities for attorney-client contact. While
this may not be possible in every district, some districts are taking steps to address
remote detention, by having the various stakeholders meet to discuss alternatives
that could save money and also improve services provided under the CJA.817
Because remote detention is a complicated and multifaceted issue, in 2008
a Remote Detention Ad Hoc Group was created to address these difficulties.818
811

Andrea George, Exec. Dir., CDO, E.D. Wash. & D. Idaho, Public Hearing — Portland, Or., Panel 6, Tr., at 8.
Wendy Holton, CJA Panel Atty., D. Mont., Public Hearing — Portland, Or., Panel 4, Writ. Test., at 5.
813 Judge Rosanna Peterson, E.D. Wash., Public Hearing — Portland, Or., Panel 3, Tr., at 21.
814 Id.
815 Id.
816 David Stickman, FPD, D. Neb., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 30.
817 David Stickman, FPD, D. Neb., Public Hearing — Minneapolis, Minn., Panel 2, Writ. Test., at 3.
818 The group included members from relevant Judicial Conference Committees, court unit executives,
and executive branch agencies. Members included: Committee on Judicial Security, Committee on
Defender Services, Committee on Criminal Law, Committee on the Budget, The Attorney General’s
Federal Detention Trustee, Federal Bureau of Prisons Deputy Assistant Director, USMS Assistant
Director for Prisoner Operations, a Chief Probation Officer, a Chief Pretrial Services Officer, a Federal
Public Defender, and a Criminal Justice Act Panel Attorney.
812

174

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-218

AR-2583

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 220 of 342 Page ID
#:27802

Many of its recommendations address the problems the defenders and CJA attorneys continue to face because their clients are being held in detention facilities far
away from their attorneys. If implemented, the Remote Detention Ad Hoc Group’s
recommendations would help to improve the ability of CJA attorneys and defenders to meet with their clients.819

7.3.3 Representation of Native Americans
Appointed counsel face significant challenges in delivering quality representation to
Native Americans charged with federal crimes. Most federal criminal cases involving
Native Americans arise on reservations. Because many reservations are located long
distances from major cities and the attorneys and investigators who work on these
cases, significant travel is required. Counsel and investigators must sometimes “travel
to remote locations to view the scene and interview eyewitnesses. Because some
communities are spread out over large areas . . . CJA practitioners and investigators
frequently make multiple trips to complete their investigations.”820 This additional
required travel time increases the cost of the case. Just one trip to a reservation five
hours away from an attorney’s home base to interview witnesses adds a minimum
of $1500 to the cost of the case (10 hours x $132 per hour plus mileage). In districts
where the court is reluctant to pay for “windshield time,” the possibility of not being
compensated for these travel hours can be a deterrent to accepting these cases.821
Another challenge that these cases present is that “ . . . reservations are small
closed societies, everyone knows both the victim and the defendant, but the attorneys are outsiders — not to be trusted.”822 While these are generalizations, surveys of
both federal defender offices and CJA panels establish that very few attorneys providing representation in these cases are Native.823
While it is important for defense attorneys to establish a trusting relationship
with all clients, perhaps it is even more necessary with Native clients. As one federal
defender explained, “[b]uilding a relationship with Native clients is essential, as they
must make life-changing and life-affecting decisions while learning to understand
what is in essence a foreign system.”824 Recognizing the importance of understanding the differences between their clients and themselves in this context, panel attorneys “identified the need for additional training for attorneys and investigators in
Native American culture and cultural differences.”825
819

These recommendations are available at https://ows.usdoj.gov/DDCWS.
Theresa Duncan, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 4, Writ. Test., at 2.
821 See section 5.2; see also Neil Fulton, FPD, D.S.D. & D.N.D., Public Hearing — Minneapolis, Minn.,
Panel 2, Tr., at 21.
822 Daniel Scott, CJA Dist. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Writ. Test., at 3.
823 See Diversity Section 8.
824 Stephen McCue, FPD, D.N.M., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 2.
825 Theresa Duncan, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 4, Writ. Test., at 2.
820

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-219

175

AR-2584

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 221 of 342 Page ID
#:27803
FINDINGS

Attorneys experienced in representing Native people emphasized the
importance of establishing a rapport with members of the client’s family.826 An
experienced CJA attorney who practices in Indian country noted, “It is difficult to
put on a voucher, ‘making client and his family understand I am not a part of the
system and I am there to help them.’” 827 Time spent with the family is an investment in establishing a trusting relationship with the client, 828 but many judges
do not view it as compensable.
Another challenge is that these cases are not investigated by federal law
enforcement like traditional federal cases:
[T]ribal law enforcement and other tribal officials lack training and the
results of their investigation and documentation leave much to be desired.
This requires more work in investigation of witnesses, scenes and documents than is normally required. This requires a far greater use of outside experts and investigators than in a normal case. It also requires more
attorney time for simple tasks that in other cases are taken for granted.829
This need for more investigation than in the “normal case” is complicated further by a shortage of qualified investigators with experience working with tribal communities.830 All these challenges mean that “reservation cases are resource intensive,
i.e., expensive.”831 Given the obstacles confronting CJA panel attorneys receiving
funding for cases generally, the current structure puts Native American defendants at
greater risk of receiving an underfunded, and consequently, less effective defense.
Professor Barbara Creel of University of New Mexico School of Law recommended the following to ensure adequate representation for Native Americans:
1) Parity with the federal prosecution efforts in Indian Country, including additional defenders and other personnel, programs and resources; 2)
Training in Indian law, including specialized training in the intersections with
criminal and constitutional law involved in representing Native American
Defendants, and; 3) Cultural literacy in the issues that arise in working
with Tribal Peoples and the Tribal Nations, and; 4) employment of Native
American personnel in all aspects of the federal defender organizations.832
Professor Creel makes two additional recommendations. The first is “the

826

Daniel Scott, CJA Dist. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Writ. Test., at 2.
Alexander Reichert, CJA Dist. Rep., D.N.D., Public Hearing— Minneapolis, Minn., Panel 5, Writ. Test., at 3.
828 Daniel Scott, CJA Dist. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Writ. Test., at 2–3.
829 Alexander Reichert, CJA Dist. Rep., D.N.D., Public Hearing— Minneapolis, Minn., Panel 5, Writ. Test., at 3.
830 Theresa Duncan, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 4, Writ. Test., at 2.
831 Daniel Scott, CJA Dist. Rep., D. Minn., Public Hearing — Minneapolis, Minn., Panel 5, Writ. Test., at 3.
832 Professor Barbara Creel, Law & Indigenous People Program, U. of New Mexico, Public
Hearing — Santa Fe, N.M., Panel 4, Writ. Test., at 1.
827

176

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-220

AR-2585

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 222 of 342 Page ID
#:27804

creation of a Tribal Liaison” position in the Federal Defender offices “to assist with
the coordination of defense services for Native Americans facing federal prosecution from Indian Country jurisdiction.” 833 Professor Creel notes that there are already
tribal liaisons in the U.S. Attorney’s Offices to assist in prosecution, but there is no
corresponding position for the defense. A tribal liaison position within the Federal
Defender Organizations would “bridge the gap between the two cultures and judicial
systems.”834 Professor Creel’s second recommendation is that the CJA statute should
be amended to clarify what constitute “ancillary matters” and whether the definition
extends to matters in tribal courts.835 In recognizing that the Department of Justice has
authorized special assistant US Attorneys to prosecute matters in tribal court and represent the United States in federal court, Professor Creel opines that these tribal court
proceedings may be “critical stages” of what will become a federal prosecution. She
further testified, “Representation at all critical stages is required to adequately represent Native Americans in Indian Country . . . . [Defenders] should be allowed under
the local plan to represent Indian individuals in ancillary matters in tribal court under
their federal appointment to protect the federal constitutional rights of Indians.”836
Finally, in echoing Professor Creel’s testimony, a panel attorney requested
more training on the representation of Native American clients. As he observed,
“Currently there is little training given on issues in Indian Country . . . . Indian country law is not something to be dabbled in, yet we are asking lawyers to do this every
day in very complex cases.”837

•

833

Id. at 9.
Id.
835 18 U.S.C. § 3006(A)(c) (2012).
836 Professor Barbara Creel, Law & Indigenous People Program, U. of New Mexico, Public
Hearing — Santa Fe, N.M., Panel 4, Writ. Test., at 8.
837 Alexander Reichert, CJA Dist. Rep., D.N.D., Public Hearing — Minneapolis, Minn., Panel 5, Writ.
Test., at 3.
834

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-221

177

AR-2586

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 223 of 342 Page ID
#:27805
FINDINGS

Section 8: Diversity

8.1 The Importance of Diversity
Apart from perceptions about the system overall, some defendants are uncomfortable with or have difficulty putting their trust in lawyers who do not share or
understand the experiences of someone of their race, ethnicity, gender, or religious beliefs.838 As a federal public defender told the Committee, some commonality — whether it be shared race, ethnicity, or background — is important “to bring
some level of comfort to our clients.”839 In fact, “sometimes, that’s all [an attorney]
can do. [Often,] these guys are just really in a pickle,”840 and counsel has “to start
building a level of trust immediately in order to be able to get to the point where
[they can] deliver what is very often terrible news about what the possible verdict or
sentence is going to be.”841 As defense attorneys testified, if clients “not only know
but feel that there is a personal interest, a vested interest,”842 on the attorneys’ part,
“clients will have a high enough level of trust in what we’re telling them that they
will accept responsibility for their actions and get a lesser sentence than they otherwise would. . . . [D]iversity is part of that.”843 And attorneys themselves need to be
comfortable working with a diverse population of clients; that level of comfort “is
838

“When lawyers and clients come from different backgrounds and cultural viewpoints, they often
have a more difficult time creating a trusting lawyer-client relationship in which both parties feel
comfortable sharing honest and accurate information.” Serena Patel, Cultural Competency Training:
Preparing Law Students for Practice in Our Multicultural World, 62 UCLA L. Rev. Disc. 140 (2014)
(citing Poverty, Health and Law: Readings and Cases for Medical Legal Partnership 52
(Elizabeth T. Tyler et al. eds., 2011)).
839 Laine Cardarella, FPD, W.D. Mo., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 36–37.
840 Id. at 37.
841 Jenniffer Horan, FPD, E.D. Ark., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 37.
842 Laine Cardarella, FPD, W.D. Mo., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 37.
843 Jenniffer Horan, FPD, E.D. Ark., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 37.

178

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-222

AR-2587

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 224 of 342 Page ID
#:27806

important to successful management of clients and successful results in a trial.”844
Aside from the crucial role that race, ethnicity, gender, and age play in fostering
trusting attorney-client relationships, there are other benefits of building a diverse
workforce. Witnesses described the improved group performance that can result
from bringing more diverse perspectives to the table, helping an office develop a
more mature culture and operations.845 As one defender said, “it is clearly understood in my district that a diverse workforce . . . is a ‘win-win’ solution for all.”846
Diversifying CJA panels similarly “broadens the perspective that lawyers bring
to their advocate’s role.”847 Defense representation is more effective when performed
by “individuals from diverse backgrounds with sharp minds, powerful life experiences, and innovative ideas,” a panel attorney told the Committee.848 He explained,
“Those ideas and perspective serve to enrich . . . criminal defense, where understanding of subtle nuances and having a willingness to explore non-traditional remedies
and innovative approaches to the presentment of evidence” can positively influence
outcomes and sentencing.849

8.2 Current Composition of Those
Working Under the CJA
Although most federal defendants are young men of color, 850 the attorneys who
represent them under the CJA tend to be older, white, and male. This Committee’s
information on the demographic make-up of these lawyers is based upon data
collected by the judiciary as well as the Committee’s surveys of panel attorneys
844

Doris Randle-Holt, FPD, W.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Writ. Test., at 2.
Kevin Butler, FPD, N.D. Ala., Public Hearing — Birmingham, Ala., Panel 2, Tr., at 37. See also
Marie-Élène Roberge & Rolf van Dick, Recognizing the Benefits of Diversity: When and How Does
Diversity Improve Group Performance? 20 Hum. Resource Mgmt. Rev. 295 (2010). By breaking up
workplace homogeneity, you can allow your employees to become more aware of their own potential
biases — entrenched ways of thinking that can otherwise blind them to key information and even lead
them to make errors in decision-making processes. See David Rock & Heidi Grant, Why Diverse Teams
Are Smarter, Harv. Bus. Rev. (2016), https://hbr.org/2016/11/why-diverse-teams-are-smarter.
846 Doris Randle-Holt, FPD, W.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Writ. Test., at 2.
847 Patrick M. Livingston, CJA Dist. Rep., W.D. Pa., Public Hearing — Philadelphia, Pa., Panel 9,
Writ. Test., at 2.
848 Anthony Ricco, CJA Dist. Rep., E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 9, Writ. Test., at 8
849 Id.
850 In fiscal year 2016, for example, 86.2 percent of defendants were men; of all defendants 53.3
percent were Hispanic, 20.4 percent were African American, and 22.3 percent were white. Note that
Hispanics are over-represented in part because they make up 96 percent of the immigration cases.
African American women are slightly disproportionately represented in the federal criminal justice
system, constituting 13.8 percent of female defendants as compared to 13.3 percent of the total female
population in the United States. The median age of federal defendants in 2016 was 35 years old, with
one-third of defendants below 30 years old. U.S. Sentencing Commission, 2016 Datafile, USSCFY16,
available at http://www.ussc.gov/sites/default/files/pdf/research-and-publications/annual-reportsand-sourcebooks/2016/stats_Nat.pdf.
845

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-223

179

AR-2588

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 225 of 342 Page ID
#:27807
FINDINGS

nationwide. As the following table indicates, roughly 80 percent of responding panel
attorneys identified as white and male, and more than 60 percent report being 50
years of age or older. Fewer than 12 percent of panel attorneys are younger than 40.

Demographics of CJA Panel Attorneys
Responding to Surveys (2016)
Demographics

Composition of
Panel Attorneys1

Race
White/Caucasian

82 percent

Black/African American

7 percent

Hispanic

9 percent

Asian

1 percent

Native American

< 1 percent

Multiple

2 percent

Gender
Male

80 percent

Female

20 percent

Age
20-29

< 1 percent

30-39

11 percent

40-49

25 percent

50-59

27 percent

60-69

29 percent

70 or older

7 percent

This survey data is consistent with testimony the Committee received. In the
Northern District of Florida, for example, which includes Tallahassee, Gainesville, and
Pensacola,851 the panel representative acknowledged, “We don’t have any Spanishspeaking lawyers on our panel. We have no Latinos on our panel. We have no African
Americans on our panel.”852 This same attorney spoke of his “fear for the future of the
panel. . . . Everyone on my panel is my age or older. They’re retiring, they’re all white,
they’re all male.”853 Reports from other locations were similar. Describing the CJA
panel in her district, a community defender explained, “I have trouble finding diverse
people to add to my CJA panel, period. I’ve got a very . . . I don’t want to say elderly, but
older Caucasian male panel, and I’ve been working to try and diversify that.”854
In one district where the total population of the major city is almost 75 percent
851

For context, Tallahassee is 35 percent African American, Pensacola is 28 percent African American,
and Gainesville is 23 percent African American. The three cities are 6.3 percent, 3.3 percent and 10
percent Hispanic, respectively. U.S. Census Bureau, QuickFacts Data for Gainesville City, Tallahassee
City, and Pensacola City, Florida, available at https://www.census.gov/quickfacts/table/PST045216/12
25175,1270600,1255925.
852 Gilbert Schaffnit, CJA Dist. Rep., N.D. Fla., Public Hearing — Miami, Fla., Panel 6, Tr., at 15.
853 Id. at 3.
854 Monica Foster, Exec. Dir., CDO, S.D. Ind., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 12.

180

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-224

AR-2589

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 226 of 342 Page ID
#:27808

African American, only ten percent of panel members are lawyers of color.855 A
federal defender told the Committee that in his district, although a mentoring program had been created for the panel, they “still struggle to fill the void there. We do
have a small panel [of] twenty-three [attorneys]. We do have one African American
male . . . [and] several Hispanics [whom] we particularly recruited from other districts
to participate on the panel.”856 One defender told the Committee, “I’m frustrated
in trying to attract minority candidates to the panel. We have had a fair amount of
success in the district increasing the participation of women on the panel but [racial
diversity is] still, again, a work in progress. I’m not satisfied. Still working.”857
In comparison to CJA panels, federal defender and community defender organizations are more diverse. In fact, defender organizations outpace the national
federal workforce in the hiring of women and minorities.858 In fiscal year 2015,
employees of federal defender offices, including both attorneys and staff, were
approximately 62 percent white, 10.5 percent black, and 22 percent Hispanic. These
numbers are reflective of the national population and show that these offices as
a whole are fairly diverse.859 Diversity diminishes, however, when looking only at
the attorneys in these offices: Although 10 percent of them are African American,
lawyers who identify as Hispanic comprise just over 11 percent of all attorneys.
Seventy-two percent of assistant federal defenders are white, with white males
comprising the largest demographic category at 40.5 percent.860
While diverse non-lawyer staff is important — investigators and other staff interact with clients as well — diversity is most important within the corps of lawyers themselves. As discussed above, these attorneys must be vigorous and creative advocates
for their clients and to succeed they must develop trusting relationships with them.
Lack of diversity is more pronounced at the top of the defender office hierarchy, with half of defender office executives being white men,861 while white women
lead 30 percent of defender offices. African American men head only 10 percent of
FDOs, and African American women just 2.5 percent. Men who identify as Hispanic
or Latino run a tiny 1.3 percent of FDOs, and there are no women who identify as
Latina leading a federal defender organization.862
855

See Kathy Luker, CJA Panel Atty., N.D. Ala., Public Hearing — Birmingham, Ala., Panel 4, Tr., at 34; CJA
Review Committee Panel Attorney Surveys; U.S. Census Bureau, QuickFacts Data for Birmingham City,
Alabama, available at https://www.census.gov/quickfacts/fact/table/birminghamcityalabama/PST045216.
856 Edson Bostic, FPD, D. Del., Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 32.
857 Terence Ward, FPD, D. Conn., Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 30.
858 Defender Services Committee Materials, June 2017, provided at request of the Committee by the Chair
of the Defender Services Committee. The exception to this is in the category of Asian/Pacific Islanders.
859 Admin. Office of the U.S. Courts, The Judiciary Fair Employment Practices Annual
Report, Fiscal Year 2016; U.S. Census Bureau, QuickFacts Data for United States, available at
https://www.census.gov/quickfacts/fact/table/US/PST045216.
860 Defender Services Committee Materials, June 2017.
861 Defender Services Committee Materials, June 2017.
862 Defender Services Committee Materials, June 2017.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-225

181

AR-2590

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 227 of 342 Page ID
#:27809
FINDINGS

FY 2015 FDO Workforce
Composition — Legal Professional
Hispanic/
Latino
Hispanic/ Female
5.5%
Latino
Male
African
American
Male

Native Native
Pacific
American American Islander Pacific
Race Not
Male
Female
Male Islander Reported
Asian 0.1%
Female
Race Not
0.1%
Asian
0.1%
Male
0.1% Female Reported
Female
1.1% Female
2.0%

2.3%

0.8%

5.8%

White Male

4.3%

40.5%

African
American
Female

White Female

5.8%

31.7%

African
Native Hispanic/
American American Latino
Female Female
Male

FY 2015 FDO Workforce
Composition — Executives

2.5%

2.5%

1.3%

Race Not
Reported
Female

1.3%

African
American
Male

10.1%

White Female

29.1%

White Male

50%

Federal defenders who have focused on recruiting attorneys of color have
acknowledged modest successes.863 But almost all federal defenders, when asked by
the Committee, said they were dissatisfied with the current makeup of their offices
and were working to improve the diversity of their workforce.864

863

Doris Randle-Holt, FPD, W.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Writ. Test., at 2;
Jim Wyda, FPD, D. Md., Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 30. This includes lawyers
and non-lawyers.
864 See, e.g., Deborah Williams, FPD, S.D. Ohio, Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 30
(“I will say that I’m working on it.”); Michael Desautels, FPD, D. Vt., Public Hearing — Philadelphia, Pa.,
Panel 10, Tr., at 30 (“I would say work in progress also in the district of Vermont.”); Richard Coughlin,
FPD, D.N.J., Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 31 (“It’s gotten a lot better than when I
started and over time, hopefully, we’ll continue to improve.”).

182

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-226

AR-2591

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 228 of 342 Page ID
#:27810

8.3 Challenges in Recruiting
Diverse Attorneys
Although many professionals within the CJA community understand that diversifying the attorney pool is important, achieving that goal can be difficult, especially in
those districts that face demographic limitations and geographic challenges.
In districts with a large number of Spanish-speaking clients, panels struggle to
attract criminal defense lawyers who speak Spanish with sufficient fluency to communicate effectively with their clients. As a federal public defender from a border
district told the Committee, “most of the clients in our border office speak Spanish.
We advertise for lawyers as ‘Spanish fluency preferred,’ but the language issue further
limits an already small pool of interested and qualified applicants.”865 This problem
could be partly ameliorated with the use of qualified language interpreters. However,
in remote districts with a high volume of foreign-language-speaking defendants,
some who speak rare indigenous languages, the lack of interpreters is a further complication. Often, even when interpreters are available, there aren’t enough to handle
the heavy volume of cases, especially since interpreters are needed on multiple occasions throughout a case. Attorneys rely on an interpreter to effectively communicate
with their client on a one-to-one basis, which may require traveling to remote detention locations. And in preparation for trial, attorneys require the use of an interpreter
to review discovery, plea agreements, and other documentation.
The Committee also heard testimony that in some districts the majority of
panel attorneys, especially those who are bilingual or of color, live in cities, hours
away from where the majority of cases are prosecuted. In New Mexico, for example,
a panel lawyer explained: “Our 2015 CJA Panel has approximately 101 members in
Albuquerque and 35 members in Las Cruces.”866 Despite the small size of the panel
in Las Cruces, the vast majority of criminal cases in the district are brought there,
and most require Spanish-speaking attorneys. Given that Las Cruces is a three-hour
drive from Albuquerque, it is rare for panel attorneys in Albuquerque to be assigned
to cases in Las Cruces.867 The Committee heard that this scenario repeats itself in
district after district where some of the busiest federal courts require attorneys to
travel extended distances from their homes in metropolitan areas.
In other districts, the problem is attracting attorneys to a rural location. In the
Middle District of Georgia, for example, the community defender explained:
It’s very difficult . . . to find diverse employees, and the reason that I say
865

Stephen McCue, FPD, D.N.M., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 3.
Amy Sirignano, CJA Panel Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 9.
867 Id. at 21. The panel attorney explained that CJA panel attorneys in Albuquerque only “get
appointed on a case down in the southern part of the state . . . if we get these multiple defendant cases
where they just [run] out of CJA panel members.” Id.
866

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-227

183

AR-2592

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 229 of 342 Page ID
#:27811
FINDINGS

that is because again, we are a very rural district. If you tell someone,
“Hey, come live in Macon, Georgia,” those people will go, “Where is that?”
[Laughing.] And if you say it’s in the heart of Georgia, then the next question is, “Why would I want to do that?” . . . It is difficult [to attract employees], especially Spanish speakers, especially Latinos.868
Another problem is that in many situations, young lawyers and lawyers of color
have amassed significant educational debt and cannot afford to perform public
interest legal work. They may “really, really, really want to be a criminal defense
lawyer . . . but they don’t know if they’re going to be able . . . to afford it.”869 Meanwhile,
“they’re being recruited heavily by major law firms to do [more lucrative] work.
They have a huge student debt load that they have to service when they get out of
school,”870 and as a result, they are “not in a position to accept court-appointed
cases where the hourly compensation is a fraction of what is paid on the private level.”871 According to both panel members and defenders, the problem of diversity in
the defender and panel community is going “to get worse very, very soon” as more
law graduates with high debt loads enter the profession.872
While some panel members said they look to state court practitioners to diversify federal panels, they find lawyers who have practiced exclusively in state court are
intimidated by federal court practice. Because federal criminal defense work may
seem formidable to those without experience in the federal system, especially when
it comes to the intricacies of sentencing, a chief district judge told the Committee that
state defense attorneys are “reluctant to put a foot in federal court.”873 The Committee
heard similar sentiments from multiple districts. “Federal court is a very intimidating
place for many, many reasons,” explained a panel attorney.874 “There are many young
lawyers who have become comfortable practicing in state court, but taking that step
over the threshold of this building is a completely different exercise.”875

8.4 Current Diversity Initiatives
In many districts, judges, defenders, and panel attorneys “are keenly aware of . . . and
committed to the belief that diversifying the panel broadens the perspective that
lawyers bring to their advocate’s role and develops greater trust and confidence with
868

Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 23.
Shaun McCrea, CJA Panel Atty., D. Or., Public Hearing — Portland, Or., Panel 4, Tr., at 31.
870 Gilbert Schaffnit, CJA Dist. Rep., N.D. Fla., Public Hearing — Miami, Fla., Panel 6, Tr., at 15.
871 Gilbert Schaffnit, CJA Dist. Rep., N.D. Fla., Public Hearing — Miami, Fla., Panel 6, Writ. Test., at 4.
872 Shaun McCrea, CJA Panel Atty., D. Or., Public Hearing — Portland, Or., Panel 4, Tr., at 31.
873 Chief Judge Michael Seabright, D. Haw., Public Hearing — San Francisco, Cal., Panel 5, Tr. at 28.
874 Robert Richman, Board Member of Minn. Assoc. of Criminal Defense Lawyers, Public
Hearing — Minneapolis, Minn., Panel 4, Tr., at 32.
875 Id.
869

184

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-228

AR-2593

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 230 of 342 Page ID
#:27812

clients.”876 Nonetheless, efforts to increase diversity have mainly involved ad hoc,
local efforts. While efforts to diversify CJA panels and defender offices are, as one
panel attorney testified, “something that we have to accomplish on a local level,”
that same panel attorney also pointed out that these conversations about diversity
are repeated every year at conferences without much change.877
Notable examples of local initiatives include the fellowship program implemented by the FPDO in the Eastern District of Washington. “These were one‑year
termed positions. [Fellows] received . . . intensive training while they handled
immigration cases [and] supervised release violations, petty offenses and other
low-level felonies before [being integrated into] the big wide world of indigent
criminal defense work. [Today], many graduates of the fellowship program serve as
assistant federal defenders across the country while others serve on CJA panels.”878
According to the current federal defender in that district, the program not only
successfully prepares lawyers for positions across the country, it also provides their
own office with a more diverse applicant pool.879 As in other rural locations, the
pool of people applying to work in the Eastern District of Washington is not particularly diverse. The one-year fellowship program has become “an excellent mechanism to recruit young and inexperienced attorneys of color who might not otherwise apply for a permanent position.”880
Other federal defenders told the Committee that they also have an interest
in creating fellowship programs, some similar to those offered by law schools that
subsidize the work of new graduates. This desire, however, is often restrained by
work measurement and staffing limits. “I would like to be able to hire a . . . fellowship
lawyer,” explained a community defender, “to take a young lawyer and shape them
in the culture that we are building, give them a step-up into another office or stay
with mine and stay on track.”881 Because of staffing limits, the defender has instead
hired a lawyer as “paralegal investigator, who we are basically grooming for the next
attorney position. And because we wanted her to see things from all aspects . . . the
best way to do that at the current [staffing levels] was to place her in a [paralegal]
position where she would see everything sort of from the bottom up.”882
In a number of jurisdictions, defenders and panel representatives have created opportunities for younger lawyers and attorneys of color to acquire the federal
litigation experience needed to be selected for district CJA panels. In Minnesota, for
876

Patrick M. Livingston, CJA Dist. Rep., W.D. Pa., Public Hearing — Philadelphia, Pa., Panel 9, Writ.
Test., at 2.
877 Anthony Ricco, CJA Dist. Rep., E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 15.
878 Andrea George, Exec. Dir., Federal Defenders of Eastern Wash. and Idaho, Public Hearing —
Portland, Or., Panel 6, Writ. Test., at 1.
879 Id. at 2.
880 Id.
881 Tina Hunt, FPD, M.D. Ga., Public Hearing — Santa Fe, N.M., Panel 3, Tr., at 22.
882 Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-229

185

AR-2594

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 231 of 342 Page ID
#:27813
FINDINGS

example, the FPDO created what another defender calls “the gold standard”883 of
mentoring programs. Attorneys with state court experience participate in a two-year
mentorship program where they are assigned to a “second-chair position” alongside
an experienced panel attorney.884 Court funding pays for their time,885 with the hope
that those lawyers will later be in a position to join the CJA panel.886
New York has one of the oldest and most successful mentoring programs for
panel attorneys. The program, which is designed to increase diversity, is open to
everyone. Active for seven years, it has channeled 19 lawyers from diverse backgrounds on to the CJA panel who “have met with the high standards and approval of
the court,” a clear measure of success.887
Similar programs in other districts have proven successful in attracting
and preparing young, diverse attorneys for federal criminal defense work. In the
Middle District of North Carolina, for example, younger attorneys who want to
join the panel are “matched with regular panel attorneys . . . to bring up younger
attorneys so that as [the] panel ages, [the district has] new attorneys ready to
go.”888 Similarly, in Wyoming, some of the more experienced panel attorneys serve
as voluntary mentors, working with mentees, and then recommending qualified
mentees to the Standing Committee and the court, who manage the panel.889
Even with a relatively small bar, the Wyoming panel “maintains approximately
eight to 10 mentees at any given time.”890
In addition to formal mentoring programs, some districts offer CLE credit and
other training programs to expose younger and more diverse attorneys to federal
criminal defense practice, helping them gain experience.891 A judge in one district
testified, “We are planning a free training session geared to lawyers who are less
experienced in federal criminal defense. We are also experimenting with an informal misdemeanor panel to help lawyers gain experience in handling matters in our
883 Andrea George, Exec. Dir., Federal Defenders of Eastern Wash. and Idaho, Public Hearing —
Portland, Or., Panel 6, Writ. Test., at 2.
884 Robert Richman, Board Member of Minn. Assoc. of Criminal Defense Lawyers, Public Hearing —
Minneapolis, Minn., Panel 4, Tr., at 32.
885 In an effort to develop and diversify the district’s CJA panel, in 2007 the Court authorized
the Second Chair Program. During the course of the program, participants act as “second chair”
attorneys on three CJA cases and attend dozens of hours of training, designed specifically for new
federal practitioners. A paid program coordinator develops and provides the training, in addition
to supervising the program participants. The funding for the program is provided by the District
Court’s Attorney Admission Fund and the FPDO administers the program.
886 Robert Richman, Board Member of Minn. Assoc. of Criminal Defense Lawyers, Public
Hearing — Minneapolis, Minn., Panel 4, Tr., at 32.
887 Anthony Ricco, CJA Dist. Rep., E.D.N.Y., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 8.
888 Lisa Costner, CJA Dist. Rep., M.D.N.C., Public Hearing — Birmingham, Ala., Panel 7, Tr., at 11.
889 Mag. Judge Kelly Rankin, D. Wyo., Public Hearing — Portland, Or., Panel 3, Writ. Test., at 5.
890 Id.
891 See, e.g., Mag. Judge Mark Hornsby, W.D. La., Public Hearing — Birmingham, Ala., Panel 5,
Writ. Test., at 2.

186

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-230

AR-2595

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 232 of 342 Page ID
#:27814

court.”892 According to the defender in the Western District of Washington, his office
has “opened up free, all-day CLE to non-CJA lawyers, and specifically the membership
of minority bar associations, in an attempt to generate interest in the CJA [panel].”893
That office has also been a leader in offering training sessions on implicit bias, helping
attorneys to understand how “unconscious bias can affect . . . relationships with clients.”894 Implicit bias can also be a barrier to developing a diverse workforce in federal
and community defender offices if those making the hiring decisions unconsciously
“favor individuals who look and speak like we do.”895
Recognizing this possibility, some FPDOs and CDOs have achieved further
diversity in their ranks “by consciously expanding [their] recruiting efforts.”896 The
Federal Defender for the Eastern District of Pennsylvania described the need for
defender offices to have a “concrete plan” to raise the diversity of representation in
their district.897 Such a plan could include outreach to various minority groups, such
as the Black Law Students Association, “so people are familiarized with the [CJA]
program and the commitment to the work. . . . [If you] attend those job fairs . . . [and]
participate in those conferences, then you’re piquing interest there,” he said.898
One witness, a former law school dean, recommended recruiting minority
law students after their second year of law school, and offering them paid summer
positions in defender offices as a way of increasing retention after graduation.899
Targeted recruitment can pay dividends. The federal defender for the Northern
District of Texas wrote to the Committee:
I realized it was not enough to simply advertise positions nationally and
hope that more African-American attorneys would apply. So I have recently
determined that, if these candidates will not come to us, we will go to them.
[In the past month,] two of my attorneys and I traveled to two of the historically black law schools (Howard University School of Law and Florida A&M
Law School) to tell the students who we are and to recruit them to submit
their resumes for attorney employment with our office. (The initial results
have been outstanding.) Furthermore, we also attended the Equal Justice
892

Id. The Judge told the Committee that in his district of the Western District of Louisiana,
“Maintaining diversity among the panel attorneys is a real challenge. In Shreveport, there is only one
African American who routinely accepts appointments. There are only three women who routinely
accept appointments. None of the lawyers speak Spanish. The panels in Monroe, Alexandria, Lafayette,
and Lake Charles face these same issues.” Id.
893 Michael Filipovic, FPD, W.D. Wash. Public Hearing — Portland, Or., Panel 6, Writ. Test., at 8.
894 Id.
895 Stephen McCue, FPD, D.N.M., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 4.
896 Jason Hawkins, FPD, N.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 4 .
897 Leigh Skipper, FPD, E.D. Pa., Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 7.
898 Id. at 20.
899 Professor Norm Lefstein, Professor of Law and Dean Emeritus, Robert H. McKinney School of Law,
Indiana Univ., Public Hearing — Minneapolis, Minn., Panel 3, Tr., at 27.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-231

187

AR-2596

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 233 of 342 Page ID
#:27815
FINDINGS

Works Career Fair in Washington D.C., . . . and we plan also to attend the
Public Interest Law Center Career Fair at the New York University School of
Law. . . . I am confident that, by consciously expanding our recruiting efforts,
we will achieve further diversity in our attorney ranks.900

•

900

188

Jason Hawkins, FPD, N.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 4 .

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-232

AR-2597

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 234 of 342 Page ID
#:27816

Section 9: Capital
Representation

9.1 Background — Capital Trials, Direct
Appeals, § 2254, § 2255, and Habeas
One of the particular areas of defense practice that this Committee examined
involves providing representation to those facing capital punishment. Capital representation under the CJA occurs in two main contexts. 901
First, there are the “direct death”902 cases that originate from federal grand
jury indictments and are governed by the Federal Death Penalty Act.903 Convictions
and sentences of death in these cases are appealed in the same manner as ordinary
felonies, first to the Circuit Courts of Appeal and then by writ of certiorari to the
Supreme Court. Practitioners often refer to these as “direct appeals.”
Second are cases involving collateral review of convictions and death sentences of that have become final after the conclusion of the direct appeal process.
These are further divided between collateral review of federal “direct death” sentences under 28 U.S.C. § 2255 and review of state death sentences under 28 U.S.C.
§ 2254. Section 2254 cases are by far the most numerous type of capital representation and, therefore, provide the context in which the inadequacies of the defense
system are most often evident. A significant portion of the following discussion
draws examples from § 2254 litigation. But while litigation in each of these contexts
901

For a chart representing the usual progression of a capital case, please see Appendix H.
See generally Public Hearing — Birmingham, Ala., Panel 3, Writ. Test. (discussing the Federal Death
Penalty Act and referencing common shorthand terms).
903 18 U.S.C. §§ 3591–3599.
902

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-233

189

AR-2598

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 235 of 342 Page ID
#:27817
FINDINGS

is quite different, a number of problems are common to all.
There are several statutes that govern the provision of counsel in pre- and
post-conviction capital cases. Under 18 U.S.C. § 3005, a defendant charged with a
federal capital offense, a “direct death” prosecution, is entitled to the appointment
of two trial attorneys, at least one of whom should “be learned in the law applicable
to capital cases.” The statute states that, “In assigning counsel under this section, the
court shall consider the recommendation of the Federal Public Defender organization, or, if no such organization exists in the district, of the Administrative Office of
the United States Courts.”904 This provision is unique to “direct death” cases.
Post-conviction litigation, commonly referred to as “habeas corpus,”905 begins
when the defendant’s capital sentence has become final upon the conclusion of any
direct appeals. Under 28 U.S.C. § 2254, a defendant convicted of a state capital crime
can, after exhausting state remedies, submit a habeas corpus petition to a federal
district court to consider violations “of the Constitution or laws or treaties of the
United States.”906 28 U.S.C. §2255 provides the basis for a habeas petition907 when
a defendant has been convicted of a federal capital crime. Habeas petitions allow
petitioners to argue claims that,
the Government failed to prosecute them according to constitutionally
prescribed rules, or that the jurors who convicted and sentenced them
harbored biases that interfered with their ability to be fair, or that their
trial lawyers neglected to undertake the work necessary to defend them
properly against capital charges or to persuade a jury that they did not
deserve a sentence of death.908
Both statutes give petitioners the right to one or more qualified counsel. This
provision is crucial, as the Supreme Court has held that in habeas review, “[t]he
complexity of our jurisprudence in this area . . . makes it unlikely that capital defendants will be able to file successful petitions for collateral relief without the assistance
of persons learned in the law.”909 Associate Justice Harry Blackmun called habeas
corpus proceedings, with all their procedural requirements, a “Byzantine morass.”910
904

Id. § 3005.
The right to habeas corpus is a constitutional right that the Supreme Court has ruled is distinct
from any statutory scheme. However, as post-conviction proceedings are generally referred to and
function as a habeas review, and a separate habeas petition is rarely filed, proceedings under § 2254
and § 2255 will be referred to as “habeas” here.
906 28 U.S.C. § 2254.
907 Again, while this statute provides for the filing of a motion to set aside or vacate a conviction or
sentence, the petitions to do so are still commonly referred to as habeas petitions.
908 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 2.
909 McFarland v. Scott, 512 U.S. 849, 855-56 (1994) (citations omitted).
910 Coleman v. Thompson, 501 U.S. 722, 759 (1991) (Blackmun, J., dissenting). Please see appendix for
charts to show the tortuous path these cases generally take.
905

190

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-234

AR-2599

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 236 of 342 Page ID
#:27818

For both § 2254 and § 2255 habeas petitions, 18 U.S.C. § 3599(a)(2) requires
the appointment of counsel and securing of funding for “any defendant who is
or becomes financially unable to obtain adequate representation or investigative,
expert, or other reasonably necessary services.” However, the same section places
limits on funding for representation and related services. Section 3599(g)(1) sets
the hourly rate of habeas counsel, authorizing the Judicial Conference to raise it as
required; it is currently set at $185 an hour. Section 3599(g)(2) sets a cap of $7,500
for “fees and expenses paid for investigative, expert, and other reasonably necessary services” that can be obtained from the district court without circuit approval.
Although Congress has raised the hourly rate over the years the presumptive cap on
reasonably necessary services has not been increased since 1996.911
Expenses for investigative or expert services may only exceed this decades-old
cap of $7,500 if: 1) payment in excess of that amount is certified by the district court
as necessary to provide fair compensation for services of an unusual character or
duration; and 2) the excess payment is approved by the chief judge of the circuit
court of appeals or the chief judge’s designee.912 Habeas corpus is a review of matters collateral to, and thus outside of, the trial record. Development of such claims
requires the investigation, or re-investigation, of matters which might have been but
were not litigated at trial, on appeal, or even in the initial state habeas petition. This
work cannot be done without significant assistance from expert witnesses and other
specialized service providers who may or may not have been involved in the original trial.913 Given the crucial role that specialists play in capital habeas petitions,
the presumptive limit of $7,500 is far too low, and the vast majority of habeas cases
require authorization for additional funds, as discussed below.914
Despite habeas being a “highly complex and challenging area of law,” requiring investigation of matters outside the trial and appellate record, both § 2254 and
911 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 8 n.6.
912 18 U.S.C. § 3599(g).
913 Many federal and some state capital trial defense teams utilize mitigation specialists. A mitigation
specialist is an expert qualified to investigate, evaluate, and present psychosocial and other mitigating
evidence to persuade a judge or jury that a death sentence is an inappropriate punishment for the
defendant. A mitigation specialist coordinates the investigation of the defendant’s life history, identifies
issues requiring evaluation by a psychologist, psychiatrist, or other professional, and helps attorneys
find experts to present testimony and documentary materials for review. A defense counsel’s failure
to investigate or present mitigating evidence at the state or federal trial level could have harmed the
defendant and possibly result in a claim of ineffective assistance of counsel. Therefore habeas counsel
often need to conduct their own investigation into the mitigating circumstances for a defendant should
be and could possibly result in a claim of ineffective assistance of counsel. Therefore, habeas counsel
often need to provide adequate mitigation. For more, see generally Public Hearing — Birmingham, Ala.,
Panel 3 transcript and written submissions.
914 For comparison, authorized death cases in federal district courts routinely exceed the $7,500
threshold. A 2010 AO study found that the median service provider cost in an authorized case was
$83,029, and was even higher if the case went to trial. See Jon B. Gould & Lisa Greenman, Update
on the Cost and Quality of Defense Representation in Federal Death Penalty Cases, Report to the
Committee on Defender Services, Judicial Conference of the United States (2010).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-235

191

AR-2600

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 237 of 342 Page ID
#:27819
FINDINGS

§ 2255 allow defendants only one year to file motions attacking their convictions.915
Finally, § 3599(f) also establishes that “no ex parte proceeding, communication,
or request may be considered” for “any investigative, expert, or other services [that]
are reasonably necessary for the representation of the defendant” unless “a proper
showing is made concerning the need for confidentiality.” This provision may, therefore, require habeas counsel to disclose the theory of the case and defense strategy to
both the judge and the government, while also requiring that habeas counsel, if the
government objects, be forced to litigate for the funding for any third-party services
while the one-year statute of limitations is running.
The Antiterrorism and Effective Death Penalty Act of 1996 enacted special fasttrack procedures for capital habeas petitions brought under § 2254.916 These provisions include a shortened six-month (180 day) statute of limitations, limitations on
review of unexhausted claims and petition amendments, and expedited review by
the district and appellate courts. They are applicable only to § 2254 capital habeas
petitions filed by prisoners in states that “opt in” by establishing a mechanism for the
appointment and compensation of state post-conviction counsel. The responsibility
for certifying a state for fast-track habeas review rests with the Attorney General of
the United States. In 2013, the Attorney General finalized regulations to implement
a certification procedure.917 As of September 2017, Arizona and Texas have applied
and their applications are pending. Such certification could put great strain on the
already taxed federal resources to handle habeas petitions, as discussed below.
The Judicial Conference also has policy which governs capital representation.
As noted above, federal capital trials require the appointment of two counsel, one of
whom must be “learned.” Judicial Conference policy mandates that such “learned
counsel” have distinguished prior experience in the trial, appeal, or post-conviction
review of federal death penalty cases, or distinguished prior experience in state death
penalty trials, appeals, or post-conviction review that, in combination with co-counsel, will assure high-quality representation.918 A court may appoint more than two
attorneys when exceptional circumstances and good cause are shown. Under CJA
Guidelines governing these trials, “[t]here is neither a statutory case compensation
maximum for appointed counsel nor provision for review and approval by the judge
of the circuit of the case compensation amount in capital cases.”919

915

28 U.S.C. § 2244(d)(1);Kristine Fox, Circuit Case Budgeting Atty., 9th Cir., Public Hearing — San
Francisco, Cal., Panel 1, Writ. Test., at 2. However, the statute of limitations may be tolled in § 2254
petitions for a defendant to return to state court where state claims have not been exhausted.
916 See 28 U.S.C. §§ 2261−2266 (codifying the fast-track procedures).
917 Certification Process for State Capital Counsel Systems, 78 Fed. Reg. 58183 (Sept. 23, 2013)
(codified at 28 C.F.R. pt. 26(B)).
918 James R. Spencer, Federal Death Penalty Cases: Recommendations Concerning the Cost and
Quality of Defense Representation, Subcommittee on Federal Death Penalty Cases, Committee on
Defender Services, Judicial Conference of the United States (1998)
919 CJA Guideline § 630.10.20 (2014).

192

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-236

AR-2601

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 238 of 342 Page ID
#:27820

9.2 Current Resources
9.2.1 Federal Death Penalty Resource Counsel Project
The Federal Death Penalty Resource Counsel Project, established in 1992 by the
Defender Services Office, assists appointed counsel, federal defenders, and the
judiciary with matters relating to the defense function in federal capital trial cases.
Comprised of veteran capital defense attorneys, the Project monitors all federal
death penalty cases; consults with trial counsel regarding identification of experts,
mitigation specialists, and investigators; undertakes legal research, drafting pleadings, and jury instructions; and provides on-site assistance before and during capital
trials. The Project also identifies and recruits qualified defense counsel for possible appointment and assists DSO in responding to judicial inquiries concerning the
defense function, case management, and budgeting of federal capital cases.
The Project includes attorneys who serve as Federal Capital Appellate Resource
Counsel. They recruit, train, consult with, and assist attorneys appointed to federal death-penalty appeals and provide direct representation in a limited number
of cases. The Project also has a National Mitigation Coordinator, a Defense Victim
Outreach Coordinator, and a Life Support Project comprised of a number of individuals who previously faced capital charges and who assist defense teams with clients
who are reluctant to have mitigation investigated or to accept a plea agreement for
a sentence less than death.920 Finally, the Project includes Capital Resource Counsel
who are full-time assistant federal defenders who focus on federal capital cases
assigned to federal defender organizations.

9.2.2 Federal Capital Habeas Corpus Project (2255 Project)
The Federal Capital Habeas 2255 Project, established in 2006 by DSO, assists federal
courts with appointment of counsel in § 2255 federal death penalty habeas proceedings and ensures that all individuals sentenced to death in federal court, who have
completed their direct appeals, receive representation consistent with the highest
standards of the legal profession. The Project is composed of six attorneys, a paralegal, and an administrative assistant who work under the auspices of the Federal
Public Defender for the District of Maryland. The Project’s main focus is to recruit
qualified counsel, monitor pending § 2255 litigation, consult with post-conviction
attorneys on all aspects of proceedings, represent petitioners directly in a limited
number of cases, organize training seminars on legal developments and effective
litigation strategies, and assist judges and their staffs with budgeting, counsel concerns, or any other issues related to capital § 2255 representation.
920

At the time of this writing there is no Defense Victim Outreach Coordinator, and the Life Support
Project operates on an ad hoc basis.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-237

193

AR-2602

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 239 of 342 Page ID
#:27821
FINDINGS

9.2.3 Capital Habeas Units (CHUs)
Nineteen of the 81 federal defender offices have Capital Habeas Units (CHUs).
These units primarily represent state prisoners sentenced to death whose convictions have proceeded through state court appellate and collateral review and
are now before the federal court in § 2254 proceedings. CHUs also handle § 2255
motions for prisoners sentenced to death following conviction of a capital-eligible offense in federal court. The following federal defender offices currently support CHUs:
1. Middle District of Alabama
2. District of Arizona
3. Eastern District of Arkansas
4. Central District of California
5. Eastern District of California
6. District of Delaware
7. Northern District of Florida
8. Northern District of Georgia
9. District of Idaho
10. Western District of Missouri
11. District of Nevada
12. Northern District of Ohio
13. Southern District of Ohio
14. Western District of Oklahoma
15. Eastern District of Pennsylvania
16. Middle District of Pennsylvania
17. Western District of Pennsylvania
18. Eastern District of Tennessee
19. Middle District of Tennessee
Two new CHUs — for the Western and Northern Districts of Texas — have been
budgeted for FY 2018. A CHU has also been authorized for the Southern District of
Indiana and will be funded in FY 2019.
Because of their specialized skill and experience, CHU attorneys are often
appointed to represent defendants in other federal districts. However, unless the
district’s CJA plan provides for such representation, these appointments must be
approved by DSO after notice to the chief judge of both the circuit in which the CHU
is located as well as the circuit where the appointment will be made.

9.2.4 Habeas Assistance and Training Counsel (HATs)
The Habeas Assistance and Training Counsel Project (HAT), established in 1996
by DSO, provides assistance to courts and counsel in § 2254 federal death penalty

194

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-238

AR-2603

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 240 of 342 Page ID
#:27822

habeas proceedings. HAT counsel are experienced federal habeas corpus practitioners who work part-time on a contract basis with the Defender Services Office
and provide consulting, training, and related services to CHUs, CJA panel attorneys, and the federal judiciary. There are currently four regional HATs and one
national HAT.

9.3 Problems in Federal
Capital Representations
As outlined in other sections of this report, there are significant weaknesses in the
structure and delivery of federal defense under the CJA. Capital representations put
those structural failures in stark relief.
Many federal judges are not familiar with the nature of criminal defense and
are even less knowledgeable about what it takes to provide a strong defense in a
death penalty case, because these cases are relatively rare.921 Only a small minority
of federal judges have presided over a capital prosecution. And federal judges who
work in states without the death penalty may be even less familiar with capital
habeas corpus proceedings.
Lacking this experience — and/or in some places lack of access to qualified
attorneys — judges often struggle with selecting and appointing the learned counsel required in direct death cases and capital habeas cases. A district court judge
confirmed this, telling the Committee, “Capital habeas cases, like capital prosecutions, necessitate experienced attorneys since the stakes are high. Locating an
appointed qualified counsel is not always easy, nor [is] reviewing vouchers for
reasonableness, and capital habeas cases tend to be more difficult than . . . standard cases.”922
In habeas cases, given the one-year statute of limitations (or even 6 months
under fast-track procedures discussed below), the failure to promptly appoint qualified counsel can have dire consequences. Delay in appointing counsel may result in
a significantly curtailed investigation and therefore an incomplete habeas petition.
Lacking capital experience, many judges may also be unaware of the need
921

Per DOJ policy, the U.S. Attorney General must personally review and authorize any case
where the death penalty is sought. Between 1995 and 2000, the U. S. Attorney General authorized
U.S. Attorneys to seek the death penalty for 160 out of 1,070 capital-eligible defendants (14.9%).
The death penalty was authorized for 247 out of 1,260 capital-eligible defendants (19.6%) between
2001 and 2008, and for 52 out of 1,209 capital-eligible defendants (4.2%) between 2009 and 2016.
These data show, even over some recent periods, that few defendants were prosecuted for the death
penalty in relation to those potentially eligible for it. The highest average was in the early 2000s with
approximately 31 capital prosecutions per year. The most recent years had an average of just over
seven capital prosecutions per year.
922 Judge Marcia Crone, E.D. Tex., Public Hearing — Birmingham, Ala., Panel 1, Tr., at 3.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-239

195

AR-2604

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 241 of 342 Page ID
#:27823
FINDINGS

for extensive investigative, mitigation, and other expert assistance in both capital
prosecutions and habeas petitions.923 The same lack of experience also hampers a
judge’s ability to evaluate requests to fund these services, sometimes resulting in
significant delays. According to Ruth Friedman, Director of the 2255 Project, some
federal judges “may be unfamiliar with what constitutes mitigation, for example, or with the extent to which habeas counsel must reexamine all aspects of the
prior proceedings in the case in order to determine what claims to raise. This can
make evaluating the reasonableness of specific requests difficult and again more
time-consuming.”924 This delay reduces the time a petitioner has to collect evidence in support of potentially meritorious claims.
Lack of knowledge among federal judges can have serious consequences
when it leads to appointment of poorly-qualified counsel or failure to approve adequate expert assistance or to do so in a timely fashion. In federal capital prosecutions, the 2010 Spencer Report Update found that, “there is a negative, or inverse,
relationship between the attorneys’ hours on a case and their client’s risk of being
sentenced to death; the more hours dedicated to a case, the lower the risk of a
death sentence.”925 While the Spencer Report reviewed capital trial representations, this dynamic is repeated in habeas cases. The Committee heard significant
testimony from attorneys that the more time and resources they had for investigators and experts for habeas petitions, the greater the probability that their petition
would be successful.926 These issues will be discussed in greater detail below.
923

For example, a guideline from the ABA’s Death Penalty Representation Project explains: “The
defense team must conduct an ongoing, exhaustive and independent investigation of every aspect of
the client’s character, history, record and any circumstances of the offense, or other factors, which may
provide a basis for a sentence less than death. The investigation into a client’s life history must survey
a broad set of sources and includes, but is not limited to: medical history; complete prenatal, pediatric
and adult health information; exposure to harmful substances in utero and in the environment;
substance abuse history; mental health history; history of maltreatment and neglect; trauma history;
educational history; employment and training history; military experience; multi-generational family
history, genetic disorders and vulnerabilities, as well as multi-generational patterns of behavior; prior
adult and juvenile correctional experience; religious, gender, sexual orientation, ethnic, racial, cultural
and community influences; socio-economic, historical, and political factors.” Supplemental Guidelines
for The Mitigation Function of Defense Teams in Death Penalty Cases § 10.11 (2008).

924

Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 18.
925

Kevin McNally, Director, Federal Death Penalty Resource Counsel Project, Public
Hearing — Birmingham, Ala., Panel 3, Writ. Test., at 6.

926

An FPD explained: “One of our clients in federal habeas walked out of death row after 20 years and
four successor petitions. The Ohio courts found that there was DNA and Brady [exonerating evidence]
that was not turned over. We were able to do that because we were the Federal Defender and we had
the resources. If it was a CJA panel [attorney], would they have been able to have the experts, the
tenacity, the investigators? Would a court have allowed them to do what we have done over the years?
That person is out now because of the dedication of the Federal Defenders, but when you have a Judge
making a decision, “Well, I’ve given you money for this, why do I need to give you money for that?” Jon
Sands, FPD, D. Ariz., Public Hearing — Minneapolis, Minn., Panel 5, Tr., at 28.

196

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-240

AR-2605

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 242 of 342 Page ID
#:27824

9.3.1 Inconsistent Defense Across the Nation
As with voucher review and other aspects of the system for delivering public
defense, the Committee found significant disparities in capital cases across districts and circuits. Ruth Friedman, who as Capital 2255 Project Director works to
coordinate representation in these cases across the country, told the Committee that
in some circuits, “there is a history, there is a culture,” of not adequately funding and
supporting effective capital representation, whether at trial or on habeas review.
She said that in these circuits there are clear, “across the board” challenges to effective capital representation. “It’s true in terms of money spent, it’s true in terms of
whether the courts listen to or accept our recommendations. It’s true in terms of
who gets sentenced to death and how many.”927
She summed up the concerning state of affairs:
The level of funding litigants receive for expert and investigative services, as
well as the compensation their CJA counsel receive, appears to be an accident of geography, rather than the result of any uniform standard applied
across all federal jurisdictions. Certainly some differences may be expected
across the country. But where neither state law concerns nor state practices
are legally relevant, the wide variation in the kind of process a federal capital prisoner receives in his collateral proceedings is troubling at best.928
A federal defender in the Philadelphia hearings noted that “the disparity [in]
funding between districts in certain regions in this nation versus the funding given
in other districts is incredibly dramatic. . . . [I]t’s the core of what I’ve described as
a fundamental flaw in the system, [which] is that we’ve got a totally deregulated
system that turns on individual judges’ appreciation of the defense function.”929
Therefore, a person facing a death sentence in one district may have a “wildly differently funded defense” than someone in another district under what should be a
national standard of due process and effective Sixth Amendment representation.930
The Committee is deeply concerned that sheer geography or judge assignment
could prove to be a substantial factor in deciding whether a defendant will be sentenced to death and executed.
The Committee heard testimony that disparities can be rooted in both formal
and informal policies. The Fifth Circuit, for instance, has a presumptive cap on
attorney’s fees in habeas representations. That Circuit has set its own limitations,
where a fee in excess of $50,000 is considered presumptively excessive,” as is “any
927 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 37.
928 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 17.
929 Jim Wyda, FPD, D. Md., Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 21.
930 Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-241

197

AR-2606

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 243 of 342 Page ID
#:27825
FINDINGS

request for compensation in excess of $15,000” for representations under 18 U.S.C.
§ 2254 for review post-conviction from state court and 18 U.S.C. § 2255 for review of
a federal capital conviction.931 The Committee was told, “These presumptive caps,
coupled with a history in some cases of actually capping counsel’s fees at these
amounts, have operated as a deterrent to competent counsel accepting appointments in capital habeas cases.”932
As previously discussed, presumptive caps limit effective representation by
panel attorneys and discourage zealous advocacy in any type of case. The caps for
capital representation are onerous “especially in Texas, because of the historically
poor representation in state habeas proceedings and the Supreme Court’s decision in Martinez v. Ryan, 132 S.Ct. 1309 (2012), allowing federal habeas counsel to
raise new ineffective assistance of trial counsel claims in federal court” if they can
show that state habeas counsel were ineffective in not raising those claims.933 But
that right is hollow if the lawyers bringing those claims in federal court don’t have
the resources to mount an effective defense.934 Caps in some circuits but not others
ensure that defendants within a national federal system receive varying levels of
resources and representation. This is anathema to any criminal justice system based
on due process and equal protection under the law, especially since defendants’
lives are at stake.

9.3.2 Failings Specifically in Capital
Habeas Representation
The Committee heard a significant amount of testimony about the failure of the CJA
to provide effective, quality representation for defendants in capital habeas proceedings, whether the habeas petitions were submitted under § 2254 or § 2255. The
Committee agrees with a former DSO employee who testified, “I’ve always felt in my
experience working in the program for all these years that death penalty representation puts into high relief problems that exist throughout the entire system.”935

Timeliness of appointment
As mentioned above, judges who lack experience with capital habeas representation often take longer to make crucial decisions, beginning with the appointment of
counsel. The expedient appointment of qualified and knowledgeable counsel can
931

United States Court of Appeals for the Fifth Circuit, CJA Frequently Asked Questions, http://www.
lb5.uscourts.gov/cja/cjaForms/cjaFAQ.htm (last visited October 5, 2017).
932 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 6 n.6.
933 Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 4.
934 Id.
935 Steven G. Asin, Former Deputy Assistant Director, DSO, Administrative Office of the United States
Courts, Public Hearing — Philadelphia, Pa., Panel 7, Tr., at 11.

198

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-242

AR-2607

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 244 of 342 Page ID
#:27826

be the difference between a successful habeas petition and a death sentence. As Ms.
Friedman explained, “[M]ost troubling are the failures of some appointing courts
to recognize what constitutes, and then to appoint, qualified federal capital habeas
counsel . . . or to make appointments of counsel at the earliest possible moment a
case enters post-conviction proceedings.”936
Delay can lead to severe consequences. There is no reliable mechanism for
extending the statute of limitations; if counsel is only appointed after a three-month
delay, that is three months lost for the petitioner to have claims investigated and
supported in the subsequent habeas petition. A federal habeas petition is usually
the last opportunity a person sentenced to death may have to raise legal and factual claims that could negate that sentence. Therefore, “any exhausted issue that has
potential merit must be included in the petition, and any previously unexhausted,
unavailable, or unknown factual/legal issue must be the subject of investigation,
development, and litigation”937 in order to determine if it has merit. Given the statute of limitations, timeliness is of the essence. Within that one year:
ÑÑA

defense team must be identified, recommended, and appointed;

ÑÑCounsel
ÑÑThe

must learn the existing record, which in federal cases is extensive;

team must meet and develop a rapport with the client;

ÑÑCounsel

must begin to assess avenues for investigation;

ÑÑCounsel

must determine preliminary funding needs;

ÑÑAppropriate
ÑÑRecords

expert and investigative resources must be secured;

not collected by trial counsel must be obtained and reviewed;

ÑÑA

thorough fact investigation must be undertaken;

ÑÑA

thorough mitigation investigation must be undertaken;

ÑÑPost-conviction
ÑÑCounsel

claims must be identified;

must prepare and litigate necessary pleadings; and

ÑÑA

§ 2255 [or § 2254] motion with all applicable claims and sufficient factual
support must be filed.938

As noted above, the Resource Counsel’s main focus, as part of the Federal
Capital Habeas § 2255 Project, is to recruit qualified counsel and assist judges and
their staff on issues related to capital § 2255 representation, including identifying qualified counsel. The Model CJA Plan adopted by the JCUS recommends that
936 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 5.
937 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 1.
938 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 3.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-243

199

AR-2608

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 245 of 342 Page ID
#:27827
FINDINGS

judges consult with the local federal defender, who can consult with other offices
and projects to assist with habeas representation. This, however, is not a requirement. Because it is not mandatory, district court judges are under no obligation to
accept federal defender, HAT counsel, or Capital Habeas Project’s recommendations
for learned counsel, often resulting in the appointment of unqualified counsel and
unnecessary delays.
Ms. Friedman told the Committee that attempts to assist in the timely appointment of qualified counsel have not always been well-received, and that defendants
suffer the consequences.
We have tried very hard in each one of the cases that comes along to find
a cost-effective, qualified team ready to go within the time period, and
a judge can and has just said no. . . . Not only does no reason have to be
given for why they are not appointing the team, but they can wait. . . . [T]he
statute of limitations goes in these cases so quickly because they are so
big and there’s no tolling provisions, statutory tolling provisions . . . and if
a judge wants to sit on that, he or she can and just eat into that statute.939
No defendant facing execution should receive less than the full amount of
time the statute of limitations grants to prepare a habeas petition, and no defendant
should be represented by less than qualified counsel. To do otherwise is to compromise due process in the federal criminal justice system.

Failure to Appoint Qualified Counsel
Finding Willing and Able Counsel
The first and most important step to effective representation in a post-conviction
case is the appointment of qualified counsel, yet the Committee heard substantial
testimony about the difficulty in finding experienced attorneys who are willing to
accept § 2254 and § 2255 cases.
A district court judge told the Committee that when she needs to appoint
private counsel to a post-conviction case, “[V]ery few of the attorneys on the CJA
panel qualify as ‘learned counsel’ or are willing to accept capital cases.”940 A federal
defender agreed, writing to the Committee that when asked to assist judges in finding qualified private counsel to handle federal capital habeas cases, she was shocked
and dismayed that the judges, “did not have a list of qualified court-appointed
attorneys to handle this type of highly technical and specialized litigation” to ensure
timely appointment.941 “Additionally, it became readily apparent that the number of
attorneys who are truly qualified and capable of handling this type of litigation were
939 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 16.
940 Judge Marcia Crone, E.D. Tex., Public Hearing — Birmingham, Ala., Panel 1, Writ. Test., at 8.
941 Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 4.

200

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-244

AR-2609

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 246 of 342 Page ID
#:27828

few and far between and were already burden[ed] with a pending caseload of capital
habeas cases and could not take on additional work.”942 She characterized the task of
finding counsel to accept these cases as “extremely difficult.”943
The work of post-conviction review is a strain on private attorneys. “It’s very
time consuming. If you take one of these cases it can consume your practice. A
couple of the panel attorneys essentially lost their practices because they do capital
habeas work.”944 Attorneys that accept habeas appointments also face “significant
changes in the law rendering representation of habeas petitioners more challenging,
and increased responsibilities associated with representing a condemned prisoner,
especially after an execution date is set.”945 On top of those challenges are the scarce
resources granted to post-conviction review, resulting in fewer attorneys willing
to accept or become qualified to accept habeas cases. One federal judge told this
Committee that “Voucher cuts, delayed payments, and relatively low hourly rates
may discourage these attorney[s] from continuing to represent capital defendants
and may deter new attorneys from engaging in this specialty.” 946 As noted immediately above, this means that the few attorneys qualified and willing to be appointed
to post-conviction review already have full caseloads. One of the regional HAT
attorneys told the Committee that, “Within Texas, most of the lawyers who are really
qualified and understand the mission of federal habeas can’t take any more cases.
We are full, so we are looking out-of-state.”947
The difficulty in locating qualified counsel willing to accept § 2254 or § 2255
cases is not limited to Texas. A case budgeting attorney for the Ninth Circuit told the
Committee that “[t]he number of qualified CJA attorneys willing to accept representation of a capital habeas petitioner has decreased over the past two decades.
As a result, district courts within and outside the Ninth Circuit have had difficulty
finding qualified CJA attorneys.”948 One of the reasons for this included “counsel’s
inability to obtain adequate resources in some districts or circuits.”949 Indeed, the
Committee was told that, “most private lawyers at this point won’t take on a case
unless they’re accompanied by a capital habeas unit or a federal defender for the
reason that . . . they’re not going to get the resources paid.”950
942

Id.
Id.
944 Susan Otto, FPD, W.D. Ok., Public Hearing — Santa Fe, N.M., Panel 1, Tr., at 38.
943
945

Kristine Fox, Circuit Case Budgeting Atty., 9th Cir., Public Hearing — San Francisco, Cal., Panel 1,
Writ. Test., at 2.
946 Judge Marcia Crone, E.D. Tex., Public Hearing — Birmingham, Ala., Panel 1, Tr., at 2.
947 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 32.
948 Kristine Fox, Circuit Case Budgeting Atty., 9th Cir., Public Hearing — San Francisco, Cal., Panel 1,
Writ. Test., at 2.
949

Id.
Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 33.
950

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-245

201

AR-2610

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 247 of 342 Page ID
#:27829
FINDINGS

The Director of the ABA’s Death Penalty Representation Project, Emily OlsonGault, told the Committee that without qualified CJA counsel readily available to be
appointed, “at least half the work” of her project to assist in finding representation for
defendants in post-conviction proceedings is now dedicated to “recruiting law firms
to take post-conviction cases, state and federal. It is enormously time consuming and
difficult and getting law firms to sign onto these cases is incredibly hard and we are
often unsuccessful.”951 In her testimony, Ms. Olson-Gault referenced a large law firm
in Alabama that told her it had received a call from the chief of the Alabama Supreme
Court essentially begging the firm to take death penalty cases pro bono. “It had come
to that . . . that there was not a readily-available pool of volunteer lawyers to do this.”952
Those within the criminal justice system told the Committee that they were
deeply concerned about their continuing ability to appoint experienced counsel to
federal habeas cases. One federal judge testified that she was particularly concerned
about the lack of new, younger attorneys pursuing this line of work. “Most of the
people who we appoint are my age or older, and they’re retiring, they’re not going
to continue to accept these cases.”953 And Ms. Friedman told the Committee that the
burden on offices dedicated to taking capital habeas cases was becoming too great;
the offices were concerned about their own staffing and resources. “[A] lawyer I’m
very fond of who runs a capital habeas unit says [that] when he hears that I’m on
the phone he picks up the phone and says ‘no.’ It’s true. Where do we go? . . . I literally don’t know where I’m going to go when the next cases come.”954
Caseloads and Quality Representation
Witnesses told distressing stories about what happens in the growing number of
cases in which a highly qualified attorney is not available. As one witness said,
counsel are often appointed who do not provide effective representation.
The results are disastrous for their clients. In at least ten Texas capital
habeas cases, lawyers have missed the statute of limitations — including one Houston lawyer who missed the deadline in three cases. The
lawyer who missed three deadlines continued to receive federal capital
habeas appointments until a reporter interviewed the Chief Judge of the
Southern District at the time, who had been unaware of the problem.955
951

Emily Olson Gault, Director, ABA Death Penalty Representation Project, Public
Hearing — Birmingham, Ala., Panel 4, Tr., at 25.
952 Id. at 25.
953 Judge Marcia Crone, E.D. Tex., Public Hearing — Birmingham, Ala., Panel 1, Tr., at 2.
954 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 33.
955 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 2 (citing Lisa Olsen, Texas Death Row Lawyers’ Late Filings Deadly to Inmates:
Tardy Paperwork Denies Final Appeals for 9 Men, 6 of Whom Have Been Executed, Hou. Chron., Mar.
22, 2009, at A1).

202

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-246

AR-2611

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 248 of 342 Page ID
#:27830

The Committee on Defender Services’ Report on Death Penalty Representation
recommended that a full-time attorney in a Capital Habeas Unit work on no more
than four to six cases at any one time, viewing this as a standard for the profession.956 But panel attorneys, who typically lack the support staff and other assistance
available to assistant federal public defenders in CHUs, routinely have to juggle
more of these very serious cases.
For example, in 2013 a Northern District judge and Southern District
judge appointed the same lawyer to two capital habeas cases with petitions due on the same day in 2014. This same lawyer was appointed to
two capital habeas cases from different districts due within the same
week in 2016, and he has 11 other capital habeas cases as well as a significant non-capital CJA appellate workload . . . . Lawyers with impossibly
large caseloads cannot perform the work necessary for adequate representation in these complex and labor-intensive cases.957
Because there is no centralized office or database to track appointments and
caseloads, “the courts often appoint lawyers who have little or no capital habeas
experience or have such large caseloads that they are unable to give the cases the
attention they require.”958 This means that petitioners with meritorious claims
may be appointed counsel who fail to file the habeas petition within the one-year
statute of limitations, precluding any federal review of their clients’ claims. The
Committee did not need to rely on testimony and written submissions alone to
document these failures; news reports have confirmed that overworked habeas
attorneys miss statute of limitations deadlines with alarming frequency in articles
like “Slow Paperwork in Death Row Cases Ends Final Appeals for Nine,”959 “The
Burnout,”960 and “Death by Deadline.”961 While the weaknesses of the current
structure of defense delivery under the CJA are deeply concerning in other areas
of criminal defense, they are most stark in these cases where defendants, whose
lives hang in the balance, fail to receive adequate and effective representation.

956

Committee on Defender Services, Report on Death Penalty Representation (1995).
Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 2
958 Mark Olive, National Habeas Assistance and Training Counsel, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 7.
959 Houston Chronicle (March 21, 2009), http://www.chron.com/news/houston-texas/article/Slowpaperwork-in-death-row-cases-ends-final-1736308.php.
960 Marshall Project (June 9, 2015), https://www.themarshallproject.org/2015/06/04/the-burnout#.
f7Uksx05b.
961 Part One, Marshall Project (November 15, 2014), https://www.themarshallproject.org/2014/11/15/
death-by-deadline-part-one#.bMnJCSsNv. See also Part Two (November 16, 2014), https://www.
themarshallproject.org/2014/11/16/death-by-deadline-part-two#.xWvcNyorv.
957

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-247

203

AR-2612

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 249 of 342 Page ID
#:27831
FINDINGS

Out-of-District Appointments
Because finding qualified counsel willing to accept federal habeas cases can be
exceedingly difficult, district judges sometimes seek to appoint federal defenders
from outside their district or circuit. These federal defenders regularly improve the
quality of representation and bring resources necessary in these cases. There was a
particular need for outside assistance in the circuits which had banned their own
federal defenders from creating CHUs. However, these same circuits have also discouraged the appointment of defenders located outside their circuit.962 Objections
voiced by those circuits’ judges led to the creation of a Judicial Conference policy
making more burdensome the appointment of federal defenders from outside their
circuit. A retired district court judge testified that during the time he was Chair
of the Defender Services Committee, shortly after an out-of-state attorney was
appointed to capital habeas case, he received a call from the chief judge of the circuit in which that case was pending:
Not even asking, basically directing me to unappoint that capital habeas
unit lawyer. I told the chief judge I couldn’t do that. I hadn’t appointed
the lawyer and couldn’t unappoint him, but I asked why. The [circuit
judge answered] there were plenty of law school clinics within this circuit
that would represent death row inmates for free, including in the capital
habeas setting. . . . It’s a national program, and it’s not only not a bad thing
to have, to use the resources from one circuit to fill the needs in another,
but it’s actually a good thing. [However,] the chief judge of a United States
Court of Appeals [responded] that it violates the principles of federalism
for a federal defender to go from one circuit to another to help [on] a federal habeas petition.963
This was not an aberration; the Committee heard multiple stories of judges
who would not appoint qualified lawyers from outside their districts, even though
the lawyers were known to be highly experienced and willing to accept CJA rates
substantially below their own. One witness described a federal capital habeas proceeding in the Eighth Circuit, where shortly after a team of private attorneys agreed
to represent the defendant, the district court informed the attorneys,
962

AO Memo from Theodore J. Lidz to all Federal/Community Defenders Re: Out-of-District
Representations [Revised], Nov. 10, 2008 at 2. “Requirement: All out-of-district representations (other
than those established in the local CJA plan) must be approved by the Office of Defender Services
(ODS) prior to the appointment. Prior to approving a representation for a federal public defender
organization (FPDO), ODS or the requesting FPDO will notify the chief judge of the circuit of the
FPDO, and ODS will notify the chief judge of the circuit in which the appointment would be made.
In addition to the foregoing requirements, and any other notifications that may be required by your
district or circuit, all FDOs should consider informing the chief judges of their district and the district
where the representation will occur (and, for CDOs, the chief judges of their circuit and the circuit
where the representation will occur).”
963 Judge John Gleeson (ret.), E.D.N.Y., Public Hearing — Miami, Fla., Panel 3, Tr., at 3–4.

204

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-248

AR-2613

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 250 of 342 Page ID
#:27832

“You can’t come in and represent this fellow because you’re from out of
state and we don’t want to pay to bring you in from out of state.” These were
people who actually knew what they were doing. . . . The lawyers quite graciously said, “We won’t charge you for traveling to Missouri to represent this
person. We’ll just charge you for our time.” [The court] still wouldn’t appoint
them. They entered pro bono, and [the court] still [wouldn’t] appoint them.
The Eighth Circuit affirmed that, and, of course, the Supreme Court reversed
and said you’ve got to appoint the lawyers. Then, the lawyers submitted a
budget of $161,000, and the District Judge gave them $10,000.964
The refusal by judges in some districts and circuits to allow panel attorneys or
defenders from CHUs outside of the district or the circuit to be appointed to represent the petitioner may have resulted in greater costs, and almost certainly lowered
the quality of the petitioner’s representation. Despite the need for high-quality,
cost-effective counsel, “some circuits have categorically barred federal defenders
[even those within the circuit] from representing any habeas petitioners under any
circumstances . . . Thus, the community of lawyers with the most federal experience,
independence, and access to resources has been excluded from litigating federal
habeas issues.”965
Professor Sean Kennedy wrote to the Committee that, “All these administrative
restrictions on federal habeas counsel chill zealous, high-quality representation in
death penalty cases and interfere with counsel’s ability to make key strategic decisions
that carry huge consequences for the client. Consequently, I urge this Committee to
recommend that the administrative restrictions be abolished forthwith.”966

Inadequate Funding
As the Supreme Court has repeatedly affirmed, “death is different,”967 and so any
structural or policy impediments to full and effective representation are inimical to
a criminal justice system that values fairness, process, and rule of law. The issues
964

Stephen Bright, President, Southern Center for Human Rights, Public Hearing — Miami, Fla., Panel
4, Tr., at 3 – 4.
965 Professor Sean Kennedy, Center for Juvenile Law & Policy, Loyola Law School — Los Angeles,
Public Hearing — Birmingham, Ala., Panel 3, Writ. Test., at 1 (provided to the Committee).
966 Id.
967 See, e.g., Furman v. Georgia, 408 U.S. 238, 286–89 (1972) (Brennan, J., concurring) (“[d]eath is a
unique punishment”; “[d]eath . . . is in a class by itself”); Gregg v. Georgia, 428 U.S. 153, 188 (1976)
(joint opinion of Stewart, Powell, and Stevens, JJ.) (“penalty of death is different in kind from any other
punishment” and emphasizing its “uniqueness”); Woodson v. North Carolina, 428 U.S. 280, 305 (1976)
(joint opinion of Stewart, Powell, and Stevens, JJ.) (“penalty of death is qualitatively different from a
sentence of imprisonment, however long”); Lockett v. Ohio, 438 U.S. 586, 604 (1978) (“qualitatively
different”); Spaziano v. Florida, 468 U.S. 447, 459 (1984) (“qualitative difference of the death penalty”);
id. at 468 (Stevens, J., concurring in part and dissenting in part) (“death penalty is qualitatively
different . . . . and hence must be accompanied by unique safeguards”); Wainwright v. Witt, 469 U.S. 412,
463 (1985) (Brennan, J., dissenting) (citing “previously unquestioned principle” that unique safeguards
necessary because death penalty is “qualitatively different”).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-249

205

AR-2614

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 251 of 342 Page ID
#:27833
FINDINGS

facing private attorneys appointed to capital habeas cases are ones explored previously in this report regarding CJA panel attorneys generally — voucher cutting,
unreasonably low presumptive caps, and the failure to approve necessary resources.
Each is discussed below in the context of capital habeas litigation.
Voucher Cutting
The committee heard concerns from across the country about CJA panel attorneys
not being paid, service providers that were not approved and paid, and repeated
complaints about voucher cuts. Emily Olson-Gault, director of the ABA’s Death
Penalty Representation Project, testified that her project receives a “constant
stream of people contacting us at both the state and the federal level in post-conviction saying, ‘My judge isn’t giving me what I need. I don’t know if I can pay my
rent next month. I don’t know if I can stay on this case.’ It’s a huge ethical conflict
[for the attorney]. It’s a huge problem in terms of recruitment of lawyers and it’s
pervasive throughout the system.”968
Depending upon geography or judicial assignment, vouchers in death-penalty
cases may be substantially cut. One private attorney who works in both the Eighth
and Tenth Circuits told the Committee that she had never had vouchers cut in the
Tenth Circuit, only in the Eighth. She explained that the Eighth Circuit regularly
reduces capital vouchers and that her law partner, has also had her death-penalty
vouchers cut. “We have challenged those. One time it was by about a third, and
when we challenged it, we got a little bit more money but not the vast majority of
it. . . . [I]t was just questioning whether the work that was done in end-stage litigation was proper or not.”969 The panel attorney believed the difference between the
circuits was due to circuit culture and judges’ personalities. “There is a real split on
the court as to their views on the death penalty generally and I think sometimes it is
reflected in the voucher.”970
National Habeas Assistance Training Counsel confirmed that voucher cutting
threatened effective representation and the ability to recruit qualified counsel for capital representation work. He offered the following examples: Attorney fee of $50,000 cut
to $25,000, a fee of $38,000 cut to $3,500, representing more than a 90 percent reduction in compensation, and a fee of $126,000 cut to $30,000.971 Those cuts are not only
putting lawyers on notice not to zealously advocate for clients, but “with that cutting
it’s very difficult to recruit new people or to have very efficacious representation with
the people that are committed to do the [federal capital habeas] work.”972
968

Emily Olson Gault, Director, ABA Death Penalty Representation Project, Public
Hearing — Birmingham, Ala., Panel 4, Tr., at 18.
969 Melanie Morgan, CJA Dist. Rep., D. Kan. & W.D. Mo., Public Hearing — Santa Fe, N.M., Panel 5, Tr.,
at 37–38.
970 Id. at 38.
971 Mark Olive, National Habeas Assistance and Training Counsel, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 8.
972 Id.

206

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-250

AR-2615

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 252 of 342 Page ID
#:27834

Barriers to Hiring Experts and Specialized Services
The greatest obstacle to fairness for habeas litigants, assuming they have been
appointed qualified and capable attorneys, is the inability to obtain adequate
resources to effectively mount a habeas defense. “Without sufficient expertise, or
necessary investigative or expert help, even the best-intentioned attorneys will not
be able to properly investigate, plead and establish constitutional or statutory violations in the one post-conviction proceeding to which their clients are entitled.”973
The failure to provide resources for habeas work has severe consequences for petitioners whose appointed lawyers cannot adequately represent them without such
resources.
As with many other aspects of the CJA, where a habeas petitioner’s case is
being heard can determine whether they will receive the necessary resources. The
Committee was informed that, “while some circuit courts extend deference to the
district court’s judgment that the requested services are necessary, others routinely
cut and/or deny the level of funding approved by the district court.”974 Attorneys
in some districts may receive no resources at all; the Committee was told that one
district judge “has an announced practice of providing no funding for any investigative, expert or other services provided for by Section 3599(f).”975 While some districts
or circuits are particularly hostile to funding habeas work, the committee heard
complaints from across the country about lack of approved funding for experts. The
Committee received written testimony that,
Among the requests that were denied was an application for the services
of a forensic pathologist to examine the wounds present on the body of
the deceased, which the Government successfully argued at trial proved
the aggravating factor [that triggered the capital sentence] that the victim
had been tortured by a stun gun before being killed. Habeas counsel was
unable to challenge the Government’s version of the crime because of the
court’s funding denial. After the § 2255 motion was denied without an
evidentiary hearing, a forensic pathologist opined that the alleged “stun
973 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 2. Richard Burr, Texas Regional Hat Counsel, also explained: “In more than
half of the capital federal habeas petitions filed in Texas, counsel raise only record-based issues.
Only on rare occasions can record-based issues lead to relief in federal court. The reason is obvious:
Numerous other courts have reviewed the same issues and found them wanting. The rate of success
is exponentially higher if the petition includes well-investigated-and-developed, non-record-based
issues such as ineffective assistance of counsel for failing to investigate material facts, the concealment
of facts by the prosecution that would have been helpful to the defense, and the demonstrable
unreliability of scientific evidence presented by the prosecution. These are the kinds of issues that
change the equities in a case.” Richard Burr, Texas Regional Habeas and Assistance Project, Public
Hearing — Birmingham, Ala., Panel 3, Writ. Test., at 2.
974 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 15.
975 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 5–6.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-251

207

AR-2616

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 253 of 342 Page ID
#:27835
FINDINGS

gun wounds” were actually the product of post-mortem insect bites.976
Some district judges don’t understand what is involved or necessary in habeas
proceedings, and so will deny requests for services to develop evidence outside the
record. One district judge stated to habeas counsel, “I can’t imagine why you would
need an investigator to file a Section § 2255 petition which should only involve legal
issues” even though such an investigation is crucial to the petition; this judge also
informed the appointed attorney that the petitioner “could obtain the services of
either a psychologist or a psychiatrist, but not both, despite a demonstrated need in
the case for the different types of expertise each could offer. The district judge then cut
the requested amount of funds for this expert by two-thirds without explanation.”977 In
contrast, one district court judge explained, the statutory presumptive limit of $7,500
under § 3599(g) is “inadequate by more than an order of magnitude.”978
While appointed attorneys face ethical conflicts about how to conduct their
appointed cases, petitioners’ due process and Sixth Amendment rights are at stake.
A lawyer from Texas described the situation that he and others face:
You’re always way past $7,500, so you have to have the district judge’s
approval, and the district judge then recommends to the chief judge of
the circuit or designee to approve that budget. . . . They take a long time,
and the clock is running on the statute of limitations. It creates a terrible
vice when you’re working against a one-year statute of limitations. You
need the funding, the district court has recommended the funding, it’s
way over $7,500, and you’re waiting for the chief judge’s approval or cut.
You can’t hire people until that’s done. When you do finally get word that
it’s been approved, then you have to have time to catch back up with your
investigators and experts because their lives have gone on and they’re
continuing to work on other cases. It’s a very difficult process.979
This process for funding investigative and expert services is so fundamentally
flawed that the Committee was told it was not voucher cuts but the inability to get
resources for service providers that kept attorneys from taking § 2254 and § 2255
appointments.
It’s not their fees. It’s funding for investigation and experts. We know that’s
been a huge difficulty within our circuit and within our state. When I get
somebody interested from out of state . . . I have to talk with them about
976 Ruth Friedman, Director, Federal Capital Habeas Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 14–15.
977 Id. at 15.
978 Joseph St. Amant (submitted via Judge Marcia Crone), Senior Appellate Conference Atty., 5th Cir.,
Public Hearing — Birmingham, Ala., Panel 1, Writ. Test., at 5.
979 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Tr., at 32.

208

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-252

AR-2617

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 254 of 342 Page ID
#:27836

the battle to get funding for resources for investigation and experts, and
that is a huge deterrent to people coming in. Because people understand
that without those resources they cannot do their job.980
Finally, § 3599(f), which provides for payment upon a finding that “any investigative, expert, or other services are reasonably necessary for the representation
of the defendant” also provides that “no ex parte proceeding, communication, or
request may be considered” for purposes of making such a finding “unless a proper
showing is made concerning the need for confidentiality.” In theory, this should
not impose a great burden on counsel. In practice, some courts have read this as a
near categorical proscription of ex parte requests for expert and other services. As
a result, habeas counsel in some districts and circuits are forced to litigate for the
funding for any third-party services while the one-year statute of limitations is running. This unnecessarily takes time away from a defendant’s ability to have issues
adequately investigated and mount a defense.
This is a particular problem in Texas, which rarely allows ex parte requests
and where the state often mounts opposition to funding requests in § 2254 habeas
proceedings. The problem is compounded by inevitable delays in seeking circuit
approval of expert costs. While requests for resources are necessary in all cases,
those requests in Texas have,
become the subject of adversarial opposition by the Respondent in Texas cases.
Although case budgeting and requests for ancillary services . . . are administrative in nature, the process has become enmeshed in adversarial litigation,
and therefore more inefficient and much more costly than necessary . . . . The
delays associated with this process as a whole too often means that, even if the
requested services are eventually authorized, they arrive too late for counsel to
make effective use of the services before the statute of limitations expires.981

Insufficient Training
As the United States Supreme Court explained in McFarland v. Scott, 512 U.S. 849
(1994), the statutory right to habeas counsel “reflects a determination that quality legal
representation is necessary in capital habeas corpus proceedings in light of the seriousness of the possible penalty and . . . the unique and complex nature of the litigation.”
During this Committee’s hearing in Santa Fe, a panel attorney testified that
he had never had any training to take a habeas case. He recalled that, upon being
appointed to one, “I thought I was going to pass out because I had never handled
one. And so, what I did is I reached out to some colleagues in Austin who had done
death penalty cases and got some guidance from them and tried to figure out how I
980

Id.
Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 6–7.
981

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-253

209

AR-2618

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 255 of 342 Page ID
#:27837
FINDINGS

should navigate representing someone whose death penalty has been imposed.”982
He informed the Committee that he was not aware of anyone in the district who had
been given any habeas training, and that was something needing to be addressed.983
Comprehensive training is a necessity in death penalty cases. Without training, attorneys overlook claims or make mistakes that could fatally undermine their
clients’ ability to obtain relief. Emily Olson-Gault told the Committee that her ABA
Project utilizes strategic counsel and experienced advisors to assist less-knowledgeable counsel. The purpose is to try and prevent,
failure to investigate certain types of claims that might not be obvious to
someone who hasn’t done this work before. There are several very, very
tricky parts to capital representation, but one of the tougher parts is that
the law is so constantly changing . . . and if you don’t preserve a claim right
now, even if that claim isn’t a viable claim under current law, the law may
well change long before your client’s case reaches the end. If you didn’t
bring it up now, it’s now waived.984
Inexperienced counsel cannot adequately prepare capital cases alone. Another
panel attorney told the Committee that after being appointed to a case, “We did
seek the services of a third lawyer who has expertise in death penalty. . . . We have
submitted an extensive budget plan, asking for funds for expert witnesses. It really
opened my eyes to the necessity of training . . . some really comprehensive training to
handle these types of cases.”985
National HAT Counsel told the Committee it was true that habeas corpus law
is difficult and complex. “It is manageable, however, and people can learn it and
people can apply it and people do.”986 One of the issues with learning this law, he
said, was the need for continuous training: “Unfortunately, it changes so rapidly once
you learn it, it is as if the ground is moving beneath you.”987 A CJA panel attorney
supported this point in her testimony, telling the Committee that although the federal defender was trying to train panel attorneys to handle habeas cases, the training
was “just so infrequent. . . then you are finding people who are thrown into really endstage litigation, who don’t have the extensive knowledge base that is required.”988
Regional HAT Counsel Dick Burr not only confirmed the lack of adequate
training for panel attorneys who work capital habeas corpus cases, he noted a culture in his state of refusing outside assistance. He told the Committee that while
982

Richard Esper, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 7.
Id.
984 Emily Olson Gault, Director, ABA Death Penalty Representation Project, Public
Hearing — Birmingham, Ala., Panel 4, Tr., at 26.
985 Richard Esper, CJA Panel Atty., W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 44.
986 Mark Olive, National Habeas Assistance and Training Counsel, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 7.
987 Id.
988 Melanie Morgan, CJA Dist. Rep., D. Kan. & W.D. Mo., Public Hearing — Santa Fe, N.M., Panel 5, Tr., at 45.
983

210

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-254

AR-2619

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 256 of 342 Page ID
#:27838

there are approximately 175 inmates on death row in Texas, only about half of their
attorneys work with the eight Texas HAT resource counsel. “We can make some
difference when lawyers work directly with us, but no matter what kind of training
we do, what materials we provide, how much exhortation we provide, many, many
of the lawyers who are appointed treat these cases as direct appeals in federal court
and that is fundamentally what they are not.” Unfortunately, even with access to
assistance, some appointed attorneys were not taking advantage of it, and it “has
created a system whereby the mission of federal habeas has been decimated.”989
Some courts are taking constructive actions to address the training shortfall. A
district court judge told the committee:
In southern Nevada we have initiated a pilot program regarding the
training, support, and review of our CJA appellate/habeas attorneys.
This program was initiated last year. It has two components. First, it
includes an intensive training component. All CJA appellate/habeas
attorneys were required to participate in a two-day training seminar
sponsored by the Court. This two-day seminar included nationally recognized speakers in appellate advocacy. During the two-day seminar,
appellate attorneys were encouraged to bring drafts of current briefs
they were drafting. Second, the program includes a mandatory support
component. All appellate/habeas attorneys were/are required to submit
a current brief they are drafting to an advisory/support committee.990

Capital Habeas Units
Overwhelming evidence shows that CHUs provide zealous and effective representation. And CHUs, like traditional federal defender offices, do not need to seek
judicial approval for needed expert and other services. For this reason, attorneys
working within a CHU are seven times more likely to use experts in habeas corpus
proceedings991 Over time, more circuits and districts have turned to CHUs to provide the full-time attorneys and support staff necessary to litigate these cases. A
federal defender explained,
In order to navigate this “unique and complex” area of jurisprudence,
CHUs employ attorneys, investigators, paralegals, and other administrative support personnel and train them in the art of capital representation.
In turn, CHU staff members investigate, develop, and plead claims of
constitutional error for their clients. . . . CHU staff must not only become
989 Richard Burr, Texas Regional Habeas and Assistance Project, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 4–5.
990 Judge Richard Boulware, D. Nev., Public Hearing — San Francisco, Cal., Panel 5, Writ. Test., at 3.
991 Mark Olive, National Habeas Assistance and Training Counsel, Public Hearing — Birmingham, Ala.,
Panel 3, Writ. Test., at 8.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-255

211

AR-2620

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 257 of 342 Page ID
#:27839
FINDINGS

experts at conducting civil discovery, for example, but must also be able
to delve into highly sensitive matters such as the client’s family, social,
mental health, and other medical history to develop the case in mitigation;
reinvestigate the case from the trial level; absorb and synthesize reams of
documents pertaining to the client’s life history; and assemble and gain
command of a court record that often spans years of prior litigation.992
CHUs are uniquely qualified to accept and effectively represent death penalty
habeas clients while keeping costs lower than those expended on private attorneys providing commensurate representation. Many of the federal judges who
addressed the issues surrounding capital habeas corpus cases also are strong supporters of CHUs. A district court judge who has handled a large number of capital
habeas cases told the Committee, “I’m in favor of the establishment of a capital
habeas unit comprised of a small group of specialized attorneys who handle capital habeas cases originating in both federal and state court, who would be more
efficient and cost effective. That sentiment is shared by the US Attorney and the
federal public defender from my district.”993
Creation of a CHU is just a first step; the unit must also be adequately
funded and staffed. A former DSO employee testified that, “There are circuit
courts . . . aggressively limiting the resources made available to counsel appointed in
capital cases, and arbitrarily limiting the number of attorney staff in federal defender
offices. Whether this is being done for ideological or financial reasons, it is an
affront to the right to counsel and the independence of the defense function.”994 This
attitude seems to be softening. As noted above, the Fifth Circuit recently embraced
the creation of two CHUs within its jurisdiction.
Professor John Carroll, who spoke of the “spotty,” and in some places “incredibly bad” representation in capital habeas cases, recommended having a CHU in
every district and circuit that has sufficient need for them:
Federal habeas corpus really represents the only hope that a person on
death row has for any sort of relief in early involvement of the federal
defender. I think emphasizing the need for Capital Habeas Units, the
value that they bring to the system is the approach that I would take.995

992

It should be noted that habeas appeal is a civil, not criminal, matter. E.g., McFarland v. Scott, 512
U.S. 849 (1994).
993 Judge Marcia Crone, E.D. Tex., Public Hearing — Birmingham, Ala., Panel 1, Tr., at 3.
994 Robert Burke, Former Chief, Training Division, DSO, Public Hearing — Philadelphia, Pa., Panel 7,
Writ. Test., at 4.
995 Mag. Judge John Carroll (ret.), M.D. Ala., Public Hearing — Minneapolis, Minn., Panel 3, Tr., at 13.

212

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-256

AR-2621

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 258 of 342 Page ID
#:27840

9.4 Opt-in and Prop 66 —
Future Concerns
9.4.1 State “Opt-in” Under Federal Law
As discussed earlier, the Antiterror­ism and Effective Death Penalty Act of 1996
created special fast-track procedures for capital habeas cases if the state “has
established a mechanism for the appointment, compensation, and payment of
reasonable litigation expenses of competent counsel in State post-conviction proceedings.”996 Thus far, no state has established its eligibility for these fast-track procedures. However, Texas and Arizona have applied for opt-in certification.
No decision has been made on certification for either state. The Final
Regulations require DOJ to publish notification of applications in the Federal
Register and make the applications available on the Internet. A public comment
period is also required before final certification. If DOJ does certify that a state
has established mechanisms for the appointment and compensation of competent counsel and the provision of adequate resources to them, that decision can be
appealed to the District of Columbia Court of Appeals for a de novo review.
Under opt-in, a petitioner has 180 days to file a petition rather than one year.
This time begins to run when the direct appeal is final. If state habeas counsel has
not filed a petition promptly upon conclusion of direct appeal, the petitioner may
have even less time. Counsel appointed to the case will have to complete not only
an investigation into the underlying case, but also an investigation into whether the
state habeas lawyer provided effective representation. This work is difficult to complete even within a year; with half that time, the task will be Herculean.
The Federal Defender in Arizona estimated that 37 of their active capital habeas
corpus cases would be directly impacted by opt-in certification. There are nine additional capital habeas corpus cases in Arizona staffed by attorneys from other CHUs or
CJA panel members. All will need training and advice on litigating these cases under
opt-in. Additionally, the District of Arizona FPDO anticipates that if the state obtains
certification and opt-in becomes effective, the FPDO could receive as many as 47
new cases in 2017 alone. (Without opt-in the workload is estimated to be four new
habeas cases.) The Arizona CHU does not have a sufficient number of qualified attorneys to handle a surge in filings of this magnitude. The federal defender estimates he
would have to double the current size of his CHU. Specifically, the office would need
48 additional staff to work these extra cases: 16 attorneys, eight fact investigators,
eight mitigation investigators, eight paralegals and eight assistant paralegals.
The impacts are not just on the attorneys; there will be increased pressure on
the courts as well. The district court will have 450 days from the date the petition
996

28 U.S.C. §§ 2261−2266.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-257

213

AR-2622

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 259 of 342 Page ID
#:27841
FINDINGS

is filed or 60 days from the date the case is submitted for decision, whichever is
earlier, to reach a final determination, with at most a possible 30-day extension.
The court of appeals will have 120 days after the reply brief is filed to issue an
opinion. If Texas and Arizona, as well as other states, are granted opt-in, it will put
tremendous strain on a system that is already insufficient to handle capital habeas
petitions. While the costs to defender and court budgets would be enormous, the
danger this poses for petitioners, who may not receive quality representation and
due process, is most concerning.

9.4.2 California — Proposition 66
In November 2016, California voters narrowly passed Proposition 66 (commonly
referred to as “Prop 66”). Prop 66 provides that the current backlog of approximately 515 capital habeas cases be eliminated within five years. It also provides
that in the future all review of appellate and post-conviction death sentences be
completed within five years of imposition. The proposition effectively eliminates
successive habeas petitions. It will also force the state Judicial Council to reevaluate the standards for appointing counsel to make them less restrictive and bar
qualified counsel from declining appointments to these cases. Authority to appoint
capital counsel would move from California Supreme Court to the trial courts, and
appellate counsel and habeas counsel would be appointed at the same time to
create parallel litigation tracks.
Counsel at the state level would be required to file a state habeas petition
within one year of their appointment, and the trial court would be required to
render a decision on the habeas petition within one year of the filing. An appeal to
the intermediate court of appeal must be filed within five years. The proposition
would also allow for ineffective assistance of counsel claims to be raised on habeas
appeal, even though the direct appeal would be running concurrently.
In deciding a facial challenge to the proposition, the California Supreme Court
ruled that the proposition’s time limits are directive rather than mandatory. More
than 350 people convicted and sentenced to death in California are currently awaiting appointment of habeas counsel. Thirty-two are preparing their petitions, and
125 have a petition on file.
If California courts hew strictly to these time limits, the four federal districts in
California can anticipate that these 515 cases will be added to their current caseloads within the next five years. This would approximately triple their total current
capital caseload. It is doubtful that they can find sufficient numbers of qualified
counsel able and willing to take these cases. Additionally, there are only two CHUs
in California, and they do not have the necessary staff to litigate these cases.

•

214

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-258

AR-2623

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 260 of 342 Page ID
#:27842

Section 10: Concerns
About Defender
Information Technology
In an increasingly technology-driven world, data collection and analysis is central
to program administration. Studying the Criminal Justice Act program in the early
1990s, the Prado Report highlighted the difficulty that the Committee faced trying
to evaluate a program for which there was no reliable data. At the time, there was
“no comprehensive system for identifying and obtaining pertinent, reliable data and
evaluating the overall efficiency and effectiveness of the program.”997 The absence
of such a system, and the ensuing lack of “appropriate and comprehensive administrative oversight”998 and “focused data collection and evaluation procedures,”
represented “serious deficiencies in a government program.”999 At the time of those
findings, the CJA program budget was only $200 million annually. It is now more
than $1 billion, but lack of access to reliable data about the program is no less of an
issue today than it was twenty-five years ago.
As already discussed, data on the CJA panel is seriously deficient, especially
in the area of voucher review. But there is also a dearth of systematic, national
data on the work of federal defender offices. Individual offices collect their own
data to inform staffing, provide internal accountability, and secure funding that is
essential to [their] mission.1000 Data generated by federal defenders does not only
involve budgets and oversight, however. In the course of representing their clients,
defenders generate vast amounts of sensitive information that is privileged work
product, protected under attorney-client privilege and which defenders have an
ethical obligation to keep confidential. At this time, however, the data defenders
997

Prado Report at 41.
Id. at 43. The Committee also stated that any administrative oversight should include, “a safe
mechanism for reporting improper interference with the delivery of legal services.” Id.
999 Id.
1000 Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Writ. Test., at 2.
998

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-259

215

AR-2624

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 261 of 342 Page ID
#:27843
FINDINGS

collect is neither secure nor readily usable for purposes of effectively managing
and overseeing these offices.
Attorneys have two separate obligations that govern their actions regarding
information generated in the course of representing clients: a legal obligation to
maintain attorney-client privilege and the work-product doctrine, and an ethical
duty to maintain client confidentiality.1001 The confidentiality requirement “applies
not only to matters communicated in confidence by the client but also to all information relating to the representation, whatever its source.”1002 Attorneys must also
undertake “efforts to prevent the inadvertent or unauthorized disclosure of, or unauthorized access to, information relating to the representation of a client.”1003 The
prohibition against disclosure of confidential information is broad, and “applies to
disclosures by a lawyer that do not in themselves reveal protected information but
could reasonably lead to the discovery of such information by a third person.”1004 In
short, information security is absolutely necessary to the practice of public defense.

10.1 IT Programs and Functions
There are three different software programs (collectively “defender data” or
“defender IT”) that defenders use to collect, send, and analyze confidential information regarding their clients:
1. Lotus Notes email, which is used daily by defenders and contains massive amounts of highly confidential information about client representations.”1005 The email program is the vehicle for communicating with clients
and co-counsel, discussing strategy, and preparing every aspect of a defendant’s case. Many of these emails clearly fall under the categories of work
product or attorney-client communication.
2. defenderData, or “dData,” the federal defender timekeeping and case
management system. Defender offices open and close cases and input
time spent into the system, and some offices input detailed case notes that
include summaries of witness interviews, attorney client conversations,
and strategy decisions, among other privileged information. The application also links to the discovery associated with a representation.1006 Federal
1001

See Model Rules of Prof’l Conduct r. 1.6, 5.3 (explaining that the attorney-client privilege belongs
to the client and can be waived only by the client’s informed consent).
1002 See Model Rules of Prof’l Conduct r. 1.6 cmt. 3.
1003 Model Rules of Prof’l Conduct r. 1.6(c).
1004 Model Rules of Prof’l Conduct r. 1.6 cmt 4 (emphasis added).
1005 Letter from Jon Sands, FPD, D. Ariz., to Cait Clarke, Chief, Defender Services Office,
Administrative Office of the United States Courts (December 2, 2013) (discussing defender misgivings
about reorganization and defender IT).
1006 See Memorandum to Judge John Bates on Sensitivity of Defender Services Data (2013).

216

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-260

AR-2625

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 262 of 342 Page ID
#:27844

defenders accepted this case management system “only after several
prerequisites were met. Chief among these was that the database administration would remain under the control” of the Defender Services Office
and the National Information Technology Operations and Applications
Development (NITOAD)branch.1007
3. DSMIS “collects and aggregates data about cases from multiple sources into
a single database for program analysis,”1008 including from dData, and thus
contains confidential information. It does not contain information as sensitive as dData itself, but because defenders were concerned about the violation of their professional responsibilities, a protocol for implementation
and use of DSMIS was developed with the AO. The principles guiding that
protocol were: “(1) ensuring defenders could provide information without
violating their ethical duties of confidentiality; and (2) the Judiciary’s recognition that DSO exclusivity is essential to preserving the confidential attorney-client information and the independence of the defense function.”1009
All three of these systems either contain or directly link to systems that contain
confidential and privileged client information. Even though the defender program
is managed by the AO, it is “imperative to keep the technology systems of a federal
public defender office, including specifically federal defender emails, case management programs, and statistical systems separate” from those of the AO.1010
In addition to data-management programs, there are two other systems that
hold information generated by defender offices and occasionally between attorneys and their clients — video conferencing services and the network that connects
defender offices, DWAN. The National Information Technology Operations and
Applications Development (NITOAD) currently runs both.
Until only a few years ago defender email, dData, and DSMIS were run
entirely by the Office of Defender Services, the precursor to the current, reorganized Defender Services Office. There were two branches of ODS that ran defender
IT, but only one still exists: NITOAD. NITOAD is located in San Antonio, and dayto-day operations are overseen by the defender office for the Western District
of Texas. Because each defender office operates as an independent entity, sharing data with employees of another defender office can raise ethical concerns.
However, NITOAD’s access to and compiling of defender data is unlikely to destroy
1007

Letter from David Stickman, Chair of the Defender Services Automation Working Group (DAWG),
to Laura Minor (August 1, 2013).
1008 Letter from Jon Sands, FPD, D. Ariz., to Cait Clarke, Chief, DSO, Dec. 2, 2013. The DSMIS
“financial, personnel, workload, timekeeping (without case notes) and CJA payment system data taken
collectively and reported out of DSMIS is among the most powerful and sensitive information we have,
e.g. cost per rep, cost per FTE, and CJA panel vs FDO statistics” and “only in DSMIS are they available
collectively.” Id.
1009 Id.
1010 Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 5.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-261

217

AR-2626

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 263 of 342 Page ID
#:27845
FINDINGS

confidentiality and privilege because disclosure of that data is “impliedly authorized in order to carry out the representation.”1011 Maintaining privilege and confidentiality is the underlying principle governing all of NITOAD’s decisions regarding
defender data. NITOAD’s unique placement is a,
guarantee that [defender] work product is protected by staff that are
part of the Defender Services community. This concept is . . . continually
addressed and considered by the Defenders as systems, infrastructure,
and software are implemented and deployed. The ethical obligation of
the attorney-client privilege is the cornerstone for the design, security and
maintenance of their electronically stored information.1012

10.2 Reorganization and the
Compromise Reached
In 2013, the AO reorganized offices, divisions, and supervisory authority in an effort
“to reduce operating costs and duplication of effort, simplify the agency’s administrative structure, and provide enhanced service to the courts and the Judicial
Conference.”1013 Stated principles guiding reorganization included: “Simplify organizational structures;” “Empower managers and streamline governance;” and “Create
flexibility to respond to changing circumstances.”1014
The reorganization created a new office, the Case Management Systems Office
(CMSO), “designed to combine the case management functions from the Defenders
Services Office, Probation and Pretrial Services Office, and the Court Administration
Offices.”1015 The reorganization plan called for the defender data programs “to be
merged with and controlled by the AO.”1016 The merger would have given AO staffers “both access to and control of the confidential information contained in the
defender computer programs.” 1017
Defenders objected to the plan, as it would have “stripped control and supervision of extraordinarily sensitive client information (and related funding data) from
these established groups and put it under the control of what was, effectively, a

1011

Model Rules of Prof’l Conduct r. 1.6(a).
Internal Draft Memorandum, NITOAD Branch — Why it Must Remain in ODS at 1.
1013 Memorandum of Association Director Minor to Federal Public / Community Defenders and
Memorandum of Understand. at Exh. B (April 24, 2014). This is discussed in greater detail in Section 3.
1014 See generally Administrative Office of U.S. Courts, AO Document: Restructuring the
Administrative Office: Maintaining Excellence in an Era of Fiscal Austerity.
1015 Andrew Zaso, Chief, Case Management Systems Office, Administrative Office of the United States
Courts, Public Hearing — Minneapolis, Minn., Panel 3, Writ. Test., at 2.
1016 National Association of Criminal Defense Lawyers, Ethics Opinion 13–01 at 5 (2013).
1017 Id. at 7.
1012

218

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-262

AR-2627

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 264 of 342 Page ID
#:27846

completely foreign agency: CMSO.”1018 To give an outside group control would have
“violated ethical confidentiality” and could have constituted “a waiver of both the
attorney-client privilege and the work product privilege contained in the information” in the defender data programs.1019 Steve Kalar, Chair of the Defender Services
Automation Working Group that addresses technology concerns, stated that moving
NITOAD would not only be unethical, but would frustrate the goals of the reorganization, as defenders believed the transfer of NITOAD’s functions to the AO to
be “neither workable nor cost effective.”1020 And in an opinion written in response
to a defender’s question about the proposed merger, the NACDL Ethics Advisory
Committee wrote that defenders had no other option than to protest and refuse to
participate in the reorganization, because it would be “unethical for the Federal
Defenders to participate in a data merger program that does not adequately protect
confidential information for past and present clients.”1021
After receiving feedback from DSO, defenders, and the NACDL,1022 the AO
decided to not pursue the planned merger. A compromise was reached between the
AO, DSO, and defenders, resulting in the creation of memorandums of understanding (MOUs) to govern processes for managing defender data. The Memorandum of
Associate Director Minor to Federal Public/Community Defenders and accompanying Memorandums of Understanding were designed to “limit CMSO access to these
processes; create a DSO Liaison position within DSO ‘to act as Liaison between
CMSO and DSO;’ and confirm that employees of the National IT Operations
and Applications Development (NITOAD) Branch would remain Federal Public
Defender employees within the Western District of Texas Office.”1023 The MOUs were
signed by representatives from DSO, CMSO, the Federal Public Defender for the
Western District of Texas, and NITOAD.
Currently, this means that although NITOAD is staffed by the federal defender
office of the Western District of Texas, CMSO functions in an advisory role.
According to CMSO Chief Andrew Zaso, “I’ve no control over [NITOAD] because
of the independence. It’s separately funded through separate appropriation from
Congress, and again, the people, I don’t hire or fire them.”1024 However, CMSO holds
the contracts for, controls, and maintains the applications that manage and transmit
defender data. As a result, defenders must work through CMSO to request changes,
updates, or additions to their programs. While the Chief of NITOAD reports to the

1018

Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Writ. Test., at 4.
Ethics Opinion at 7.
1020 Letter from David Stickman to Laura Minor.
1021 NACDL Ethics Opinion at 7.
1022 Letter from David Stickman to Laura Minor.
1023 Heather Williams, FPD, E.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Writ. Test., at 8.
1024 Andrew Zaso, Chief, Case Management Systems Office, Administrative Office of the United States
Courts, Public Hearing — Minneapolis, Minn., Panel 3, Tr., at 18.
1019

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-263

219

AR-2628

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 265 of 342 Page ID
#:27847
FINDINGS

Western District of Texas for human resources, administrative, and personnel issues,
he works primarily with CMSO on operational issues, strategic planning, and daily
IT functions. Mr. Kalar told the Committee:
With the new CMSO bureaucratic overlay, the IT administrative structure for defenders is now hopelessly Byzantine. It is unclear to the
defenders whether the new “Chief of Defender IT Support Division, Case
Management Systems Office, Department of Program Services” answers
to CMSO, or to DSO, or to neither, or to both. When Defenders have
encountered problems, our questions trigger a tsunami of flow-chart discussions and conference calls on bureaucratic structures.1025

10.3 Results of the Reorganization
10.3.1 Unintended Consequences
While the principles guiding the AO’s reorganization of defender data services
included simplifying organizational structures, empowering managers, streamlining
governance, and creating flexibility to respond to changing circumstances — all to
cut costs — the actual outcome has been much the opposite. The reorganization has
not met its objectives. Though it was intended to cut costs and promote efficiency,
the “CMSO acquisition of Defender IT has fallen far short of the stated goals of the
2013 re-organization.”1026
Testimony indicated that “[o]perating costs have increased, as layers of
redundant CMSO bureaucracy have been added on top of Defender IT.”1027 This
is because “efforts must be expressly duplicated” when working with any of the
defender systems, as CMSO supervisors are not legally permitted to see the privileged data that these databases contain.1028
The new structure is inefficient in other ways. Because CMSO maintains all
contracts with outside vendors, the Chief of CMSO must approve all modifications or
alterations to the three software programs that house defender data. 1029 Defenders
cannot directly update or troubleshoot their data programs and have less flexibility
to react to changes in circumstances, as “simple and inexpensive IT fixes are inexplicably delayed,” and “requests languish in the shifting maze of CMSO bureaucracy.”1030 Because MOUs are in place to protect the confidentiality of the data, in order
1025

Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Writ. Test., at 5.
NACDL Ethics Opinion at 7.
1027 Id. at 4–5.
1028 Id. at 5.
1029 Andrew Zaso, Chief, Case Management Systems Office, Administrative Office of the United States
Courts, Public Hearing — Minneapolis, Minn., Panel 3, Tr., at 19.
1030 Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Writ. Test., at 5.
1026

220

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-264

AR-2629

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 266 of 342 Page ID
#:27848

for CMSO to work with the defender data programs, the data must be replicated and
anonymized to protect confidentiality and privilege. For example, Mr. Kalar told the
Committee that when defenders pointed out routine fixes needed in dData,
the embedded CMSO supervisor suggested that the database be replicated
with an anonymous set of data so CMSO could oversee the repairs. By way
of reference, during the eight-week study period of Work Measurement,
dData generated 150 million points of data. Replication and anonymization
of the massive, privileged defenderData database into a specially-created
CMSO sandbox, for the sole purpose of permitting CMSO staff to ‘supervise’
a simple repair, illustrates how absurd our current structure has become.1031
Given the inefficiency built into in the current administrative structure, in
October 2015 the Defender Services Advisory Group and the Chief of CMSO agreed
that dData should be returned to NITOAD control. Despite the agreement, the
“entanglements of CMSO in NITOAD project management of dData continue.”1032
It is not only defenders who believe that re-organization has made defender
IT functions less manageable. Andrew Zaso himself expressed frustration with the
current structure. Mr. Zaso testified that he cannot unilaterally make changes to the
defender data systems, and has “no control over implementing certain features that
could benefit defenders.”1033 Additionally, although his office has been criticized
for the poor functioning of DSMIS, “[we] can’t even get the data over to see if it’s
coming over correctly through the interface,” all because of the legitimate need to
maintain confidentiality and the attorney-client privilege.1034
Moreover, the data in these systems are not always useful for defenders themselves. When a new version of DSMIS was recently rolled out, defenders believed
they had not been adequately consulted or given the opportunity to review the
modifications — something that the MOUs explicitly require — before the new version went live. Defenders stated that the updated DSMIS failed to account for how
the defender offices use the information to formulate their budgets and request
funding. Defenders told the Committee that their inability to get accurate, useful
data was an impediment to making basic decisions about how to run and staff their
offices. One defender stated:
I have a very difficult time projecting my billing and my funding, not
from lack of congressional support, not a lack of funds, from the lack of
information. My primary concern is when I am projecting very significant
1031

Id. at 6.
Id.
1033 Andrew Zaso, Chief, Case Management Systems Office, Administrative Office of the United States
Courts, Public Hearing — Minneapolis, Minn., Panel 3, Tr., at 18.
1034 Id. at 29.
1032

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-265

221

AR-2630

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 267 of 342 Page ID
#:27849
FINDINGS

expenditures for capital defense or I’m staffing a capital case, I’m constantly creating basically a shadow network of information that we, the
defenders share among ourselves to try to project our weighted case open
figures, our staffing figures, our funding figures.1035
The inability of defender offices to project budgets and determine staffing levels
for their offices due to a lack of data was an issue at the time of the Prado Report, and
it continues to be an issue in 2017. The CJA program is a billion dollar program, and
data collection and analysis should be “commensurate with the great responsibilities
that [defenders] now bear”1036 to provide accountability and justification for such a
budget. That cumbersome management of Defender IT should make this data inaccessible to defenders is unacceptable. Despite the best efforts of all parties to achieve
efficiency and flexibility, reorganization resulted in a more convoluted and less manageable bureaucracy for the management of defender IT systems.

10.3.2 Continuing Ethical Concerns
and Subsequent Breach
Defenders testified that despite the MOUs in place and continuing assurances
of confidentiality, they remain concerned. Maureen Franco, defender from the
Western District of Texas, where NITOAD is staffed and operated, provided the following examples demonstrating that some AO IT managers still do not understand
what confidentiality entails and why it is important:
[O]ne AO IT manager explained that he had ‘top secret’ clearance and
thus we (defenders) should not be concerned if he had access to our data.
He did not understand that having access to our data when he is not a
defender employee violates the duty of confidentiality owed to our clients.
Another AO IT manager wanted access to our protected case management
system (defenderData) in order to test applications within that protected
realm — not realizing that allowing her through the firewall would jeopardize thousands of clients’ confidential data and information.1037
Another defender agreed that the MOUs are not sufficient, given the lack of
understanding among AO staffers as to why they are necessary. She explained the
agreements are simply “no substitute for what ought to be physical separation of our
data management.”1038
Defenders repeatedly explained that this is a structural problem. Structural or
not, distrust and miscommunication complicate the relationship between defenders
1035

Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr., at 23.
Id. at 6.
1037 Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Writ. Test., at 5–6.
1038 Virginia Grady, FPD, D. Colo. & D. Wyo., Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 35.
1036

222

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-266

AR-2631

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 268 of 342 Page ID
#:27850

and CMSO. This distrust was evident in testimony. For example, Mr. Zaso, stated that
CMSO employees had never attempted to gain access to a defender data program
without first informing NITOAD or DSO, after defenders had previously testified that
this had, in fact, occurred.1039 And although Mr. Zaso stated that the relationship
between his office and the defenders could be productive, he voiced frustration with
the challenges to CMSO’s ability to fulfill its role maintaining defender software contracts, as “. . . problems have been occurring for years, to be honest with you. In fact,
two of the last people that left my office one of the reasons they cited when they left
was some of the issues in dealing with the [defender] contract issues.”1040
Regardless of past conflicts, it is clear that the current structure has created
conflict between defenders and the Administrative Office. Such tension is neither
inevitable nor irreparable. However, it is the result of a reorganization that tried to
force defender IT into a broader IT system for the courts, where it does not fit. There
is a reason lawyers have particular ethical responsibilities and must demonstrate
knowledge of those responsibilities in order to be members of the bar. The ethical
obligations of the judiciary are no less important, but they are different. Defenders
work in an adversarial system that the courts oversee, but are not a party to. An
attorney’s obligation to maintain client confidentiality is just that — the attorney’s
obligation, and it is among the most important of responsibilities. Thus, defenders
cannot entrust their clients’ confidences to an institution they do not and cannot
control. In short, the inherently different obligations of the AO and defenders’
offices inevitably result in tension, miscommunication, and uncertainty.
Brian Wiggins, Chief of NITOAD, wrote in 2015:
Putting aside the risk from rogue IT admins or malicious users, having
direct access by outside (non-defender) parties to certain data such as case
statistics, can be risky. Funding of Defense attorneys for accused criminals
is often not a popular item. Judges, outside organizations, and research
institutions frequently request statistics on representations, including costs,
which can be manipulated by someone without a full understanding of the
organization’s operations . . . This is why it is critical for Defenders, including
the Defender Services Office, to strictly control access to this data.1041
This concern was prescient. The Committee learned firsthand during the
course of its work that defender concerns about confidentiality were not baseless
1039

See the exchange between Mr. Zaso and Committee member Reuben Cahn on a perceived “breach”
into defender data. Public Hearing — Minneapolis, Minn., Panel 3, Tr. at 29–30. Emails received after the
hearing by the Committee showed that a CMSO employee did try to access to a test environment in a
defender data program without informing DSO or NITOAD. While there was no confidential data in that
test environment, such an incursion registered as an attempt to breach the system.
1040 Andrew Zaso, Chief, Case Management Systems Office, Administrative Office of the United States
Courts, Public Hearing — Minneapolis, Minn., Panel 3, Tr., at 20.
1041 Brian Wiggins, Deputy Chief, NITOAD Branch, Administrative Office of United States Courts, Writ.
Test., at 2.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-267

223

AR-2632

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 269 of 342 Page ID
#:27851
FINDINGS

when the AO itself breached confidential defender data. In response to a Committee
request about general expert usage, a contractor at a helpdesk in the AO, working
in an entirely separate division from both the Defender Services Office and CMSO,
accessed defender data and downloaded specific, non-anonymized, confidential,
documentation and information that had been sealed by a court order in extremely
high-profile cases, and sent it to a Committee member. Given the highly confidential and client-sensitive nature of the materials, DSO would never have authorized
the release of this information under its protocols. When the breach was discovered,
this Committee’s Chair was informed; she then contacted the Committee member
who had initially requested expert usage information and asked that the material be
destroyed. Further, the confidential material produced was not even what had been
requested, and was not responsive to the original request.
Laura Minor, director of the Department of Program Services at the AO at that
time, responded to the breach by stating, “On so many levels this is bad.”1042
ÑÑThe

contractor was not covered by the MOUs which govern access and
control of defender data. The MOU binds CMSO, DSO, the defenders, and
NITOAD. CMSO and DSO are under the Department of Program Services
at the AO. The contractor was in an entirely different division in the AO, the
Department of Administrative Services, a division that has no agreement
with defenders regarding access to and usage of their confidential information. Please see the AO organizational chart in Section 3.3 at p. 35

ÑÑNITOAD,

CMSO, DSO, and defenders were entirely unaware that
Department of Administrative Services had built a “back door” into
defender data and information. Furthermore, it appears that DPS had
or has greater access to more specific and detailed data than CMSO,
DSO, NITOAD can currently access through the defender IT systems. An
employee at DSO noted that the material was, “better than what we could
provide through DSMIS.”

ÑÑThere

are established protocols for the access and release of any defender
information. Release of data must be approved through DSO and, if the
data are specific, the individual defender office for which that data was
accessed. There is no process in DAS designed for clearing or vetting information before releasing it, nor any limits that the Committee is aware of on
who that department can supply (and has supplied) data.

ÑÑSuch

third-party access could conceivably destroy privilege and
confidentiality.

This occurrence highlights the poor structural fit of the defenders’ IT systems,
1042

Ms. Minor was unaware of and not responsible for the unauthorized access and release of the
information.

224

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-268

AR-2633

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 270 of 342 Page ID
#:27852

which must maintain confidentiality between defenders and their clients, within
a bureaucracy that is charged with serving the courts. Breaches to client confidentiality such as this one may force federal defender offices to consider abandoning
these national database systems altogether, which would severely compromise the
national administration of the CJA program. Even before the significant data breach
described above, one defender pointed to this issue as the most important thing for
this Committee to address:
For me it is the independence of our IT function. It has just become
critically apparent to me that if we don’t get this solved quickly and
affirmatively and definitively, then every defender office, I would recommend that they get their own server and they work their own e-mail
system or defender data system, their own statistical recording because
there is a third party that has access to our information. It completely
destroys the attorney/client privilege . . . to restore that independence in
our IT function, I think is for me is a very hard line in the sand and we
really need for that to happen.1043

•

1043

Maureen Franco, FPD, W.D. Tex., Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 34.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-269

225

AR-2634

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 271 of 342 Page ID
#:27853
FINDINGS

Section 11: Electronic
Discovery & Litigation
Support
Since the Prado Report, federal criminal litigation has changed drastically.
Electronic discovery, often referred to as e-discovery or electronically stored information (“ESI”), has become the norm. Even in cases that are not “extended or
complex,” the government may have computer and smartphone files, information
from social media accounts like Facebook and Twitter, hours of video surveillance,
wiretaps, and GPS tracking information.
This evidence may be delivered in a variety of formats and files that cannot
be examined without a working knowledge of multiple software programs and
processes, as well as familiarity and comfort with reviewing different file formats.
Defending a client in a case with a large amount of electronic discovery is time-intensive and costly. For example, current smartphones with 128 GB of memory can
hold information equivalent to 9.6 million pages of paper.1044 Without adequate
training, support, and financial assistance for defenders and panel attorneys grappling with e-discovery, defendants will not receive effective representation.
Defense attorneys have a professional obligation to keep up with the technological advancements needed to effectively represent their clients.1045 The obligation to provide effective representation does not vary with the amount and type
of the evidence involved. As explained below, the current ad hoc, improvised
system of handling ESI in criminal cases complicates and adds to the burdens on
the defense. Handling ESI during discovery in a criminal case requires the prosecutor, the defense attorney, and the court to understand the technology involved
and work together to protect the defendant’s rights and the overall integrity of the
1044

This is based on a conversion rate of 75 pages per megabyte. See http://www.sdsdiscovery.com/
resources/data-conversions/ (last visited on January 5, 2017).
1045 Twenty-three state bars and the ABA model rules require attorneys remain versed in relevant
technology.

226

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-270

AR-2635

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 272 of 342 Page ID
#:27854

criminal justice system. A model of this necessary cooperation, the Joint Working
Group on Electronic Technology, a group dedicated to addressing best practices for
efficiently and effectively managing electronic discovery, created a guide for judges
on how to manage electronic discovery and ancillary issues. (The Working Group is
comprised of federal and community defenders, DOJ representatives, panel attorneys, DSO employees, and representatives of the AO and the federal judiciary.1046)
Its publication, “Criminal e-Discovery: A Pocket Guide for Judges,” supplements
the bench book provided to every federal judge to assist them in carrying out their
duties. Ensuring that all defendants, even those who cannot afford a lawyer, receive
high-quality representation requires additional investment in ESI support and in
procedures that promote coordination in this area among all parties. These investments will not only protect fundamental constitutional rights but will also conserve
both human and financial resources.

11.1 Defending Clients in the
Age of Digital Technology
11.1.1 Nature of the Challenge
To meet their ethical obligations and mount a zealous defense to charges brought
by a government with considerably more resources and institutional support for the
management of electronic evidence, defense attorneys face a number of hurdles.1047
ESI has made it difficult for defenders, especially panel attorneys, to effectively represent their clients. Witness after witness before the Committee spoke of the myriad
problems presented by ESI discovery. Indeed, it was said that because of ESI, “in
recent years, it’s just impossible to review that discovery in a way that you can effectively represent your client.”1048
The initial problem is the sheer volume of ESI a defense attorney receives.
As one witness explained, “It is not uncommon in this district to have fraud cases
where three [terabytes] of information have been provided to counsel. [That comes
out to] 6,000 filing cabinets . . . . Imagine the CJA lawyer who’s a solo practitioner who
has to make sense of 6,000 file cabinets and not have the support staff.”1049
As noted above, those records are often supplied in a range of formats, and
“the technology and the delivery of the discovery varies from agency to agency.”1050
1046

Sean Broderick’s submitted written testimony to the Committee.
Donna Lee Elm testified to the Committee, “You know the million-dollar budget . . . . just for the
training facility for DOJ? That’s our entire budget for all of our federal defender defense.” Donna Lee
Elm, FPD, M.D. Fla., Public Hearing — San Francisco, Cal., Panel 2, Tr., at 5.
1048 David Markus, CJA Panel Atty., S.D. Fla., Public Hearing — Miami, Fla., Panel 5, Tr., at 6.
1049 Louis Allen, FPD, M.D.N.C., Public Hearing — Miami, Fla., Panel 1, Tr., at 11.
1050 Michael Caruso, FPD, S.D. Fla., Public Hearing — Miami, Fla., Panel 1, Tr., at 36.
1047

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-271

227

AR-2636

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 273 of 342 Page ID
#:27855
FINDINGS

This means that defense attorneys must use a number of different software programs and need access to multiple platforms to properly go through discovery.1051
Attorneys have to maintain not only a working knowledge of ever-updating and
expanding technology but also access to the various tools needed to review the
ESI.1052 As one panel attorney explained, “To use an audio analogy, the ATF is
maybe using a [vinyl] LP to get the thing to us, somebody else is using an 8-Track
player, somebody else is using a cassette tape, [and] somebody else is using an MP3
player.”1053 Even if defenders and panel attorneys try to request discovery in similar
formats, one witness stated that the government’s response to him was, “We don’t
control what those agencies use as a platform.”1054
Panel attorneys have an especially difficult time handling ESI. Many are solo
practitioners with little or no staff, and they do not have the training, experience,
or assistance needed to access and review ESI.1055 Some lack even basic technical
knowledge, and many do not have access to paralegals knowledgeable about electronic document review. In rural areas panel attorneys struggle to find paralegals
with the necessary skills, while those working in large cities have difficulty finding
technologically-adept paralegals who are willing to work at the current CJA rate of
between $35 and $50 per hour. One federal defender stated that she “heard about
e-discovery that the U.S. Attorney’s Office is using where you download discovery
from a cloud. A lot of the panel attorneys don’t know what a cloud is.”1056
Even panel attorneys with the knowledge and skill can face insurmountable
barriers. One witness testified that even where the government has tried to organize
discovery by agency and saved the discovery on discs, the ESI was still inaccessible. One witness described instances where the software needed to read those files
is now obsolete; panel attorneys don’t have those older programs and operating
systems. This same witness also explained that even when the U.S. Attorney’s Office
tries to be helpful, they sometimes deliver a database that is defective.1057
1051

While defense attorneys are trying to keep up with the applications necessary to review files, they
also must understand the underlying nature of various file formats. By converting files into a single
format, information from those original files may be lost or obscured. While having, for instance,
a searchable “PDF”file for all documents may make review seem simpler, important information
included in the original documents can be lost in the conversion. Defense attorneys need to know
enough about the original format of discovery files to request it in formats other than what has been
provided by the government, even before they need to have knowledge and access to the software
necessary to capture the information from the original file.
1052 Robert Burke, Former Chief, Training Division, DSO and Supervisor of the National Litigation
Support Team: “There’s so much digital information and the technology changes so fast that it’s
difficult for people to keep up with it.” Robert Burke, Former Chief, Training Division, DSO, Public
Hearing — Philadelphia, Pa., Panel 7, Tr., at 28.
1053 Gilbert Schaffnit, CJA District Rep., N.D. Fla., Public Hearing — Miami, Fla., Panel 6, Tr., at 28.
1054 Id.
1055 Virginia Grady, FPD, D. Colo. & D. Wyo., Public Hearing — Santa Fe, N.M., Panel 2, Tr., at 8.
1056 Id.
1057 Jessica Salvini, CJA Panel Atty., D.S.C., Public Hearing — Miami, Fla., Panel 4, Tr., at 12.

228

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-272

AR-2637

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 274 of 342 Page ID
#:27856

One panel attorney stated that the U.S. Attorney’s Office should be required to
turn over discovery “in a format that doesn’t make us expend [unnecessary] time
[to access the data] and inflate our invoice. We don’t want to bill for that time. We’d
rather be representing our clients but we need to get the discovery in the formats
that’s reasonable for us to be viewing.”1058 The time required to review such discovery and the refusal of some judges to approve payment for that time means, at best,
some panel attorneys will review voluminous amounts of discovery without any
hope of payment and, at worst, will make a cost-benefit analysis and decide to forgo
necessary review. One judge described the current way panel attorneys are asked to
handle ESI discovery as “absolutely not sustainable.”1059
A related struggle for defenders and panel attorneys alike is their inability
to present and discuss ESI discovery with their clients who are in detention.1060
Technology for discovery review is rarely available within jails or prisons, making
it difficult for defense attorneys to review electronic evidence with their clients.1061
This strains the ability of the defender to meet Sixth Amendment requirements
while also balancing significant defense costs, especially when clients are held in
remote facilities. One federal defender stated that, “Judges don’t want to pay an
attorney to go into the lockup and physically go over the discovery with them. They
would like to have mechanisms that would make it more convenient to review electronic discovery, and, I think, save costs at the same time.”1062

11.1.2 Disparities in Practice
The quality of criminal representation in an ESI-heavy case varies dramatically
depending on the district in which a case is brought, the judge a case is before, and
the attorney assigned to the case.
Discovery in a criminal case begins with the government. Many U.S. Attorneys
work with defense attorneys to ensure that discovery is produced in accessible,
searchable formats. One U.S. Attorney told the Committee, “We’ve got a system
1058

Gilbert Schaffnit, CJA Dist. Rep., N.D. Fla., Public Hearing — Miami, Fla., Panel 6, Tr., at 28.
Judge Yvonne Gonzalez Rogers: “[T]he the platforms are different, and that was a big shock to
me. When hundreds of thousands of pages are delivered to the defense attorneys in TIFFs, where every
single page has to be clicked to open it, how can we be surprised that the costs don’t skyrocket? It’s
just not . . . and it’s just a waste of time.” Judge Yvonne Gonzalez Rogers, N.D. Cal., Public Hearing — San
Francisco, Cal., Panel 5, Tr., at 14.
1060 Former Judge Nancy Gertner: “I think it’s become much more substantial where the defendant
would get a file of gigabytes of material in it and then rush to the judge for an expert to help them
search it, some mechanism for reviewing the files with the client in the prison, which is an incredibly
difficult thing to do.” Judge Nancy Gertner (ret.), Harvard Law School, Public Hearing — Philadelphia,
Pa., Panel 2b, Tr., at 24–25.
1061 Judge Richard Boulware: “[F]or those defendants who are in custody, the cost of getting this
amount of massive data into a prison and also allowing for someone to review the data if in prison can
be very significant in terms of what type of technology used to allow for that to actually happen.” Judge
Richard Boulware, D. Nev., Public Hearing — San Francisco, Cal., Panel 5, Tr., at 35.
1062 James Wade, FPD, M.D. Pa., Public Hearing — Philadelphia, Pa., Panel 3, Tr., at 24.
1059

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-273

229

AR-2638

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 275 of 342 Page ID
#:27857
FINDINGS

worked out within our offices and with the CJA panel lawyers so that they can get
discovery quickly and have it provided in a readable, searchable manner.”1063 But the
government does not always cooperate in this way. One senior judge said discovery
disclosure in his district was referred to as “the dump truck method. The government
drives up the dump truck, dumps off all of the discovery, five thousand documents,
fifty tapes, and now we have to go through all of that to make a determination as to
what’s relevant or not.”1064 Even within a district, practices may vary depending on
the prosecutor bringing the case. A federal defender told the Committee:
[H]ere in this district . . . the process is quite haphazard. We may have a case
where you just get a document dump. You’re getting terabytes of information with no clue as to what that discovery contains. We have other cases
where prosecutors will provide a skeletal index. We have other cases where
the prosecutors provide a full index and will sit down and talk with you
and walk you through everything that’s in the 1,000 PDFs that’s contained
in this one particular folder. Unless there is a uniform standard, especially
in the area of electronic discovery, I don’t know if there’s much we can do
except bargain on . . . a case by case basis for a better outcome.1065
In addition, the government has complete control over discovery, and the government can inflate the costs of defense representation exponentially with its ESI
disclosure practices. One witness testified that one of her cases “became so protracted
because of the government’s failure to provide timely discovery and failure to document what it had provided.”1066 Though certainly not the case in every district, another
judge stated that in his experience, despite attempts to work with the U.S. Attorney’s
Office “about how we can handle this and keep costs down, the U.S. Attorney’s
response is, ‘I don’t really care about your costs. That’s not my problem.’”1067
One panel attorney spoke about how frustrating it is to try to keep his own
costs low while the government’s inefficient handling and disclosure of ESI discovery materials inflated those expenses. Recalling a case involving 20 separate document dumps the attorney stated, “We spend so much time talking about fiscal
responsibility from the defense side and all of those things, and the government just
gets a pass on all that.”1068 The witness went on to explain that the way discovery is
disclosed “affects the length of the trial . . . and then it affects the cost that I’m billing
the government to represent [my client].” 1069
1063
1064
1065
1066
1067
1068
1069

230

Billy J. Williams, U.S. Atty., D. Or., Public Hearing — Portland, Or., Panel 3, Tr., at 10.
Senior Judge Donald Graham, S.D. Fla., Public Hearing — Miami, Fla., Panel 2, Tr., at 9.
Michael Caruso, FPD, S.D. Fla., Public Hearing — Miami, Fla., Panel 1, Tr., at 33.
Lynn Panagakos, CJA Dist. Rep., D. Haw., Public Hearing — San Francisco, Cal., Panel 4, Tr., at 17.
Chief Judge Michael Seabright, D. Haw., Public Hearing — San Francisco, Cal., Panel 5, Tr., at 12.
Daniel Albregts, CJA Dist. Rep., D. Nev., Public Hearing — San Francisco, Cal., Panel 4, Tr., at 19.
Id.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-274

AR-2639

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 276 of 342 Page ID
#:27858

The quality of representation in ESI-heavy cases can also vary depending on
the judge to whom the case is assigned. Some judges understand technology, so they
understand, for example, the need for native formats1070 or searchable documents. In
a complex case with a large number of documents and other ESI, it may be necessary to hire an outside vendor to assist with the copious amount of discovery. Judges
who are less familiar with ESI might not know why such a vendor’s services may be
necessary. In addition, outside vendors can be expensive, and even judges who recognize their need may still experience sticker shock and balk at paying the necessary
expenses to enable defense attorneys to mount a zealous defense.1071
In one multi-defendant case, an outside vendor was required to handle the
document production and processing for the panel attorneys. On the eve of trial,
the panel attorneys received notice that the judge didn’t want to pay for the discovery management software anymore. Their response was plain. They told their panel
attorney district representative, “We can’t try this case. There are millions of documents in this case. If on the eve of trial the software to manage those documents is
taken away from us, we are very experienced attorneys, but there is no way that we
can do that.”1072 Ultimately this judge did not cut funding for the software, but effective assistance should not hinge on whether any particular judge presiding over an
ESI-heavy case has sufficient training and experience necessary to understand and
adequately fund defense needs in these cases.
Judges themselves take a number of different approaches to managing ESI.
There are judges who take an active approach and require the U.S. Attorney’s office
to produce usable discovery. One such judge told the Committee that discovery
must be reviewable, and that “judges have a role in that . . . . We have a lot of cases
that are document intensive. We have a lot of large-scale drug cases with hundreds
of recorded conversations. Narrowing the focus will save the public a lot of money.”1073 Another judge said that if a defense attorney came to him with concerns
about ESI, the judge would “sit down with a prosecutor and say”:
You have to have this information in a format to work in my courtroom with
these computers. You have the ability to get it in a format that it’s usable by
other people besides whatever agency [provided it] or your office. Get it to
this attorney in the same format so they’re not going to spend thousands of
hours and have to hire a forensic expert just to get to the information.1074
1070

Receiving files in native format allows defense attorneys to see the meta- and embedded data, or
hidden data, associated with the file, which is not preserved when the file is converted into a different
format. Meta- and embedded data can include time stamps, locations, and other specific information
which can be extremely important for defense attorneys to provide effective representation.
1071 Russel Aoki, Coordinating Discovery Atty., Public Hearing — San Francisco, Cal., Panel 2, Tr., at 27.
1072 Jessica Hedges, CJA Board Chair, D. Mass., Public Hearing — Philadelphia, Pa., Panel 9, Tr., at 15.
1073 Senior Judge Donald Graham, S.D. Fla., Public Hearing — Miami, Fla., Panel 2, Tr., at 9–10.
1074 Judge Robert Scola, Jr., S.D. Fla., Public Hearing — Miami, Fla., Panel 2, Tr., at 28.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-275

231

AR-2640

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 277 of 342 Page ID
#:27859
FINDINGS

Some judges have standing orders to encourage the efficient disclosure of discovery, allowing defense attorneys more time to properly review ESI and keep case
costs from ballooning.1075 Other judges schedule conferences with prosecutors and
defense attorneys in all of their criminal cases to discuss coordinating discovery.1076
There are judges, however, who believe it is inappropriate to become involved in
document and ESI discovery altogether. One judge explained that the process relies
on the “goodwill of the U.S. Attorney’s Office. We can only push so far. . . . I am not sure
that I agree it would be appropriate for the court, with the state of the law as it is now,
providing almost no rights to discovery for the defendant, for the court to step in.”1077

11.2 Limited Resources Currently Available
11.2.1 National Litigation Support Team
The National Litigation Support Team (NLST) is funded through the Defender
Services Office and overseen by that office’s Training Division. Its mandate is to
assist, advise, provide training, and act as a resource for the entire CJA program.
It currently employs a National Litigation Support Administrator and three staff
members to provide electronic data support for the federal judiciary, federal and
community defenders, and the almost 10,000 panel attorneys nationwide.1078 NLST
provides in-person and on-line training and resources,1079 works with vendors to
negotiate lower prices for software panel attorneys can access, and assists directly
on complex ESI discovery cases. But as one witness stated, the budget and staff is
“woefully inadequate.”1080
NLST also faces particular barriers to providing training on ESI discovery.
Most notably, training on technology to handle ESI discovery should take place
in person. The NLST Administrator explained that to properly train defense attorneys, “we do need hands-on programs, where people use the technology in similar
1075

Russell Aoki: “Judges will ask me, from my experience, what really helps cut back on expenses.
That is, getting people engaged in the case right away, setting deadlines. Judge Fischer has a wonderful
order that gets people up and running in the first forty-five days.” Russel Aoki, Coordinating Discovery
Atty., Public Hearing — San Francisco, Cal., Panel 2, Tr., at 34.
1076 Judge Richard Boulware: “I have a discovery conference in every single one of my criminal cases,
and I ask the U.S. Attorneys, what is the status of the data? How can we coordinate that?” Judge Richard
Boulware, D. Nev., Public Hearing — San Francisco, Cal., Panel 5, Tr., at 14.
1077 Judge Rosanna Peterson, E.D. Wash. Public Hearing — Portland, Or., Panel 3, Tr., at 26.
1078 Bob Ranz, Case Budgeting Attorney: “Sean Broderick’s office does a wonderful job, but again,
Sean has a small office and they’re dealing with what I think is ten thousand CJA panel attorneys.” Bob
Ranz, Circuit Case Budgeting Atty., 6th Cir., Public Hearing — San Francisco, Cal., Panel 1, Tr., at 3.
1079 In FY 2016, the NLST provided training in national training programs organized by DSO as
well as in seventeen districts across the United States. Fourteen of those programs were hands-on
trainings providing direct instruction to panel attorneys, federal defenders, and defender office staff on
e-discovery and litigation support.
1080 Donna Lee Elm, FPD, M.D. Fla., Public Hearing — San Francisco, Cal., Panel 2, Tr., at 4.

232

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-276

AR-2641

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 278 of 342 Page ID
#:27860

ways they do their cases, or when possible, in their own cases. Sitting in a presentation or two on technology will not do the trick.”1081 But panel attorneys often lack
the time to attend even a brief training outside where they live and work. Further,
NLST is tasked not only with training panel attorneys, judges, and defenders. It also
must provide training in criminal discovery to ESI vendors that previously have
worked only in civil litigation.1082 Vendors need to understand, for instance, that
in criminal cases client information is confidential, that no documents should be
redacted, and that they should refuse to turn over any information at the government’s request. It falls to NLST to educate them on such matters.1083
NLST employs three Coordinating Discovery Attorneys (CDAs) on a contract
basis who are based in Seattle, Kansas City, and New York City. These three CDAs
are skilled in using electronic discovery software and in processing various media
and file types, and their job is to assist panel attorneys.1084 The CDAs are intended
to reduce the panel attorneys’ reliance on the government, assist with communication in large and multi-defendant cases, and contain defense costs.1085 But the NLST
Administrator, Sean Broderick, testified that the initial plan and budget assumed
10 active cases per CDA. At this point, the three of them are collectively handling
twice that number, roughly 60 cases.1086 According to one CDA, not only do panel
attorneys reach out for assistance weekly, but courts and even some U.S. Attorney
Offices in large ESI discovery cases are requesting, and in some cases requiring, that
defense attorneys obtain the assistance of a CDA.1087 The demand for assistance
with electronic discovery far out-strips what these three already overburdened CDAs
can provide. The CDA program is simply inadequately staffed to address the problems raised by electronic discovery.

1081

Sean Broderick, National Litigation Support Administrator, Public Hearing — San Francisco, Cal.,
Panel 2, Tr., at 7.
1082 Russel Aoki, Coordinating Discovery Atty., Public Hearing — San Francisco, Cal., Panel 2, Tr., at 8–9.
1083 Rusell Aoki: “We certainly had this happen on one occasion, where the government wanted to
know if the lawyers are accessing the database, and when they’re accessing it, and who is accessing
it. The database company has to know you cannot give that information. Absent an order, you’re not
going to give that out. How many database companies would have folded as soon as somebody flashed
their FBI badge in front of them?” Id. at 10–11.
1084 The NLST has been authorized to hire a fourth CDA
1085 Damon Martinez, U.S. Attorney, on the helpfulness of a CDA: “Such a coordinator can assist the
CJA attorneys in handling discovery, especially e-discovery, reduce the need for CJA attorneys to rely on
the government for technical assistance and more important, provide the defense with a central line of
communication with respect to discovery in large cases. Any such coordinator should be skilled in using
discovery software and processing various media for doing, downloading, and duplicating electronic
products.” Damon Martinez, U.S. Atty., D.N.M., Public Hearing — Santa Fe, N.M., Panel 1, Tr., at 13.
1086 Sean Broderick, National Litigation Support Administrator, Public Hearing — San Francisco, Cal.,
Panel 2, Tr., at 20.
1087 Russel Aoki, Coordinating Discovery Atty., Public Hearing — San Francisco, Cal., Panel 2, Tr., at 10.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-277

233

AR-2642

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 279 of 342 Page ID
#:27861
FINDINGS

11.2.2 Defender Offices
In some districts, the local defender office serves as a resource to assist panel attorneys with ESI. Defender offices, unlike panel attorneys, have dedicated funding for
software, review platforms, services, and training, and often have the paralegals and
IT support staff to manage ESI discovery. In multi-defendant cases, in particular,
the defender office often takes the lead in organizing discovery materials. As one
defender testified:
[We] work with the panel attorneys as best we can, understanding that
there’s potential conflicts, so that we can organize that the discovery
materials and the panel attorneys can have access to it by coming to our
office, and we try to work with our co-counsels to lessen the bill, so to
speak, to the CJA attorneys.1088
CJA panel attorneys testified to the Committee that when an FPDO or a CDO is
involved in assisting with ESI discovery, it made a tremendous difference. One community defender not only “took on the cost” of handling all the ESI, it then gave all
the panel attorneys searchable discs so they could easily access the files.1089
But while some FPDOs and CDOs can be of great assistance to panel attorneys — or at least in some cases — others are often not in position to do so, either
legally or financially. A conflict of interest can prevent an office representing one
defendant in a multi-defendant case from assisting panel attorneys who are representing co-defendants. In other cases, lack of resources is the problem. One federal
defender explained that her office simply did not have the resources to continue
assisting panel attorneys with their clients after her office’s client settled.1090 As
discussed in Section 3.6, FPDO and CDO staffing and budgets are based on a work
measurement formula that does not take into account this kind of technical assistance to panel attorneys. As one defender pointed out, when such assistance is
provided but “unpaid,” it both subsidizes and hides the true cost of these “incredibly
complex cases brought by the federal government.”1091 The result: judges may walk
away with the mistaken impression that these cases can be handled less expensively
than is possible. 1092 And the deeper changes in the system through better cooperation and more resources for panel attorney are left unaddressed.
Using FPDOs and CDOs as a solution to ESI discovery is not sufficient or sustainable, and while NLST and the CDAs have done an exemplary job, they are not
equipped to adequately address the Sixth Amendment issues raised by modern
1088

Matthew McHenry, CJA Panel Atty., D. Or., Public Hearing — Portland, Or., Panel 2, Tr., at 26.
Judge Rosanna Peterson, E.D. Wash. Public Hearing — Portland, Or., Panel 3, Tr., at 26.
1090 Hilary Potashner, FPD, C.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr., at 31.
1091 Steve Kalar, FPD, N.D. Cal., Public Hearing — San Francisco, Cal., Panel 7, Tr., at 31.
1092 See, e.g., id. at 30–31.
1089

234

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-278

AR-2643

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 280 of 342 Page ID
#:27862

technology. The need to provide systemic and institutionally-based assistance for
defense attorneys, especially panel attorneys, in the area of e-discovery will continue to grow. As sophisticated electronic devices become cheaper and hold more
data, and as networks become faster, the sheer amount of e-discovery will continue
to increase exponentially.1093 Unless steps are taken, ESI will negatively impact both
the cost and the quality of indigent defense.

•

1093

Looking at just a single device, from 2013 to 2015, the average monthly data usage of a cell phone
user increased from 269 MB to 804 MB. It is projected that average monthly cell phone data usage by
the year 2021, however, will be 8.9 GB. See http://www.ctia.org/industry-data/ctia-annual-wirelessindustry-survey (last visited January 6, 2017); http://bgr.com/2016/06/02/smartphone-data-usage2021-gigabytes-erricson/ (last visited January 6, 2017).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-279

235

AR-2644

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 281 of 342 Page ID
#:27863
FINDINGS

Section 12: Transportation
& Subsistence for
Non‑Custodial Defendants
12.1 Lack of Statutory Authority
The statute pursuant to which the U.S. Marshals Service provides for transportation
of non-custodial defendants to criminal proceedings, 18 U.S.C. § 4285, only directs
the Marshals to provide costs when: 1) an arrested person who is financially eligible
is released from custody back to their residence; and 2) a defendant must travel to
court for judicial proceedings and has satisfied an additional inquiry that he or she
is unable to pay for travel. The statute grants no authority to pay subsistence during
the course of the proceedings or travel expenses for the return trip to the defendant’s residence after proceedings.
This problem is not new. It was addressed in the Prado Report, which recommended that the Criminal Justice Act be amended to provide costs for non-custodial
defendants who qualify during and after their criminal proceedings.1094 The Judicial
Conference of the United States also addressed the issue in its Report on the Federal
Defender Program in March 1993:
The present lack of clear statutory authority to pay for travel and subsistence expenses in these situations has resulted in substantial hardships
to certain defendants, particularly those who have no funds and are
required to attend lengthy court proceedings. Accordingly, there should
be explicit statutory authority for the courts to provide assistance with
transportation, housing, and food for financially eligible defendants in
appropriate circumstances.1095
1094
1095

236

See Prado Report, Recommendation D–2 at 70–71.
Report of the Judicial Conference of the United States on the Federal Defender Program at 36 (1993).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-280

AR-2645

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 282 of 342 Page ID
#:27864

The Defender Services Office, along with the Office of Legislative Affairs
at the AO, has submitted proposed legislation to Congress in previous years as
part of a courts improvement package. But under Office of General Counsel and
Appropriations rules, if a statute already provides monies for a service, another
agency or branch cannot provide funds for the same service — and § 4285 does
provide money to the Marshals for transportation expenses, however limited. Thus,
the proposed legislative change has always been to the statute that governs the
Marshals providing costs, rather than a proposal to change the Criminal Justice Act
to provide for funding. However, the Department of Justice, which houses and funds
the U.S. Marshals Service, has consistently and staunchly opposed such a statutory
change, and therefore the proposal has not been adopted.
Even if it could be argued that supplying funding for subsistence and return
travel did not violate appropriations rules, the use of CJA funds has been generally disallowed. It would require statutory change to provide these costs. Currently,
Volume 7A of Judiciary Policy prohibits the use of CJA funds for “cost of services of a
personal nature and expenses incident thereto.”1096

12.2 Burden of Problem on
Defendants and Their Attorneys
Since the time of the Prado Report, courts have seen a significant rise in the number
of multi-district criminal cases, requiring an even greater number of non-custodial
defendants to appear in court outside of their home districts. But because there has
been no statutory fix, as one judge explained, “the gap remains unfilled.”1097 “[W]ith
anyone who is from out of the district who has to return for court they will have a
problem,”1098 a federal defender told the Committee. “I’ve had some clients who
slept overnight in their truck.”1099 Other defendants might find themselves lodged at
the YMCA, a halfway house, or worse. As one defender told the Committee, “I can
bring them to court, but they’re stranded on the streets after court.”1100
The attempted solutions have been ad hoc at best. One defender testified,
“We have taken that out of a fund and taken up a collection. Have done that many,
many times.”1101 He told the Committee, “Every now and then I’ll see an order
from another district on a Rule 5 case where a judge in another district has allowed
1096

§ 230.66.20

1097

United States v. Mendoza, 734 F. Supp. 2d 287 (E.D.N.Y. 2010).
Christine Freeman, Executive Director, CDO, M.D. Ala., Public Hearing — Birmingham, Ala., Panel
6, Tr., at 9.
1099 Id.
1100 Doris Randle-Holt, FPD, W.D. Tenn., Public Hearing — Birmingham, Ala., Panel 6, Tr., at 8.
1101 Michael Desautels, FPD, D. Vt., Public Hearing — Philadelphia, Pa., Panel 10, Tr., at 32.
1098

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-281

237

AR-2646

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 283 of 342 Page ID
#:27865
FINDINGS

for two-way transportation . . . but I don’t see any precedence statute for that.”1102
Another defender said that in his district, “we routinely prosecute people who fail to
pay child support from across the country. Those folks who aren’t paying child support who don’t have money to pay child support are haled to the district of South
Dakota and automatically typically released on bond.”1103 Recently, the defender
office was faced with one such client who could only be released in the district.
“Who could he be released to? His daughter who he supposedly had not paid child
support to? His daughter had to drive to Sioux Falls, six hours . . . pick her father up,
drive him home, and house him and he was charged with not supporting her.”1104
Courts across the country have struggled with problems like this for decades,
to little avail.1105 So by default, the financial burdens of transportation and subsistence often fall on defender offices and panel attorneys, who have limited budgets
or who will not receive reimbursement for such expenses, to try to keep clients out
of unsafe situations while attending court proceedings.
A federal defender told the Committee that he paid for travel and subsistence
out of his own pocket because he didn’t want his client to “have to spend a couple
weeks of his life bouncing around 20 different county jails to get home and I’m
not going to have him hitchhike. It seems like the only humane thing to do and it
seems like there ought to be a better system for helping” those defendants without resources to travel between their homes and the court where their charges are
pending.1106 Another federal defender described some of the experiences of clients
and their counsel in her district:
We had a judge who issued an opinion saying that subsistence was our
client staying at the local homeless shelter for a week-long trial. We have
a CJA [attorney] who fronted a thousand dollars to put a client up for five
nights. I think the judge helped work that out eventually with the CJA.
We had a client coming in for a seven-week trial. We were at the point
of saying, we’ll each take him home for a week. Eventually probation
1102

Id. at 32–33.
Neil Fulton, FPD, D.N.D. & D.S.D., Public Hearing, Minneapolis, Minn., Panel 2, Tr., at 23.
1104 Id.
1105 See, e.g., United States v. Gunderson, 978 F.2d 580, 584 (10th Cir. 1992); United States v. Dyer,
No. 15–CR–115, 2016 WL 7027177, at *2 (E.D. Wis. Dec. 1, 2016); United States v. Alexander, No. 3:13–
CR–146, 2015 WL 1457975, at *2 (E.D. Tenn. Mar. 30, 2015); United States v. Ibarra, 2014 WL 4352063,
at *2 (S.D. Cal. Sept. 2, 2014); United States v. Mouzon, No. 1:12–CR–301–04, 2014 WL 1303708, at *2
(M.D. Pa. Mar. 31, 2014); United States v. Stone, No. 10–20123, 2012 WL 345267, at *1 (E.D. Mich. Feb. 1,
2012); Mendoza, 734 F. Supp. 2d at 284; United States v. Centeno, No. 09–CR–3120, 2009 WL 3334144, at
*1 (S.D. Cal. Oct. 15, 2009); United States v. Headden, No. 09–6406M, 2009 WL 2960382, at *1 (D. Ariz.
Sept. 10, 2009); United States v. Birdhorse, No. 2:07–CR–65, 2007 WL 2358634, at *2 (D.N.D. Aug. 17,
2007); United States v. Sandoval, 812 F. Supp. 1156, 1157 (D. Kan. 1993); United States v. James, 762 F.
Supp. 1, 2 (D.D.C. 1991); United States v. Nave, 733 F. Supp. 1002, 1002–03 (D. Md. 1990); United States
v. Haley, 504 F. Supp. 1124, 1128–29 (E.D. Pa. 1981).
1106 Thomas Patton, FPD, C.D. Ill., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 23.
1103

238

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-282

AR-2647

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 284 of 342 Page ID
#:27866

helped find him some housing but we were the ones going to feed and
transport him for those seven weeks. Lawyers, investigators in our office
take money out of their pockets to buy bus tickets and hotel rooms for
clients because . . . the law isn’t particularly clear in this area. It seems like
it comes down against our clients routinely. That needs to change, staying
in a homeless shelter and being fed by what we buy at lunch is not the
way it should happen.1107
Finally, the Committee heard from witnesses who said that because of the lack
of funding, some indigent clients were actually being detained needlessly. A panel
attorney told the Committee that in one case:
My very, very poor client came from Missouri; this was in the dead of
winter. We were able to obtain release for him. There was no way to get
him home. He had no clothes, appropriate clothes. We had to address
all of those problems. Then, when it came time for him to come back
to court . . . there’s no provision on our system for it. In order to get him
back to Montana without a cost to him or his family, the only way to do it
through our Federal System was to have his pretrial release revoked so he
could be transported in con air, essentially.1108

12.3 A Need for a Congressional Fix
The Committee finds that the failure to provide costs for indigent defendants during
and after their criminal proceedings is a long-standing problem that must be resolved.
It is causing substantial hardships for many defendants — defendants who have not
been convicted of anything — and it is, in some circumstances, creating an unfair and
unnecessary burden on defense counsel. This Committee concludes that the current
statute should be amended by Congress to permit courts to order payment of costs
in the limited circumstances where the defendant is unable to bear the costs and the
court finds that the interests of justice would be served by paying necessary expenses.
The statute, 18 U.S.C. § 4285, states in full:
Any judge or magistrate judge of the United States, when ordering a
person released under chapter 207 on a condition of his subsequent
appearance before that court, any division of that court, or any court of
the United States in another judicial district in which criminal proceedings are pending, may, when the interests of justice would be served
1107
1108

Melody Brannon, FPD, D. Kan., Public Hearing — Minneapolis, Minn., Panel 2, Tr., at 24.
Wendy Holton, CJA Panel Atty., D. Mont., Public Hearing — Portland, Or., Panel 4, Tr., at 14.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-283

239

AR-2648

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 285 of 342 Page ID
#:27867
FINDINGS

thereby and the United States judge or magistrate judge is satisfied, after
appropriate inquiry, that the defendant is financially unable to provide
the necessary transportation to appear before the required court on his
own, direct the United States marshal to arrange for that person’s means
of noncustodial transportation or furnish the fare for such transportation to the place where his appearance is required, and in addition may
direct the United States marshal to furnish that person with an amount
of money for subsistence expenses to his destination, not to exceed the
amount authorized as a per diem allowance for travel under section
5702(a) of title 5, United States Code. When so ordered, such expenses
shall be paid by the marshal out of funds authorized by the Attorney
General for such expenses.1109
It is important that Congress act to amend the statute very simply as follows:
. . . direct the United States marshal to arrange for that person’s means of
noncustodial transportation or furnish the fare for such transportation
to, subsistence during the proceedings, and transportation returning
from the place where his appearance is required . . .

•

1109

240

18 U.S.C. § 4285 (2012).

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-284

AR-2649

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 286 of 342 Page ID
#:27868

A-285

AR-2650

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 287 of 342 Page ID
#:27869

Options for
Restructuring the
Administration
of the Criminal
Justice Act

A-286

AR-2651

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 288 of 342 Page ID
#:27870

Section 13: The
Committee’s Proposal:
An Independent Entity
Within the Judicial Branch
The testimony, written comments, survey data and private discussions, all carefully
studied by the committee over the course of a two-year review compel the conclusion that the CJA’s primary flaw is the program’s lack of independence.
The Committee considered several models that would provide the CJA program with the greater independence it needs to function more effectively and efficiently. These options are: 1) creating an independent commission within the judicial branch but outside of the control of the Judicial Conference and Administrative
Office; 2) placing the program under the executive branch 3) creating an entirely
independent, stand-alone agency outside of the three branches of government; and
4) leaving the program where it is but re-elevating DSO to a directorate1110.
None of these models is perfect; the Committee recognizes that there are
advantages and disadvantages to each one. And while there is a risk in creating
a new structure it is a risk the program must bear given the absolute necessity of
greater independence for the public defense function.

13.1 National Structure
Consistent with the recommendations made by the Prado Committee in 1993,
this Committee unanimously recommends that Congress create an independent
defender commission within the judicial branch, but outside the jurisdiction of
the Judicial Conference and AO. Although there was not universal support for the
Prado Committee’s similar recommendations, in the 24 years since the issuance of
the Prado Report the nature of federal criminal defense practice has dramatically
1110

On July 12, 2016 the Ad Hoc Committee requested from DSO a calculation and estimation of the
budget under various models. Both the letter and response are attached as Appendix L.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-287

243

AR-2652

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 289 of 342 Page ID
#:27871
RECOMMENDATIONS

changed; the number of cases brought by the government, and the complexity of
those cases, has increased dramatically. And the record before this Committee supporting independence is stronger and significantly more compelling. Today, most
critical stakeholders have endorsed greater independence for the program.
This independent defender commission proposed by our committee above
would have powers to:
1.

Establish general policies and rules as necessary to carry out the purposes
of the CJA;

2.

Appoint and fix the salaries and duties of a director and senior staff;

3.

Select and appoint federal defenders and determine the length of term;

4.

Issue instruction to, monitor the performance of, and ensure payment of
defense counsel;

5.

Determine, submit, and support annual appropriations requests to
Congress;

6.

Enter into and perform contracts;

7.

Procure as necessary temporary and intermittent services;

8.

Compile, collect and analyze data to measure and ensure high quality
defense representation throughout the nation;

9.

Rely upon other federal agencies to make their services, equipment,
personnel, facilities and information available to the greatest practicable
extent to the commission in execution of its functions;1111 and

10. Perform such other functions as required to carry out the purposes of and
meet responsibilities under the CJA.
In essence, the independent defender commission would centralize authority that is presently shared among JCUS, the Administrative Office, the Defender
Services Office, and the circuit courts. Decisions about the provision of defense services would be made independently and implemented by those having experience
with and responsibility for the defense function. Importantly, the defense program
would not have to compete with organizational or other judicial agency interests in
securing and expending funds to ensure best practices. The following chart generally illustrates this proposed structure.

1111

The Committee bases this recommendation upon the enabling statute for the U.S. Sentencing
Commission, which is housed within the same building as the AO and uses services provided by
the AO but is not within AO governance. The statute for the Sentencing Commission reads, “Upon
the request of the Commission, each Federal agency is authorized and directed to make its services,
equipment, personnel, facilities, and information available to the greatest practicable extent to the
Commission in the execution of its functions.” 28 U.S.C. § 995(c). Any statute creating a defender
commission should provide the same assistance for the new commission to execute its duties.

244

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-288

AR-2653

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 290 of 342 Page ID
#:27872

Proposed Independent Commission
Situated in the Judicial Branch

Independent
Defense
Commission

Judicial Conference

U.S. Sentencing
Commission

Administrative
Office Of The
U.S. Courts

Federal
Judicial Center

Defender
Services
________
D I R E C TO R
Legislation and
National Support
Division

Program
Operations
Division

Legal and Policy
Division

Training Division

Administrative
Operations

IT

Federal Public
Defender Offices

Community
Defender Offices

CJA Panel Offices

The Committee unanimously recommends that, much like the Sentencing
Commission, the independent defender commission consist of voting members
appointed by the President and confirmed by the Senate. To ensure full representation of the federal defense function before the commission, three non-voting members should be selected by the commission, respectively, from an FPDO, a CDO,
and a CJA panel.
With the exception of one member, the Committee urges that federal judges
must not constitute a majority of the voting members. Additionally, no more than
four board members may be of the same political party. For the initial board, the
Committee recommends that the Chief Justice of the United States, as well as the
Defender Services Advisory Group, which currently represents defenders and
advises the Defender Services Committee, prepare a slate of candidates from which
the President may select. For subsequent boards, a slate of candidates should be
prepared by the Chief Justice and the equivalent of the Defender Services Advisory
Group to the new commission. Voting members should have had a minimum five
years of experience with, as well as a demonstrated interest in, high quality indigent
criminal defense.
To prevent conflicts of interest, no voting member should be employed by the
Department of Justice, work as a state or federal prosecutor, or serve as a chief or
assistant federal defender or as an active member of a CJA panel.
The Committee recommends that members of the commission be appointed

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-289

245

AR-2654

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 291 of 342 Page ID
#:27873
RECOMMENDATIONS

for staggered three-year terms and, to provide continuity of leadership, remain in
office until their vacancy is filled. To insure fresh perspectives, members should be
limited to two full terms. Compensation for members of the commission should not
exceed the daily rate at which judges of the U.S. Courts of Appeals are compensated.

13.2 Local Structure
To ensure institutional support for any local defense delivery plan, in every district in which at least 200 persons annually require the appointment of counsel,
the commission shall establish a defender organization and a CJA Panel Attorney
Administrator. This administrator may reside within the defender office, with appropriate firewalls to prevent conflicts, or in a separate office, but must not be under
the auspices of the courts.
The types of defender organizations that may be created:
1. Federal Defender Organizations; as set forth in 18 USC §3006A(g)(2)(A); or
2. Community Defender Organizations; as set forth in 18 USC§3006A(g)(2)(B);
and
3. CJA Panel Attorney administrator with necessary support staff responsible
for the oversight and the supervision of the CJA panel attorneys.
The Committee recognizes that federal and community defender offices are
integral to raising the quality of representation and establishing best practices for all
defense attorneys in a district, as well as providing training and other resources for
private CJA panel attorneys, all while being cost-effective.
In addition to defender offices, federal districts require a local management
structure to administer the provision of defense, taking over the duties currently
shouldered by district court judges with busy dockets. The Committee agrees that
as different districts have different needs, there should not be a one-size-fits-all
solution for federal defense. Therefore these recommendations leave considerable
room for local decision-making, while still removing the defense function from
judicial control.
Defender offices and panel administration should be overseen by a local
board consisting of a minimum of three and a maximum of seven board members.
Initial boards shall be appointed by the local district courts, the community or federal defender, and CJA panel attorney district representative in consultation with
the commission outlined above.1112 Local bar organizations or other interested
stakeholders are welcome to provide input into the appointment process; each
1112

This is not to say that districts must wait for Congress to create a national structure before taking
these steps; indeed, many of these recommendations can be implemented now.

246

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-290

AR-2655

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 292 of 342 Page ID
#:27874

district is encouraged to create boards that are representative of and responsive to
local needs. While judges will be involved in initial appointment, boards should
be self-perpetuating, and judges may not serve as board members. As is the case
now with some defender offices, multiple districts may be served by a single board.
Each board will be composed of an uneven number of members of the legal community with a demonstrated knowledge of and commitment to public defense.
Board members, who should serve without compensation, may be asked to serve
for five-year staggered terms and remain on the board until their vacancy is filled.
Each local board must appoint the CJA panel attorney administrator(s) with
the authority to hire any necessary staff to manage the panel and review vouchers.
Local boards should collaborate with leadership of the defender office to
develop a district plan to be approved by the independent national defense commission. Like the current CJA plans, these plans would address the recruitment,
selection, retention, and removal of panel attorneys, and would incorporate best
practices as outlined in the current CJA Model Plan. Panel administrators would
implement a system for voucher review and create an appeal process for those
attorneys whose vouchers are cut for non-mathematical reasons.
Case budgeting attorneys will be employed by the commission and will be
accessible to local panel administrators.

13.3 Benefits of the Recommended
Structure
Creating a new agency outside the governing structure of the JCUS and the AO
that can continue to utilize resources through the AO would control costs and
would be least likely to disrupt the ongoing provision of public defense counsel.
Our proposed structure would still, however, give the new entity the independence necessary to carry out its mission. As detailed in this report the benefits
would be myriad. The recommended structure also incorporates the recommendations of the Defender Services Committee,1113 federal and community defenders,1114 and panel attorneys.1115
1113

Letter from Chief Judge Catherine C. Blake, Chair of Defender Services Committee, to Judge
Kathleen Cardone, July 22, 2016. Please see Appendix I.: Position Letter from Defender Services
Committee
1114 Letter from Jon M. Sands, FPD, D. Ariz., and Leigh Skipper, Comm. Def., E.D. Pa., “Re:
Reformation of the CJA Program,”March 25, 2016 . Please see Appendix J: Position Letter from Federal
Defenders
1115 Letter from Gilbert A. Schaffnit, Melanie S. Morgan, Victoria Bonilla-Argudo, Lisa S. Costner, and
Chip S. Frensley, CJA Panel Atty. Dist. Reps., to Judge Kathleen Cardone, “Re: PADRs’ Consensus View
on Issues Facing CJA Panel Attorneys,” Letter from Panel Attorney District Representatives, July 6, 2016.
Appendix K: Position letter from Defender Services Advisory Group.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-291

247

AR-2656

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 293 of 342 Page ID
#:27875
RECOMMENDATIONS

While the proposed defender commission would still be within the judicial branch, it would be free to pursue its own mission, create its own budget and
determine national policy free from conflict of interest. The Committee believes
that this independent program would continue to be supported by both individual judges and the judiciary as an institution, that defenders would prove to be
able advocates for the program, and that Congress will continue to understand
the importance and constitutional necessity of an effective defense and ensure the
integrity of the criminal justice system.1116

•

1116

The Committee recommends that the new federal defense commission undertake to study its
own structure and functioning every seven years to determine the strengths and benefits of that
system, and whether additional changes or increased independence is still required. The Committee
recognizes that even if its recommendations are adopted, a future review may conclude that absolute
independence from all three branches is needed for the federal public defense function.

248

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-292

AR-2657

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 294 of 342 Page ID
#:27876

Section 14: Alternative
Models Considered
14.1 Stand-Alone Agency Outside the
Three Branches of Government
This model would create an independent agency outside of the judicial, legislative, and executive branches to administer an indigent defense delivery system.
This model was recommended by David E. Patton, the Executive Director of
the Federal Defenders of New York in his article The Structure of Federal Public
Defense: A Call for Independence.1117 The question Mr. Patton asked is one the
Committee has also grappled with: “So, if defense lawyers have a mission explicitly contrary to the Executive, and the Judiciary is meant to be a neutral arbiter,
whither the placement of public defense?”1118
Mr. Patton’s model envisions an agency dedicated to an independent, vigorous
defense, without any actual or apparent conflict of interest. It would, in comparison
to other models, create less work for and obligate fewer resources from the judiciary and the AO. And there is such a model that has been successful — the Public
Defender Service of Washington, D.C.
A primary reason this Committee is not recommending this model is the cost.
The defender program currently relies on various AO services and resources, such as
human resources and office space. Continuing to share these resources would not
threaten the independence of a new defender system and would provide for cost
containment. Conversely, if an entirely new agency was created, it could not avail
itself of these shared resources. Moreover, creating a new agency could also create a
1117

David E. Patton, The Structure of Federal Public Defense: A Call for Independence, 102 Cornell L.
Rev. 335, 339–40 (2017).
1118 Id. at 151

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-293

249

AR-2658

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 295 of 342 Page ID
#:27877
RECOMMENDATIONS

considerable disruption in the current delivery of public defense services.
And while the Committee acknowledges the success of the Public Defender
Service of D.C., the District of Columbia itself already occupies a unique space within
the nation at large; it is less of an aberration that such an office for the District exists
outside the traditional three branches of the national government. Additionally, the
office is smaller and can focus on local issues and needs, and does not require a
nationwide network or the greater support necessary to run a national program.

14.2 Within the Executive Branch
Some witnesses have suggested, as exemplified in a bill proposed by Representative
Ted Deutsch in June of 2016,1119 that the Committee recommend placing the federal defender program within the Executive Branch. Congressman Deutsch recommended this agency be run by a commission of twelve members appointed by the
president.1120 None of these commissioners could be prosecutors or judges, and a
majority would be former public defenders.1121
Such a model would resolve the conflict that has emerged between defenders
and the judiciary due to the program’s poor fit in the current structure. Additionally,
it would allow for the creation of a mechanism whereby funding for the defenders
could be tied to funding for prosecutions by the Department of Justice.
However, as this Committee has learned, a host of questions and conflicts
would remain. Per the Deutsch bill specifically, local judicial control of CJA panel
attorneys would seemingly remain in place. The bill creates independence at a
national level but not at the local level, where the lack of independence affects individual defendants, their attorneys, and the integrity of our adversarial criminal justice system the most. While the Deutsch bill champions independence, the recommended structure could allow for continued or even greater judicial control outside
of the national agency.
Placing defenders in the same branch that also prosecutes could create an
actual or perceived conflict of interest. The Committee heard about such models
currently in use from representatives of the military defender offices. The military
branches have a similar structure, with both prosecution and defense offices reporting to the same higher office, but the control exercised over independent judgment
and a lack of resources is a continuing problem for the defense.1122
Finally, this model could be equally as costly and as disruptive to defense
delivery as the previous model.
1119

Independent and Effective Federal Defenders Act of 2016, H.R. 5449, 114th Cong. (2016).
Id. at § 2(a)(5)(B)
1121 Id. at § 2(a)(5)(B)
1122 See Public Hearing — Philadelphia, Pa., Panel 5: Views from the Military
1120

250

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-294

AR-2659

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 296 of 342 Page ID
#:27878

14.3 Re-elevating DSO to a
Directorate in the AO
While this model was suggested, the Committee doesn’t believe that it would
resolve any of the issues that currently plague the CJA. Re-elevating DSO would not
address the inherent conflicts of interest outlined in this report. No matter where
DSO is located within the AO, the CJA budget will still be competing for resources
with the judiciary; it will still be determined by JCUS committees without any
defender input; and it will continue to be brought to appropriators in Congress
without any defender ability to answer questions, explain the program, or advocate
for the funds necessary to fulfill the program’s mission.
The placement of the CJA program within the judiciary is fundamentally flawed,
something that Congress acknowledged at the time of the creation of the CJA and
assumed would be addressed at some later date. That time is now long-past due.

14.4 Defender Commission
Comprised Entirely of Judges
As mentioned above, all members of the Committee, with one exception, agreed on
the above mechanism for nominating and confirming Commissioners. The exception, Professor Kerr, believes that the commission should consist entirely of federal district court judges selected by the judges of each circuit. His view is set out
in a separate statement.1123 The proposal to have only judges lead the new federal
defense agency is based on Professor Kerr’s assumption that judicial commissioners
would insulate a new agency from any political pressure or control.
But such a model underestimates the bipartisan support the federal defender
program historically has had from Congress. Many federal defender offices would
have been even more compromised if not for the assistance and support provided
from both sides of the aisle in Congress during sequestration.1124 Certainly the concept of being “tough on crime” raises the specter that a commission dedicated to
the defense of individuals accused of crime might be subject to additional scrutiny.
However, this is not about being “tough on crime,” it is about providing the representation guaranteed under the Sixth Amendment to those individuals who have
been accused of a crime. And, as documented in this report, Congress has historically understood that distinction.
The current defense services budget is visible to potential political opponents
1123
1124

See Appendix M: Statement from Committee Member Professor Orin Kerr.
Please see Section 3.2.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-295

251

AR-2660

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 297 of 342 Page ID
#:27879
RECOMMENDATIONS

in Congress, who can cut the budget or not as appropriators see fit. Indeed, there
have been years when judiciary funding has been cut when defender budgets
have not, and vice versa. For example, when Congress was determined to defund
an aspect of the defender program, the Death Penalty Resource Centers, the fullthroated defense of the program from the judiciary did nothing to save those
Centers.1125 There is nothing currently preventing Congress from taking similar
action today. Furthermore, one could argue Congress’s previous decision to defund
was not based on an intent to intrude directly upon the provision of representation
to an accused but rather because certain members of Congress became convinced
that these Death Penalty Resource Centers were focused not on representation but
on abolition of the death penalty. We recognize this concern and the Committee
believes that any commission overseeing the defense function would be prudent to
impose limits on its advocacy to instead focus on its Constitutional mandate.
Having spent the last two-hundred-fifty pages discussing the need for independence from the judiciary, a commission comprised entirely of judges would
leave the program under the direction of a commission with significant ties with
the judiciary. The new defender program should not be set up, again, with a fundamental conflict of interest between its needs and those of the judiciary. Due to a
combination of factors, when these conflicts have arisen, the defender program has
suffered. The judgment of those judicial commissioners would be affected by both
their perspective and their knowledge of the needs, resources, and best interests of
the judiciary. These interests may at times be at odds with the best interests of an
institution dedicated to supporting defenders.
While individual judges have long supported and advocated for the defender
program, and judicial input will be important to any future commission, the
Committee cannot endorse a commission comprised solely of judicial members.

1125

George Kendall, Minneapolis Panel 3 Views from a Mixed Panel, Transcript pg 25; Patricia L.
Ragone and J. Michael Williams, Conference: The Death Penalty In The Twenty-First Century, 45 Am.
U.L. Rev. 239, 346–347, December 1995 (From one participant, Ronald Tabak: “[I]t is important to
realize that one very likely part of any crime bill that comes out of the new Congress that has just been
elected would be an effort to eliminate the existing death penalty resource centers that deal with postconviction representation. There have been a lot of political attacks made on these resource centers.”)

252

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-296

AR-2661

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 298 of 342 Page ID
#:27880

14.5 Conclusion
The entire Committee agrees that greater independence from the
judiciary is a minimum requirement. An independent entity outside of JCUS and AO control is essential. The Committee urges
that Congress adopt legislation to give the defense program
the independence that it needs — and that Congress originally
intended — to function more effectively, more efficiently, and continue to protect the integrity of the criminal justice program. •

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-297

253

AR-2662

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 299 of 342 Page ID
#:27881

Appendices

A-298

AR-2663

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 300 of 342 Page ID
#:27882

Appendix A: Committee Member Biographies
HON. KATHLEEN CARDONE is a United States
District Judge for the Western District of Texas.
She was appointed to the federal bench in 2003 by
President George W. Bush. In 2015, Judge Cardone
was appointed by Chief Justice John G. Roberts, Jr. to
Chair the Committee to Review the Criminal Justice
Act Program. Prior to taking the federal bench, Judge
Cardone had over sixteen years of judicial experience. She served as Visiting Judge for the State of Texas
(2001-2003), first Judge of the 388th Judicial District
Court of the State of Texas (1999–2000), first Judge of
the 383rd Judicial District Court of the State of Texas
(1995–1996), Associate Judge for the Family Court
of El Paso County, Texas (1990-1995) and Municipal
Court Judge for the City of El Paso, Texas (1983–1990).
Judge Cardone served on the United States Judicial
Conference Defender Services Committee (2010–2017)
and has been appointed to the Administrative Office’s
Legal and Policy Task Force for the eVoucher system.
Judge Cardone graduated from Binghamton University
with a B.A. in Spanish Language and Literature and
Latin American Studies, and received a J.D. from Saint
Mary’s University School of Law in San Antonio, Texas.
Judge Cardone is the first woman to be appointed to the
federal bench in El Paso, Texas.

REUBEN CAMPER CAHN has been the Executive
Director of Federal Defenders of San Diego, Inc. since
2005. He began his career in public defense in 1988
with the Office of the Public Defender for the 17th
Judicial Circuit (Broward County) Florida. In 1993, Mr.
Cahn became an Assistant Federal Public Defender
for the Southern District of Florida and, in 1995, the
Chief Assistant of that office. He has served as learned
counsel in a number of federal capital prosecutions.
As Executive Director, Mr. Cahn continues to try cases
and represent clients not only in the trial court but
also before the Ninth Circuit Court of Appeals and
the Supreme Court. Mr. Cahn received his A.B. from
Stanford University in 1981 and his J.D. from Yale Law
School in 1984 where he was an editor of the Yale Law
Journal. Following graduation, Mr. Cahn served as law
clerk to the Hon. Lawrence W. Pierce, United States
Court of Appeals for the Second Circuit, before working
as a litigation associate at Wachtell Lipton and then Paul
Weiss. Mr. Cahn has served as co-chair of the Defender
Services Advisory Group and the Community Defender

Offices’ representative to the Defender Services
Committee of the Judicial Conference, chair of the
Defender Death Penalty Working Group, and a member
of the Community Defender Organization, Performance
Measurement, and Death Penalty Working Groups, as
well as the Capital Trials Expert Panel.

HON. DALE S. FISCHER is a United States District
Judge for the Central District of California. She was
appointed to the federal bench in 2003 by President
George W. Bush. In 2015, Judge Fischer was appointed
by Chief Justice John G. Roberts to the Committee
to Review the Criminal Justice Act Program. She has
served as a member of the Ninth Circuit’s CJA Oversight
and Pro Se Litigation Committees, and presently chairs
the Central District’s Criminal Justice Act Committee.
Prior to her appointment to the federal bench, Judge
Fischer served on the Los Angeles Superior Court,
where she presided over a felony trial court and chaired
the Court’s Bail, Probation, and Temporary Judge
Committees. She has been actively involved in educating young lawyers as a faculty member for the National
Institute of Trial Advocacy Trial Program, and taught
courses on arraignment and bail, voir dire, calendar
management, and criminal trials to California judges at
the B.E. Witkin Judicial College and Continuing Judicial
Studies Program. She has also edited “bench guides” for
California judges prepared by the California Center for
Judicial Education and Research on the subjects of bail
and own-recognizance release, misdemeanor arraignments, felony arraignments and pleas, and jury management. Judge Fischer graduated from the University of
South Florida with a B.A. in English and received a J.D.
from Harvard Law School in 1980.
HON. JEFFERY S. CHIP FRENSLEY was
appointed as a Magistrate Judge for the Middle District
of Tennessee in October 2016. Prior to his appointment to the bench, Judge Frensley served for over
twenty years as both a criminal and civil defense attorney. From 2009 to 2016, Judge Frensley served as the
National CJA Representative to the Defender Services
Committee of the United States Judicial Conference representing over 10,000 private attorneys nationwide who
represent indigent defendants in federal court. He was a
member of the Criminal Justice Act (CJA) Panel for the
Middle District of Tennessee from 1997 to 2016. He has

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-299

255

AR-2664

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 301 of 342 Page ID
#:27883
APPENDICES

been recognized as the panel lawyer of the year as well
as being listed in Best Lawyers in America for criminal
defense. Judge Frensley graduated from the University
of Mississippi with a Bachelor of Arts degree in 1992
and earned his Juris Doctor degree from Vanderbilt
University in 1995.

the United Stated Court of Appeals for the Third Circuit.
Judge Goldberg is a graduate of Temple University
Beasley School of Law (1986) where he was a member
of Temple’s first ever trial team. He presently serves as
an Adjunct Professor at Temple Law teaching both civil
and criminal advanced trial advocacy.

HON. JOHN M. GERRARD is a United States

PROF. ORIN S. KERR is the Fred C. Stevenson

District Judge for the District of Nebraska. He was
appointed to the federal bench in 2012 by President
Barack Obama. Judge Gerrard moved to the federal bench after serving for 16½ years on Nebraska’s
Supreme Court. He was appointed to this position in
1995 by then Governor E. Benjamin Nelson. During his
time on Nebraska’s high court, Judge Gerrard helped
lead court initiatives that promoted racial and ethnic
fairness in the state court system. Prior to his appointment to Nebraska’s Supreme Court, Judge Gerrard
worked in private practice for 14 years. His practice
focused on both civil and criminal litigation. Judge
Gerrard began his professional career as a state probation officer in Norfolk, Nebraska, where he worked
with both juvenile and adult offenders. Judge Gerrard
earned a Bachelor of Science degree from Nebraska
Wesleyan University (1976); a Masters in Public
Administration degree from the University of Arizona
(1977); and, a Juris Doctorate degree from Pacific
McGeorge School of Law in Sacramento, California
(1981). He is an elected member of the American
Board of Trial Advocates, and he was board certified
as a civil trial specialist by the National Board of Trial
Advocacy.

Research Professor of Law at George Washington
University Law School, and as of January 2018 he will
be a Professor of Law at the University of Southern
California Gould School of Law. Professor Kerr is
a former trial attorney in the Computer Crime and
Intellectual Property Section at the U.S. Department
of Justice, as well as a Special Assistant U.S. Attorney
in the Eastern District of Virginia. He clerked for Judge
Leonard I. Garth of the U.S. Court of Appeals for the
Third Circuit and Justice Anthony M. Kennedy of the
United States Supreme Court. Professor Kerr earned a
BSE from Princeton University, an MS from Stanford
University, and a JD from Harvard University.

HON. MITCHELL S. GOLDBERG is a United
States District Judge for the Eastern District of
Pennsylvania. He was appointed to the federal bench
in 2008 by President George W. Bush. Prior to his elevation to the federal bench, Judge Goldberg served
on the Bucks County Court of Common Pleas. Judge
Goldberg’s career as a practicing attorney started at the
Philadelphia District Attorney’s Office where he worked
in both the trial and appellate divisions. He later joined
the law firm of Cozen O’Connor, where his practice
focused on commercial litigation. Judge Goldberg was
eventually promoted to senior partner, and also served
as the manager of Cozen’s Arson and Fraud Unit. Judge
Goldberg returned to the public sector in 1997, serving
as an Assistant United States Attorney for the Eastern
District of Pennsylvania where he handled mostly white
collar crime cases, both before the District Court and

256

NEIL H. MACBRIDE is a partner in Davis Polk’s
Litigation Department and co-chair of the firm’s
White Collar Criminal Defense and Government
Investigations Group. His practice focuses on government enforcement actions, internal investigations,
congressional investigations, and complex civil litigation. Before joining Davis Polk in 2014, Mr. MacBride
served as the U.S. Attorney for the Eastern District
of Virginia. Nominated by President Barack Obama
and unanimously confirmed by the U.S. Senate, Mr.
MacBride was appointed by Attorney General Eric
Holder to the Attorney General’s Advisory Committee
and also chaired its Terrorism and National Security
Subcommittee. Before his appointment as U.S.
Attorney, Mr. MacBride served as the Associate Deputy
Attorney General at the Department of Justice. He earlier served as Vice President and General Counsel of
the Business Software Alliance, an international trade
association for the software and hardware industry, where he oversaw global anti-piracy enforcement
programs in 75 countries to combat unlicensed and
counterfeit software. He also served as Chief Counsel
and Staff Director for then-Senator Joseph R. Biden Jr.
on the Senate Judiciary Committee and as an Assistant
U.S. Attorney in the District of Columbia. Mr. MacBride
is earned his B.A. from Houghton College (magna
cum laude), and his J.D. from the University of Virginia
School of Law.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-300

AR-2665

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 302 of 342 Page ID
#:27884

HON. EDWARD C. PRADO was appointed to the
United States Court of Appeals for the Fifth Circuit by
President George W. Bush in February 2003. In 1984,
President Ronald Reagan appointed Judge Prado to the
United States District Court for the Western District of
Texas. During his tenure on the District Court, Judge
Prado was appointed by Chief Justice William Rehnquist
to Chair the Criminal Justice Act Review Committee
(1991-1993). Judge Prado’s committee was the last time
the Criminal Justice Act was comprehensively studied.
Prior to his judicial career, Judge Prado served as an
Assistant District Attorney in the Bexar County District
Attorney’s Office. Thereafter, in 1976 he served in the
Federal Public Defender’s Office in the Western District
of Texas as an Assistant Public Defender. In 1980, Judge
Prado was appointed to serve as a Texas state District
Judge in Bexar County. In 1981, President Ronald
Reagan appointed Judge Prado to serve as the United
States Attorney for the Western District of Texas. Judge
Prado received an Associate of Arts degree from San
Antonio College. He received a Bachelor of Arts degree
from the University of Texas at Austin in May 1969 and
received his Juris Doctor (J.D.) in 1972 from University
of Texas School of Law.
KATHERIAN ROE is the Federal Defender for the
District of Minnesota. She has been the Defender
since 2006. Prior to that she served as a Minnesota
state court judge (2002–2006), an Assistant Federal
Defender (1989–2002), a Georgetown University Law
School Prettyman/Stiller Fellow (1987–1989) and an
Indian Legal Services attorney and Reginald Heber
Smith Fellow (1984–1987). Ms. Roe has practiced before
federal, state and tribal courts. She is a Fellow of the
American College of Trial Lawyers and the American
Board of Criminal Lawyers. She also served on the
Defender Services Advisory Group and currently serves
on the FBA Board of Directors, MN and the MSBA
Certification Board for Criminal Law Specialists. She is
a Minnesota board certified Criminal Law Specialist.
Ms. Roe is a graduate of Georgetown Law School (LL.M
Trial Advocacy), Albany Law School (J.D.) and the State
University of New York, Albany (B.A.).

DR. ROBERT E. RUCKER has been the Assistant
Circuit Executive for Court Management and Research
in the Ninth Circuit’s Office of the Circuit Executive
since 1996. In 2017, he was appointed Acting Circuit
Executive for four months. He has been a member
of the national Legal Policy Committee for eVoucher.

He staffs the Judicial Council of the Ninth Circuit and
numerous Ninth Circuit committees, including the
Capital Case Committee. Dr. Rucker helped lead the
conceptualization and implementation of the case management and budgeting system for the Ninth Circuit’s
capital habeas corpus cases. He was part of the national
pilot program that created the circuit case budgeting
attorney positions for capital cases and mega-criminal
cases that has been approved and funded by the Judicial
Conference of the United States and the Defender
Services Office. He joined the federal courts in 1991,
working for District of Nevada as the Reporter for the
Civil Justice Reform Act. Prior to that he was a professor at four state universities, teaching graduate students,
and conducting research on perceptions of risk, potential impacts of high level nuclear waste disposal, social
inequality and demographics.

HON. REGGIE B. WALTON is a Senior United
States District Judge for the District of Columbia. He
was appointed to the federal bench in 2001 by President
George W. Bush. Judge Walton has served on and
chaired numerous Committees, including: Chair of the
National Prison Rape Elimination Commission (2004);
the federal judiciary’s Criminal Law Committee (20052011); and the federal judiciary’s Committee on Court
Administration and Case Management (2014-2017). In
May 2007, Chief Justice John G. Roberts, Jr. appointed
Judge Walton to serve as a judge of the United States
Foreign Intelligence Surveillance Court, and in February
2013 he was elevated to the position of Presiding Judge.
Before serving in these capacities, Judge Walton was
appointed by President Ronald Reagan as Associate
Judge of the Superior Court of the District of Columbia,
where he served as Deputy Presiding Judge of the
Criminal Division. Judge Walton left this judgeship to
become Associate Director of the Office of National
Drug Control Policy in the Executive Office of the
President when asked by President George H.W. Bush.
Later, Judge Walton served as Senior White House
Advisor for Crime. President George H.W. Bush thereafter reappointed Judge Walton to the Superior Court of
the District of Columbia, where he served as Presiding
Judge of the Family Division and Presiding Judge of
the Domestic Violence Unit. Judge Walton earned
his Bachelor of Arts degree from West Virginia State
College in 1971 and his Juris Doctor from The American
University, Washington College of Law, in 1974.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-301

257

AR-2666

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

258

■ Santa Fe, NM ■ San Francisco, CA
■ Miami, FL
■ Philadelphia, PA
■ Portland, OR ■ Minneapolis, MN
■ Birmingham, AL

The 94 judicial districts were divided geographically
based on their proximity to the cities in which
the seven hearings were held. For each hearing,
judges, defenders, CJA panel attorneys and others
were invited from each of the targeted districts.
This map illustrates which districts were targeted
for each hearing.

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 303 of 342 Page ID
#:27885

APPENDICES

Appendix B: Map of Hearing Invitations

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

A-302

AR-2667

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 304 of 342 Page ID
#:27886

Appendix C: Survey Data Considered
The Committee reviewed considerable data in its evaluation. In addition to the testimony and submissions
received as part of its seven public hearings held across
the country, the Committee relied on three national surveys conducted by the Westat research group, reviewed
data compiled by the Defender Services Management
Information System (“DSMIS”), and created and fielded
two surveys of its own.

The Westat Surveys
In 2014, the Administrative Office of the U.S. Courts
awarded a contract to Westat to revise and administer
surveys to three broad groups of respondents, i) federal judges, ii) federal defenders and resource counsel and iii) panel representatives and individual panel
attorneys, about the quality of representation provided
under the CJA and related statutes, and about the
administration of the Defender Services program. The
surveys elicited information to assist in evaluating program performance, including data to measure whether,
and to what extent, changes may have occurred since
baseline and subsequent surveys were completed earlier. Westat is a national research corporation consulting
in statistical design, data collection and management,
and research analysis.
Westat developed the surveys with input from a variety
of sources, including the Defender Services Committee
and its Subcommittee on Long Range Planning and
Education, DSO staff, members of AO advisory and
working groups, the AO Office of the Deputy Director,
and Westat’s own staff.

Judge Survey
In the first quarter of 2015, Westat emailed a survey to all
106 chief appeals and chief district court judges and to a
randomly selected sample of an additional 582 other circuit, district, and magistrate judges drawn from the 1,222
judges appointed to their positions as full-time circuit,
district, or magistrate judges in the 15 months prior to
survey administration. Seventy-four percent of all judges
who received the survey responded, although district
(76%) and magistrate (80%) judges were much more
likely to respond than were circuit (49%) judges.
The judge survey consisted of 123 questions, consisting of a background section and seven parts, including:

Part I: Timeliness of Non-Capital CJA Representations;
Part II: Quality of CJA Representations (Non-Capital
Cases); Part III: Selection and Retention of Qualified
CJA Panel Attorneys (Non-Capital Cases); Part IV:
Voucher Administration (Non-Capital Cases); Part
V: Case Budgeting for Non-Capital and Capital
Representations; Part VI: Capital Representations
(Capital Trials and Appeals and Capital Habeas
Corpus); and Part VII: Final Comments. Part VI has two
subparts: Part VI-A: Availability of Qualified Counsel
for CJA Representations (Capital Trials and Appeals);
and Part VI-B: Availability of Qualified Counsel for CJA
Representations (Capital Habeas Corpus).

Panel Attorney Survey
The 2015 survey of panel attorneys was based on a
similar 2009 survey of the same population to investigate program changes that had occurred in the intervening six years and to evaluate attorney strategies
and performance measures set forth in the “Defender
Services Program Strategic Plan.” The survey of CJA
panel representatives consisted of nine parts and 142
questions, whereas the survey of individual CJA panel
attorneys had eight parts and 144 questions. Much of
the individual panel attorney survey paralleled the district representative survey, with both containing background questions and survey items asking about the
timeliness of CJA appointments, availability of qualified
counsel, panel attorney rates, CJA panel management
and administration, vouchers, training needs, national
training program resources provided by DSO’s Training
Division, and panel attorney resources and support.
Surveys were administered over five months to a census
of all 94 district representatives, and to a sample of 1,528
eligible individual panel attorneys. Since a nationwide
list of panel attorneys did not exist, to develop a panel
attorney population from which to draw a sample, DSO
generated a list of attorneys from the CJA payment
system. This list was made up of more than 8,500 attorneys who had received at least two voucher payments
in the two years preceding the survey. Attorneys were
contacted multiple times to achieve a response rate of 95
percent for the district representatives and 72 percent for
individual CJA lawyers. Panel attorneys were given the
option of taking the survey on paper or on the web.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-303

259

AR-2668

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 305 of 342 Page ID
#:27887
APPENDICES

Defender Survey
The defender survey incorporated most of the questions from a companion survey conducted in 2009 to
evaluate program changes that had occurred since the
earlier survey and to assess attorney strategies and performance measures set forth in the Defender Services
Program Strategic Plan. The 2015 Survey consisted of
four parts and 85 questions, including a background
section, Part I: Timeliness of CJA Appointments,
Part II: Availability of Qualified Counsel for CJA
Representations (for federal defenders only), Part III:
FDO Management and Resources (federal defenders
only), and Part IV: Training.
Westat emailed instructions for completing the webbased survey to all 81 heads of FDOs and one local CJA
resource counsel from each of the three districts not
served by an FDO. Subsequent follow-up took place via
email and telephone to achieve an overall response rate
of 94 percent.

CJA Review Committee Surveys
Given testimony it received, the Committee was especially interested in investigating the circumstances
under which panel attorneys’ vouchers are reduced by
the court and the rate at which panel attorneys utilize service providers in CJA representations. No such
data were available to answer the first question, for
so-called voucher cutting is not tracked by the Defender
Services Management Information System (“DSMIS”).
In addressing the latter issue, the Committee reviewed
reports from DSMIS that indicated the number and
percentage of panel representations in which service
providers were used, as well as the average payment per
service provider, in each federal district for the 2013,
2014, and 2015 fiscal years.
To supplement the data from DSMIS on service providers, and to collect firsthand information on voucher
review, the Committee conducted its own survey of
panel attorneys about their experience in the approval
of vouchers and service providers. The first challenge
with collecting this information was to create a comprehensive list, as there is no national database of CJA
panel attorneys. To compile the list, the Committee
chair and staff reached out to all 94 districts requesting email addresses for all members of their CJA panel.
Because panel management varies across the districts,
this outreach was made to federal and community

260

defenders, CJA administrators and clerks of court,
some of whom were resistant to sharing their lists.
When we did receive the information, it was delivered
in a variety of formats: Word documents, PDFs, email
listservs, and Excel files. Ultimately, we successfully
located contact information for approximately 10,000
panel attorneys nationwide.
The list from each district was split in two — if we
received lists for divisions within a district, those were
also split in two — the Committee then sent an electronic survey to half inquiring about voucher review
and a separate electronic survey to the other half asking
about the use of service providers. Attorneys were contacted multiple times by email over several months
to encourage them to respond and were offered the
opportunity to respond electronically or through a
paper survey. Of the more than 5,000 panel attorneys
who received the survey on vouchers, 2660 lawyers
responded, for a response rate of 54 percent. Among
those queried about service providers, 2599 panel attorneys participated, reflecting a response rate of 53 percent. It is worth noting that, unlike the Westat survey,
the Committee queried the universe of panel attorneys, not a sample, and had a limited number of staff
to devote to follow-up. Still, the impressive response
rates are more than twice the rate of most national polls
and adequately reflect attorneys’ views and experiences
from across the country.
The Committee developed the surveys in collaboration with its members, the DSO’s statistician, the
Committee’s reporter and staff, and a collection of panel
representatives, defenders, and individual attorneys
who provided feedback. The voucher survey included
20 questions, asking about the nature of attorneys’ CJA
practice, their billing procedures, and their experience
with voucher review by the court. The service provider
survey encompassed 28 questions and distinguished
between non-capital and capital representations. It
asked about the nature of attorneys’ CJA practice, their
inclination to use service providers, and their dealings
with the court in making such requests. Both surveys
sought demographic information from respondents and
were designed to be short so that attorneys could complete them in ten minutes.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-304

AR-2669

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 306 of 342 Page ID
#:27888

Appendix D: Acronyms
ABA American Bar Association

FY Fiscal Year

AO Administrative Office 			
[of the United States Courts]

GB Gigabyte (1000 Megabytes)
HAT Habeas Assistance and Training

ATF Alcohol Tobacco and Firearms
BAPO Budget, Accounting, and
Procurement Office

IT Information Technology
JETWG Joint Working Group on
Electronic Technology

CBA Case-Budgeting Attorney
CDA Coordinating Discovery Attorney

JCUS Judicial Conference of
the United States

CDO Community Defender Office

JRC Judicial Resources Committee

CHU Capital Habeas Unit

LLP Limited Liability Partnership

CJA Criminal Justice Act

MB Megabyte

CMSO Case Management Systems Office
COL Cost of Living
DAWG Defender Services Automation
Working Group
DSAG Defender Services Advisory Group
DSMIS D
 efender Services Management
Information System

MOU Memorandum of Understanding
NACDL N
 ational Association of
Criminal Defense Lawyers
NITOAD N
 ational IT Operations and
Applications Development
NLST National Litigation Support Team
OGC Office of General Counsel

DOJ Department of Justice

ODS Office of Defender Services

DSC Defender Services Committee

OLA Office of Legislative Affairs

DSO Defender Services Office

PADR Panel Attorney District Representative

ESI Electronically Stored Information
FDO Federal Defender Office

PCDO Post-Conviction Defender
Organization
S&E Salaries and Expenses

FJC Federal Judicial Center

TB Terabyte (1000 Gigabytes)

FPD Federal Public Defender

US United States

FPDO Federal Public Defender Office
FTE F
 ull-Time Equivalent (describes
amount of time a position
is filled during a FY)

USC United States Code

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-305

261

AR-2670

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 307 of 342 Page ID
#:27889
APPENDICES

Appendix E: Patton-Sands Letter, March 30, 2017

262

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-306

AR-2671

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 308 of 342 Page ID
#:27890

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-307

263

AR-2672

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 309 of 342 Page ID
#:27891
APPENDICES

264

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-308

AR-2673

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 310 of 342 Page ID
#:27892

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-309

265

AR-2674

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 311 of 342 Page ID
#:27893
APPENDICES

266

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-310

AR-2675

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 312 of 342 Page ID
#:27894

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-311

267

AR-2676

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 313 of 342 Page ID
#:27895
APPENDICES

268

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-312

AR-2677

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 314 of 342 Page ID
#:27896

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-313

269

AR-2678

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 315 of 342 Page ID
#:27897
APPENDICES

270

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-314

AR-2679

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Lamb/RGK

Damman/RGK

130111-51

1/9/2013

130225-331

Thielen/JFB

Lonowski/RGK

130313-219

130403-133

4/1/2013

130408-99

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

A-315

130426-129

4/17/2013

130426-147

130426-115

4/17/2013

4/17/2013

130418-30

130418-26

130418-22

4/17/2013

4/17/2013

4/17/2013

130403-135

4/4/2013

4/1/2013

130403-134

130313-239

4/1/2013

3/7/2013

Aman/RGK

Gross/LSC

Primmer/JMG

Primmer/JMG

Gross/JMG

Dornan/JMG

Dornan/LES

Frost/LES

Bartling/LES

Eichmann/LES

Bloom/TOT

Murphree /RGK

2/28/2013

130313-201

Berry/RGK

2/28/2013

130313-186

Gross/LES

130313-166

130227-177

Nelsen/LES

Schense/LES

Lehan/JFB

130227-165

130227-6

130225-333

Bradford/JFB

2/28/2013

2/28/2013

2/17/2013

2/17/2013

2/17/2013

2/17/2013

Douglas/LES

130213-198

2/17/2013

2/11/2013

Bianco/LSC

Martinez/LES

Castrejon/TOT

Stoler/LES

130213-197

130213-214

2/11/2013

2/11/2013

130205-34

130111-65

1/25/2013

1/6/2013

Lamb/RGK

Wilson/LSC

Thielen/LSC

130111-54

130111-63

130103.98

1/9/2013

1/9/2013

12/27/2012

130103-92

Primmer/LES

Lonowski/ JMG

Atty/Judge

Eaton/RGK

12/27/2012

130102-140

130103-4

12/26/2012

12/26/2012

Voucher#

130102-57

Date

12/26/2012

$16,075.00

$13,937.50

$9,960.00

$21,425.00

$11,550.00

$20,425.00

$16,790.50

$10,762.50

$4,737.50

$3,650.00

$2,457.50

$6,012.50

$5,659.20

$4,687.50

$11,962.50

$3,122.50

$8,325.00

$3,562.50

$5,512.50

$7,800.00

$10,087.50

$30,675.00

$9,412.50

$2,500.00

$12,962.50

$8,712.50

$2,187.50

$1,800.00

$2,437.50

$2,525.00

$18,087.50

$3,600.00

$3,275.00

Total Requested

WJR

TOT

RGK

WJR

WJR

WJR

WJR

WJR

WJR

WJR

TOT

RGK

WJR

$357.50

$6,375.00

$2,440.00

$1,550.00

$1,500.00

$800.00

$712.50

$1,412.50

$1,575.00

$1,887.00

$100.00

$475.00

$2,525.00

Cut By $ Amount Cut

14.52%

39.65%

24.50%

32.72%

61.05%

13.30%

15.20%

25.60%

5.13%

20.00%

4.00%

21.70%

13.9

%Cut

Appendix F: Chart of Eighth Circuit Voucher Cuts

Voucher very tardy and excessive time spent

no cut

complex, extened, long jury trial ,not warrant 2.SX's statutory maximum

no cut

no cut

no cut

no cut

no cut

Withdrew - reduced value and caused duplication oftime & effort

Withdrew - little value and caused duplication of time & effort

TOT adjusted total down to statutory maximum

No Trial; not very complex or extended, duplicative legal effort & fees

no cut

NoTrial; not very complex or extended; duplicative legal effort & fees

no cut

no cut

no cut

no cut

See In re Caryle 644F.3d 694 not warrant 137%of stat max

no cut

no cut

See In re Caryle 644F.3d 694, 699-700 ( 8th Cir. 2011) not warrant 3X of stat max

Withdrew, requiring some duplication See In re Caryle 644F.3d 694 not warranted

TOT adjusted total down to statutory maximum

no cut

no cut

Cut by RGK for time spent with friend & family

no cut

no cut

no cut

See In re Caryle 644F.3d 694, 699-700 ( 8th Cir. 2011) 186%of stat max

no cut

no cut

Comments

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 316 of 342 Page ID
#:27898

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

271

AR-2680

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 317 of 342 Page ID
#:27899
APPENDICES

272

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-316

AR-2681

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 318 of 342 Page ID
#:27900

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-317

273

AR-2682

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 319 of 342 Page ID
#:27901
APPENDICES

Appendix G: Service Provider Usage and Payments, by Circuit
Non-Capital Service Provider Payments

Non‐Capital Service
Provider Payments

(Excludes capital and immigraton representations and payments made to interpreters.)
(Excludes capital and immigraton representations and payments made to interpreters.)

Because representations may be active over multiple fiscal years, aggregate costs and number
of service providers paid may vary when reported by representations across fiscal years.
Because representations may be active over multiple fiscal years, aggregate costs and number of service providers paid may vary when reported by reporesentations across
Data
Source:
fiscal
years. DSMIS CJA data from CJA 6X and eVoucher data feed.
Data Source: DSMIS CJA data from CJA 6X and eVoucher data feed.

FY 2014
Circuit

District

01
01
01
01
01
Circuit 01
02
02
02
02
02
02
Circuit 02
03
03
03
03
03
03
Circuit 03
04
04
04
04
04
04
04
04
04
Circuit 04
05
05
05
05
05
05
05
05
05
Circuit 05
06
06
06
06
06
06
06
06
06
Circuit 06
07
07
07
07
07
07
07
Circuit 07

MAX
MEX
NHX
PRX
RIX

274

CTX
NYE
NYN
NYS
NYW
VTX
DEX
NJX
PAE
PAM
PAW
VIX
MDX
NCE
NCM
NCW
SCX
VAE
VAW
WVN
WVS
LAE
LAM
LAW
MSN
MSS
TXE
TXN
TXS
TXW
KYE
KYW
MIE
MIW
OHN
OHS
TNE
TNM
TNW
ILC
ILN
ILS
INN
INS
WIE
WIW

Attorney
Representations
442
246
108
1,056
55
1,907
425
671
247
1,228
239
194
3,004
57
449
529
292
312
70
1,709
845
436
458
539
392
578
329
205
255
4,037
152
52
199
90
127
423
656
1,947
2,613
6,259
738
88
552
265
522
265
503
261
278
3,472
212
652
222
240
235
333
85
1,979

FY 2015

Percentage of
Average Service
Representations In Representations In Provider Payments
Attorney
Which Service
Per Attorney
Which Service
Representations
Providers Were
Representation In
Providers Were
Used
This Fiscal Year
Used
106
24%
$870
517
46
19%
$373
269
24
22%
$515
144
52
5%
$94
916
4
7%
$80
54
232
12%
$333
1,900
86
20%
$552
390
152
23%
$789
569
9
4%
$88
221
284
23%
$2,301
1,438
33
14%
$244
223
40
21%
$624
177
604
20%
$1,262
3,018
10
18%
$805
39
83
18%
$4,346
412
64
12%
$757
414
18
6%
$206
284
27
9%
$177
448
2
3%
$65
47
204
12%
$1,473
1,644
182
22%
$263
653
140
32%
$338
319
17
4%
$52
353
12
2%
$49
723
36
9%
$173
306
27
5%
$174
445
15
5%
$90
284
15
7%
$113
273
34
13%
$250
204
478
12%
$175
3,560
16
11%
$260
160
2
4%
$80
44
15
8%
$497
146
4
4%
$299
85
5
4%
$43
113
13
3%
$43
558
29
4%
$251
669
37
2%
$60
1,811
51
2%
$34
2,372
172
3%
$90
5,958
17
2%
$65
685
3
3%
$72
77
83
15%
$553
597
38
14%
$1,355
232
27
5%
$261
505
18
7%
$228
275
129
26%
$427
438
107
41%
$1,562
236
21
8%
$142
239
443
13%
$454
3,284
12
6%
$56
195
76
12%
$573
684
6
3%
$28
213
12
5%
$76
234
17
7%
$61
233
21
6%
$66
289
12
14%
$160
82
156
8%
$232
1,930

Percentage of
Average Service
Representations Representations In Provider Payments
Which Service
Per Attorney
In Which Service
Providers Were
Representation In
Providers Were
Used
This Fiscal Year
Used
90
17%
$607
36
13%
$383
22
15%
$446
101
11%
$188
4
7%
$332
253
13%
$353
61
16%
$559
114
20%
$1,276
7
3%
$68
327
23%
$1,309
29
13%
$360
40
23%
$519
578
19%
$998
8
21%
$1,684
92
22%
$1,851
57
14%
$542
11
4%
$90
47
10%
$297
2
4%
$235
217
13%
$743
102
16%
$238
129
40%
$413
5
1%
$19
18
2%
$54
20
7%
$80
28
6%
$295
7
2%
$56
10
4%
$71
23
11%
$160
342
10%
$157
15
9%
$225
5
11%
$206
11
8%
$798
1
1%
$28
4
4%
$57
17
3%
$83
28
4%
$327
22
1%
$26
25
1%
$16
128
2%
$87
28
4%
$129
1
1%
$6
80
13%
$976
27
12%
$168
23
5%
$143
16
6%
$199
105
24%
$537
85
36%
$1,290
12
5%
$144
377
11%
$430
5
3%
$21
69
10%
$344
3
1%
$16
18
8%
$115
18
8%
$140
19
7%
$86
10
12%
$201
142
7%
$178

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-318

AR-2683

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

04
SCX
392
36
9%
$173
306
20
7%
578
27
5%
$174
445
28
6%
04
VAE
04
VAW
329
15
5%
$90
284
7
2%
205
15
7%
$113
273
10
4%
04
WVN
04
WVS
255
34
13%
$250
204
23
11%
Circuit 04
4,037
478
12%
$175
3,560
342
10%
05
LAE
152
16
11%
$260
160
15
9%
52
2
4%
$80
44
5
11%
05
LAM
05
LAW
199
15
8%
$497
146
11
8%
90
4
4%
$299
85
1
1%
05
MSN
05
MSS
127
5
4%
$43
113
4
4%
423
13
3%
$43
558
17
3%
05
TXE
05
TXN
656
29
4%
$251
669
28
4%
1,947
37
2%
$60
1,811
22
1%
05
TXS
05
TXW
2,613
51
2%
$34
2,372
25
1%
Circuit 05
6,259
172
3%
$90
5,958
128
2%
06
KYE
738
17
2%
$65
685
28
4%
88
3
3%
$72
77
1
1%
06
KYW
06
MIE
552
83
15%
$553
597
80
13%
265
38
14%
$1,355
232
27
12%
06
MIW
06
OHN
522
27
5%
$261
505
23
5%
265
18
7%
$228
275
16
6%
06
OHS
FY
2014
FY
2015
06
TNE
503
129
26%
$427
438
105
24%
Percentage of41% Average Service
261
107
$1,562
236
85 Percentage of36%
06
TNM
Circuit
District
Attorney 278 Representations 21
Attorney 239 Representations
In
06
TNW
8% Provider Payments
$142
12 Representations5%
In Representations In
Representations
Circuit 06
3,472
3,284 In Which Service
377 Which Service11%
Which Service13%
Per Attorney$454 Representations
Which Service443
Providers Were6% Representation In
Providers Were12
07
ILC
212
$56
195 Providers Were 5 Providers Were3%
This Fiscal Year
652
76 2014 Used 12%
$573
684
69 2015 Used 10%
Used
Used FY
07
ILN
FY
07
ILS
222
3%
$28
213
1%
08
ARE
196
6
3%
$131
170
13
1%
Percentage
of
Average
Service
240
12
5%
$76
234
8%
07
INN
249
5
2%
$35
220
‐ 18 Percentage of0%
08
ARW
Circuit
District
Attorney
Attorney
Representations
In
Provider
Payments
Representations
In
Representations
In
Representations
07
INS
235
17
7%
$61
233
18
8%
08
IAN
390
14
4%
$62
464
9
2%
Representations
Representations
Which
Service
Per
Attorney
Which
Service
Which Service16
333
21
6%
$66
289 In Which Service
19
7%
07
WIE
222
7%
$132
228
17
7%
08
IAS
Providers Were
In
Providers Were53
07
WIW
85
12
14% Representation$886
$160
82 Providers Were66
10 Providers Were
12%
08
MNX
211
25%
283
23%
Used
This Fiscal Year$232
Used
Used 156
Used 142
Circuit
1,979
8%
1,930
7%
331
17
5%
$72
401
27
7%
08 07
MOE
MOW
455
79
17%
$125
429
31
7%
08
ARE
196
6
3%
$131
170
1
1%
200
33
17%
$232
240
20%
NDX
249
5
2%
$35
220
‐ 49
0%
08
ARW
NEX
281
32
11%
$118
255
36
14%
08
IAN
390
14
4%
$62
464
9
2%
338
79
23%
$693
247
69
28%
SDX
222
16
7%
$132
228
17
7%
08
IAS
Circuit
2,873
334
12%
$233
2,937
305
10%
08 08
MNX
211
53
25%
$886
283
66
23%
331
17
5%
$72
401
27
7%
09
AKX
149
32
21%
$637
114
28
25%
08
MOE
08
MOW
455
79
17%
$125
429
31
7%
09
AZX
5,040
261
5%
$163
4,876
272
6%
200
33
17%
$232
240
49
20%
08
NDX
1,723
736
43%
$2,148
1,453
581
40%
09
CAC
08
NEX
281
32
11%
$118
255
36
14%
09
CAE
843
263
31%
$825
813
330
41%
338
79
23%
$693
247
69
28%
08
SDX
542
143
26%
$1,410
534
142
27%
09
CAN
Circuit
2,873
334
12%
$233
2,937
305
10%
09 08
CAS
3,505
745
21%
$285
3,120
711
23%
23
9%
$138
33
3%
09
AKX
149
322
21%
$637
114
281
25%
GUX
HIX
206
2%
$104
204
4%
09
AZX
5,040
2615
5%
$163
4,876
2728
6%
166
21
13%
$558
150
12
8%
IDX
1,723
736
43%
$2,148
1,453
581
40%
09
CAC
MPX
30
17%
$274
20
20%
09
CAE
843
2635
31%
$825
813
3304
41%
162
48
30%
$603
269
61
23%
MTX
542
143
26%
$1,410
534
142
27%
09
CAN
NVX
374
127
34%
$3,835
334
112
34%
09
CAS
3,505
745
21%
$285
3,120
711
23%
680
3122
46%
$3,084
528
2831
54%
ORX
23
9%
$138
33
3%
09
GUX
WAE
346
78
23%
$2,800
313
73
23%
09
HIX
206
5
2%
$104
204
8
4%
557
103
18%
$459
479
78
16%
WAW
166
21
13%
$558
150
12
8%
09
IDX
Circuit
14,346
2,8815
20%
$840
13,240
2,6964
09 09
MPX
30
17%
$274
20
20%
162
48
30%
$603
269
61
23%
10
COX
422
167
40%
$1,620
384
151
39%
09
MTX
09
NVX
374
127
34%
$3,835
334
112
34%
10
KSX
581
41
7%
$252
578
43
7%
680
312
46%
$3,084
528
283
54%
09
ORX
996
150
15%
$451
989
152
15%
10
NMX
09
WAE
346
786
23%
$2,800
313
732
23%
10
OKE
46
13%
$180
49
4%
557
1037
18%
$459
479
78
16%
09
WAW
125
6%
$154
108
12
11%
10
OKN
Circuit
14,346
2,8815
20%
$840
13,240
2,696
20%
10 09
OKW
181
3%
$44
179
15
8%
317
102
32%
$2,601
260
78
30%
10
COX
422
167
40%
$1,620
384
151
39%
UTX
WYX
218
33
15%
$730
200
35
18%
10
KSX
581
41
7%
$252
578
43
7%
Circuit
2,886
511
18%
$796
2,747
488
18%
996
150
15%
$451
989
152
15%
10 10
NMX
10
OKE
46
6
13%
$180
49
2
4%
11
ALM
141
18
$378
91
10
11%
125
76
6%
$154
108
126
11%
10
OKN
235
3%
$94
163
4%
11
ALN
10
OKW
181
5
3%
$44
179
154
8%
11
ALS
231
12
5%
$53
127
3%
317
102
32%
$2,601
260
78
30%
10
UTX
535
113
21%
$382
545
103
19%
11
FLM
10
WYX
218
33
15%
$730
200
35
18%
11
FLN
149
7
5%
$68
130
8
6%
Circuit
2,886
511
18%
$796
2,747
488
18%
721
278
39%
$1,025
703
258
37%
11 10
FLS
GAM
277
1%
$34
203
11
5%
11
ALM
141
184
13%
$378
91
10
11%
309
94
30%
$451
275
51
19%
GAN
235
6
3%
$94
163
6
4%
11
ALN
GAS
611
16
3%
$23
544
1%
11
ALS
231
12
5%
$53
127
47
3%
Circuit
3,209
548
17%
$375
2,781
458
16%
535
113
21%
$382
545
103
19%
11 11
FLM
DC
DCX
357
91
25%
$936
279
65
23%
11
FLN
149
7
5%
$68
130
8
6%
46,038
6,654
14%
$582
43,278
6,049
14%
721
278
39%
$1,025
703
258
37%
11National FLS
11
GAM
277
4
1%
$34
203
11
5%
309
94
30%
$451
275
51
19%
11
GAN
Notes:
11 = From GAS
611
16
3%
$23
544
7
1%
FY 2014
10/01/2013
Circuit 11
3,209
548
17%
$375
2,781
458
16%
through
09/30/2014 FY 2015 =
DCX
357
91
25%
$936
279
65
23%
FromDC
10/01/2014
through
National
46,038
6,654
14%
$582
43,278
6,049
14%
09/30/2015
Percentage of Representations In Which Service Providers Were Used = (Representations In Which Service Providers Were Used/ Attorney
Notes:
Representations) * 100 Average Service Provider Payments Per Attorney Representation In This Fiscal Year = Service Provider Payments in this Fiscal
FY 2014 = From 10/01/2013
Year /Attorney Representations
through 09/30/2014 FY 2015 =
From 10/01/2014 through
09/30/2015
Percentage of Representations In Which Service Providers Were Used = (Representations In Which Service Providers Were Used/ Attorney
Representations) * 100 Average Service Provider Payments Per Attorney Representation In This Fiscal Year = Service Provider Payments in this Fiscal
Year /Attorney Representations

$80
$295
$56
$71
$160
$157
$225
$206
$798
$28
$57
$83
$327
$26
$16
$87
$129
$6
$976
$168
$143
$199
$537
Average Service
$1,290
Provider Payments
$144
Per Attorney$430
Representation In
$21
This Fiscal Year
$344
$16
$14
Average Service
$115
$0
Provider Payments
$140
$25
Per Attorney $82
$86
Representation$932
In
$201
This Fiscal Year
$178
$180
$43
$14
$264
$0
$249
$25
$804
$82
$243
$932
$180
$1,369
$43
$157
$264
$2,058
$249
$1,390
$804
$1,112
$243
$352
$35
$1,369
$100
$157
$1,056
$2,058
$1,389
$1,390
$669
$1,112
$3,404
$352
$3,591
$35
$1,382
$100
$477
$1,056
$817
$1,389
$669
$1,694
$3,404
$675
$3,591
$582
$1,382
$10
$477
$282
$817
$140
$2,942
$1,694
$520
$675
$925
$582
$10
$339
$282
$80
$140
$46
$2,942
$240
$520
$121
$925
$1,024
$183
$339
$393
$80
$13
$46
$384
$240
$687
$121
$533
$1,024
$183
$393
$13
$384
$687
$533

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 320 of 342 Page ID
#:27902

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-319

275

AR-2684

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 321 of 342 Page ID
#:27903
APPENDICES

Service Provider and Attorney Reps
(Expert Services Workload — District Courts, Non Capital, No Immigration
Cases,Provider
No Interpreters)
Service
and Attorney Reps
(Attorney Workload — District Courts, Non Capital, No Immigration Cases)
(Expert Services Workload ‐ District Courts, Non Capital, No Immigration Cases, No
Interpreters) (Attorney Workload ‐ District Courts, Non Capital, No Immigration Cases)

FY 2013
Circuit

District

01
01
01
01
01
Circuit 01

MAX
MEX
NHX
PRX
RIX

Atty Reps

Service
Provider Reps

445
250
129
874
78
1,776

109
36
19
43
6
213

FY 2014

% of Service
Provider Reps
24%
14%
15%
5%
8%
12%

Average Service
Provider Payments
Per Atty Rep
$ 1,068
$ 305
$ 490
$ 120
$ 113
$ 410

Atty Reps
442
246
108
1,056
55
1,907

Service Provider % of Service
Reps
Provider Reps
106
46
24
52
4
232

24%
19%
22%
5%
7%
12%

Average Service
Provider Payments
Per Atty Rep
$ 870
$ 373
$ 515
$ 94
$ 80
$ 333

02
CTX
482
83
17%
$ 1,446
425
86
20%
$ 552
02
NYE
581
114
20%
$ 961
671
152
23%
$ 789
289
7
2%
$ 49
247
9
4%
$ 88
02
NYN
02
NYS
1,371
390
28%
$ 1,126
1,228
284
23%
$ 2,301
232
35
15%
$ 339
239
33
14%
$ 244
02
NYW
02
VTX
201
43
21%
$ 645
194
40
21%
$ 624
3,156 672 21% $ 957
3,004 604 20% $ 1,262
Circuit 02
03
DEX
29
3
10%
$ 540
57
10
18%
$ 805
380
65
17%
$ 1,615
449
83
18%
$ 4,346
03
NJX
03
PAE
564
81
14%
$ 677
529
64
12%
$ 757
288
15
5%
$ 240
292
18
6%
$ 206
03
PAM
03
PAW
306
41
13%
$ 455
312
27
9%
$ 177
03
VIX
55
5
9%
$ 167
70
2
3%
$ 65
Circuit 03
1,622
210
13%
$ 757
1,709
204
12%
$ 1,473
04
MDX
868
173
20%
$ 262
845
182
22%
$ 263
04
NCE
581
118
20%
$ 473
436
140
32%
$ 338
304
16
5%
$ 73
458
17
4%
$ 52
04
NCM
04
NCW
483
22
5%
$ 174
539
12
2%
$ 49
521
34
7%
$ 304
392
36
9%
$ 173
04
SCX
04
VAE
572
24
4%
$ 173
578
27
5%
$ 174
230
10
4%
$ 78
329
15
5%
$ 90
04
VAW
04
WVN
192
22
11%
$ 336
205
15
7%
$ 113
04
WVS
180
19
11%
$ 154
255
34
13%
$ 250
Circuit 04
3,931
438
11%
$ 248
4,037
478
12%
$ 175
05
LAE
126
10
8%
$ 132
152
16
11%
$ 260
05
LAM
56
9
16%
$ 223
52
2
4%
$ 80
210
13
6%
$ 148
199
15
8%
$ 497
05
LAW
05
MSN
63
1
2%
$ 12
90
4
4%
$ 299
192
4
2%
$ 27
127
5
4%
$ 43
05
MSS
05
TXE
519
11
2%
$ 30
423
13
3%
$ 43
446
20
4%
$ 90
656
29
4%
$ 251
05
TXN
05
TXS
1,801
47
3%
$ 175
1,947
37
2%
$ 60
05
TXW
2,690
43
2%
$ 36
2,613
51
2%
$ 34
Circuit 05
6,103
158
3%
$ 87
6,259
172
3%
$ 90
06
KYE
589
9
2%
$ 27
738
17
2%
$ 65
06
KYW
122
6
5%
$ 80
88
3
3%
$ 72
540
65
12%
$ 843
552
83
15%
$ 553
06
MIE
06
MIW
284
41
14%
$ 706
265
38
14%
$ 1,355
531
24
5%
$ 194
522
27
5%
$ 261
06
OHN
06
OHS
237
14
6%
$ 156
265
18
7%
$ 228
487
123
25%
$ 302
503
129
26%
$ 427
06
TNE
06
TNM
288
128
44%
$ 1,597
261
107
41%
$ 1,562
06
TNW
341
36
11%
$ 266
278
21
8%
$ 142
Circuit 06
3,419
446
13%
$ 444
3,472
443
13%
$ 454
07
ILC
162
17
10%
$ 162
212
12
6%
$ 56
07
ILN
696
77
11%
$ 539
652
76
12%
$ 573
201
8
4%
$ 69
222
6
3%
$ 28
07
ILS
07
INN
223
13
6%
$ 177
240
12
5%
$ 76
228
19
8%
$ 72
235
17
7%
$ 61
07
INS
07
WIE
363
14
4%
$ 25
333
21
6%
$ 66
07
WIW
81
16
20%
$ 659
85
12
14%
$ 160
Circuit 07
1,954
164
8%
$ 273
1,979
156
8%
$ 232
08
ARE
230
6
3%
$ 50
196
6
3%
$ 131
08
ARW
199
5
3%
$ 20
249
5
2%
$ 35
302
12
4%
$ 94
390
14
4%
$ 62
08
IAN
08
IAS
311
13
4%
$ 54
222
16
7%
$ 132
276 08 2 0 1 7 MNX
REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT
213
52
24%
$ 817
211
53
25%
$ 886
08
MOE
339
23
7%
$ 131
331
17
5%
$ 72
333
177
53%
$ 479
455
79
17%
$ 125
08
MOW
08
NDX
150
23
15%
$ 273
200
33
17%
$ 232
337
29
9%
$ 50
281
32
11%
$ 118
08
NEX
08
SDX presented
234 herein represents
35
15%
$ 332 Conference of
338
79 unless approved
23% by the$Conference
693
[No recommendation
the policy
of the Judicial
the United States
itself.]

A-320

AR-2685

04
VAE
04
VAW
04
WVN
04
WVS
Circuit 04
05
LAE
05
LAM
05
LAW
05
MSN
05
MSS
05
TXE
05
TXN
05
TXS
05
TXW
Circuit 05
06
KYE
06
KYW
06
MIE
06
MIW
06
OHN
06
OHS
06
TNE
Circuit
District
06
TNM
06
TNW
Circuit 06
09
AKX
07
ILC
09
AZX
07
ILN
09
CAC
07
ILS
09
CAE
07
INN
09
CAN
07
INS
09
CAS
07
WIE
09
GUX
07
WIW
09 07
HIX
Circuit
09
IDX
08
ARE
09
MPX
08
ARW
09
MTX
08
IAN
09
NVX
08
IAS
09
ORX
08
MNX
09
WAE
08
MOE
09
WAW
08
MOW
Circuit
08 09
NDX
Circuit
District
10
COX
08
NEX
08
SDX
10
KSX
10 08
NMX
Circuit
10
OKE
09
AKX
10
OKN
09
AZX
10
OKW
09
CAC
10
UTX
09
CAE
10
WYX
09
CAN
Circuit
09 10
CAS
11
ALM
09
GUX
11
ALN
09
HIX
11
ALS
09
IDX
11
FLM
09
MPX
11
FLN
09
MTX
11
FLS
09
NVX
11
GAM
09
ORX
11
GAN
09
WAE
11
GAS
09
WAW
11
Circuit 09
DC
DCX
10
COX
10National KSX
10
NMX
10
OKE
10
OKN
10
OKW
10
UTX
10
WYX
Circuit 10
11
ALM
11
ALN
11
ALS
11
FLM
11
FLN
11
FLS
11
GAM
11
GAN
11
GAS
Circuit 11
DC
DCX
National

572
230
192
180
3,931
126
56
210
63
192
519
446
1,801
2,690
6,103
589
122
540
284
531
237
487
288
Atty Reps
341
3,419
132
162
5,239
696
1,789
201
825
223
552
228
3,428
363
37
81
130
1,954
179
230
35
199
175
302
387
311
484
213
262
339
604
333
14,258
150
507
337
Atty Reps
411
234
2,648
805
56
132
119
5,239
196
1,789
400
825
181
552
2,675
3,428
110
37
327
130
255
179
706
35
143
175
870
387
172
484
253
262
505
604
3,341
14,258
280
507
45,163
411
805
56
119
196
400
181
2,675
110
327
255
706
143
870
172
253
505
3,341
280
45,163

24
4%
$ 173
10
4%
$ 78
22
11%
$ 336
19
11%
$ 154
438
11%
$ 248
10
8%
$ 132
9
16%
$ 223
13
6%
$ 148
1
2%
$ 12
4
2%
$ 27
11
2%
$ 30
20
4%
$ 90
47
3%
$ 175
43
2%
$ 36
158
3%
$ 87
9
2%
$ 27
6
5%
$ 80
65
12%
$ 843
41
14%
$ 706
24 FY 2013
5%
$ 194
14
6%
$ 156
123
25%
$ 302
Service
% of Service
Service
128
44% Average
$ 1,597
Provider Reps
Payments
36 Provider Reps
11% Provider
$ 266
Per $Atty
446
13%
444Rep
22
17%
$ 348
17
10%
162
394
8%
$ 223
77
11%
539
6848
38%
$ $1,966
4%
69
339
41%
$ 882
13
6%
177
162
29%
$ $1,619
19
8%
72
724
21%
$$301
14
4%
25
1
3%
30
16
20%
$$ 659
3
2%
50
164
8%
$$ 273
276
15%
$$425
3%
50
65
17%
$$388
3%
20
37
21%
$$454
12
4%
94
133
34%
$ $6,916
13
4%
54
250
52%
$$3,683
52
24%
817
61
23%
$$1,698
23
7%
131
99 FY 2013 16%
$ 524
177
53%
479
2,942
21%
$ 896
23
15%
273
Service198
Service
39%
$ $1,727
29 % of Service
9% Average
50
Provider Reps
Payments
37
9% Provider
$ 293
35 Provider Reps
15%
332
375
14%
217Rep
Per$$Atty
154
19%
1,122
2
4%
26
22
17%
$$348
7
6%
272
394
8%
$ 223
5
3%
40
684
38%
$ $1,966
140
35%
$$1,649
339
41%
882
19
10%
484
162
29%
$$1,619
562
$$1,005
724
21%
301
11
10%
$$214
1
3%
30
7
61
3
2%
$ 50
5
2%
12
27
15%
$$425
121
194
6
17%
$ 388
11
8%
161
37
21%
$ 454
295
1,214
133
34%
$ 6,916
5
3%
50
250
52%
$ $3,683
77
30%
249
61
23%
$$1,698
12
2%
19
99
16%
$$524
544
16%
402
2,942
21%
$ 896
113
40%
198
39% $
$ 1,727 1,934
6,837
15%
37
9% $
$ 293 586
154
19%
$ 1,122
2
4%
$ 26
7
6%
$ 272
5
3%
$ 40
140
35%
$ 1,649
19
10%
$ 484
562
21%
$ 1,005
11
10%
$ 214
7
2%
$ 61
5
2%
$ 12
121
17%
$ 194
11
8%
$ 161
295
34%
$ 1,214
5
3%
$ 50
77
30%
$ 249
12
2%
$ 19
544
16%
$ 402
113
40% $
1,934
6,837
15% $
586

578
27
5%
$ 174
329
15
5%
$ 90
205
15
7%
$ 113
255
34
13%
$ 250
4,037
478
12%
$ 175
152
16
11%
$ 260
52
2
4%
$ 80
199
15
8%
$ 497
90
4
4%
$ 299
127
5
4%
$ 43
423
13
3%
$ 43
656
29
4%
$ 251
1,947
37
2%
$ 60
2,613
51
2%
$ 34
6,259
172
3%
$ 90
738
17
2%
$ 65
88
3
3%
$ 72
552
83
15%
$ 553
265
38
14%
$ 1,355
522
27 FY 2014
5%
$ 261
265
18
7%
$ 228
503
129
26%
$ 427
Service Provider % of Service
Service
261
107
41% Average
$ 1,562
Atty Reps
Reps 21 Provider Reps
278
8% Provider$Payments
142
Per Atty
Rep
3,472
443
13%
$ 454
149
32
21%
$ $637
212
12
6%
56
5,040
261
5%
$$ 163
652
76
12%
573
1,723
7366
43%
$ 2,148
222
3%
$ 28
843
263
31%
$ $825
240
12
5%
76
542
143
26%
$ 1,410
235
17
7%
$ 61
3,505
745
21%
$ $285
333
21
6%
66
23
2
9%
$$ 138
85
12
14%
160
206
5
2%
$$ 104
1,979
156
8%
232
166
216
13%
$$ 558
196
3%
131
30
55
17%
$ $274
249
2%
35
162
48
30%
$ $603
390
14
4%
62
374
127
34%
$ 3,835
222
16
7%
$ 132
680
312
46%
$ 3,084
211
53
25%
$ 886
346
78
23%
$ 2,800
331
17
5%
$ 72
FY
2014
557
103
18%
$$ 459
455
79
17%
125
14,346
2,881
20%
$$ 840
200
33
17%
232
Service
422
167
40%
$ 1,620
281 Service Provider
32 % of Service
11% Average
$ 118
Atty Reps
Reps 41
581
7% Provider$$Payments
252
338
79 Provider Reps
23%
693
2,873
334
12%
233
Per Atty
Rep
996
150
15%
$$ 451
46
6
13%
180
149
32
21%
$ 637
125
7
6%
154
5,040
261
5%
$ 163
181
5
3%
$ 44
1,723
736
43%
$ 2,148
317
102
32%
$ 2,601
843
263
31%
$ 825
218
33
15%
$ 730
542
143
26%
$ 1,410
2,886
511
18%
796
3,505
745
21%
$ 285
141
18
13%
$ 378
23
2
9%
138
235
6
3%
94
206
5
2%
$$104
231
12
5%
53
166
21
13%
$$558
535
113
21%
382
30
5
17%
$ 274
149
7
5%
68
162
48
30%
$$603
721
278
39%
1,025
374
127
34%
$ 3,835
277
4
1%
$ 34
680
312
46%
$ 3,084
309
94
30%
$ 451
346
78
23%
$ 2,800
611
16
3%
23
557
103
18%
$$459
3,209
548
17%
375
14,346
2,881
20%
$ 840
357
91
25%
$ 936
422
167
40%
$ 1,620
46,038
6,654
14%
$$ 582
581
41
7%
252
996
150
15%
$ 451
46
6
13%
$ 180
125
7
6%
$ 154
181
5
3%
$ 44
317
102
32%
$ 2,601
218
33
15%
$ 730
2,886
511
18%
$ 796
141
18
13%
$ 378
235
6
3%
$ 94
231
12
5%
$ 53
535
113
21%
$ 382
149
7
5%
$ 68
721
278
39%
$ 1,025
277
4
1%
$ 34
309
94
30%
$ 451
611
16
3%
$ 23
3,209
548
17%
$ 375
357
91
25%
$ 936
46,038
6,654
14%
$ 582

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 322 of 342 Page ID
#:27904

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-321

277

AR-2686

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 323 of 342 Page ID
#:27905
APPENDICES

Appendix H: Flowchart of the Path of Capital
Cases in State and Federal Courts
State Capital Cases Under 28 U.S.C.§ 2254
Direct Appeal

Post-Conviction/Habeas Review

State Supreme
Court

United States
Supreme Court
(discretionary)

State Supreme
Court

State Appellate
Court

Appellate State
Court

State Trial
Court

State Trial Court
(habeas petition)

Federal Circuit
Court of Appeals
(discretionary)

Federal District
Court
(Petition under § 2254)

Federal Capital Cases Under 28 U.S.C. § 2255
Direct Appeal

Post-Conviction/Habeas Review

United States
Supreme Court

United States
Supreme Court
(discretionary)

Federal Circuit
Court of Appeals

Federal Circuit
Court of Appeals
(discretionary)

Federal District
Trial Court
Federal District
Court
(Petition under § 2255)

278

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-322

AR-2687

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 324 of 342 Page ID
#:27906

Appendix I: Position Letter from Defender Services Committee
Judicial Conference of the United States
Committee on Defender Services
United States Courthouse
101 West Lombard Street, Room 7310
Baltimore, Maryland 21201-2605
Chair
Catherine C. Blake
Members
Sharon Lovelace Blackburn
Kathleen Cardone
Raner C. Collins
Jonathan W. Feldman
Katharine Sweeney Hayden
Gladys Kessler
Raymond J. Lohier, Jr.
Jane E. Magnus-Stinson
Harry S. Mattice, Jr.
Landya McCafferty
Eric F. Melgren
John A. Ross

Telephone:
(410) 962-3220
Fax:
(410) 962-6836

July 22, 2016

Honorable Kathleen Cardone
United States District Court
Albert Armendariz, Sr.
United States Courthouse
525 Magoffin Avenue, Room 561
El Paso, TX 79901
Dear Judge Cardone,
Thank you for your service as Chair of the Ad Hoc Committee to Review the CJA. The Defender
Services Committee appreciated the opportunity to meet with your committee in June, and this
letter is to formally submit the Defender Services Committee’s positions discussed with you at that
time.
The Defender Services Committee (DSC) unanimously recommends the following changes to the
Defender Services program as a minimum threshold:
1. The Defender Services Office (DSO) should be restored to a position of greater
independence within the Administrative Office (AO). Specifically, DSO should report
directly to the Director of the AO and should not be within any other Department.
2. The Defender IT functions should be returned to DSO and DSO should receive the staff
and funding adequate to support those functions.
3. Jurisdiction over federal defender office compensation, staffing, and training should be
restored to the DSC.
4. The DSC should have a panel attorney and at least one federal defender as voting members.
5. Judicial involvement in voucher review and approval of expert services should be
eliminated or significantly reduced. Possible models already in place that could be
expanded as an interim step include the use of CJA supervising attorneys or case budgeting
attorneys; voucher review managed through the federal defender’s office; or local CJA

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-323

279

AR-2688

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 325 of 342 Page ID
#:27907
APPENDICES

Letter to Judge Kathleen Cardone
Page 2

panel committees to review voucher disputes.
6. To ensure fair compensation and quality of representation, there should be no “pro bono”
component to the panel attorney hourly rate or the voucher review process. The hourly
rate should be increased to the statutorily authorized maximum. Case compensation
maximums should be increased for both panel attorneys and expert service providers.
7. The DSC, DSO, federal defenders, and panel attorneys should have a greater role in
advocating with Congress both on issues of funding and other issues relevant to the
program. This should include:
a. Permitting the DSC chair to sit with the Budget Committee chair at hearings before
the appropriations subcommittees to directly advocate for the Defender Services
program budget;
b. Giving DSC and DSO more control over the development of and advocacy for the
program’s budget within the current system;
c. Giving DSO independent ability to track and comment on substantive legislation
relevant to the program.
Please let me know if you would like to discuss these recommendations further or if you have any
questions. Thank you again for your hard work to review the implementation of the CJA.

Sincerely,

Catherine C. Blake
cc: Members of the Defender Services Committee

280

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-324

AR-2689

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 326 of 342 Page ID
#:27908

Appendix J: Position Letter from Federal Defenders

FEDERAL PUBLIC DEFENDER
District of Arizona
850 W. Adams, Suite 201
Phoenix, Arizona 85007
JONM.SANDS
Federal Public Defender

602-382-2700
(Fax) 602-382-2800
1-800�758-7053

March 25, 2016
Honorable Kathleen Cardone
United States District Judge
Western District of Texas
525 Magoffin A venue
El Paso, TX 7990 I
Reformation of the CJA Program

Re:

Dear Judge Cardone:
We write to provide the CJA Study Committee with the views of the Federal and
Community Defender Offices regarding necessary reforms for the CJA Program. We are
grateful for the extraordinary amount of time and energy you and your colleagues have devoted
to studying our system of federal public defense. We know that you have heard from many
individual federal public defenders in private and in public hearings about our views on the
system. Although we all have our own perspectives about what problems exist and how they
might best be solved, a significant majority agree on a number of fundamental principles that we
believe are necessary to.maintain the integrity of the defense function and to build upon a high
quality program deserving of public confidence. We hope that the views we share will be useful
to your committee in completing its work.
We will not go into great detail here. You have already received voluminous
submissions on all of these topics. The point of this letter to share those broad principles upon
which there is broad agreement. After several meetings in person and after taking an online poll
of defenders in which 94 percent of the heads of all FDOs and CDOs responded, 1 we can report
that 84 percent who responded believe that regardless of what form the structure of federal
public defense takes, at a minimum, it must contain the following features:
•
•

1

Direct Federal Defender and CJA Panel representation on any national governing body;
Direct Federal Defender and CJA Panel representation in the preparation and presentation
of the Defender Services budget to Congress;

See Exhibit A (containing survey results)

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-325

281

AR-2690

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 327 of 342 Page ID
#:27909
APPENDICES

282

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-326

AR-2691

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 328 of 342 Page ID
#:27910

Appendix K: Position Letter from Defender Services Advisory Group

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-327

283

AR-2692

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 329 of 342 Page ID
#:27911
APPENDICES

284

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-328

AR-2693

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 330 of 342 Page ID
#:27912

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-329

285

AR-2694

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 331 of 342 Page ID
#:27913
APPENDICES

286

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-330

AR-2695

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 332 of 342 Page ID
#:27914

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-331

287

AR-2696

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 333 of 342 Page ID
#:27915
APPENDICES

Appendix L: Budget Implications
Judicial Conference of the United States
Ad Hoc Committee to Review the Criminal Justice Act Program
Thurgood Marshall Federal Judiciary Building
One Columbus Circle, N.E.
Washington, D.C. 20544
Chair
Judge Kathleen Cardone

Members
Reuben Cahn
Judge Dale S. Fischer
Chip Frensley
Judge John M. Gerrard
Judge Mitchell S. Goldberg
Orin S. Kerr
Neil H. MacBride
Katherian Roe
Robert E. Rucker
Judge Reggie B. Walton

Chair Emeritus
Judge Edward C. Prado
Reporter
Jon Gould

July 12, 2016

TO:

Defender Services Office

RE:

Request for Budget Calculations on Independent Agency

The Ad Hoc Committee to Review the Criminal Justice Act respectfully requests from the
Defender Services Office a calculation and estimation of the budget necessary to support an
independent agency charged with providing criminal defense services to indigent defendants in
federal court.
If possible, there are three different scenarios in which an estimation would be helpful:

1. A defender services program inside the judiciary with shared services
For the purposes of this budget and cost estimation, such an agency would remain within
the judicial branch, housed within the Administrative Office of the U.S. Courts. The Committee
seeks to find out the costs of the administrative support and services that such an agency would
need to function, including such costs as salaries and overhead for budget and appropriations,
training, the maintenance of defender information technology, the providing for resource offices
and litigation support initiatives, and oversight of a voucher payment system, to name a few of the
more specialized functions of such an agency. This estimation of costs should assume the
situation where the Administrative Office could continue to provide services to this independent
defense agency, much like those provided to the United States Sentencing Commission, as set out
in its enabling statute.

288

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-332

AR-2697

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 334 of 342 Page ID
#:27916

2. A defender services program inside the judiciary with no shared services
For the purposes of this budget and cost estimation, such an agency would remain within
the judicial branch, housed within the Administrative Office of the U.S. Courts. The
Committee seeks to find out the costs of the administrative support and services that such an
agency would need to function, including such costs as salaries and overhead for budget and
appropriations, training, the maintenance of defender information technology, the providing
for resource offices and litigation support initiatives, and oversight of a voucher payment
system, to name a few of the more specialized functions of such an agency. This estimation of
costs should assume the situation where the Administrative Office would provide NO services
to this independent defense agency.

3. A defender services program outside the Administrative Offices
For the purposes of this budget and cost estimation, such an agency would be totally
outside of the judicial branch, probably not even housed within the Administrative Office of
the U.S. Courts. The Committee seeks to find out the costs of the administrative support and
services that such an agency would need to function, including such costs as salaries and
overhead for budget and appropriations, training, the maintenance of defender information
technology, the providing for resource offices and litigation support initiatives, and oversight
of a voucher payment system, to name a few of the more specialized functions of such an
agency. This estimation of costs should assume the situation where the Administrative Office
would provide NO services to this independent defense agency.

Finally, one further request, the Committee is interested in obtaining a list of areas where
other branches of the AO supply services on which DSO relies. Perhaps this will be covered
in your cost estimate. However, if not, if you could supply this information separately, it
would be very helpful.

If you would like to discuss this in more detail, please do not hesitate to contact me.
The Committee thanks you in advance for your assistance.
-2-

Sincerely,

Kathleen Cardone, Chair
2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-333

289

AR-2698

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 335 of 342 Page ID
#:27917
APPENDICES

CJA REVIEW COMMITTEE
DEFENDER SERVICES FUNDING IMPLICATION SCENARIOS

St a
tus

A check indicates a cost that is currently paid by the judiciary in support of the
Defender Services program. A horizontal double arrow (↔) indicates that
implementation of a scenario is presumed to have the same/similar costs as
the status quo baseline. An up arrow (↑) indicates that additional costs
above the status quo baseline would be incurred as a result of implementing
that scenario.

Ins
id
wit e the
hS
ha Judic
red iar
Ins
Ser y
ide
vic
the
es
wit
h N Judic
iar
O
Ser Share y
vic
d
es
Ou
tsid
et
he
Jud
icia
ry

Qu
o

Incremental cost to Defender
Services program for each
scenario relative to status quo






↔
↔
↔
↔

↔
↔
↔
↔

↔
↔
↔
↑

DS Information Management System (DSMIS)






↔
↔
↔
↔

↑
↑
↑
↑

↑
↑
↑
↑

Emergency Preparedness Service (COOP), communication services



↔

↑

↑














↔
↑
↔
↔
↔
↔
↑
↑
↔
↑
↔
↑

↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑

↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑





↔
↔
↑

↑
↑
↑

↑
↑
↑





↑
↑
↑

↑
↑
↑

↑
↑
↑

FDO/Panel Attorney Representations (incl. salaries)
AO DSO Operations (incl. salaries)
Rent - FDOs
Rent - DSO (assumes location in TMFJB if within the judiciary)
Information Technology
Enterprise communication services (Email, webmail, etc.)
Telephone System
Case Management Systems (dData)

Network Infrastructure (Local Area Network, Defender Wide Area
Network)
Hosting services/IT Hosting Contracts
IT Security Services (cybersecurity)
Remote Access
Conferencing Services
Data Warehouse/Data Storage
Cellular and Wireless devices
Computers/iPads/printers/IT equipment
IT support/help desk
IT development
Web support
Security Operations Center/Network Operations Center
Human Resources
Human Resources Information System - Timekeeping, Leave Tracking (sick
& annual), HR actions (awards, employee records), Remote Data Entry
(RDE)
Payroll System
OPM - retirements
Benefits Administration - e.g., transit, medical, dental, life, long term care
Position/hires listing & screening
Security clearances

1 of 3

290

8/12/2016; 3:36 PM

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-334

AR-2699

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 336 of 342 Page ID
#:27918

CJA REVIEW COMMITTEE
DEFENDER SERVICES FUNDING IMPLICATION SCENARIOS

Ins
id
wit e the
hS
ha Judic
red iar
Ins
Ser y
ide
vic
the
es
wit
J
u
h N dic
iar
O
Ser Share y
vic
d
es
Ou
tsid
et
he
Jud
icia
ry

St a
tus

A check indicates a cost that is currently paid by the judiciary in support of the
Defender Services program. A horizontal double arrow (↔) indicates that
implementation of a scenario is presumed to have the same/similar costs as
the status quo baseline. An up arrow (↑) indicates that additional costs
above the status quo baseline would be incurred as a result of implementing
that scenario.

Qu
o

Incremental cost to Defender
Services program for each
scenario relative to status quo








↑
↔
↑
↑
↑
↔

↑
↑
↑
↑
↑
↑

↑
↑
↑
↑
↑
↑















↑
↔
↔
↔
↔
↔
↑
↑
↑
↔
↔
↑
↔

↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑

↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑
↑

Accounting system - JIFMS (includes CDOs/FPDOs/DSO/feed from
Evoucher) controller, systems accountants, staff to support the systems



↔

↑

↑

Infoweb - e.g., Electronic Status of Funds Reports (ESFRs), Pay tracking
and projection system (iPPS), national directories, allotment
management, financial plan



↔

↑

↑

Judiciary Electronic Travel System (JETS) and staff to support system and
to set policy



↔

↑

↑

Electronic Data Warehouse (EDW) for Accounting reporting and staff to
support



↔

↑

↑

Credit card management - e.g., staff credit cards for travel and
procurement credit cards



↔

↑

↑

Contract management - e.g., FPD and CDO Audits, OPM security clearance
contracts, National Travel System (NTS)



↔

↑

↑

New employee orientation
Contractor management for temporary help
Fair employment practices
Employee evaluations & awards
Severance/VERA/VSIP/unemployment
ePal
Physical Plant
Facilities
Maintenance
Security - e.g., guards, access system
Safety - e.g., building façade, snow removal
Custodial service
Occupational health
Printing office
GSA liaison
Furniture and equipment - property accounting inventory & disposal
Fitness center
Library
Copier support
Utilities
Budget/Finance/Procurement

2 of 3

8/12/2016; 3:36 PM

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-335

291

AR-2700

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 337 of 342 Page ID
#:27919
APPENDICES

CJA REVIEW COMMITTEE
DEFENDER SERVICES FUNDING IMPLICATION SCENARIOS

Ins
id
wit e the
hS
ha Judic
red iar
Ins
Ser y
ide
vic
t
es
wit he Ju
h N dic
iar
O
Ser Share y
vic
d
es
Ou
tsid
et
he
Jud
icia
ry

St a
tus

A check indicates a cost that is currently paid by the judiciary in support of the
Defender Services program. A horizontal double arrow (↔) indicates that
implementation of a scenario is presumed to have the same/similar costs as
the status quo baseline. An up arrow (↑) indicates that additional costs
above the status quo baseline would be incurred as a result of implementing
that scenario.

Qu
o

Incremental cost to Defender
Services program for each
scenario relative to status quo

IT help desk/phone management/hardware management



↑

↑

↑

Department of Labor interface - Workers compensation/unemployment




↔
↔

↑
↑

↑
↑








↔
↔
↔
↔
↑
↑

↑
↑
↑
↑
↑
↑

↑
↑
↑
↑
↑
↑










↑
↑
↑
↑
↑
↑
↑
↑

↑
↑
↑
↑
↑
↑
↑
↑

↑
↑
↑
↑
↑
↑
↑
↑

Financial Disclosure
Federal Technology Services (FTS) - e.g., phone contracts, Voice over
Internet Protocol (VOIP) products and contracts
Audit Management and External Audit Control
Internal Controls and Financial Policies
Evoucher System
Procurement processes - e.g., contracts, policies and procedures
Acquisition Plan
Legal & other services
Office of General Counsel (OGC)
Office of Legislative Affairs (OLA)/Congressional affairs
Office of Public Affairs and Strategic Communications
Policy and procedures office
AO Academy/employee training
Records management
Executive Branch liaison (OMB, DOJ, Treasury, etc.)
Ethics counseling

3 of 3

292

8/12/2016; 3:36 PM

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-336

AR-2701

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 338 of 342 Page ID
#:27920

Appendix M: Statement from Committee Member Professor Orin Kerr
I disagree with my colleagues on the Committee about
one important recommendation in our report. This
statement explains my different view.
My colleagues recommend that Congress should create
a national defender commission modeled on the United
States Sentencing Commission. Under their proposal,
the national commission would be led by commissioners nominated by the President and confirmed by the
Senate. No more than four of the seven commissioners could be from any one political party. No more than
three could be judges.
None of us on the Committee are experts in the design
of new federal agencies. Our expertise is in identifying the existing problems with the Criminal Justice Act
rather than recommending new government structures.
With that said, I don’t think my colleagues have identified the best way for national commissioners to be
selected and who should be eligible to serve on it.
In my view, it would be better for the commissioners to
consist entirely of federal district court judges selected
by other judges. Here’s one way to do it: The district
judges of each regional circuit could vote for a representative among them to serve a term as one of the
commissioners. To ensure an odd number of commissioners, you could require two of the smaller circuits
to join together and elect a single commissioner. The
enacting statute could also impose some requirements
on the judges elected, such as past experience as a criminal defense attorney and a commitment to the criminal
defense function. The result would be an eleven-member commission of federal trial judges that would serve
the function described in our report
I think this approach is better than the Sentencing
Commission model proposed by my colleagues because
I am more pessimistic than they are about the politics of crime. My colleagues present the defense function as largely free from political influence. In their
view, the defense function enjoys bipartisan support
and is unlikely to become a political target. Under
that assumption, they see little risk in giving the
elected branches the power to nominate and confirm
commissioners.
My sense is different. I see it as unfortunate but inevitable that the criminal defense function will be subject to

intense political winds. Voters don’t like crime, and they
tend to favor politicians who will be tough on those who
commit it. Politicians respond to that voter preference
by often demanding tough laws that will fight criminals aggressively. This dynamic was less pronounced in
the 2012 to 2016 window, when an unusual amount of
bipartisan consensus seemed ready to emerge on criminal justice reform after years of violent crime dropping
precipitously. But I suspect that was a temporary state of
affairs rather than a permanent change.
That’s a problem, I think, because it means that a federal
defender agency will inevitably end up making some
unpopular decisions that upset a lot of voters. Maybe
the commissioners will decide to devote extra resources
to the defense of a notorious terrorist charged in a heinous terrorist attack. Perhaps they’ll decide to appoint a
particularly controversial lawyer as the Federal Defender
for a particular district. Because its function will be serving the needs of often-unpopular clients instead of the
voters  — and properly so — a federal defense agency
would need to take some controversial public positions.
If I am right about that, elected politicians will at times
target the defender agency. What we may see as upholding the Sixth Amendment, others may see as trying
to help murderers and terrorists. And because those
decisions would be centralized in a single agency with
a known list of commissioners and their public votes,
there will be specific group of people to criticize. The
agency won’t be targeted all the time, of course. And
not by every politician. But I fear it will be a target for
enough politicians enough of the time to matter.
If I am right about the politics of crime, my colleagues’
adoption of a Sentencing Commission model is problematic. Under their proposal, one politician, the
President, will pick nominees. One hundred more politicians, the Senators, will decide whether to confirm the
nominees. A President who wants to damage the agency
could decline to make appointments, or else nominate candidates who lack a commitment to the defense
function. Senators with the same wishes could refuse to
confirm nominees unless they held particular views, or
even refuse to act on any nominees at all. By controlling
appointments to the commission, the elected branches
will control the commission itself.
The Senate’s refusal to confirm nominees to the United

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-337

293

AR-2702

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 339 of 342 Page ID
#:27921
APPENDICES

States Sentencing Commission in the late 1990s is a
useful example. The Sentencing Commission issued an
amendment to the Guidelines in 1995 that would have
equalized penalties for powder and crack cocaine offenses.1 The Commission’s proposal was highly controversial
with the public. As William K. Sessions has explained,
the Senate retaliated by declining to confirm any new
nominees to the Sentencing Commission for several
years.2 Sessions writes: “By 1998, the Commission had
no commissioners. For a year thereafter, the Commission
operated solely with staff members — none of whom
were presidentially-appointed — and could not promulgate guidelines amendments.”3 According to Professor
Michael O’Hear, the experience left the Sentencing
Commission “more timid for many years after.”4
I fear that something similar could happen to a federal
defender commission. A partisan division among commissioners won’t help matters. If the commission votes
on a controversial proposal 4-3 along party lines, the
public may draw the lesson that the commission is playing politics. The best answer, I think, is to ensure that
the Commissioners are not subject to political control
by the elected branches. Placing the defender agency in
the judiciary — in fact, not just in theory — seems to me
the best way to do that.
A commission consisting only of district court judges
selected by other district court judges would not rely on
the elected branches for new members. Article III district judges would themselves vote on which of their colleagues in their circuit should serve as commissioners.
This collective action would likely lead to the selection
of respected judges with a commitment to the defense
function to serve as commissioners. Dysfunction in the
elected branches would not change who would serve,
as the judges themselves would select and replace
Commissioners without outside influence or control.
I also worry that a Sentencing Commission model could
1

See generally United States Sentencing Commission, Special
Report to the Congress: Cocaine and Federal Sentencing
Policy (1995), available at https://www.ussc.gov/research/
congressional-reports/1995-report-congress-cocaine-andfederal-sentencing-policy.
2 William K. Sessions, At The Crossroads Of The Three
Branches: The U.S. Sentencing Commission’s Attempts To
Achieve Sentencing Reform In The Midst Of Inter-Branch
Power Struggles, 26 J.L. & Pol. 305, 319 (2011).
3 Id.
4 Michael O’Hear, The Failed Promise of Sentencing Reform
121 (2017).

294

lead to mission creep. As representatives of criminal
defense interests — and ones approved by the political
branches — commissioners may have incentives to take
agency positions on matters beyond the narrow function
of providing criminal defense services. For example, they
may have positions on whether Congress should enact
new criminal laws, or whether Congress should amend
the collateral review statutes, or about the budget of the
United States Department of Justice. If so, that could further drag the defender agency into the political thicket.
A commission consisting entirely of judges would be
much less likely to take that path. The voting commissioners would be assisted in their task by non-voting
members ex officio drawn from the federal defender
community. But the budget requests and decisions of
the defender commission would be the work of judges.
As judges elected by other judges, bound by codes of
judicial conduct, they would be seen as trustees of the
defense function rather than as advocates for it. In my
view, this makes it more likely that the commission
would be insulated from political attack.
None of this questions the core thesis of our report.
I agree that the defense function needs greater independence from the judiciary. Judges should not be
making decisions about the defense in cases that they
preside over as judges. They should not be selecting
public defenders in their own districts. The Judicial
Conference should not control lobbying for the criminal
defense budget. The conflicts of interests raised by these
arrangements are made abundantly clear in our report,
and I agree with those conclusions.
Where I part with my colleagues is in how best to navigate between the Scylla and Charybdis of judicial and
political control in deciding who becomes a commissioner and how. No system is perfect. As our report
details, too much and too direct judicial control is
harmful. But too much and too direct political control is
harmful, too. As I see it, the best prospects for a defense
commission that avoids the conflicts of interest identified in our report — and yet avoids political control
by the elected branches — is through the new agency
structure proposed in our report but with judges serving
as the commissioners.

2017 REPORT OF THE AD HOC COMMITTEE TO REVIEW THE CRIMINAL JUSTICE ACT

A-338

AR-2703

[No recommendation presented herein represents the policy of the Judicial Conference of the United States unless approved by the Conference itself.]

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 340 of 342 Page ID
#:27922

For additional information
about the work of the CJA
Review Committee visit:

https://cjastudy.fd.org

A-339

AR-2704

Case 2:14-cr-00338-SJO Document 3470-1 Filed 05/24/18 Page 341 of 342 Page ID
#:27923

A-340

AR-2705

Case 2:14-cr-00338-SJO Document 2564 Filed 07/17/17 Page 1 of 6 Page ID #:18428
United States District Court
Central District of California
UNITED STATES OF AMERICA vs.

Docket No.

CR 14-00338 (A) SJO-57

Defendant
GORDON, Tony
Monikers: Wodie; Wodi; Face; and Blue
Also known as: Robberson, Mike; White, Tony;
White, Antonio; and Taylor, Chauncy Lamar
akas: True Name: Gordon, Tony Lamont

Social Security No. 6

9

7

9

(Last 4 digits)

JUDGMENT AND PROBATION/COMMITMENT ORDER
MONTH

In the presence of the attorney for the government, the defendant appeared in person on this date.
COUNSEL

DAY

YEAR

17

2017

July

Zoe J Dolan (Appointed)
(Name of Counsel)

PLEA
FINDING

JUDGMENT
AND PROB/
COMM
ORDER

GUILTY, and the court being satisfied that there is a factual basis for the plea.

NOLO
CONTENDERE

x

NOT
GUILTY

There being a finding/verdict of GUILTY, defendant has been convicted as charged of the offense(s) of:
18 U.S.C. § 1962(d), 18 U.S.C. § 1963(a): Racketeer Influenced and Corrupt Organizations Conspiracy as charged in
Count 1of the First Superseding Indictment ; 21 U.S.C. § 846, 21 U.S.C. § 841(b)(1)(A): Conspiracy to Distribute
Cocaine Base in the Form of Crack Cocaine and Marijuana as charged in Count 12 of the First Superseding
Indictment.
The Court asked whether there was any reason why judgment should not be pronounced. Because no sufficient cause to the
contrary was shown, or appeared to the Court, the Court adjudged the defendant guilty as charged and convicted and ordered that:
Pursuant to the Sentencing Reform Act of 1984, it is the judgment of the Court that the defendant is hereby committed to the
custody of the Bureau of Prisons to be imprisoned for a term of:

It is ordered that the defendant shall pay to the United States a special assessment of $200, which is
due immediately. Any unpaid balance shall be due during the period of imprisonment, at the rate of
not less than $25 per quarter, and pursuant to the Bureau of Prisons' Inmate Financial Responsibility
Program.
Pursuant to Guideline § 5E1.2(a), all fines are waived as the Court finds that the defendant has
established that he is unable to pay and is not likely to become able to pay any fine.
Pursuant to the Sentencing Reform Act of 1984, it is the judgment of the Court that the defendant,
Tony Gordon, is hereby committed on Counts 1 and 12 of the First Superseding Indictment to the
custody of the Bureau of Prisons for a term of 360 months. This term consists of 360 months on each
of Counts 1 and 12 of the First Superseding Indictment, to be served concurrently.
The Court recommends that the Bureau of Prisons conduct a mental health evaluation of the defendant
and provide all necessary treatment.
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of 10
years. This term consists of 10 years on Count 12 and 5 years on Count 1 of the First Superseding
CR-104 (03/11)

A-341

JUDGMENT & PROBATION/COMMITMENT ORDER

AR-1573

Page 1 of 4

Case 2:14-cr-00338-SJO Document 2564 Filed 07/17/17 Page 2 of 6 Page ID #:18429
USA vs.

GORDON, Tony

Docket No.:

CR 14-00338 (A) SJO-57

Indictment, all such terms to run concurrently under the following terms and conditions:
1.
The defendant shall comply with the rules and regulations of the United States Probation Office
and General Order 05-02.
2.

The defendant shall not commit any violation of local, state, or federal law or ordinance.

3.
The defendant shall refrain from any unlawful use of a controlled substance. The defendant
shall submit to one drug test within 15 days of release from custody and at least two periodic drug
tests thereafter, not to exceed eight tests per month, as directed by the Probation Officer.
4.
The defendant shall participate in an outpatient substance abuse treatment and counseling
program that includes urinalysis, breath and/or sweat patch testing, as directed by the Probation
Officer. The defendant shall abstain from using alcohol and illicit drugs, and from abusing
prescription medications during the period of supervision.
5.
During the course of supervision, the Probation Officer, with the agreement of the defendant
and defense counsel, may place the defendant in a residential drug treatment program approved by the
United States Probation Office for treatment of narcotic addiction or drug dependency, which may
include counseling and testing, to determine if the defendant has reverted to the use of drugs.
6.
When not employed or excused by the Probation Officer for schooling, training, or other
acceptable reasons, the defendant shall perform 20 hours of community service per week as directed
by the Probation Office.
7.
The defendant shall not obtain or possess any driver's license, Social Security number, birth
certificate, passport or any other form of identification in any name, other than the defendant's true
legal name, nor shall the defendant use, any name other than his true legal name without the prior
written approval of the Probation Officer.
8.

The defendant shall cooperate in the collection of a DNA sample from the defendant.

9.
The defendant shall not associate with anyone known to him to be a member of the Broadway
Gangster Crips Gang and others known to him to be participants in the Broadway Gangster Crips
Gang's criminal activities, with the exception of his family members. He may not wear, display, use or
possess any gang insignias, emblems, badges, buttons, caps, hats, jackets, shoes, or any other clothing
that defendant knows evidence affiliation with the Broadway Gangster Crips Gang, and may not
display any signs or gestures that defendant knows evidence affiliation with the Broadway Gangster
Crips Gang.
10. As directed by the Probation Officer, the defendant shall not be present in any area known to
him to be a location where members of the Broadway Gangster Crips Gang meet and/or assemble.
AR-1574 Page 2 of 4
CR-104 (03/11)
JUDGMENT & PROBATION/COMMITMENT ORDER

A-342

Case 2:14-cr-00338-SJO Document 2564 Filed 07/17/17 Page 3 of 6 Page ID #:18430
USA vs.

Docket No.:

GORDON, Tony

CR 14-00338 (A) SJO-57

11. As directed by the Probation Officer, the defendant shall not reside in any area known as
Broadway Gangster Crips controlled territory, which includes territory claimed in South Los Angeles,
the territory defined as (to the North) Vernon Avenue, (to the East) Avalon Boulevard, (to the West)
the 110 Freeway, and (to the South) Slauson Avenue.
12. The defendant shall submit his person, and any property, house, residence, and vehicle to search
at any time, with or without warrant, by any law enforcement or Probation Officer with reasonable
suspicion concerning a violation of a condition of supervised release or unlawful conduct by the
defendant, and by any Probation Officer in the lawful discharge of the officer's supervision function.
The Court advises the Defendant of his right to appeal.
The Court grants government’s motion to dismiss the underlying indictment as to this defendant only.
The Court recommends that the defendant shall be designated in Illinois.
In addition to the special conditions of supervision imposed above, it is hereby ordered that the Standard Conditions of Probation and
Supervised Release within this judgment be imposed. The Court may change the conditions of supervision, reduce or extend the period of
supervision, and at any time during the supervision period or within the maximum period permitted by law, may issue a warrant and revoke
supervision for a violation occurring during the supervision period.

July 17, 2017
Date

S. James Otero
U. S. District Judge/Magistrate Judge

It is ordered that the Clerk deliver a copy of this Judgment and Probation/Commitment Order to the U.S. Marshal or other qualified officer.
Clerk, U.S. District Court

July 17, 2017
Filed Date

By

Victor Paul Cruz
Deputy Clerk

The defendant shall comply with the standard conditions that have been adopted by this court (set forth below).
STANDARD CONDITIONS OF PROBATION AND SUPERVISED RELEASE
While the defendant is on probation or supervised release pursuant to this judgment:

CR-104 (03/11)

A-343

JUDGMENT & PROBATION/COMMITMENT ORDER

AR-1575

Page 3 of 4

Case 2:14-cr-00338-SJO Document 2564 Filed 07/17/17 Page 4 of 6 Page ID #:18431
USA vs.
1.
2.
3.
4.
5.
6.
7.
8.

9.

Docket No.:

GORDON, Tony

The defendant shall not commit another Federal, state or local crime;
the defendant shall not leave the judicial district without the written
permission of the court or probation officer;
the defendant shall report to the probation officer as directed by the
court or probation officer and shall submit a truthful and complete
written report within the first five days of each month;
the defendant shall answer truthfully all inquiries by the probation
officer and follow the instructions of the probation officer;
the defendant shall support his or her dependents and meet other
family responsibilities;
the defendant shall work regularly at a lawful occupation unless
excused by the probation officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least 10 days prior
to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not
purchase, possess, use, distribute, or administer any narcotic or other
controlled substance, or any paraphernalia related to such substances,
except as prescribed by a physician;
the defendant shall not frequent places where controlled substances
are illegally sold, used, distributed or administered;

10.
11.
12.
13.
14.

15.
16.

CR 14-00338 (A) SJO-57

the defendant shall not associate with any persons engaged in criminal
activity, and shall not associate with any person convicted of a felony
unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at
any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view by the probation officer;
the defendant shall notify the probation officer within 72 hours of
being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an informer
or a special agent of a law enforcement agency without the
permission of the court;
as directed by the probation officer, the defendant shall notify third
parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics, and shall permit the
probation officer to make such notifications and to conform the
defendant’s compliance with such notification requirement;
the defendant shall, upon release from any period of custody, report
to the probation officer within 72 hours;
and, for felony cases only: not possess a firearm, destructive device,
or any other dangerous weapon.

The defendant will also comply with the following special conditions pursuant to General Order 01-05 (set forth below).
STATUTORY PROVISIONS PERTAINING TO PAYMENT AND COLLECTION OF FINANCIAL SANCTIONS
The defendant shall pay interest on a fine or restitution of more than $2,500, unless the court waives interest or unless the fine or
restitution is paid in full before the fifteenth (15th) day after the date of the judgment pursuant to 18 U.S.C. §3612(f)(1). Payments may be subject
to penalties for default and delinquency pursuant to 18 U.S.C. §3612(g). Interest and penalties pertaining to restitution, however, are not
applicable for offenses completed prior to April 24, 1996.
If all or any portion of a fine or restitution ordered remains unpaid after the termination of supervision, the defendant shall pay the
balance as directed by the United States Attorney’s Office. 18 U.S.C. §3613.
The defendant shall notify the United States Attorney within thirty (30) days of any change in the defendant’s mailing address or
residence until all fines, restitution, costs, and special assessments are paid in full. 18 U.S.C. §3612(b)(1)(F).
The defendant shall notify the Court through the Probation Office, and notify the United States Attorney of any material change in the
defendant’s economic circumstances that might affect the defendant’s ability to pay a fine or restitution, as required by 18 U.S.C. §3664(k). The
Court may also accept such notification from the government or the victim, and may, on its own motion or that of a party or the victim, adjust
the manner of payment of a fine or restitution-pursuant to 18 U.S.C. §3664(k). See also 18 U.S.C. §3572(d)(3) and for probation 18 U.S.C.
§3563(a)(7).
Payments shall be applied in the following order:
1. Special assessments pursuant to 18 U.S.C. §3013;
2. Restitution, in this sequence:
Private victims (individual and corporate),
Providers of compensation to private victims,
The United States as victim;
3. Fine;
4. Community restitution, pursuant to 18 U.S.C. §3663(c); and
5. Other penalties and costs.

CR-104 (03/11)

A-344

JUDGMENT & PROBATION/COMMITMENT ORDER

AR-1576

Page 4 of 4

Case 2:14-cr-00338-SJO Document 2564 Filed 07/17/17 Page 5 of 6 Page ID #:18432
USA vs.

Docket No.:

GORDON, Tony

CR 14-00338 (A) SJO-57

SPECIAL CONDITIONS FOR PROBATION AND SUPERVISED RELEASE
As directed by the Probation Officer, the defendant shall provide to the Probation Officer: (1) a signed release authorizing credit report
inquiries; (2) federal and state income tax returns or a signed release authorizing their disclosure; and (3) an accurate financial statement, with
supporting documentation as to all assets, income and expenses of the defendant. In addition, the defendant shall not apply for any loan or open
any line of credit without prior approval of the Probation Officer.
The defendant shall maintain one personal checking account. All of defendant’s income, “monetary gains,” or other pecuniary proceeds
shall be deposited into this account, which shall be used for payment of all personal expenses. Records of all other bank accounts, including
any business accounts, shall be disclosed to the Probation Officer upon request.
The defendant shall not transfer, sell, give away, or otherwise convey any asset with a fair market value in excess of $500 without
approval of the Probation Officer until all financial obligations imposed by the Court have been satisfied in full.
These conditions are in addition to any other conditions imposed by this judgment.

RETURN
I have executed the within Judgment and Commitment as follows:
Defendant delivered on

to

Defendant noted on appeal on
Defendant released on
Mandate issued on
Defendant’s appeal determined on
Defendant delivered on
to
at
the institution designated by the Bureau of Prisons, with a certified copy of the within Judgment and Commitment.
United States Marshal

By
Date

Deputy Marshal

CERTIFICATE
I hereby attest and certify this date that the foregoing document is a full, true and correct copy of the original on file in my office, and in my
legal custody.
Clerk, U.S. District Court
By
CR-104 (03/11)

A-345

JUDGMENT & PROBATION/COMMITMENT ORDER

AR-1577

Page 5 of 4

Case 2:14-cr-00338-SJO Document 2564 Filed 07/17/17 Page 6 of 6 Page ID #:18433
USA vs.

Docket No.:

GORDON, Tony

Filed Date

CR 14-00338 (A) SJO-57

Deputy Clerk

FOR U.S. PROBATION OFFICE USE ONLY
Upon a finding of violation of probation or supervised release, I understand that the court may (1) revoke supervision, (2) extend the term of
supervision, and/or (3) modify the conditions of supervision.
These conditions have been read to me. I fully understand the conditions and have been provided a copy of them.
(Signed)

CR-104 (03/11)

Defendant

Date

U. S. Probation Officer/Designated Witness

Date

A-346

JUDGMENT & PROBATION/COMMITMENT ORDER

AR-1578

Page 6 of 4

(1 of 10)
Case: 17-50267, 10/29/2019, ID: 11481134, DktEntry: 63-1, Page 1 of 6

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
OCT 29 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

17-50267

D.C. No.
2:14-cr-00338-SJO-AB-57

v.
MEMORANDUM*

TONY GORDON, AKA Wodi,
Defendant-Appellant.

Appeal from the United States District Court
for the Central District of California
S. James Otero, District Judge, Presiding
Submitted October 15, 2019**
Pasadena, California
Before: NGUYEN and MILLER, Circuit Judges, and VITALIANO,*** District
Judge.
Following a jury trial, Tony Gordon was convicted of conspiracy to
distribute cocaine base and marijuana, in violation of 21 U.S.C. §§ 841(b)(1)(A)

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Eric N. Vitaliano, United States District Judge for the
Eastern District of New York, sitting by designation.

A-347

(2 of 10)
Case: 17-50267, 10/29/2019, ID: 11481134, DktEntry: 63-1, Page 2 of 6

and 846, and conspiracy to violate the Racketeer Influenced and Corrupt
Organizations Act, 18 U.S.C. § 1962(d). The jury found that the racketeering
conspiracy—which included members and associates of a violent gang in Los
Angeles—involved murder, robbery, witness intimidation, and distribution of
controlled substances. Gordon was sentenced to 360 months of imprisonment.
Gordon now appeals his convictions and sentence. We have jurisdiction under 18
U.S.C. § 3742(a) and 28 U.S.C. § 1291, and we affirm.
1.

We reject Gordon’s generalized challenge to the judicial

administration of the Criminal Justice Act. See 18 U.S.C. § 3006A. Congress has
assigned oversight responsibility for the CJA to the district courts. Id. Gordon
argues that Congress thereby created a conflict between the district court and the
defense function, but his argument is essentially a policy disagreement with the
structure of the CJA. We are not free to “rewrite a constitutionally valid statutory
text.” Henson v. Santander Consumer USA Inc., 137 S. Ct. 1718, 1725 (2017).
2.

Nor does Gordon show any specific constitutional infirmity resulting

from the district court’s performance of its duties under the CJA in this case.
Gordon alleges judicial bias and a violation of due process. But the district court’s
“institutional responsibilities” under the CJA did not give it a “strong . . . motive”
to rule against Gordon. Alpha Epsilon Phi Tau Chapter Hous. Ass’n v. City of
Berkeley, 114 F.3d 840, 844 (9th Cir. 1997) (citation omitted). Gordon refers to

2

A-348

(3 of 10)
Case: 17-50267, 10/29/2019, ID: 11481134, DktEntry: 63-1, Page 3 of 6

two adverse evidentiary rulings, but the rulings do not reflect error, much less
“actual impropriety or an appearance of impropriety.” Greenway v. Schriro, 653
F.3d 790, 806 (9th Cir. 2011).
Gordon also challenges the district court’s denial of funding for a
psychological evaluation before sentencing. Deciding whether expert services are
“necessary” under the CJA falls within the district court’s discretion. United
States v. Turner, 897 F.3d 1084, 1106–07 (9th Cir. 2018) (quoting 18 U.S.C.
§ 3006A(e)(1)). The district court abuses its discretion when “reasonably
competent counsel would have required the assistance of the requested expert for a
paying client,” and the defendant “was prejudiced by lack of expert assistance.”
Id. at 1106 (citation omitted). Here, Gordon has not shown prejudice. He received
a pre-trial mental-health evaluation, which the district court reviewed. The
presentence report summarized Gordon’s medical history, including mental health,
as well as his history of substance abuse. At sentencing, the district court discussed
Gordon’s difficult upbringing and recommended that the Bureau of Prisons
conduct a mental-health evaluation. Gordon does not show how a second mentalhealth evaluation would have caused the district court to consider mitigating
factors that it had not already weighed.
3.

We also reject Gordon’s generalized challenge to the Sentencing

Guidelines. The Supreme Court has upheld the authority of the United States

3

A-349

(4 of 10)
Case: 17-50267, 10/29/2019, ID: 11481134, DktEntry: 63-1, Page 4 of 6

Sentencing Commission to promulgate the Guidelines. Mistretta v. United States,
488 U.S. 361, 412 (1989); see Sentencing Reform Act of 1984, 18 U.S.C. §§ 3551
et seq.; 28 U.S.C. §§ 991–998. To the extent Gordon argues that the Commission
has not developed appropriate guidelines, see 28 U.S.C. § 994(c), he does not
identify which guidelines are inconsistent with the statute or how they affected his
sentencing.
Even if construed as a challenge to the substantive reasonableness of his
360-month term of imprisonment, Gordon’s argument is unavailing. See Gall v.
United States, 552 U.S. 38, 51 (2007). The district court carefully considered the
sentencing factors under 18 U.S.C. § 3553(a). Gordon’s within-Guidelines
sentence is substantively reasonable in light of those factors and the totality of the
circumstances. See United States v. Carty, 520 F.3d 984, 991–93 (9th Cir. 2008)
(en banc).
4.

We are not persuaded by Gordon’s evidentiary challenges. First,

Gordon alleges two violations of the Confrontation Clause at trial. We are not
convinced that either example involved a testimonial statement, but even assuming
there was an error, it was minor compared to “the overall strength of the
prosecution’s case.” Delaware v. Van Arsdall, 475 U.S. 673, 684 (1986). We are
satisfied beyond a reasonable doubt that any error did not contribute to the jury’s
verdict.

4

A-350

(5 of 10)
Case: 17-50267, 10/29/2019, ID: 11481134, DktEntry: 63-1, Page 5 of 6

Second, the district court did not err in restricting Gordon’s testimony to
relevant matters that would not mislead the jury. See United States v. Moreno, 102
F.3d 994, 998 (9th Cir. 1996); see also Fed. R. Evid. 402, 403.
Third, the district court did not abuse its discretion in admitting photos and
law-enforcement testimony about the gang’s propensity for violence, gang tattoos
and graffiti, and gang operations. Gordon argues that the evidence was unfairly
cumulative, but we afford “great deference” to the district court’s Rule 403 rulings.
See United States v. Hinkson, 585 F.3d 1247, 1267 (9th Cir. 2009) (en banc).
Any errors do not amount to cumulative error denying Gordon the right to a
fair trial. See United States v. de Cruz, 82 F.3d 856, 868 (9th Cir. 1996).
5.

Gordon argues that the district court erred in giving a jury instruction

based on Pinkerton v. United States, 328 U.S. 640, 647–48 (1946). Pinkerton
permits the imposition of liability for a substantive act, not for a RICO conspiracy
itself, which is a separate offense. See Iannelli v. United States, 420 U.S. 770, 777
(1975) (“Traditionally the law has considered conspiracy and the completed
substantive offense to be separate crimes.”); Pinkerton, 328 U.S. at 643–44.
Because Gordon was not charged with any racketeering acts, he argues that it was
error to instruct the jury during the verdict phase about his co-conspirator liability
for those acts. The instruction may have been unnecessary, but even assuming that
it was erroneous, it was not prejudicial. The Pinkerton instruction did not purport

5

A-351

(6 of 10)
Case: 17-50267, 10/29/2019, ID: 11481134, DktEntry: 63-1, Page 6 of 6

to instruct the jury on the elements of RICO conspiracy, and it did not supplant the
other instructions that correctly identified those elements.
6.

We decline to consider Gordon’s suggestion of ineffective assistance

of counsel because we do not ordinarily consider such a claim on direct appeal.
See, e.g., United States v. Moreland, 622 F.3d 1147, 1157 (9th Cir. 2010). While
we may make an exception when the record is “sufficiently developed” or “the
legal representation is so inadequate that it obviously denies a defendant his Sixth
Amendment right to counsel,” United States v. Daychild, 357 F.3d 1082, 1095 (9th
Cir. 2004) (citation omitted), neither of those conditions is present. Gordon may
raise his claims of ineffective assistance in a proceeding under 28 U.S.C. § 2255.
See United States v. McGowan, 668 F.3d 601, 606 (9th Cir. 2012).
AFFIRMED.

6

A-352

